United States Army Annual Financial Statement




                        The Cost of Freedom: A Challenge, Not a Choice.
Fiscal Year 2006 United States Army Annual Financial Statement

                Message from the Secretary of the Army                           iii
                Message from the Assistant Secretary of the Army
                    (Financial Management and Comptroller)                        v
                Message from the Assistant Secretary of the Army
                    (Civil Works)                                                vii
                Management’s Discussion & Analysis                                1
                General Fund – Principal Financial Statements, Notes, and
                   Supplementary Information                                    35
                Working Capital Fund – Principal Financial Statements, Notes,
                   and Supplementary Information                                113
                Civil Works Fund – Management’s Discussion & Analysis           161
                Civil Works Fund – Principal Financial Statements, Notes,
                    and Supplementary Information                               179
2006
 The Cost of Freedom: A Challenge, Not a Choice.
                                                                          Message From the Secretary of the Army
                                                                                                                        iii




November 13, 2006

Five years after the tragic events of September 11, and through ﬁve years of demanding combat operations in Iraq
and Afghanistan as well as operations in support of Homeland security and disaster relief, the Army remains the
preeminent landpower in the world today.

The all-volunteer force has answered the call to duty and put boots on the ground in nearly 70 countries around the
globe. In FY 2006, the active Army had its best recruiting year in almost a decade, while the National Guard had its
best year in thirteen years. In total, we recruited more than 175,000 young Americans.

Nearly 260,000 Soldiers are deployed and forward stationed around the world, ﬁghting and winning the Global War
on Terrorism with great courage, commitment and compassion. This long war is unlike any other we have fought.
Asymmetric and irregular, it requires our Army to continually adapt, change and ﬁnd innovative ways to defeat a
lethal enemy that remains dispersed, elusive and willing to kill large numbers of innocent civilians to achieve its
aims.

As we look to the future, our overall challenge remains twofold: to ﬁght and win a protracted war against global
terror and to continue forging the Army of the future. Our strategy is to build a Future Force through transformation
and modernization while sustaining our current global commitments.

We have made signiﬁcant progress in transitioning the operational Army into a brigade-based modular force. To
date, the Army has converted 73 percent of its brigades to the modular design—35 Active and 16 Army National
Guard Brigades of the 70 planned. This transformation is occurring in combination with our key modernization
programs, the Future Combat Systems and the revamping of Army aviation. The Army’s key ground modernization
program, the Future Combat Systems, will provide our forces signiﬁcant tactical and operational advantages.

Through Army business transformation, we will free up resources for the operational Army, including restationing,
resetting and growing the force, and delivering improved equipment to the Soldier in a timely manner. Our Lean
Six Sigma efforts will be particularly helpful in reaching this goal.

The Army requires extensive and sustainable ﬁnancial resources to execute its plan. As a nation, we must ensure
that the Army receives the funding it needs. Providing for our volunteer Soldiers must be a national priority and not
a matter of affordability. It is our responsibility to ensure that the men and women who wear the Army’s uniform
continue to be the best trained, best organized, best equipped, and best sustained military force in history. They
deserve nothing less.




                                               Francis J. Harvey
                                                Secretary of the Army
2006
 The Cost of Freedom: A Challenge, Not a Choice.
  Message From the Assistant Secretary of the Army (Financial Management and Comptroller)
                                                                                                                         v

November 13, 2006

Manning, equipping and training an Army at war demands effective and efﬁcient resource management.
To accomplish this, the Army must understand its past – how we have used previously appropriated funds; its
present – how we can meet current missions with current and budgeted resources; and its future – how requirements
will change.

To understand the past, the Army must have rigorous and disciplined accounting practices, strong ﬁnancial controls
and modern ﬁnancial systems. To meet the demands of the present, we must assure that budget requests are sound
and defensible, and that supplemental funding covers validated needs not recognized through the regular budgeting
process. Comprehending future possibilities may be the most difﬁcult of these tasks, demanding the ability to
predict how the Army must change in a rapidly evolving 21st century security environment.

During ﬁscal year 2006, the Army made signiﬁcant progress in each of these aspects of resource management.
Development of the General Fund Enterprise Business System (GFEBS) reached an important milestone, with the
system completing a successful technology demonstration involving real property inventory at Ft. Jackson, SC.
GFEBS is on track, with the full ﬁnancial system blueprint due to be completed in spring 2007 and deployment
of a fully capable system at Ft. Jackson expected in spring 2008. In 2006 the Army also tested the Funds Control
Module (FCM), new software that integrates logistics and ﬁnancial systems, allowing accelerated fund availability
veriﬁcation and better controls for order processing. With these and other technology initiatives, the Army is
improving its ﬁnancial management so that we can be better stewards of our resources.

2006 also presented some signiﬁcant ﬁnancial operations challenges. The annual appropriation was not received until
the end of the ﬁrst quarter and the ﬁnal supplemental appropriation arrived at the end of the third quarter, requiring
continuous adjustment of resources between competing demands in a dynamic operational environment. Army
ﬁnancial managers did an extraordinary job providing the budget justiﬁcations and reprogramming documentation
to Congress that supported the management decisions of an Army at war.

Perhaps one of the most noteworthy accomplishments in 2006 was our effort to better understand the true cost of
the Army. Following a careful analysis (which was vetted within and beyond the Defense Department), FM&C
ascertained that, to meet its current mission under current doctrine, the Army requires approximately $138 billion (in
FY 2008 dollars). We had known for some time that there was an imbalance between the Army’s missions, as laid
out in the National Defense Strategy, and the ﬁnancial resources available to fulﬁll them. This solid quantiﬁcation
of the strategy-resources mismatch should enable Army, DoD and congressional leaders to make better-informed
policy and ﬁscal decisions in the future.

These are challenging times for the Army. The pace of military operations and our simultaneous organizational
transformation continue to demand signiﬁcant personal sacriﬁce by the men and women of our all-volunteer force.
As ﬁnancial managers, we must make sure that they can accomplish their missions. That means leveraging Army
resources so that the force can meet the challenges of the 21st century security environment, showing American
taxpayers that they are getting the right return on their investment. I am conﬁdent that, during the coming year, we
will continue to make progress in building an Army ready to defend the nation anywhere, anytime.




                                                 Nelson M. Ford
                         Assistant Secretary of the Army (Financial Management and Comptroller)
2006
 The Cost of Freedom: A Challenge, Not a Choice.
                                           Message From the Assistant Secretary of the Army (Civil Works)
                                                                                                                        vii




During Fiscal Year 2006, the Army Corps of Engineers continued its long-standing tradition of serving the nation
in peace and war. Through its military program, the Corps continued with reconstruction work in the countries of
Iraq and Afghanistan in an effort to help bring security, stability and economic opportunity to the region. As the
ﬁscal year began, the nation’s attention was focused on the Gulf Coast and the city of New Orleans where, a month
earlier Hurricane Katrina, and later Hurricane Rita, caused devastating destruction. The Corps mounted a massive
year-long response, rebuilding stronger levees and ﬂoodwalls through its Civil Works program, and clearing debris,
repairing roofs, providing temporary housing, and restoring power through its leadership role under the Department
of Homeland Security’s National Response Plan. The events of the past year are a reminder of how critical the Army
Civil Works mission is to the safety, security and economy of our great nation.

As depicted in this annual report, much has been accomplished in the nine Civil Works business programs, and
much remains to be done. Over the past ten years, Corps ﬂood damage reduction projects have prevented damages
averaging approximately $20 billion per year. Corps projects provide hydroelectric power, an environmentally
sustainable, reliable and efﬁcient domestic energy source, and continuing effort is needed to bring reliability and
production rates up to industry standards. With the rapid growth in world trade, coastal harbors and inland waterways
are more vital to our nation’s economy than ever before. With an aging infrastructure and changes in the dimensions
of the vessels in the world ﬂeet, the Corps is faced with signiﬁcant challenges to reduce unscheduled closure times
and improve the reliability of the nation’s navigation systems. Through its aquatic ecosystem restoration program,
the Corps is making tremendous investments in restoring the natural values of degraded environments, such as the
Everglades.

The above examples provide a glimpse of the challenges that lie ahead for the Army’s Civil Works program. The
annual report addresses these and similar issues in the other Corps business programs. Investment in the Civil Works
program is based on performance, with objectives and measures that focus on opportunities to realize economic and
environmental beneﬁts with each investment increment.

The Army’s commitment to the Civil Works program is strong. The strategic goals are to sustain development of our
nation through integrated water resource management, to protect the environment and natural resources, to ensure
project performance, to reduce vulnerability to natural disasters, and to ensure that the Army Corps of Engineers
is a world-class public engineering organization. These goals will be achieved as the Corps continues to serve the
public in collaboration with non-Federal public and private partners, stakeholders and users of Civil Works projects
and programs across our great country.




                                            John Paul Woodley, Jr.
                                      Assistant Secretary of the Army (Civil Works)
Relevant and Ready Landpower in Service to the Nation
The Nation has entrusted the Army with preserving its peace and
freedom, defending its democracy, and providing opportunities for
its Soldiers to serve the country and personally develop their skills
and citizenship. Consequently, we are and will continuously strive to
remain among the most respected institutions in the United States.
To fulfill our solemn obligation to the Nation, we must remain the
preeminent land power on earth—the ultimate instrument of national
resolve; strategically dominant on the ground where our Soldiers’
engagements are decisive.


                                       The Honorable Francis J. Harvey, Secretary of the Army
                                                                               General Fund and Working Capital Fund
                                                                                                                                                                                                      1
Overview
The United States (U.S.) continues to face an unprecedented national security threat. Defending the nation in this
tough environment has placed tremendous demands on the Army. Yet, the all-volunteer force has demonstrated its
commitment to ﬁghting an adaptive enemy, while also meeting America’s obligations to traditional allies and our
homeland.

At the same time, the Army is proceeding with a sweeping transformation effort – implementing innovative and
efﬁcient business practices, modernizing equipment, revamping its organizational and operational structures, and
adapting tactics to meet a broad range of new asymmetric threats.

Sustaining the all-volunteer force is the most important strategic issue facing the Army today. The Army must
fully man, equip and train its units. The Army also must provide its Soldiers and their families a quality of life that
equals the quality of service they give the nation. Obtaining adequate, timely and consistent funding is therefore
essential.

Today’s appropriations, and ﬁscal guidance for the future, do not match the Army’s current operational and readiness
requirements, however. Without sufﬁcient resources, the Army cannot continue at the current pace and proceed with
transformation. Faltering in the current war is not an option, nor is delaying or abandoning activities that will enable
the Army to maintain its position as the world’s pre-eminent land power. It is important for all stakeholders – the




                                                                                                                           assessment in Tal Afar, Iraq.
                                                                                                                           Sgt. David Burns, from the 1st Brigade Combat Team, 1st Armored Division, conducts a checkpoint




                                                      General Fund and Working Capital Fund




                                                                   2006
Defense Department, the Ofﬁce of Management and Budget (OMB), the U.S. Congress and the American public
– to understand this strategy-resources mismatch and ﬁx the disparity that threatens the Army’s ability to meet its
mission.

Supplemental appropriations continue to be essential to the Army’s ability to execute its mission. This funding,
however, is not predictable or sustained, which creates inefﬁciencies. This funding challenge has required the Army
to constantly shift resources and incur increased overhead costs. In addition, accommodating the uneven ﬂow of
cash has drawn signiﬁcant amounts of time and attention from the senior leadership – human resources that could
be better spent otherwise. These challenges are discussed in detail in the Possible Future Effects of Existing Events
and Conditions section.

Despite funding challenges, the Army has accelerated its transformation momentum. We are proceeding apace with
training and education programs, based on recent combat experiences, to develop innovative and adaptive Soldiers
and leaders. The Army also is adapting its doctrine for training, ﬁghting and sustaining the force. The switch to
more capable, more ﬂexible and more deployable brigades is progressing rapidly, and the Army is increasing Soldier
and unit effectiveness and protection. The Army intends to keep moving forward in ﬁscal year (FY) 2007 and is
conﬁdent its success will continue, as long as proper support is made available.

Mission
The Army mission is to support the National Security and Defense strategies by providing well-trained, well-led,
and well-equipped forces to the combatant commanders. This mission encompasses the intent of the U.S. Congress,
as deﬁned in Title 10 of the U.S. Code, for the military to:

          Preserve the peace and security of, and provide the defense for, the U.S., the Territories, Commonwealths,
          and Possessions of the U.S., and any areas occupied by the U.S.;
          Support the national policies;
          Implement national objectives; and
          Overcome any nations responsible for aggressive acts that imperil the peace and security of the U.S.




                                                                                                                       snow-covered berm at the Grafenwoehr Training Area in Germany.
                                                                                                                       Soldiers from the 2nd Brigade Combat Team, 1st Infantry Division, take up defensive positions on a




                                                                    2 FY 2006 United States Army Annual Financial Statement
                                                                                       General Fund and Working Capital Fund
                                                                                                                                   3
This mission has remained constant throughout the 230-year life of the Army; however, the environment and nature
of conﬂict have changed dramatically over that same time, especially in the context of today’s Global War on
Terrorism (GWOT). New adversaries and the growth in asymmetric warfare have compelled the Army to transform
how it trains and equips its Soldiers, how those Soldiers are organized and how they ﬁght. This near-revolution
is progressing rapidly, and it must not slow or falter if the Army is to continue to meet the nation’s domestic and
international security obligations today and into the future.

Vision
The Army is committed to remaining the world’s preeminent land power – relevant and ready at all times to serve
the nation and to support our allies. The Army will continue to supply U.S. combatant commanders with the
forces necessary to defeat any adversary, in any situation, at any time. The Army therefore must fully train and
appropriately organize its forces; develop innovative and adaptive leaders; and design support structures appropriate
for the new global security environment.
Figure 1. Army Vision




                        ARMY VISION
                        The Army Vision is to remain the preeminent landpower on Earth—the ultimate instrument
                        of national resolve—that is both ready to meet and relevant to the challenges of the
                        dangerous and complex 21st century security environment.


      LED BY CAPABLE LEADERS
      Innovative, adaptive and confident in leading Soldiers and civilians. Leading change, building teams, confronting
      uncertainty, and solving complex problems.
                                                          LEADERS

                                                         SOLDIERS
                                                          Living the
      ORGANIZED INTO                           Warrior Ethos - on duty                                   SUPPORTED BY THE
      MODULAR FORCES                          protecting the Nation and                                          INSTITUTION
      Rapidly deployable,                       the society they serve.
      full-spectrum,                                                                                    Providing relevant and
      networked,                                                                                         ready land forces and
                              MODUL




                                                                                                ION




      adaptive, and more                                                                                     capabilities to the
      powerful. Enabling
                                                                                                  T




                                                                                                                   Combatant
                                                                                             TITU




      joint and
                                AR




      expeditionary                                                                                       Commanders while
                                                                                          NS




      operations with                                                                                  transforming. Leading
                                   FO




      interagency and                     CE     OU
                                                                                        EI




                                                    R CEN PIECE
                                      R




      multinational partners.               S              TER                          TH         change to create the future
      Executing protracted                                                                        Army. Providing the people,
      campaigns to protect freedom                                                               resources, quality of life, and
      and deter adversaries; if required,
      defeat our enemies, secure peace, and provide                                    infrastructure critical to the success of
      stability and reconstruction.                                                                             America’s Army.
                   Organization of the Army
                   The Army is a very large and complex organization, with more than 580,000 Soldiers on active duty; about 160,000
                   are deployed and another 108,000 are forward-stationed outside the U.S. These warﬁghters are supported by more
                   than 239,000 civilians, who are critical members of the institution at every level.

                   The Army is organized with the primary objective of supporting and sustaining the mobilization, training and
                   deployment of its Soldiers, anywhere in the world. The Headquarters, Department of the Army (HQDA) (Figure 2),
                   under the direction of the Secretary of the Army and the Chief of Staff, leads and manages the entire Army.
                   Figure 2. Headquarters, Department of the Army (HQDA)

                                                                                                                                    Chief of Legislative
                                                                                                                                          Liaison
                                                                                                                                                             Chief of Public
                                                                                                           The Inspector                                         Affairs
                                                                                                                             Army Auditor
                                                                                                             General           General
                                                                                                                                                                   Small &
                                                                                                                                                                Disadvantaged
                                                                                                               Admin.                                         Business Utilization
                                                                                                              Assistant


                                                                                                                                         SECARMY                         Executive
                                                   ASA Acquis            ASA                                                               USA                           Office the
     ASA                ASA
                                         ASA       Log. & Tech    Financial Mgmt. &       Chief Info    General      Director                                            HQDA
 Manpower &         Installs and
                                     Civil Works    [Mil Dep       Comptroller [Mil       Officer G-6   Counsel    Army Staff
Reserve Affairs       Environ
                                                   Acquis]***        Dep Budget]
                                                                                                                                              CSA                        (EOH)
                                                                                                                                             VCSA
                                                                                                                                                                        Chief of
                  ACS Installation      Chief of Engrs               G-8*                                               The Judge
     G-1*                                                  G-4*                 G-3/5/7        G-2                                                                     Chaplains
                     Mgmt.*                   **                    D,PA&E                                              Advocate
                                                                                                                         General
                                                                                                                                                Chief          The Surgeon
                                                                                                                              SMA               NGB             General **
              Responsible to ASA for advice and assistance within functional area
       *      DRU commanders
      **      Army Acquisition Executive
                                                                                                                                 Provost           Chief Army
     ***      Defined responsibilities to ASAs
                                                                                                                             Marshall General       Reserve
              Oversight
              Director Army Staff - synchronize, integrate                                                                                                 As of September 30, 2006




                   Effective October 1, 2006, the Army reorganized the command structure below the HQDA level. The purpose of
                   the reorganization, which eliminated the Major Army Commands, is to better support a leaner, more agile, modular
                   force.

                   The Army organizational structure consists of two interdependent pieces: (1) the warﬁghting, operational Army;
                   and (2) the institutional Army, which supports those operational forces by providing the training, facilities and
                   equipment necessary to prepare and sustain Soldiers for their mission.

                   The operational Army provides the land power capabilities for the combatant commander. Within the operational
                   Army, the transition from a division-centric warﬁghting force to a brigade-centric force continues. At the heart
                   of this change is the modularization and standardization of Army brigade combat teams (BCT), a process that is
                   essential to the development of a more rapidly deployable, ﬂexible and powerful force.

                   Viewed by its constituent elements, the Army can be separated into the active and reserve components.

                   The active component consists of full-time Soldiers assigned to the operational and institutional organizations that
                   perform day-to-day Army missions. The U.S. Congress annually reviews and mandates the number of Soldiers that
                   the Army may maintain.




                                                                                                                  4 FY 2006 United States Army Annual Financial Statement
                                                     General Fund and Working Capital Fund
                                                                                                  5




”The metaphor of the racecar to describe the difference
between the operational army and the institutional army, I think,
is a good one. The pit crew would be the institutional army.
It’s those things that stand behind the operational force and
enable it to be properly trained, properly equipped, properly
recruited, properly manned, and properly structured.”

                    LTG N. Ross Thompson, III, Army Director of Program Analysis and Evaluation
The reserve component consists of the Army National Guard (ARNG) and the U.S. Army Reserve (USAR). The
ARNG has two missions: federal and state. Its federal mission is to provide trained and ready forces for wartime,
national emergencies and other requirements as necessary. Its state mission is to train for, and respond to, domestic
emergencies and other missions as required by state law. Unless federally mobilized, ARNG units are commanded
by their state executive, usually the governor.

The USAR is the primary federal reserve force of the Army. The USAR provides specialized units and resources to
support the deployment and sustainment of Army forces around the globe. In addition, the USAR is the main source
of individual Soldiers to augment headquarters staff and to ﬁll vacancies in the active component. Throughout
FY 2006 and several prior ﬁscal years, the Army experienced unprecedented high levels of reserve component
activation and deployment. This, combined with brigade modularization, marks the present as the era of most
profound change in the Army since World War II.

Performance Goals, Objectives and Results
Our nation remains at war and engaged in a long struggle of continuously evolving conﬂict against learning,
adaptive enemies. The GWOT requires us to be heavily engaged in two distinct theatres – Iraq and Afghanistan
– while maintaining a geographically broad presence in dozens of other nations. The Army anticipates sustaining
this level of commitment for the foreseeable future. In addition, the Army’s role in the homeland security mission,
with more than 9,000 supporting operations in the continental U.S., is greater than at any other time, except the days
immediately following the terrorist attacks of September 11, 2001.

Within this context, the Army continues to pursue comprehensive transformation in order to realize its vision
of providing the nation dominant land power that is relevant and ready to meet the challenges of a dangerous
and complex 21st century security environment. This transformation is framed in terms of the broader defense
transformation effort and addresses the needs of the Joint Force as well as the needs of the Army.

In the spring of 2005, the Army published an annex to the Department of Defense Annual Report to the President
and Congress. It serves as the statutory performance plan for FY 2006, required by the Government Performance
and Results Act (GPRA) of 1993. This annex, and the GPRA, use the strategy set by the Secretary of the Army as
the context in which to examine what the Army ‘bought’ with the resources entrusted to it by the American people.

The four overarching strategies laid out by Army leadership for FY 2006 are supported by 19 strategic initiatives
(Figure 3). The nineteenth initiative, Securing Financial Resources and Legislative Authorities to Meet Requirements,
acts as the foundation without which the Army cannot fully execute the other initiatives.

In FY 2006, the Army conducted a detailed analysis to validate the force structure cost associated with accomplishing
the missions set forth in the Ofﬁce of the Secretary of Defense (OSD) Quadrennial Defense Review (QDR). The
analysis determined that, in order to support fully the QDR, the Army requires basic appropriations of $138 billion
in FY 2008 dollars, a ﬁgure that is 30 percent above historical funding levels. The potential impact of this shortfall
is discussed in detail in the Possible Future Effects of Existing Events and Conditions section.

The Army Strategy Map has continued to evolve since our GPRA plan was written in February 2005; some initiatives
were removed while new ones were added. Army programs are aligned to the current 19 initiatives. The following
section discusses FY 2006 Army strategy, goals and program performance results.

Strategic initiatives are guiding the Army through the transformation of the operational force and the streamlining of
business processes. Most of these initiatives have mature and actionable performance measures; current results are
presented below. The Army is working to ensure that it has effective performance measures for all current strategic
initiatives.



                                                                     6 FY 2006 United States Army Annual Financial Statement
                                                                                          General Fund and Working Capital Fund
                                                                                                                                  7
Figure 3. Army Strategy Map


      Army Vision: Relevant and Ready Landpower in Service to the Nation

             Army Mission: To Provide Necessary Forces and Capabilities to the Combatant Commanders
                             in Support of the National Security and Defenst Strategies

                Provide Relevant and          Train and Equip               Sustain an                Provide the
                Ready Landpower for         Soldiers to Serve as       All-Volunteer Force        Infrastructure and
                  the 21st Century          Warriors and Grow         Composed of Highly         Support to Enable the
     Ends




                                                                                                                          Ends
                Security Environment         Adaptive Leaders         Competent Soldiers           Force to Fulfill its
                                                                      that are Provided an        Strategic Roles and
                                                                      Equally High Quality             Missions
                                                                              of Life




                Support Current Global                                                             Adjust the Global
                                               Reinforce Our
                   Operations with                                    Recruit and Retain the      Footprint to Create
                                                Centerpiece:
                 Relevant and Ready                                    All-Volunteer Force          “Flagships of
                                            Soldiers as Warriors
                     Landpower                                                                       Readiness”



                    Build a Campaign
                 Quality, Modular Force                                                           Implement Business
                       with Joint &            Train Soldiers          Care for Soldiers and        Transformation
                      Expeditionary                                       Army Families                Initiatives
                       Capabilities
                for Today and Tomorrow


                                                                                                     Develop the
     Ways




                                                                                                                          Ways
                 Develop LandWarNet          Enhance Combat            Improve Soldier and           LandWarNet
                     Operational             Training Centers            Family Housing              Institutional
                     Capabilities
                                                                                                    Infrastructure




                    Execute Major             Grow Adaptive                                       Enhance Logistics
                 Acquisition Programs            Leaders                                             Readiness




                   Restructure Army          Equip our Soldiers                                   Enhance Strategic
                       Aviation                                                                    Communications




                                                            Transformation
     Means




                                                                                                                          Means




                           Secure Financial Resources and Legislative Authorities to Meet Requirements
8 FY 2006 United States Army Annual Financial Statement
                                                               General Fund and Working Capital Fund
                                                                                                            9
                              Army Strategy
    Provide Relevant and
    Ready Landpower for       Provide Relevant and Ready Land Power for the 21st
      the 21st Century
    Security Environment      Century Security Environment
                              The initiatives which support this ﬁrst overarching strategy are
                              interrelated and include:

                                          Support current global operations with relevant and ready
    Support Current Global
       Operations with                    land power;
     Relevant and Ready
         Landpower                        Build a campaign-quality modular force with joint and
                                          expeditionary capabilities for today and tomorrow;
        Build a Campaign
     Quality, Modular Force               Develop LandWarNet operational capabilities;
           with Joint &
          Expeditionary
           Capabilities                   Execute major acquisition programs; and
    for Today and Tomorrow
                                          Restructure Army aviation.
     Develop LandWarNet       The Army is simultaneously ﬁghting today’s battles and remolding the
y




         Operational
         Capabilities         operational force into smaller, self-sufﬁcient tactical units (the modular
                              force). As part of the process, the Army is rebalancing critical skill sets
                              to ensure that all units have the knowledge and capabilities required
                              to succeed on the battleﬁeld. Through LandWarNet, tactical units
        Execute Major
     Acquisition Programs     will attain improved situational awareness via voice, video and data
                              transmissions that are pushed to the individual Soldier. In addition,
                              these units will be equipped with Future Combat Systems technology
                              to improve lethality and survivability. The Army also is modernizing
       Restructure Army
           Aviation           its air capabilities to reduce maintenance, increase survivability and
                              improve readiness.


                              Support Current Global Operations with Relevant and Ready
                              Land Power
                              The pace of operations in the new security environment presents a
                              number of signiﬁcant force management challenges to the Army. Of
                              the approximately 580,000 Soldiers presently serving on active duty
                              – 505,000 in the active component and 75,000 mobilized ARNG and
                              USAR Soldiers – about 160,000 are deployed to support operations
                              in Iraq, Afghanistan and other theaters (85,000 active component,
                              45,000 ARNG and 30,000 USAR).

                              Repeated deployments affect recruiting and retention, and they have
                              a very real impact on our ability to care for our Soldiers and their
                              families. To meet today’s challenges and to better position troops for
                              the future, the Army is pursuing numerous initiatives that will reduce
                              force management risk. By developing the Army Modular Force, we
                              will signiﬁcantly increase the pool of rotating units. By employing
                              the Army Force Generation Model (ARFORGEN), we will reduce the
                              stress on the force. The results will be greater stability, unit cohesion
                              and readiness, and less uncertainty for families.
Build a Campaign-Quality Modular Force with Joint and Expeditionary Capabilities for Today and
Tomorrow

To maximize force effectiveness and strategic ﬂexibility, the Army is reorganizing to a modular, brigade-based
structure that will:

     (1) Increase the number of BCTs available to meet operational commitments while maintaining combat
         effectiveness that is equal to or better than that of the previous division-based force;
     (2) Create brigade-based combat and support formations with common organizational designs that can be
         easily tailored to meet the varied demands of the geographic combatant commanders, thereby reducing
         joint planning and execution complexities;
     (3) Redesign organizations to perform as integral parts of the Joint Force, making them more effective
         across the range of military operations and enhancing their ability to contribute to joint, interagency and
         multinational efforts.
The re-organized BCTs consist of 3,500 to 4,000 Soldiers and are organized and trained the way they will ﬁght. The
BCTs are more robust, require less augmentation, and are standardized in design, which increases interoperability
and eases planning and logistical support requirements. These new modular formations also operate effectively in
joint, interagency and multinational environments, and enhance joint concepts for battle command, ﬁres, logistics,
force projection, intelligence, and air and missile defense. BCTs will be able to take full advantage of expanding
joint training opportunities.

To man the brigade-based modular force, the Army intends to increase its operational end-strength. Congress has
authorized the Army to add 30,000 Soldiers to the active component (AC), for a total of 512,400.

As the Army creates modular capabilities, it also is realigning the active and reserve components. A different
equilibrium between the two components is needed to create a depth of forces that can support sustained operations
while providing predictability for Soldiers and families. Reality dictates that the reserve component (RC) cease to
be a strategic reserve and instead be integrated as an operational reserve. Restructuring initiatives also will address
low density/high demand capabilities and the redistribution of uniformed personnel from the institutional force to
the operating force.

Additionally, the Army is rebalancing unit capabilities and critical skill sets to ensure consistency with organizational
restructuring, to relieve stress on low density/high demand units, and to improve unit readiness and deployability.
The current AC/RC rebalancing program includes 73,000 skill set changes and elimination of 43,000 RC spaces that
represent excess structure. By the end of FY 2006, the Army had redistributed 39,000 slots and eliminated 18,000.

The ARFORGEN process leverages modular unit designs and operational cycles to create a sustained deployment
posture of operationally ready units in predictable patterns while retaining the capacity to surge combat power for
major operations. The process enables commanders to identify deployment windows and manage readiness and
training of forces accordingly. As the Army grows from 48 to 70 BCTs, the ARFORGEN will lengthen Soldiers’
time at home station between deployments.

By the end of FY 2006, the active component had transformed 31 of the 42 programmed BCTs to a modular design.
A transformed BCT is deﬁned as a unit that has reorganized and is manned, trained and equipped within resource
constraints. An additional four brigades began the transformation process in FY 2006. It can take up to 12 months
for active-component heavy and infantry brigades to complete the transition, and as long as 24 months for Stryker
brigades.

The ARNG began transforming in FY 2005 with an accelerated plan that allows early reorganization, manning and
training under the new BCT design. Transformation for an ARNG BCT can take as long as 48 months. By the

                                                                     10 FY 2006 United States Army Annual Financial Statement
                                                                                  General Fund and Working Capital Fund
                                                                                                                                                                           11
end of FY 2009, the ARNG will have completed seven BCTs,             Table 1. BCT Transformation Summary
and another nine will be ﬁnished by FY 2010. The overall                                                                         FY 2004         FY 2005         FY 2006
transformation plan is on track to achieve a combined total of        AC Transformed                                                  2              18              31
70 BCTs, 42 in the active component and 28 in the ARNG, by
                                                                      ARNG Transformed                                                0               0               0
FY 2013. Table 1 provides a summary of BCT transformation.
                                                                           Total Transformed*                                         2              18              31
                                                                      AC Transforming                                                11               8               4
Develop LandWarNet Operational Capabilities
                                                                      ARNG Transforming                                               0               7              16
LandWarNet (Figure 4) is a combination of infrastructure
                                                                           Total Transforming**                                      11              15              20
and services that extends voice, video and data transmissions
                                                                      Total Transformation                                           13              33              51
to the edges of tactical formations. The goal is to push these
                                                                     *Transformed means the unit has completed its initial reorganization and re-equipping to a modular
capabilities deeper and deeper into the modular Army force           design within resource constraints, is participating in the ARFORGEN process, and may be used
– to brigades, battalions, companies and individual Soldiers. The    against a requirement.

result will be improved operational cycle times, unprecedented       ** Transforming means the unit is still undergoing initial reorganization and re-equipping to a modular
                                                                     design within resource constraints.
levels of ﬂexibility and agility for logistical support, and wider
availability of actionable intelligence and situational awareness.       Figure 4. LandWarNet
LandWarNet’s beneﬁts will echo across the full spectrum
of conﬂict, including lending unprecedented support to
natural disaster response.

In FY 2006, within the operational LandWarNet
initiative, the Army equipped divisions with
a state-of-the-art satellite and Internet
Protocol (IP) communications
system, down to the maneuver
battalion level. The Army also
implemented Teleport Generation
1 capabilities; achieved Everything
over Internet Protocol (EOIP)
implementation in Joint Special
Operations Command; equipped
seven active divisions with EOIP
as well as RC units deploying to
Operation Enduring Freedom (OEF)
and Operation Iraqi Freedom (OIF);
and implemented Active Directory
on 99 percent of the Army’s portion
of the Non-Classiﬁed Internet Protocol
Router Network.


Execute Major Acquisition Programs
The Army’s overall capability will be further enhanced
through a strong Future Combat Systems (FCS) program.
FCS is the key modernization program for the Army. When ﬁelded, the FCS-equipped BCT will represent the ﬁrst
full modernization of our ground forces in more than four decades. In the interim, the FCS program is developing
and ﬁelding spin-off technologies to current forces. Simply put, the FCS program is the fastest and surest way to
modernize the Army.

The FCS BCT (Figure 5) consists of a family of integrated manned and unmanned systems that provide mobile,
networked command and control capabilities, autonomous robotic systems, precision direct and indirect
                ﬁres, organic sensor capabilities, and adverse-weather reconnaissance, surveillance, targeting and acquisition.
                In FY 2006, the Army met developmental milestones for the FCS program on schedule and within budgeted costs.
                Figure 5. Future Combat Systems

                 FCS Brigade Combat Team...18 Integrated Systems + 1 Network +1 Soldier
                                              Manned Systems                                                       Unmanned Aerial Vehicles




                 Infantry Carrier             Command and                                           Class I         Class II         Class III      Class IV
                 Vehicle (ICV)                Control Vehicle (C2V)




                                                                                                                            Unattended Munitions
                                                                                                                     Unattended   NLOS LS                         Intelligent
                                                                                                                     Ground                                       Munitions
                                                                                  Sensors                            Sensors                                      Systems
                                              Reconnaissance and                  Battle Command
                 Mounted Combat               Surveillance Vehicle (RSV)          SOSCOE
                 System (MCS)                                                     Transport




                                                                                                          Unmanned Ground Vehicles
                 Non-Line of Sight
                 Cannon (NLOS-C)              Non-Line of Sight Mortar (NLOS-M)


                                                                                                                                    Small
                                                                                                                                    (Manpackable) UGV

                                                                                                                ARV Aslt
                                                                                             ARV RSTA
                 FCS Recovery and
                 Maintenance Vehicle (FRMV)
                                              Medical Vehicle                                 Armed Robotic
                                              Treatment (MV-T)                                Vehicle (ARV)
                                                                              Medical Vehicle                   ARV-A (L)           MULE                    MULE
                                                                              Evacuation (MV-E)                                     (Countermine)           (Transport)

                                                                                                                                                        As of September 1, 2006




                     Restructure Army Aviation
                     The Army continues to transform its aviation structure to develop modular, capabilities-based forces that are
                                                                    optimized to operate in a joint and expeditionary environment.
Table 2. Restructuring Army Aviation
                                                                    Over the next six years the Army plans to procure more than
                                     FY 2005   FY 2006  FY 2006     1,000 new rotary and ﬁxed-wing aircraft, using funds made
                                     Delivered  Goals   Delivered
                                                                    available through termination of the Comanche program. The
 # of Aircraft Reset (Mix of OEF/      626       506      547
 OIF Returning Aircraft)                                            Army also will modernize aircraft sensors, execute safety and
 MH-47G Produced                        12        13       16       reliability modiﬁcations, and add aircraft survivability equipment.
                                                                    This effort will reduce maintenance costs, increase survivability
 UH-60 Recapitalization                 26        26       25
                                                                    and improve readiness rates. Key components of the aviation
 CH-47 Recapitalization                  2        6         2
                                                                    modernization plan include accelerating modernization of reserve
 AH-64 Recapitalization                152       144      144       component aviation and unmanned aerial vehicle programs, as
 Combat Aviation Brigades (CAB)          2        5        11       well as pushing forward the development of a common cockpit
 All Components
                                                                    for cargo and utility aircraft.




                                                                                                          12 FY 2006 United States Army Annual Financial Statement
General Fund and Working Capital Fund
                                        13




                                             A soldier awaits UH-60 Black Hawk helicopters to extract his Soldiers after an early morning raid on Bayji Island, Iraq.
14 FY 2006 United States Army Annual Financial Statement
                                                                              General Fund and Working Capital Fund
                                                                                                                                                                 15
                             Army Strategy
  Train and Equip
Soldiers to Serve as         Train and Equip Soldiers to Serve as Warriors and
Warriors and Grow
 Adaptive Leaders            Grow Adaptive Leaders
                             The ﬁve initiatives in this overarching strategy include:

                                             Reinforce our centerpiece – Soldiers as warriors;
                                             Train Soldiers;
   Reinforce Our
    Centerpiece:
Soldiers as Warriors                         Enhance the combat training centers;
                                             Grow adaptive leaders; and
                                             Equip our Soldiers.
   Train Soldiers

                             Reinforce Our Centerpiece: Soldiers as Warriors
                             Soldiers are the centerpiece of our Army. No matter how much the
                             tools of warfare improve, it is the Soldier who must accomplish the
 Enhance Combat
 Training Centers            mission. The Soldier remains the ultimate combination of sensor and
                             shooter.

                             Mental and physical toughness underpin the beliefs embraced in the
  Grow Adaptive              Soldier’s Creed and must be developed within all Soldiers — without
     Leaders                 regard to their specialty, their unit or their location on the battleﬁeld.
                             Last year, the Army implemented the additional rigor mandated by the
                             Chief of Staff’s Warrior Ethos concept. The new program of instruction
                             in basic combat increases the Soldier’s warﬁghting capability through
Equip our Soldiers
                             enhanced training on individual tasks and battle drills. The Army
                             continues to modify these tasks and drills to ensure that training is
                             relevant to today’s combat environment. The Army also is proceeding
                             with the ofﬁcer education system started in FY 2005, known as the
                             Basic Ofﬁcer Leader Course II. This program focuses on critical
                             warrior tasks for all newly commissioned ofﬁcers. The Intermediate
                             Level Education program replaced the Command and General Staff
                             Ofﬁcer Course, expanding the Army’s ability to educate 100 percent of
                             its mid-grade ofﬁcers, with a focus on their speciﬁc career paths.

                             Train Soldiers
                             In FY 2006, the Army provided trained and ready forces to support
                             commanders around the globe as well as critical homeland defense
                             missions. To make sure Soldiers were combat-ready in FY 2006, the
                             Army provided an appropriate mix of live, virtual and constructive
                             training. The active and reserve components fully executed their
                             ground and air training plans (Table 3), which included actual miles
                             driven and hours ﬂown, as well as virtual miles associated with the
                             use of simulators.

                       Table 3. Ground and Air OPTEMPO (Active)
                                                                     FY 2002         FY 2003          FY 2004         FY 2005          FY 2006         FY 2006
                                                                                                                                         Goal           Actual
                        Ground OPTEMPO (Mileage)                        944            1,071           1,512             991              899            1,058
                        Air OPTEMPO (Flight Hours)                     13.1             15.1            17.4             18.4            13.1             21.6
                        NOTE: Actual FY 2006 amounts are estimates based on execution through August 2006. Actual execution includes total execution (Home Station
                        and Contingency Operations) as reported by Army units using Standard Army Management Information Systems.
                   Enhance Combat Training Centers
                   The Combat Training Centers (CTC) provide realistic joint and combined-arms training that approximates actual
                   combat, according to Army and Joint doctrine. The CTCs are at the core of the Army’s collective training strategy
                   and have dedicated resources beyond those available at home-station training sites. The CTCs have drastically
                   changed their training approach to better prepare Soldiers for the demands of operations in Iraq and Afghanistan,
                   using improved facilities, civilians on the battleﬁeld and realistic scenarios. Training is speciﬁcally tailored to prepare
                   units for the conditions in the combat zones to which they will deploy. While the CTCs have retained the capability
                   to return to the high-intensity unit training needed for other potential theaters of war and the new modular brigades,
                   the current focus has shifted to counter-insurgency operations and lessons from combat in Iraq and Afghanistan.
                   The training environment emphasizes rapid change and adaptation to current activities. The complex, event-driven
                   scenarios challenge the BCT to execute multiple, simultaneous missions that include integrated enablers from the
                   Army and the Joint community.


                   Grow Adaptive Leaders
                   The contemporary operational environment has proven that our military leaders must possess skills beyond those of
                   pure tactical war ﬁghting. They must become pentathletes: strong multi-skilled leaders who are able to transition
                   between complex tasks with relative ease, to think strategically and creatively, and to build teams. They must be
                   able to negotiate, be culturally astute, have basic foreign language abilities and be capable of conducting information
                   and stability and reconstruction operations. The Army is committed to:

                                Incorporating cultural awareness training and education into all levels of professional military education;
                                Developing expertise in counterinsurgency operations among Soldiers and leaders from the tactical to
                                strategic level; and
                                Encouraging language and cultural training and education throughout the Army – in schools, on line,
                                through self-development and at the CTCs.
Table 4. Number of NCO’s and Officers trained in leadership courses in FY 2006         Our leaders, both military and civilian, also
                      Warrior       Basic     Advanced      Sergeant’s     Intermediatemust be effective in managing, leading and
                                                                                          Senior
                      Leader        NCO         NCO           Major            Level      Service
                      Course       Course      Course        Academy         Education changing large organizations. They need
                                                                                          College

 2006 Trained        42,275   44,220    14,801     1,307        872        1,541
                                                                                       to be skilled in governance, statesmanship
                                                                                       and diplomacy. They must be conﬁdent and
                   competent decision makers, who are prudent risk takers, innovative, adaptive and accountable. They must be
                   empathetic and positive. And, as always, our leaders must set the standard for integrity and character.

                   The Army is keenly aware of the valuable contributions of our civilians in supporting the National Military Strategy.
                   The Civilian Leader Development mission is to “…ensure the Army provides training, education and operational
                   experiences to develop leader competencies and enhance capabilities of Army civilians in support of Soldiers,
                   the Army, and the nation.” To accomplish this, a new training and educating paradigm is required. As a result,
                   the Civilian Leader Development Program is being revamped into a training and education system – the Civilian
                   Education System (CES) – that is similar to the military leader development system. The CES will focus on areas
                   derived from the Ofﬁce of Personnel Management leadership competencies and competencies identiﬁed by the
                   Center for Army Leadership. CES, which will be implemented in January 2007, will provide leader development
                   training and education that support civilian leaders’ career path requirements. The Army also is committed to
                   promoting lifelong learning and self-development.




                                                                                                    16 FY 2006 United States Army Annual Financial Statement
                                                                          General Fund and Working Capital Fund
                                                                                                                    17
Equip Our Soldiers
Our Soldiers rely on and deserve the very best force protection and mission-essential equipment we can provide.
And they play a large role in setting Army requirements. In 2002, Soldiers alerted the institutional Army to the
pressing need for different systems and materiel more suited to the GWOT areas of operation, such as desert and
mountain terrain and climate, urban street ﬁghting and sniper ﬁre. Soldiers can also take credit for identifying
requirements for new forms of protection, lighter-weight gear and methods to carry large supplies of ammunition.

The Rapid Fielding Initiative (RFI) was developed to enhance soldier warﬁghting capabilities by using commercial-
off-the-shelf technology, rather than waiting for acquisition programs, to address Soldier requirements and
shortfalls. To date, more than 750,000 Soldiers – including approximately 350,000 in 2006 – have beneﬁted from
the enhancements provided by RFI equipment. The Army will ﬁeld RFI items to the remainder of the operating
force by the end of September 2007, for a total of more than one million Soldiers.




                                                                                                                    Army recruits assume defensive positions en route to a live-fire exercise during basic combat training at Fort Jackson, S.C.
18 FY 2006 United States Army Annual Financial Statement
                                                                  General Fund and Working Capital Fund
                                                                                                                            19
                         Army Strategy
      Sustain an
 All-Volunteer Force     Sustain an All-Volunteer Force Composed of Highly
Composed of Highly
Competent Soldiers       Competent Soldiers That Are Provided an Equally High
that are Provided an
Equally High Quality     Quality of Life
        of Life
                         The initiatives in this overarching strategy include:

                                     Recruit and retain the all-volunteer force;
Recruit and Retain the
 All-Volunteer Force                 Care for Soldiers and Army families; and
                                     Improve Soldier and family housing.

Care for Soldiers and
                         Recruit and Retain the All-Volunteer Force
   Army Families         While the recruiting environment is challenging, the Army will
                         continue to recruit highly qualiﬁed Soldiers. Our goal was for
                         high school diploma graduates (HSDGs) to comprise no less than
 Improve Soldier and
                         90 percent of recruits. Typically, high school graduates are at lower
   Family Housing        risk for attrition and, therefore, are the most desirable group from
                         which to draw. Although we achieved only 81 percent HSDGs, ﬁrst-
                         term attrition is declining and training base attrition is at an historic
                         low – both positive signs that we are recruiting, training and retaining
                         a highly qualiﬁed force (Table 5).

                         Table 5. Recruiting Quality – Percent High School Diploma Graduates (HSDG)
                                                          FY 2003        FY 2004        FY 2005       FY 2006
                          HSDG Goal                          90             90             90           90
                          HSDG Actual                        94             92             87           81


                         The Army has continued to aggressively reshape recruiting resources
                         for all components in order to address our recruiting challenges.
                         The FY 2006 budget provided more than $1.5 billion for recruiting
                         programs. We thus were able to increase the number of recruiters. We
                         also raised the maximum enlistment bonus from $20,000 to $40,000
                         for active component Soldiers, and from $10,000 to $20,000 for reserve
                         component recruits. The Army College Fund incentive was increased
                         to $72,900 for qualiﬁed active component applicants. Additionally,
                         we created new initiatives, to include the Recruiter Incentive Pay
                         and Referral Bonus. However, the recruiting environment has not
                         improved, and FY 2007 will require the same (or higher) level of
                         resources and support as FY 2006.
                         Table 6. Recruiting
                                                           FY 2003        FY 2004         FY 2005       FY 2006   FY 2006
                                                            Actual         Actual          Actual         Goal     Actual
                          Active Army                      74,132          77,587          73,373        80,000   80,635
                          Army Reserve                     27,365          21,292          19,400        25,500   25,378
                          Army National Guard              54,202          49,210          50,219        70,000   69,042


                         Due to the GWOT, several special skills are in high demand. To ﬁll
                         them, it has been necessary to augment our recruiting and retention
Table 7. Active Component End-Strength Within 2%                                                                               incentives. For example, to retain quality
                                          FY 2003                FY 2004                FY 2005                   FY 2006      Special Forces Soldiers, the Army instituted a
 Goal                                     480,000                482,400                502,400                   502,400
                                                                                                                               bonus program that pays up to $150,000 for
                                                                                                                               senior non-commissioned ofﬁcers to remain in
 Congressional Baseline                      N/A                     N/A                512,400                   512,400
                                                                                                                               the service. Also, in order to retain retirement-
 Actual                                   499,301                499,543                492,728                   505,402      eligible Special Forces Soldiers who have more
 % Delta                                   +4.0%                  +3.6%                   -2.0%                   +0.6%        than 25 years of service, the Army is developing
 Performance Measure: The number of Soldiers on active duty at the end of the year.                                            an Assignment Incentive Pay program.

Table 8. Selected Reserve (USAR and ARNG) End-Strength Within 2%                                                               Beyond Special Forces, the Army has boosted
                                         FY 2003                 FY 2004                FY 2005                   FY 2006
                                                                                                                               reenlistment bonuses to a maximum of $40,000
                                                                                                                               for those not in high-demand specialties. These
 Goal                                    555,000                 555,000                555,000                   555,000
                                                                                                                               programs alone are not enough, however.
 Actual                                  562,981                 547,049                522,182                   536,263      They must be matched with a commensurate
 % Delta                                  +1.4%                   -1.4%                  -5.9%                    -3.4%        commitment to Soldiers’ families and provide
 Performance Measure: The number of Soldiers in the USAR and ARNG at the end of the year.                                      an excellent quality of life.

Table 9. Active and Reserve Component Retention                                                                                Recruiting Soldiers who are conﬁdent,
                                                                                                                               adaptive, competent and able to handle the
                                         FY 2003           FY 2004            FY 2005          FY 2006             FY 2006
                                          Actual            Actual             Actual            Goal               Actual     full complexity of 21st century warfare in this
 Active Army                             54,151             60,010            69,512            64,000             67,307
                                                                                                                               combined, joint, expeditionary environment
                                                                                                                               is highly competitive and will continue to be
 Army Reserve                            13,749             16,330            16,485            17,712             18,223
                                                                                                                               very challenging. We will continue to develop
 Army National Guard                     52,832             47,012            33,804            34,875             41,083      and implement programs to address those
 Performance Measure: Measures the number of Soldiers reenlisted during a given FY against the published goals.
                                                                                                                               challenges.




                                                                                                                                                                                   A Soldier with his sniffer dog during Operation Medusa in Mosul, Iraq.




                                                                                                                             20 FY 2006 United States Army Annual Financial Statement
                                                                             General Fund and Working Capital Fund
                                                                                                                         21
Care for Soldiers and Army Families
To retain our Soldiers and meet the needs of their families, we need to care for them with exceptional well-being
programs. The Army is committed to attaining a quality-of-life for our people that matches the quality of their
service. To better fulﬁll this promise during war, we have initiated programs to improve spouse employment, to ease
the transition of high school students during moves and to extend in-state college tuition rates to military families.
We continue to improve healthcare, childcare, youth programs, schools and facilities for our families. The Army
also is concerned about our Soldiers’ ﬁnancial health and in FY 2006 completed a multiyear initiative to eliminate
Soldiers’ out-of-pocket housing expenses.

To improve unit cohesion and readiness, while reducing unit turbulence and uncertainty for families, the Army is
changing how we man our units. Under Force Stabilization, the Army plans to keep Soldiers in each assignment
longer and will synchronize their assignments to BCT rotational schedules. Stabilization will create more deployable,
combat-capable units while improving predictability and quality of life for Soldiers and their families. Soldiers and
their families will be able to build deeper roots in their communities and enjoy better opportunities for spouse
employment, continuity of healthcare and schooling, and access to stronger support networks that enhance well-
being


Improve Soldier and Family Housing
Housing programs are essential to demonstrating our concern for Soldiers and their families. In concert with the
private sector, the Army continues to focus considerable effort on the Residential Communities Initiative and the
Barracks Modernization Program. Congressional support for these initiatives has had a dramatic effect on improving
the quality of life for our Soldiers and their families.

Our housing programs are on track to eliminate inadequate dependent housing in the United States by FY 2007
and worldwide by FY 2008, through privatization, construction and divestiture of units. In FY 2006, we privatized
12,000, bringing the total to 71,500. The Army also modernized 5,600 barracks spaces.
22 FY 2006 United States Army Annual Financial Statement
                                                         General Fund and Working Capital Fund
                                                                                                     23
                         Army Strategy
     Provide the
 Infrastructure and      Provide the Infrastructure and Support to Enable the
Support to Enable the
  Force to Fulfill its   Force to Fulfill its Strategic Roles and Missions
 Strategic Roles and
      Missions           The initiatives in this overarching strategy include:

                                     Adjusting the global footprint to create “Flagships of
                                     Readiness”;
  Adjust the Global
 Footprint to Create
   “Flagships of
                                     Implementing business transformation initiatives;
    Readiness”
                                     Developing LandWarNet institutional infrastructure;
                                     Enhancing logistics readiness; and
Implement Business
  Transformation                     Enhancing strategic communications.
     Initiatives


                         Adjust Global Footprint to Create “Flagships of Readiness”
    Develop the          Collectively, our installations are an essential component in maintaining
    LandWarNet
    Institutional        our Army. They are the platforms from which we rapidly mobilize and
   Infrastructure
                         deploy military power. They play a vital role in training the force
                         and in reconstituting it upon return from deployment. They also serve
                         as a sophisticated reach-back capability for the deployed commander
 Enhance Logistics
    Readiness
                         seeking information and other support. Equally important, installations
                         sustain our military families.

                         As part of the Army’s plan to create installation “Flagships of
 Enhance Strategic       Readiness”, two rail infrastructure projects were scheduled for
  Communications
                         FY 2006. One was completed, and the other will be funded and ﬁnished
                         in FY 2007. Five installation projects expanded shipping centers, built
                         pallet processing facilities and upgraded equipment warehousing,
                         which factors into force readiness. Since FY 2005, the Army also
                         has completed six aerial port of embarkation (APOE) infrastructure
                         improvement projects. A seventh, at Peterson Air Force Base, which
                         serves Fort Carson, Colorado, will be ﬁnished in FY 2007. Upgrades
                         to seaports and ammunition igloos were underfunded in FY 2006,
                         however; as a result, the Army completed only 75 percent of those
                         projects.

                         As we focus on the demands of current operations, Army installations
                         continue to face many challenges. Our new modular brigades require
                         new facilities. The Army will incur substantial infrastructure changes
                         and requirements as global repositioning and Base Realignment and
                         Closure proceed. As we proceed, the Army must ensure that it maintains
                         strategic responsiveness and a healthy and pleasant environment for its
                         Soldiers and their families.


                         Implement Business Transformation Initiatives
                         Transformation of our business processes promotes the long-term
                         health of the Army, while freeing human and ﬁnancial resources
                         that can be used to meet warﬁghting requirements and reduce risk
                         across the force. The Army is developing a culture of continuous
                                                                             improvement that will provide dividends now and
                                                                             into the future. Toward that end, the Army has
                                                                             embarked on an ambitious Lean Six Sigma (LSS)
                                                                             campaign to improve its processes service-wide.
                                                                             LSS is a business improvement methodology that
                                                                             maximizes value by achieving the fastest rate
                                                                             of improvement in customer satisfaction, cost,
                                                                             quality, process, speed and invested capital. LSS,
                                                                             in combination with organizational analysis and
                                                                             design and the effective and efﬁcient application
                                                                             of enterprise solutions and knowledge-based
                                                                             situational awareness, will spread business
                                                                             transformation throughout the Army.

Implementing the President’s Management Agenda                               The Army currently is pursuing process
The Army is achieving management improvement results through                 improvement initiatives in numerous institutional
the implementation of the ﬁve government-wide initiatives of the             areas, including the requirements determination
President’s Management Agenda (PMA). In all ﬁve areas, the Army              process, the resource allocation process and
is showing sustained progress and improved results.                          recruiting. Among them is the General Fund
                                                                             Enterprise Business System (GFEBS). GFEBS
    Strategic Management of Human Capital – We continued to                  is an integrated ﬁnancial management system
    deploy National Security Personnel System (NSPS), linked                 that will provide web-based, online, real-time
    Senior Executive Service (SES) performance plans to strategic            transaction and information capability accessible
    plans, and reduced hiring time for new SES to 30 days and non-           to all Army and Defense Department components.
    SES to 45 days.                                                          GFEBS will fulﬁll the requirements of the Federal
    Competitive Sourcing – Publicly announced competitions total             Financial Management Improvement Act of 1996
    1,634 for FY 2006, with 4,945 positions projected for public             and enable the Army to comply with the Chief
    announcement by the end of FY 2007 under the A-76 process.               Financial Ofﬁcers Act of 1990 by improving
                                                                             performance, standardizing processes, reducing
    Improvement of Financial Management – DoD began reporting                legacy stove-piped systems and providing all
    ﬁnancial management progress against the Financial Improvement           levels of leadership with reliable, relevant and
    Audit Readiness (FIAR) Plan that measures all services against           timely ﬁnancial information. Release 1.1 was
    ﬁve initiatives.                                                         completed in FY 2006 and the program executed
    Budget Performance Integration Initiative – The Army developed           a successful technology demonstration at
    performance measures for all 148 of its major programs, which            Ft. Jackson, SC.
    equal 100 percent of the budget.
    eGovernment – We attained satisfactory information technology            Develop the LandWarNet Institutional
    business plans (OMB Exhibit 300 forms) for all of major IT               Infrastructure
    systems and met Federal Information Security Management Act              The institutional Army, the Army’s business
    (FISMA) requirements.                                                    platform, must transform if it is to achieve joint,
                                                                             standardized data collection processes, effective
                                                                             communication linkages and efﬁcient information
                                                                             sharing among stakeholders. The Army intends to
          increase responsiveness to combatant commanders by applying information management concepts and information
          technologies (IT), and implementing sound IT investment governance. This includes the establishment of a net-
          centric architectural framework and technical standards, the use of IT portfolio management to maximize Army and




                                                                             24 FY 2006 United States Army Annual Financial Statement
                                                                               General Fund and Working Capital Fund
                                                                                                                           25
Joint capabilities, and delivery of core enterprise services to support the Army’s functional needs. In FY 2006, the
Army improved IT infrastructure at 34 installations; established the Net-Centric Data Strategy Center of Excellence;
established mission areas and domains to govern IT investments and developed transformation plans to implement
Army IT portfolio management; and delivered an integrated interoperable publish-and-subscribe methodology for
tactical command and control functional applications.


Enhance Logistics Readiness
The critical task for Army logistics is to effectively sustain the combat readiness of deployed forces and to maintain
the materiel readiness of the current force. This requires a fundamental shift from supply-based to distribution-
based logistics and conversion to modular support structures.

In order to implement better business practices across the logistics spectrum, the Army will continue to provide support
for the Enterprise Resource Planning (ERP) components of the Single Army Logistics Enterprise, including:

          Global Combat Service Support – Army (GCSS-A) for tactical level logistics;
          The Logistics Modernization Program (LMP) for wholesale logistics; and
          Seamless integration into Product Life Cycle Management Plus (PLM+)
Together, these initiatives will put our logistics management practices in-line with world-class businesses and give
us the tools we need to better manage the resources Americans have given us.

Conclusion
Our challenge in the years ahead is to establish a balance between current readiness and future investments, while
keeping risk at moderate levels as we support our global commitments and prepare for future challenges. In the
near term, we plan to minimize our future risks by rolling higher-payoff technologies into the current force when
they become available.

We must continue to transform our institutional processes to generate resources required by the operational Army.
This includes improving management and business processes, implementing ﬁnancial improvement initiatives,
modernizing our installations and ensuring a quality of life that makes service attractive.

Everything we do is tied to enabling Soldiers to continue to ﬁght and win our nation’s wars. We must provide the
Soldier the equipment to ﬁght and win. We must care for both our Soldiers and their families. We owe our Soldiers
the best of everything, and the ﬁnancial management community will remain dedicated to serving them as they serve
the United States.
Appendix to Performance Goals, Objectives, and Results
The OSD Management Initiative Decision (MID) 901 (dated 20 December 2002) directs the components, including
the Army, to ensure that their individual performance plans and balanced scorecards:

            Reﬂect the balanced scorecard quadrants associated with the risk management framework;
            Reﬂect the performance objectives established under the Department’s balanced scorecard for the QDR
            risk management framework; and
            Align with and support the outcomes and supporting performance metrics of its next higher organization.

Figure 6. Alignment of Army Strategy and Initiatives to DoD Risk Management Framework

                  Army Strategic Initiative                OSD Risk Management Quadrant                            OSD Goal
 Army Strategy: Provide Relevant and Ready Landpower for the 21st Century Security Environment
 Support Current Global Operations with Relevant and       Operational Risk                      Do We Have The Right Forces Available
 Ready Land Power
 Build a Campaign-Quality Modular Force with Joint and     Future Challenges Risk                Develop More Effective Organizations
 Expeditionary Capabilities for Today and Tomorrow
 Develop LandWarNet Operational Capabilities               Future Challenges Risk                Drive Innovative Joint Operations
 Execute Major Acquisition Programs                        Institutional Risk                    Streamline Decision Processes. Drive
                                                                                                 Financial Management and Acquisition
                                                                                                 Excellence
 Restructure Army Aviation                                 Future Challenges Risk                Define and Develop Transformational
                                                                                                 Capabilities
 Army Strategy: Train and Equip Soldiers to Serve as Warriors and Grow Adaptive Leaders
 Reinforce Our Centerpiece: Soldiers as Warriors           Force Management Risk                 Maintain a Quality Workforce
 Train Soldiers                                            Operational Risk                      Are They Currently Ready
 Enhance the Combat Training Centers                       Operational Risk                      Are They Currently Ready
 Grow Adaptive Leaders                                     Force Management Risk                 Shape the Force of the Future
 Equip our Soldiers                                        Institutional Risk                    Streamline Decision Processes. Drive
                                                                                                 Financial Management and Acquisition
                                                                                                 Excellence
 Army Strategy: Sustain an All-Volunteer Force Composed of Highly Competent Soldiers that are Provided an Equally High Quality
 of Life
 Recruit and Retain the All-Volunteer Force                Force Management Risk                 Maintain a Quality Workforce
 Care for Soldiers and Army families                       Institutional Risk                    Realign Support to the Warfighter
 Improve Soldier and Family Housing                        Institutional Risk                    Improve the Readiness and Quality of Key
                                                                                                 Facilities
 Army Strategy: Provide the Infrastructure and Support to Enable the Force to Fulfill its Strategic Roles and Missions
 Adjust the Global Footprint to Create “Flagships of       Institutional Risk                    Improve the Readiness and Quality of Key
 Readiness”                                                                                      Facilities
 Implement Business Transformation Initiatives             Institutional Risk                    Manage Overhead / Indirect Cost
 Develop LandWarNet Institutional Infrastructure           Future Challenges Risk                Define and Develop Transformational
                                                                                                 Capabilities
 Enhance Logistics Readiness                               Future Challenges Risk                Define and Develop Transformational
                                                                                                 Capabilities
 Enhance Strategic Communications                          Future Challenges Risk                Drive Innovative Joint Operations
 All Army Strategies
 Secure Financial Resources and Legislative Authorities    Institutional Risk                    Streamline Decision Processes. Drive
 To Meet Requirements                                                                            Financial Management and Acquisition
                                                                                                 Excellence




                                                                                    26 FY 2006 United States Army Annual Financial Statement
                                                                                                                                  General Fund and Working Capital Fund
                                                                                                                                                                                               27
Analysis of Financial Statements and Stewardship Information
As discussed in the accompanying independent auditor’s report, longstanding ﬁnancial management challenges
prevent the Army from producing auditable ﬁnancial statements for the Army General Fund and Army Working
Capital Fund. The Army continues to work with the Department of Defense (DoD) to develop sustainable business
practices and enhanced internal controls that will improve ﬁnancial management processes and produce quality
ﬁnancial management information. These processes must be supported by compliant business systems and an
effective set of management controls.

In October 2005, the Deputy Secretary of Defense established the Defense Business Transformation Agency (BTA)
to ensure consistency, consolidation and coordination of DoD enterprise-level business systems; and to reduce
redundancies in business systems and overhead costs. The BTA’s mission is to transform business operations in
order to augment warﬁghter support while enabling ﬁnancial accountability and improving investment governance
across DoD. The Army has been a leader within DoD in embracing BTA guidance, both in terms of adopting
business practices that conform to the Business Enterprise Architecture (BEA) and providing feedback as to their
efﬁcacy. The Army’s core ﬁnancial management modernization program, GFEBS, adopted early BEA-initiated
data standardization initiatives, such as the Standard Financial Information Structure and Real Property Inventory
Requirements.


General Fund Financial Results
Supplemental appropriations continue to be essential to the Army’s ability to execute its mission. Supplemental
funding accounted for 39 percent of the Army’s $164.9 billion in total obligation authority in FY 2005. In FY 2006,
supplemental funding accounted for 44 percent of the $166.7 billion in total obligation authority.
Figure 7. Total Funding


                                                                   Base Funding vs. Supplemental Funding


                  $180,000
                                                                                                                                       Supplemental                      Supplemental

                                                                                                                                            $64.7                              $73.1
                  $160,000
                                                                                                                                            39%                                44%

                  $140,000                                                                         Supplemental
                                                                                                        $38.4
                  $120,000
                                                                Supplemental                             29%
                                                                     $24.6
                             Supplemental                            21%
($ in billions)




                  $100,000
                                  $0.16
                                                                                                                                             Base
                                   0%                                 Base                               Base
                                                                                                                                           $100.2                              Base
                   $80,000                                                                               $95.0
                                                                     $92.5                                                                                                     $93.6
                                  Base                                                                                                      61%
                                                                     79%                                 71%
                                  $80.6                                                                                                                                        56%
                   $60,000
                                 100%

                   $40,000



                   $20,000



                        $0
                             FY 2002 Total                       FY 2003 Total                      FY 2004 Total                       FY 2005 Total                      FY 2006 Total


                             Amounts shown represent funding as received on Department of the Treasury warrants and do not include additions or subtractions resulting from reprograming and
                             Standard Form (SF) 1151 Non-expenditure Transfer Authorizations.
        Figure 8. Composition of General Fund Assets and Liabilities

                                     General Fund Assets
           Inventory                                     Remaining Assets
             17%                                               4%




                                                           Fund Balance with Treasury
                                                                     42%
                                                                                           General Fund Balance Sheet
                                                                                           The Army General Fund balance sheet includes total
                                                                                           assets that exceed $226 billion. Two asset categories
                                                                                           – Fund Balance with Treasury and General Property,
                                                                                           Plant and Equipment (GPP&E) – make up 79 percent
                     General Property, Plant and Equipment                                 of total assets, with values of $94.6 billion and
                                      37%                                                  $84.2 billion, respectively.

                                   General Fund Liabilities                                Liabilities primarily consist of $45 billion in
                                                                                           Environmental Liabilities and $12.5 billion in
                                           Remaining Liabilities
                                                  2%
                                                                                           Accounts Payable.
      Other Liabilities
           16%                                                                             Fund Balance with Treasury grew by
                                                                                           $7.5 billion in FY 2006 due to an increase in the DoD
                                                                                           appropriations received to ensure that resources,
                                                                                           equipment and supplies remain available without
                                                         Environmental Liabilities
                                                                                           interruption in support of OIF and OEF. GPP&E
                                                                 64%
                                                                                           increased $6.6 billion due to the change in valuation
                                                                                           method for military equipment. Environmental
                                                                                           Liabilities increased $5.2 billion as new program
                                                                                           cost estimating tools were introduced in FY 2006.

     18%
Accounts Payable


                   Figure 9. Select General Fund Assets and Liabilities
                   General Fund
                   $ in billions
                   Asset Type                                               FY 2005     FY 2006          Change        Percentage of FY 2006 Assets
                   Fund Balance with Treasury                                 $87.1       $94.6             $7.5                    42%
                   General Property, Plant and Equipment                       77.6        84.2               6.6                   37%
                   Inventory                                                   37.7        38.6               0.9                   17%
                   Remaining Assets                                             7.0         9.1               2.1                    4%
                   Total Assets                                              $209.4      $226.5            $17.1                   100%
                   Liability Type                                           FY 2005     FY 2006          Change       Percentage of FY 2006 Liabilities
                   Environmental Liabilities                                  $39.8       $45.0             $5.2                    64%
                   Accounts Payable                                            12.0        12.5               0.5                   18%
                   Other Liabilities                                            8.8        11.3               2.5                   16%
                   Remaining Liabilities                                        1.7         1.5             (0.2)                    2%
                   Total Liabilities                                          $62.3       $70.3             $8.0                   100%




                                                                                                  28 FY 2006 United States Army Annual Financial Statement
                                                                                             General Fund and Working Capital Fund
                                                                                                                                                   29
Army Working Capital Fund Financial Results
The primary mission of Army Working Capital Fund (AWCF) activities is to help the Army maintain constant
readiness by providing supplies, equipment and ordnance necessary to support the projection and sustainment of
forces in the most efﬁcient and cost-effective manner possible. In carrying out this mission, the activities are
obligated to control and to reduce costs. The AWCF measures ﬁnancial performance through three primary means
– cash management, carryover and net and accumulated operating results – and operational performance through
two primary means – stock availability and production through-put.


Cash Management
The ability to generate cash is dependent on setting rates to recover full costs, including any previous year losses,
accurately projecting workload and meeting established operational goals. Unlike the private sector, the Army
does not have lines of credit. Therefore, it
must maintain sufﬁcient cash on hand in the Table 10. AWCF Cash
AWCF account at the U.S. Treasury to pay                                               FY 2004         FY 2005                          FY 2006
liabilities when due. To minimize the cash Collections                                12,248.7         14,383.6                         14,512.8
balance required for operating and capital Disbursements                              11,619.4         14,708.7                         14,260.8
disbursements, the AWCF projects collections Net Outlays                                (629.3)           325.1                          (252.0)
and disbursements on a monthly basis, working Cash Balance                                948.5           623.3                           875.3
within a 10 percent margin of error.

The AWCF ended FY 2006 with a cash balance of $875.3 million, $278.1 million above the required seven-to
10-day level of $597.2 million. In June 2006, the AWCF received $347.1 million from the FY 2006 supplemental
appropriation to replace war reserve and prepositioned stocks and to augment inventories. The AWCF cash balance
should return to a level closer to its corpus requirement when operations in Iraq and Afghanistan begin to decline
and payments associated with the delivery of replacement stocks and repair of equipment are made at levels higher
than inventory sales.


Carryover
Carryover is work carried over from one ﬁscal year to the next, which provides continuity for the industrial
workforce. Despite a $94.7 million congressional mark against FY 2006 Operation and Maintenance, Army (OMA)
funding for excess carryover (orders received
but not completed at the end of a ﬁscal year) Table 11. AWCF Carryover
in the Industrial Operations’ activity group,                                    FY 2004         FY 2005                                FY 2006
carryover was kept substantially below the New Orders                             3,437.1         4,517.6                                5,320.0
ceiling as depicted in the table below. Carryover Carryover Ceiling               1,626.3         1,705.6                                2,017.0
is projected to remain below the ceiling across
                                                  Carryover                       1,485.3         1,394.1                                1,991.0
the budget forecast, which is a tribute to the
intensive management of aggressive production schedules.


Net and Accumulated Operating Results
Net Operating Results (NOR) represent the           Table 12. Net Operating Results and Accumulate Operating Results by Business Area
difference between costs and revenues in an                                                       FY 2004            FY 2005            FY 2006
accounting period. Accumulated Operating
                                                     Industrial Operations NOR*                     241.3               191.9            (209.3)
Results (AOR) represent the aggregate of all
                                                     Industrial Operatons AOR                       455.2               647.1             437.8
recoverable net earnings, including prior year
adjustments, since inception of the activity. The    Supply Management NOR                          134.0               (71.4)               5.5
goal of the AWCF is to break even over time.         Supply Management AOR                           29.2               (42.2)            (36.7)
An activity group’s ﬁnancial performance is          *Includes prior year AOR adjustments.
                        measured by comparing actual results to the goal of breaking even over time. The rates in the Industrial Operations
                        activity group will be set to return the positive AOR. The rate in the Supply Management activity group will be set
                        to recoup the negative AOR.


                   Stock Availability
                   Stock Availability measures the percentage of requisitions for stocked items completely ﬁlled within established
                   timeframes. The Department of Defence and the Army have set a target of 85 percent stock availability. Although
Table 13. Stock Availability (percentage)                                             ongoing contingency operations and the high
                              1st Quarter 2nd Quarter  3rd Quarter    4th Quarter     level of OPTEMPO in support of OIF and
 FY 2004                          73%        69%          74%             76%         GWOT have placed a signiﬁcant burden on the
 FY 2005                          76%        78%          82%             79%         Army’s spares inventory, steady improvement
 FY 2006                          85%        86%          84%             85%
                                                                                      of stock availability was seen in FY 2006 due
                                                                                      to receipt of needed materiel.


                   Production
                   Although the Industrial Operations activity group is comprised of an array of installation activities, the preponderance
                   of workload relates to depot maintenance. Major operations in Iraq and Afghanistan are placing tremendous
                                                                                         demands on equipment. Because of higher
Table 14. Annual Production Through-put*
                                                                                         operational tempo, rough desert environments
                                         FY 2004       FY 2005            FY 2006        and limited depot maintenance available in
 Depot Aircraft                              4            44                  46         theater, operational ﬂeets are aging four years
 Helicopter Engines                        <200          >600               >700         for every year in theater. To counter this, the
 Bradleys                                   144          318                 600         Army established a reset program designed
 HMMWVs                                    <100        >5,000               7,398        to reverse the effects of combat stress on
 Machine Guns                             14,000        43,000             50,000        equipment and to prepare equipment for future
 Firefinders Radars                         <1            45                  57
                                                                                         missions.
 Track Shoes                                          120,000                     395,000   400,000
                                                                                        A key component of the reset program is
 * Through-put is simply a count of the weapon systems completed for any given year.
                                                                                        the recapitalization of equipment. Through
                        recapitalization, depots replace and/or upgrade numerous component parts, which supports the Army’s conversion
                        to modular formations, a key element of transformation.

                        The Army’s depots and their efforts to partner with industry are critical to the entire reset effort. The Army estimates
                        it will take close to two years after the return of forces from Iraq and Afghanistan to completely reconstitute
                        equipment. Because of actions taken to surge in support of wartime requirements, the Industrial Operations activity
                        group has dramatically increased depot production over pre-war levels, as illustrated below:

                        In recent years, the Army has begun implementing Lean Six Sigma to reengineer many of its manufacturing and
                        administrative processes. The objective is to streamline operations across the enterprise, reduce bureaucracy,
                        and improve ﬂexibility and agility. In FY 2006, the Army was proud to be recognized for our Lean Six Sigma
                        improvements through the award of several Shingo Prizes for Excellence in Manufacturing.


                        AWCF Balance Sheet
                        The AWCF balance sheet shows total assets exceeding $20 billion. The vast majority of AWCF assets are
                        Inventory, followed by $1.3 million in GPP&E. Liabilities consist of $654.9 million in Accounts Payable and
                        $526.8 million in Other Liabilities, which includes payroll, beneﬁts, accrued annual leave and workman’s compensation



                                                                                                      30 FY 2006 United States Army Annual Financial Statement
                                                                               General Fund and Working Capital Fund
                                                                                                                                   31




                                                               Figure 10. AWCF Assets and Liabilities

                                                                                               AWCF Assets
                                                               General Property, Plant and Equipment           Remaining Assets
                                                                                 6%                                  8%



                                                                                                                   Inventory
                                                                                                                     86%




                                                                                               AWCF Liabilities
(the Federal Employees’ Compensation Act, or FECA,              Military Retirment Benefits and
                                                                 Other Employment-Related
administered by the Department of Labor on behalf of the               Actuarial Liabilities
Army and reimbursed by AWCF). The remaining liabilities,                      20%
$262.5 million, represent the actuarial amount of workman’s
compensation (FECA) estimated to be paid in the future
for death, disability, medical and miscellaneous costs for                                                      Accounts Payable
approved compensation cases.                                                                                         47%

The majority of AWCF assets are the inventory items it
holds to meet its mission of providing supplies, equipment
and ordnance necessary to support the projection and
sustainment of the force. In FY 2006, Inventory and Related
                                                                           Other Liabilities
Property increased by $2.0 billion as the AWCF accelerated
                                                                                33%
the replenishment of inventory.


Figure 11. Select AWCF Assets and Liabilities
Working Capital Fund
$ in billions
Asset Type                                      FY 2005   FY 2006         Change           Percentage of FY 2006 Assets
Inventory                                         $15.9     $17.9            $2.0                      86%
General Property, Plant and Equipment               1.2       1.3              0.1                       6%
Remaining Assets                                    1.3       1.6              0.3                       8%
Total Assets                                      $18.4     $20.8            $2.4                      100%
Liability Type                                  FY 2005   FY 2006         Change          Percentage of FY 2006 Liabilities
Accounts Payable                                   $0.4      $0.7            $0.3                      47%
Other Liabilities                                   0.7       0.5            (0.2)                      33%
Military Retirement Benefits and Other              0.3       0.3              0.0                     20%
Employment-Related Actuarial Liabilities
Total Liabilities                                  $1.4       $1.5            $0.1                      100%
Possible Future Effects of Existing Events and Conditions
As stated in the conclusion to the Performance Goals, Objectives and Results section, there exists a mismatch
between the cost of the National Defense Strategy and the resources allocated to the Army to execute that strategy.
The Army requires a base budget 30 percent greater than today’s to fully resource the doctrinal QDR force. Further,
to meet operational reality, the Army has had to rely on substantial supplemental appropriations.

The future effects of the current funding situation cannot be overstated. Already, this strategy-resources mismatch is
the key factor in decreasing readiness today, and hampers our ability to implement durable change for the future. In
FY 2006, the Army was forced to shift (reprogram) billions of dollars from equipment and operation and maintenance
accounts to cover personnel costs. Shifting funds from the accounts that buy the materiel and weapon systems our
Soldiers use every day to ﬁght and train, that run our installations, and that support daily activities, directly impacts
readiness. Reprogramming allows us to avert a ﬁnancial crisis today, but causes other problems for the long run.

The requirement to reset equipment and to restore units to full readiness upon their return from operational
deployments is fundamental to sustaining the full range of current global commitments and to preparing for
emerging threats. The Army is carrying forward multibillion dollar shortfalls in our reset program and our overall
procurement account. Under current plans, the Army does not have enough funding in the base budget to cover the
cost of resetting the force. Without supplemental funding, readiness would drop rapidly. Resetting the force while
simultaneously ﬁghting the GWOT and transforming to become a more powerful, more ﬂexible, more deployable
force is a complex task that necessitates a sustained national commitment and careful balancing of resources.

The Army base budget is designed to cover all of Army activities that can be reasonably forecasted, including such
items as Soldier pay and beneﬁts, operation and maintenance and the enduring changes discussed in the Performance
Results section. The Army must also obtain funding sufﬁcient to prosecute the Global War on Terrorism while
simultaneously improving and maintaining the readiness of the Army – active component, National Guard and
Army Reserve. Toward that end, Congress has provided substantial resources through supplemental appropriations
to cover contingency operations. The unpredictable timing inherent in supplemental funding, however, fosters
inefﬁciencies in the resource allocation process.

Even with supplemental funding, at the current funding levels the Army cannot implement the enduring changes
required to meet the challenges of the 21st century. The vast majority of supplemental funding has been spent on
consumable items needed for on-going operations; while only a small percentage has supported long-term ﬁxes,
such as modularizing the force, depot-level maintenance activities, national-level repair and replenishment of war
stocks and Army pre-positioned equipment sets. Figure 12 illustrates how the Army has spent supplemental funding
since FY 2004.
Figure 12. How the Army Spent Supplemental Funds*

  Consumable                                     Readiness Impacts               Enduring Fix
     Theater Specific Pay and Allowances           Direct Theater Requirements     Army Modular Force
     Operations in Theater                         IBA                             Depot Maintenance
     Train forces to deploy (incremental cost)     Up-Armored HMMWVs               National Level Repair
     Transportation                                IED Defeat Equipment            War Stock/APS Replenishment
     Repair Parts                                  Radios                          Procurement / Battle Losses
     Contractor Logistics Support
     Ammunition                                                                                  8%                        13%
                                                                                                                                   2%
     LOGCAP                                                                                               2%
                                                             3%        1%
     BASOPs for Mobilizations
                                                                                    16%                          10%




                                                                   96%                              74%                          75%
  * As of 3rd Quarter FY 2006




                                                                                     32 FY 2006 United States Army Annual Financial Statement
                                                                                                             General Fund and Working Capital Fund
                                                                                                                                                                                                             33
Due to the extraordinary level of commitment and operational activity demanded of the Army since September 11,
2001, the amounts of supplemental funding required to keep pace with the daily cost of prosecuting the GWOT have
been high. This has created the perception – an incorrect perception – that the Army is ﬂush with cash.

The timing of supplemental appropriations           Figure 13. DoD and Army Outlays as a Percentage of GDP
is also problematic. As the Army is not
fully funded through the base budget, Army                              40%
                                                                                          WWII
management must implement stop-gap                                                        38%
                                                                                                                                                             DoD         *Supplemental data included
                                                                        35%                                                                                  Army         through 2005.
measures. For example, in the second half of
FY 2006, the Army imposed hiring freezes and                            30%



                                                    Percentage of GDP
limited travel.
                                                                        25%

To put the ongoing funding challenges in                                20%
historical perspective, defense spending as a                                                            Korea
percentage of Gross Domestic Product (GDP)                              15%                              14%

is at its lowest point in 60 years (Figure 13).                         10%
                                                                                                                                Vietnam                Reagan
                                                                                                                                                                      Post-Cold War
                                                                                                                                 9.5%                 Build-UP
However, the OPTEMPO of the Army is at its                                                 3.6%                                                         6.2%           Draw Down Global War on
                                                                                                                                                                          4.8%      Terrorism
highest levels since World War II. As a country,                        5%                               4.4%                 2.9%                                                    4.8%
                                                                                                                                                          1.6%
the equivalent of 3.8 percent of GDP is allocated                                         1.3%                                                                          1.3%
                                                                                                                                                                                       1.1%          0.8%
                                                                        0%
towards national defense. The Army is getting                                 1940            1950              1960            1970             1980              1990            2000               2010
the equivalent of 1.1 percent – and that ﬁgure                                                                                     Fiscal Year
includes supplemental appropriations.                                                Source: National Defense Budget Estimates for FY 2006, Office of the Under Secretary of Defense (Comptroller)




“Let there be no mistake, our Soldiers’ effectiveness in battle, both today and
tomorrow, ultimately depends upon a national commitment to recruit, train,
equip, and support them and their families properly. This is a matter of National
priorities, not affordability.”

                                                                                                           General Peter J. Schoomaker, Chief of Staff, Army
34 FY 2006 United States Army Annual Financial Statement
       General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                       35




LIMITATIONS
                 LIMITATIONS OF THE FINANCIAL
                 STATEMENTS
                The ﬁnancial statements have been prepared to report the
                ﬁnancial position and results of operations for the entity,
                pursuant to the requirements of Title 31, United States
Code, section 3515(b).

While the statements have been prepared from the books and records of the
entity, in accordance with the formats prescribed by the Ofﬁce of Management
and Budget, the statements are in addition to the ﬁnancial reports used to
monitor and control budgetary resources which are prepared from the same
books and records.

The statements should be read with the realization that they are for a
component of the United States Government, a sovereign entity.
Department of Defense - Department of the Army
                                                                                CONSOLIDATED BALANCE SHEET
As of September 30, 2006 and 2005 ($ in Thousands)
                                                                                   2006 Consolidated              2005 Consolidated
ASSETS (Note 2)
  Intragovernmental:
     Fund Balance with Treasury (Note 3)
     Entity                                                                    $             94,430,198 $                    86,799,034
     Non-Entity Seized Iraqi Cash                                                                30,216                          61,370
     Non-Entity-Other                                                                           172,515                         232,913
     Investments (Note 4)                                                                         3,407                           3,495
     Accounts Receivable (Note 5)                                                               357,183                         276,635
     Other Assets (Note 6)                                                                      601,861                         824,303
     Total Intragovernmental Assets                                            $             95,595,380 $                    88,197,750

  Cash and Other Monetary Assets (Note 7)                                      $              1,784,810 $                    1,482,046
  Accounts Receivable, Net (Note 5)                                                             627,721                        584,005
  Loans Receivable (Note 8)                                                                           0                              0
  Inventory and Related Property, Net (Note 9)                                               38,639,039                     37,703,353
  General Property, Plant and Equipment, Net (Note 10)                                       84,243,850                     77,572,649
  Investments (Note 4)                                                                                0                              0
  Other Assets (Note 6)                                                                       5,694,685                      3,844,524
TOTAL ASSETS                                                                   $            226,585,485 $                  209,384,327

LIABILITIES (Note 11)
  Intragovernmental:
     Accounts Payable (Note 12)                                                $               1,593,783 $                    1,918,309
     Debt (Note 13)                                                                               11,404                              0
     Other Liabilities (Note 15 & 16)                                                          3,181,296                      2,372,261
     Total Intragovernmental Liabilities                                       $               4,786,483 $                    4,290,570

  Accounts Payable (Note 12)                                                   $             10,884,262 $                    10,137,011
  Military Retirement and Other Federal Employment Benefits (Note 17)                         1,461,098                       1,663,650
  Environmental and Disposal Liabilities (Note 14)                                           44,975,237                      39,760,514
  Loan Guarantee Liability (Note 8)                                                              12,853                          12,394
  Other Liabilities (Note 15 and Note 16)                                                     8,148,757                       6,401,916
TOTAL LIABILITIES                                                              $             70,268,690 $                    62,266,055

NET POSITION
  Unexpended Appropriations - Earmarked Funds (Note 23)                        $                      0 $                            0
  Unexpended Appropriations - Other Funds                                                    85,045,798                     74,704,745
  Cumulative Results of Operations - Earmarked Funds                                             42,792                              0
  Cumulative Results of Operations - Other Funds                                             71,228,205                     72,413,527
TOTAL NET POSITION                                                             $            156,316,795 $                  147,118,272

TOTAL LIABILITIES AND NET POSITION                                             $            226,585,485 $                  209,384,327

                                                                 The accompanying notes are an integral part of these financial statements.




                                                                                   36 FY 2006 United States Army Annual Financial Statement
                                                      General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                   37
Department of Defense - Department of the Army
                                                                   CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2006 and 2005 ($ in Thousands)
                                                                         2006 Consolidated                        2005 Consolidated
Program Costs
  Gross Costs                                                     $                    175,017,272 $                           156,166,632
  (Less: Earned Revenue)                                                               (10,403,521)                             (9,740,447)
  Net Program Costs                                               $                    164,613,751 $                           146,426,185
Cost Not Assigned to Programs                                                                     0                                       0
(Less: Earned Revenue Not Attributable to Programs)                                               0                                       0
Net Cost of Operations                                            $                    164,613,751 $                           146,426,185

                                                                      The accompanying notes are an integral part of these financial statements.
Department of Defense - Department of the Army
                                                     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2006 and 2005 ($ in Thousands)
                                                                       Earmarked Funds                          All Other Funds
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                 $                 35,140           $                      115,207,483
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                                  0                                            0
  Corrections of errors (+/-)                                                             0                                 (42,829,096)
Beginning Balances, as adjusted                                    $                 35,140           $                       72,378,387
Budgetary Financing Sources:
  Appropriations received                                                                 0                                            0
  Appropriations transferred-in/out (+/-)                                                 0                                            0
  Other adjustments (rescissions, etc.) (+/-)                                             0                                            0
  Appropriations used                                                                     0                                  163,679,472
  Nonexchange revenue                                                                 9,198                                            0
  Donations and forfeitures of cash and cash equivalents                              4,754                                            0
  Transfers-in/out without reimbursement (+/-)                                            0                                      453,164
  Other budgetary financing sources (+/-)                                                 0                                            0
Other Financing Sources:
  Donations and forfeitures of property                                                   0                                        27,457
  Transfers-in/out without reimbursement (+/-)                                            0                                       565,989
  Imputed financing from costs absorbed by others                                         0                                       964,108
  Other (+/-)                                                                          (10)                                   (2,232,911)
Total Financing Sources                                            $                 13,942           $                      163,457,279
Net Cost of Operations (+/-)                                                          6,291                                  164,607,460
Net Change                                                         $                  7,651           $                       (1,150,181)
Ending Balances                                                    $                 42,791           $                        71,228,206

UNEXPENDED APPROPRIATIONS
Beginning Balances                                                 $                        0         $                        74,704,745
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                                    0                                           0
  Corrections of errors (+/-)                                                               0                                           0
Beginning balances, as adjusted                                    $                        0         $                        74,704,745
Budgetary Financing Sources:
  Appropriations received                                                                   0                                173,014,453
  Appropriations transferred-in/out (+/-)                                                   0                                   3,169,768
  Other adjustments (rescissions, etc) (+/-)                                                0                                 (2,163,696)
  Appropriations used                                                                       0                              (163,679,472)
  Nonexchange revenue                                                                       0                                           0
  Donations and forfeitures of cash and cash equivalents                                    0                                           0
  Transfers-in/out without reimbursement (+/-)                                              0                                           0
  Other budgetary financing sources (+/-)                                                   0                                           0
Other Financing Sources:
  Donations and forfeitures of property                                                     0                                           0
  Transfers-in/out without reimbursement (+/-)                                              0                                           0
  Imputed financing from costs absorbed by others                                           0                                           0
  Other (+/-)                                                                               0                                           0
Total Financing Sources                                            $                        0         $                        10,341,053
Net Cost of Operations (+/-)                                                                0                                           0
Net Change                                                                                  0                                  10,341,053
Ending Balances                                                    $                        0         $                        85,045,798

                                                                   The accompanying notes are an integral part of these financial statements.




                                                                               38 FY 2006 United States Army Annual Financial Statement
                                                            General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  39
Department of Defense - Department of the Army
                                                     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2006 and 2005 ($ in Thousands)
                                                                Eliminations            2006 Consolidated                2005 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                          $                   0 $               115,242,623 $                     109,208,001
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                        0                           0                                 0
  Corrections of errors (+/-)                                                   0                (42,829,096)                      (42,829,096)
Beginning Balances, as adjusted                             $                   0 $                72,413,527 $                      66,378,905
Budgetary Financing Sources:
  Appropriations received                                                       0                           0                                 0
  Appropriations transferred-in/out (+/-)                                       0                           0                                 0
  Other adjustments (rescissions, etc.) (+/-)                                   0                           0                                 0
  Appropriations used                                                           0                 163,679,472                       150,048,733
  Nonexchange revenue                                                           0                       9,198                             9,331
  Donations and forfeitures of cash and cash equivalents                        0                       4,754                             5,609
  Transfers-in/out without reimbursement (+/-)                                  0                     453,164                         3,721,535
  Other budgetary financing sources (+/-)                                       0                           0                             2,141
Other Financing Sources:
  Donations and forfeitures of property                                         0                       27,457                                 0
  Transfers-in/out without reimbursement (+/-)                                  0                      565,989                           528,071
  Imputed financing from costs absorbed by others                               0                      964,108                         1,092,805
  Other (+/-)                                                                   0                  (2,232,921)                       (2,947,418)
Total Financing Sources                                     $                   0 $               163,471,221 $                     152,460,807
Net Cost of Operations (+/-)                                                    0                 164,613,751                       146,426,185
Net Change                                                  $                   0 $                (1,142,530) $                       6,034,622
Ending Balances                                             $                   0 $                 71,270,997 $                      72,413,527

UNEXPENDED APPROPRIATIONS
Beginning Balances                                          $                   0 $                74,704,745 $                       73,238,304
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                        0                               0                              0
  Corrections of errors (+/-)                                                   0                                                              0
Beginning balances, as adjusted                             $                   0 $                74,704,745 $                       73,238,304
Budgetary Financing Sources:
  Appropriations received                                                       0                 173,014,453                       149,831,938
  Appropriations transferred-in/out (+/-)                                       0                    3,169,768                        2,560,759
  Other adjustments (rescissions, etc) (+/-)                                    0                  (2,163,696)                        (877,523)
  Appropriations used                                                           0               (163,679,472)                     (150,048,733)
  Nonexchange revenue                                                           0                            0                                0
  Donations and forfeitures of cash and cash equivalents                        0                            0                                0
  Transfers-in/out without reimbursement (+/-)                                  0                            0                                0
  Other budgetary financing sources (+/-)                                       0                            0                                0
Other Financing Sources:
  Donations and forfeitures of property                                         0                           0                                  0
  Transfers-in/out without reimbursement (+/-)                                  0                           0                                  0
  Imputed financing from costs absorbed by others                               0                           0                                  0
  Other (+/-)                                                                   0                           0                                  0
Total Financing Sources                                     $                   0 $                10,341,053 $                        1,466,441
Net Cost of Operations (+/-)                                                    0                           0                                  0
Net Change                                                                      0                  10,341,053                          1,466,441
Ending Balances                                             $                   0 $                85,045,798 $                       74,704,745

                                                                          The accompanying notes are an integral part of these financial statements.
Department of Defense - Department of the Army
                                                                                      COMBINED STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2006 and 2005 ($ in Thousands)                             Budgetary Financing Accounts                Non Budgetary Financing Accounts
                                                                           2006 Combined        2005 Combined             2006 Combined       2005 Combined
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                        $       15,477,292 $          22,880,756 $                        1,525 $                      1,424
Recoveries of prior year unpaid obligations                                    16,851,046            17,033,447                              0                            0
Budget authority
  Appropriation                                                               173,027,517           149,846,916                              0                             0
  Borrowing authority                                                                   0                     0                         11,404                             0
  Contract authority                                                                    0                     0                              0                             0
  Spending authority from offsetting collections
       Earned
         Collected                                                             21,805,492            20,948,239                             326                         101
         Change in receivables from Federal sources                              (20,488)             (415,099)                               0                           0
       Change in unfilled customer orders
         Advance received                                                          420,284               77,733                              0                            0
         Without advance from Federal sources                                      805,587            2,159,939                              0                            0
       Anticipated for rest of year, without advances                                    0                    0                              0                            0
       Previously unavailable                                                            0                    0                              0                            0
       Expenditure transfers from trust funds                                            0                    0                              0                            0
  Subtotal                                                                    196,038,392           172,617,728                         11,730                          101
Nonexpenditure transfers, net, anticipated and actual                            3,169,768            3,415,759                              0                            0
Temporarily not available pursuant to Public Law                                         0                    0                              0                            0
Permanently not available                                                      (2,163,696)            (877,523)                              0                            0
Total Budgetary Resources                                              $      229,372,802 $         215,070,167 $                       13,255 $                      1,525

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                               $      186,913,360 $         175,086,215 $                       11,962 $                           0
  Reimbursable                                                                 25,435,449            24,506,660                              0                             0
  Subtotal                                                             $      212,348,809 $         199,592,875 $                       11,962 $                           0
Unobligated balance:
  Apportioned                                                                  14,880,099            13,665,452                            535                        1,525
  Exempt from apportionment                                                         4,035                11,980                              0                            0
  Subtotal                                                                     14,884,134            13,677,432                            535                        1,525
Unobligated balance not available                                               2,139,859             1,799,860                            758                            0
Total status of budgetary resources                                    $      229,372,802 $         215,070,167 $                       13,255 $                      1,525
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                       $       80,720,880 $          71,629,016 $                              0 $                         0
  Less: Uncollected customer payments from Federal Sources,
  brought forward, October 1                                                  (16,351,456)         (14,606,617)                              0                             0
  Total unpaid obligated balance                                                64,369,424           57,022,399                              0                             0
  Obligations incurred net (+/-)                                       $       212,348,809 $        199,592,876 $                       11,962 $                           0
  Less: Gross outlays                                                        (186,063,536)        (173,467,566)                       (11,962)                             0
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                            0                         0                            0                           0
  Actual transfers, uncollected customer
  payments from Federal sources (+/-)                                                    0                    0                                0                           0
  Total Unpaid obligated balance transferred, net                                        0                    0                                0                           0
Less: Recoveries of prior year unpaid obligations, actual                     (16,851,046)         (17,033,447)                                0                           0
Change in uncollected customer payments from Federal sources (+/-)               (785,100)          (1,744,839)                                0                           0
Obligated balance, net, end of period
  Unpaid obligations                                                            90,155,105           80,720,880                                0                           0
  Less: Uncollected customer payments (+/-) from Federal sources (-)          (17,136,557)         (16,351,456)                                0                           0
  Total, unpaid obligated balance, net, end of period                           73,018,548           64,369,424                                0                           0
Net Outlays
Net Outlays:
  Gross outlays                                                                186,063,536          173,467,566                         11,962                            0
  Less: Offsetting collections                                                (22,225,774)         (21,025,971)                          (325)                        (101)
  Less: Distributed Offsetting receipts                                          (783,002)            (195,234)                              0                            0
Net Outlays                                                            $       163,054,760 $       152,246,361 $                        11,637 $                      (101)

                                                                                                  The accompanying notes are an integral part of these financial statements.




                                                                                                 40 FY 2006 United States Army Annual Financial Statement
                                                                     General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                                  41
Department of Defense - Department of the Army
                                                                                   CONSOLIDATED STATEMENT OF FINANCING
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                                                       2006 Consolidated               2005 Consolidated
Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations incurred                                                                             $             212,360,771 $                  199,592,875
  Less: Spending authority from offsetting collections and recoveries (-)                                       (39,862,247)                   (39,804,359)
  Obligations net of offsetting collections and recoveries                                         $             172,498,524 $                  159,788,516
  Less: Offsetting receipts (-)                                                                                    (783,002)                      (195,234)
  Net obligations                                                                                  $             171,715,522 $                  159,593,282
Other Resources
  Donations and forfeitures of property                                                                                27,457                              0
  Transfers in/out without reimbursement (+/-)                                                                        565,989                        528,071
  Imputed financing from costs absorbed by others                                                                     964,108                      1,092,805
  Other (+/-)                                                                                                     (2,232,921)                    (2,947,418)
  Net other resources used to finance activities                                                   $                (675,367) $                  (1,326,542)
  Total resources used to finance activities                                                       $             171,040,155 $                  158,266,740

Resources Used to Finance Items not Part of the Net Cost of Operations
  Change in budgetary resources obligated for goods,
  services and benefits ordered but not yet provided
    Undelivered Orders (-)                                                                         $             (9,451,160) $                 (10,942,905)
    Unfilled Customer Orders                                                                                       1,225,872                      2,237,672
  Resources that fund expenses recognized in prior periods                                                         (294,876)                    (1,282,337)
  Budgetary offsetting collections and receipts that do not affect net cost of operations                            783,327                        195,334
  Resources that finance the acquisition of assets                                                              (30,921,684)                   (26,752,491)
  Other resources or adjustments to net obligated resources that do not affect net cost of
  operations
       Less: Trust or Special Fund Receipts Related to exchange in the Entity's Budget (-)                                 0                              0
       Other (+/-)                                                                                                 1,639,475                      2,419,346
  Total resources used to finance items not part of the net cost of operations                     $            (37,019,046) $                 (34,125,381)
  Total resources used to finance the net cost of operations                                       $             134,021,109 $                  124,141,359

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Period:
  Increase in annual leave liability                                                               $                  100,742 $                        91,655
  Increase in environmental and disposal liability                                                                  5,214,723                               0
  Upward/Downward reestimates of credit subsidy expense (+/-)                                                               0                               0
  Increase in exchange revenue receivable from the the public (-)                                                           0                               0
  Other (+/-)                                                                                                         223,353                          54,908
  Total components of Net Cost of Operations that will not require or generate resources in
  future periods                                                                                   $                5,538,818 $                       146,563
Components not Requiring or Generating Resources:
  Depreciation and amortization                                                                                   23,824,451                      16,965,074
  Revaluation of assets or liabilities (+/-)                                                                             404                           1,074
  Other (+/-)
     Trust Fund Exchange Revenue                                                                                           0                            (82)
     Cost of Goods Sold                                                                                                3,061                               0
     Operating Material & Supplies Used                                                                                    0                               0
     Other                                                                                                         1,225,908                       5,172,197
  Total components of Net Cost of Operations that will not require or generate resources           $              25,053,824 $                    22,138,263
Total components of net cost of operations that will not require or generate resources in
the current period                                                                                 $              30,592,642 $                   22,284,826
Net Cost of Operations                                                                             $             164,613,751 $                  146,426,185

                                                                                     The accompanying notes are an integral part of these financial statements.
Department of Defense - Department of the Army
                                                             COMBINED STATEMENT OF CUSTODIAL ACTIVITY
As of September 30, 2006 and 2005 ($ in Thousands)
                                                                                    2006 Combined                    2005 Combined
SOURCE OF COLLECTIONS
    Deposits by Foreign Governments                                            $                          0 $                      136,000
    Seized Iraqi Cash                                                                                     0                              1
    Other Collections                                                                                     0                              0
    Total Cash Collections                                                     $                          0 $                      136,001
    Accrual Adjustments (+/-)                                                                             0                              0
    Total Custodial Collections                                                $                          0 $                      136,001
DISPOSITION OF COLLECTIONS
    Disbursed on Behalf of Foreign Governments and                             $                  34,564 $                           82,613
    International Organizations
    Seized Assets Disbursed on behalf of Iraqi People                                             31,154                            52,061
    Increase (Decrease) in Amounts to be Transferred                                            (34,564)                            53,387
    Collections Used for Refunds and Other Payments                                                    0                                 0
    Retained by The Reporting Entity                                                                   0                                 0
    Seized Assets Retained for Support of the Iraqi People                                      (31,154)                          (52,060)
    Total Disposition of Collections                                           $                       0 $                        136,001
NET CUSTODIAL COLLECTION ACTIVITY                                              $                       0 $                               0

                                                                   The accompanying notes are an integral part of these financial statements.




                                                                               42 FY 2006 United States Army Annual Financial Statement
                                                                      General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                      43

Note 1.         Significant Accounting Policies

1.A.       Basis of Presentation
These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of the Department of the Army,
as required by the “Chief Financial Ofﬁcers Act of 1990,” expanded by the “Government Management Reform Act of 1994,” and other
appropriate legislation. The ﬁnancial statements have been prepared from the books and records of the Army General Fund in accordance with
the “DoD Financial Management Regulation,” Ofﬁce of Management and Budget Circular (OMB) A-136, Financial Reporting Requirements,
and to the extent possible generally accepted accounting principles (GAAP). The accompanying ﬁnancial statements account for all resources
for which the Army General Fund is responsible. Information relative to classiﬁed assets, programs and operations is aggregated and reported
in such a manner that is not discernable.

The Army General Fund is unable to fully implement all elements of GAAP and the OMB Circular A-136, due to limitations of its ﬁnancial
management processes and systems and nonﬁnancial systems and processes that feed into the ﬁnancial statements. The Army General Fund
derives its reported values and information for major asset and liability categories largely from nonﬁnancial systems, such as inventory
systems and logistics systems. These systems were designed to support reporting requirements for maintaining accountability over assets
and reporting the status of Federal Appropriations, rather than preparing ﬁnancial statements in accordance with GAAP. The Army General
Fund continues to implement process and system improvements to address the limitations many of which are detailed below. The Army
General Fund currently has agreed with 12 auditor identiﬁed ﬁnancial statement material weaknesses: (1) Financial Management Systems,
(2) Accounting Adjustments, (3) Intragovernmental Transactions and Eliminations, (4) Abnormal Account Balances, (5) Accounts Receivable,
(6) Inventory and Related Property, (7) Property, Plant, and Equipment, (8) Accounts Payable, (9) Environmental Liabilities, (10) Statement
of Net Cost, (11) Statement of Budgetary Resources, and (12) Statement of Financing.


1.B.       Mission of the Reporting Entity
The Army mission is to support National Security and Defense Strategies by providing well-trained, well-led, and well-equipped forces to
the combatant commanders. This mission encompasses the intent of Congress, as deﬁned in Title 10 of the U.S. Code, to preserve the peace
and security and provide for the defense of the U.S., the territories, commonwealths, and possessions of the U.S., and any areas occupied by
the U.S.; support national policies; implement national objectives; and overcome any nations responsible for aggressive acts that imperil the
peace and security of the U.S.

This mission has been unchanged for the 230-year life of the Army, but the environment and nature of conﬂict have undergone many changes
over that same time, especially with the Global War on Terror. This has required the Army to undergo a simultaneous transformation process
in the way that it ﬁghts and in the way that it trains and equips its Soldiers. This transformation is progressing rapidly, but it must be taken to
its full conclusion if the Army is to continue to meet the Nation’s domestic and international security obligations today and into the future.


1.C.       Appropriations and Funds
The Army General Fund receives its appropriations and funds as general, working capital (revolving), trust, special, and deposit funds. The
Army General Fund uses appropriations and funds to execute their missions and report on resource usage.

General funds are used for ﬁnancial transactions funded by congressional appropriations, including personnel, operation and maintenance,
research and development, procurement, and military construction accounts.

Working capital funds receive their initial funding through an appropriation or a transfer of resources from existing appropriations or funds and
use those capital resources to ﬁnance the initial cost of products and services. The working capital fund entities provide goods and services
on a reimbursable basis. Reimbursable receipts fund ongoing operations and generally are available in their entirety for use without further
congressional action.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out speciﬁc purposes or programs in
accordance with the terms of the donor, trust agreement or statute.

Special fund accounts are used to record government receipts reserved for a speciﬁc purpose.

Earmarked Funds are ﬁnanced by speciﬁcally identiﬁed revenues, required by statute to be used for designated activities, beneﬁts or purposes,
and remain available over time. Earmarked funds also have a requirement to account for and report on the receipt, use and retention of
revenues and other ﬁnancing sources that distinguish it from general revenues. Certain special and trust funds may be designated as earmarked
funds.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. The Army General Fund
acts as an agent or a custodian for funds awaiting distribution, for example payroll taxes.
1.D.      Basis of Accounting
For FY 2006, Army General Fund ﬁnancial management systems were unable to meet all of the requirements for full accrual accounting.
Many of the Army General Fund’s ﬁnancial and nonﬁnancial feeder systems and processes were designed and implemented prior to the
issuance of GAAP for federal agencies in 1994. Therefore, these systems were not designed to collect and record ﬁnancial information on the
full accrual accounting basis as required by GAAP. Most of the Army General Fund’s legacy systems were designed to record information
on a budgetary basis.

The Department has undertaken efforts to determine the actions required to bring its ﬁnancial and nonﬁnancial feeder systems and processes
into compliance with GAAP. One such action is the current revision of its accounting systems to record transactions based on the United
States Standard General Ledger (USSGL). Until all of the Army General Fund’s ﬁnancial and nonﬁnancial feeder systems and processes
are updated to collect and report ﬁnancial information as required by Federal GAAP, Army General Fund’s ﬁnancial data will be based on
budgetary transactions (obligations, disbursements, and collections), transactions from nonﬁnancial feeder systems, and adjustments for
known accruals of major items such as payroll expenses, accounts payable, and environmental liabilities.

In addition, DoD identiﬁes program costs based upon the major appropriation groups provided by the Congress. Current processes and
systems, however, do not capture and report accumulated costs for major programs based upon the performance measures as required by the
Government and Performance and Results Act (GPRA). The DoD is in the process of reviewing available data and attempting to develop a
cost reporting methodology that balances the need for cost information required by the Statement of Federal Financial Accounting Standard
(SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” with the need to keep the ﬁnancial
statements from being overly voluminous.


1.E.      Revenues and Other Financing Sources
The Army General Fund receives congressional appropriations as ﬁnancing sources for general funds on either an annual or multi-year basis.
When authorized by legislation, these appropriations are supplemented by revenues generated by sales of goods or services. The Army
General Fund recognizes revenue as a result of costs incurred or services provided to other Federal agencies and the public. Full cost pricing
is the Army General Fund’s standard policy for services provided, as required by OMB Circular A-25. The Army General Fund recognizes
revenue when earned within the constraints of current system capabilities. In other instances, revenue is recognized when bills are issued.

The Army General Fund does not include nonmonetary support provided by U.S. allies for common defense and mutual security in amounts
reported in the Statement of Net Cost and the Statement of Financing. The U.S. has cost sharing agreements with other countries. Examples
include countries where there is a mutual or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is in a
port.


1.F.      Recognition of Expenses
For ﬁnancial reporting purposes, DoD policy requires recognition of operating expenses in the period incurred. However, because the Army
General Fund’s ﬁnancial and nonﬁnancial feeder systems were not designed to collect and record ﬁnancial information on the full accrual
accounting basis, accrual adjustments are made for major items such as payroll expenses, accounts payable, and environmental liabilities and
unbilled revenue. The Army General Fund’s expenditures for capital and other long-term assets are recognized as operating expenses based
on depreciation. In the case of Operating Materials and Supplies (OM&S), operating expenses are generally recognized when the items are
purchased. Efforts are underway to migrate towards the consumption method for recognizing OM&S expenses.


1.G.      Accounting for Intragovernmental Activities
Preparation of reliable ﬁnancial statements requires the elimination of transactions occurring among entities within the DoD or between
two or more federal agencies. The Army General Fund, however, cannot accurately identify most of its intragovernmental transactions by
customer because the Army General Fund’s systems do not track buyer and seller data needed to match related transactions. Seller entities
within the DoD provide summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD
accounting ofﬁces. In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances. Intra-DoD intragovernmental
balances are then eliminated. The Army General Fund properly eliminates the revenue results from intra-DoD sales of capitalized assets.
The DoD is developing long-term system improvements that will include sufﬁcient up-front edits and controls to eliminate the need for after-
the-fact reconciliations. The volume of intragovernmental transactions is so large that after-the-fact reconciliation cannot be accomplished
effectively with existing or foreseeable resources.

The Department of the Treasury Financial Management Service (FMS), is responsible for eliminating transactions between the DoD and
other federal agencies. The Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report
of the United States Government” and the Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide,” provide guidance
for reporting and reconciling intragovernmental balances. While the Army General Fund is unable to fully reconcile intragovernmental

                                                                                        44 FY 2006 United States Army Annual Financial Statement
                                                                    General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                    45
transactions with all federal partners, the Army General Fund is able to reconcile balances pertaining to investments in federal securities,
borrowings from the U.S. Treasury and the Federal Financing Bank, Federal Employees’ Compensation Act transactions with the Department
of Labor (DOL), and beneﬁt program transactions with the Ofﬁce of Personnel Management (OPM). The DoD’s proportionate share of
public debt and related expenses to the federal government are not included. The federal government does not apportion debt and its related
costs to federal agencies. The DoD’s ﬁnancial statements, therefore, do not report any portion of the public debt or interest thereon, nor do
the statements report the source of public ﬁnancing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this ﬁnancing ultimately may have been
obtained through the issuance of public debt, interest costs have not been capitalized since the Department of the Treasury does not allocate
such interest costs to the beneﬁting agencies.


1.H.      Transactions with Foreign Governments and International Organizations
Each year, the Army General Fund sells defense articles and services to foreign governments and international organizations under the
provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, the DoD has authority to sell defense articles and
services to foreign countries and international organizations generally at no proﬁt or loss to the U.S. Government. Payment is required in
advance.


1.I.      Funds with the U.S. Treasury
The Army General Fund’s monetary ﬁnancial resources are maintained in U.S. Treasury accounts. The disbursing ofﬁces of the Defense
Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers (USACE) and the Department of State’s
ﬁnancial service centers process the majority of the Army General Fund’s cash collections, disbursements and adjustments worldwide.
Each disbursing station prepares monthly reports that provide information to the U.S. Treasury on check issues, electronic fund transfers,
interagency transfers and deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by appropriation, on interagency
transfers, collections received and disbursements issued. The Department of the Treasury records this information to the applicable Fund
Balance with Treasury (FBWT) account. Differences between the Army General Fund’s recorded balance in the FBWT accounts and
Treasury’s FBWT accounts sometimes result and are subsequently reconciled.


1.J.      Foreign Currency
Cash is the total of cash resources under the control of the DoD, which includes coin, paper currency, negotiable instruments and amounts
held for deposit in banks and other ﬁnancial institutions. Foreign currency consists of the total U.S. dollar equivalent of both purchased and
nonpurchased foreign currencies held in foreign currency fund accounts.

The majority of cash and all foreign currency is classiﬁed as nonentity and, therefore, is restricted. Amounts reported consist primarily of
cash and foreign currency held by Disbursing Ofﬁcers to carry out their paying, collecting and foreign currency accommodation exchange
missions. Cash seized during Operation Iraqi Freedom is restricted for use to assist the Iraqi people and support the restoration of Iraq.

The Army General Fund conducts a signiﬁcant portion of its operations overseas. The Congress established a special account to handle the
gains and losses from foreign currency transactions for ﬁve general fund appropriations (operations and maintenance, military personnel,
military construction, family housing operations and maintenance, and family housing construction). The gains and losses are computed
as the variance between the exchange rate current at the date of payment and a budget rate established at the beginning of each ﬁscal year.
Foreign currency ﬂuctuations related to other appropriations require adjustments to the original obligation amount at the time of payment.
The Army General Fund does not separately identify currency ﬂuctuations.


1.K.      Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes accounts, claims and refunds receivable from other federal entities or from
the public. Allowances for uncollectible accounts due from the public are based upon analysis of collection experience by fund type. The
DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal agencies
are to be resolved between the agencies (per Code of Federal Regulations 4 CFR 101).

The Army General Fund bases the estimate of uncollectible accounts receivable from the public on percentage of aged receivables by
category. The allowance is calculated by using 50 percent of aged receivables, except foreign debt and debt as reported in the Defense Debt
Management System in the 180-day to 2-year category and 100 percent of aged receivables in the greater than 2-year category.
1.L.       Loans Receivable
Not Applicable


1.M.       Inventories and Related Property
Most of the Army General Fund’s inventories are currently reported at an approximation of historical cost using the latest acquisition cost
adjusted for holding gains and losses. The latest acquisition cost method is used because legacy inventory systems were designed for materiel
management rather than accounting. Although these systems provide visibility and accountability over inventory items, they do not maintain
historical cost data necessary to comply with the SFFAS No. 3, “Accounting for Inventory and Related Property.” Additionally, these
systems cannot produce ﬁnancial transactions using the USSGL, as required by the Federal Financial Management Improvement Act of 1996
(P.L. 104-208). By utilizing new systems development processes, the Army General Fund has transitioned, and is continuing to transition, the
inventory to the moving average cost method. The Army General Fund is uncertain of the percentage of inventory now being reported from
systems that have transitioned to moving average cost functionality. However, since the on-hand balances which transitioned were not, for
the most part, baselined to auditable historical cost, the reported values remain noncompliant with SFFAS 3 and GAAP.

The Army General Fund manages only military or government speciﬁc materiel under normal conditions. Items commonly used are available
from the commercial sector are not managed in the Army General Fund materiel management activities. Operational cycles are irregular, and
the military risks associated with stock-out positions have no commercial parallel. The Army General Fund holds materiel based on military
need and support for contingencies. Therefore, the DoD does not attempt to account separately for “inventory held for sale” and “inventory
held in reserve for future sale” based on SFFAS No. 3 deﬁnitions.

Related property includes operating materials and supplies (OM&S). The OM&S, including munitions not held for sale, are valued at
standard purchase price. The DoD uses both the consumption method and the purchase method of accounting for OM&S. Items that are
centrally managed and stored, such as ammunition and engines, are generally recorded using the consumption method and are reported on the
Balance Sheet as OM&S. When current systems cannot fully support the consumption method, the Army General Fund uses the purchase
method. Under this method, materials and supplies are expensed when purchased. During FY 2006, the Army General Fund expensed
signiﬁcant amounts using the purchase method because the systems could not support the consumption method or management deemed that
the item was in the hands of the end user.

The Army General Fund determined that the recurring high dollar value of OM&S in need of repair is material to the ﬁnancial statements
and requires a separate reporting category. Many high dollar items, such as aircraft engines, are categorized as OM&S rather than military
equipment.

The Army General Fund recognizes condemned material as “Excess, Obsolete, and Unserviceable.” The cost of disposal is greater than the
potential scrap value; therefore, the net value of condemned material is zero. Potentially redistributed material, presented in previous years as
“Excess, Obsolete, and Unserviceable,” is included in the “Held for Use” or “Held for Repair” categories according to its condition.

Past audits identiﬁed uncertainties about the completeness and existence of reported values of inventory. Inventory available and purchased
for resale includes consumable spare and repair parts and repairable items owned and managed by the Army General Fund. This inventory is
retained to support military or national contingencies. Inventory held for repair is damaged inventory that requires repair to make it suitable
for sale. It is more economical to repair than to procure these inventory items. Because the Army General Fund often relies on weapon
systems and machinery no longer in production, the Army General Fund supports a process that encourages the repair and rebuilding of
certain items. This repair cycle is essential to maintaining a ready, mobile and armed military force. Work in process balances include costs
related to the production or servicing of items, including direct material, direct labor, applied overhead and other direct costs. Work in process
also includes the value of ﬁnished products or completed services pending the submission of bills to the customer. The work in process
designation may also be used to accumulate the amount paid to a contractor under cost reimbursable contracts, including amounts withheld
from payment to ensure performance, and amounts paid to other government plants for accrued costs of end items of material ordered but not
delivered. Work in process includes munitions in production and depot maintenance work with its associated labor, applied overhead and
supplies used in the delivery of maintenance services.


1.N.       Investments in U.S. Treasury Securities
The Army General Fund reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums or
discounts amortize into interest income over the term of the investment using the effective interest rate method or another method obtaining
similar results. The Army General Fund’s intent is to hold investments to maturity, unless they are needed to ﬁnance claims or otherwise
sustain operations. Consequently, a provision is not made for unrealized gains or losses on these securities.

The Army General Fund invests in nonmarketable securities. The two types of nonmarketable securities are par value and market-based
intragovernmental securities. The Bureau of Public Debt issues nonmarketable par value intragovernmental securities. Nonmarketable,
market-based intragovernmental securities mimic marketable securities, but are not publicly traded.

                                                                                           46 FY 2006 United States Army Annual Financial Statement
                                                                     General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                     47
1.O.       General Property, Plant and Equipment
The Department is moving away from a standard capitalization threshold for all categories (e.g. real property, military equipment, etc.) of
General Property Plant, and Equipment (PP&E) to one that is speciﬁc for each individual category.

The Department revised the capitalization threshold from $100,000 to $20,000 for real property. The Army will validate existing real property
values and implement sustainable business processes prior to incorporating the revised capitalization threshold for ﬁnancial statement
reporting. The current $100,000 capitalization threshold remains unchanged for the remaining General PP&E categories.

General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has a useful life of two or
more years and the acquisition cost equals or exceeds the DoD capitalization threshold of $100,000. The DoD also requires capitalization
of improvement costs over the DoD capitalization threshold of $100,000 for General PP&E. The DoD depreciates all General PP&E, other
than land, on a straight-line basis.

Prior to FY 1996, General PP&E was capitalized if it had an acquisition cost of $15,000, $25,000, and $50,000 for ﬁscal years 1993, 1994,
and 1995, respectively, and an estimated useful life of two or more years. General PP&E previously capitalized at amounts below $100,000
were written off General Fund ﬁnancial statements in FY 1998. When it is in the best interest of the government, the Army General Fund
provides government property to contractors to complete contract work. The Army General Fund either owns or leases such property, or it
is purchased directly by the contractor for the government based on contract terms. When the value of contractor-procured General PP&E
exceeds the DoD capitalization threshold, it must be reported on the Army General Fund’s Balance Sheet.

The DoD is developing new policies and a contractor reporting process that will provide appropriate General PP&E information for future
ﬁnancial statement reporting purposes. Accordingly, the Army General Fund reports only government property in the possession of contractors
that is maintained in the Army General Fund’s property systems. The DoD has issued new property accountability and reporting requirements
that require Army General Fund Components to maintain, in their property systems, information on all property furnished to contractors. This
action and other DoD proposed actions are structured to capture and report the information necessary for compliance with Federal accounting
standards.

The SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment,” established generally accepted accounting
principles for valuing and reporting military equipment (e.g. ships, aircraft, combat vehicles, weapons) in federal ﬁnancial statements. The
standard provided for the use of estimated historical cost for valuing military equipment if obtaining actual historical cost information is not
practical. The Department estimated historical cost using the Bureau of Economic Analysis (BEA) estimates to calculate the value of the
military equipment for reporting periods from October 1, 2002 through March 31, 2006.

Effective 3rd Quarter, FY 2006, the Department is replacing the BEA estimation methodology with military equipment values based on
internal Departmental records. To create a baseline, the Department initially identiﬁed the universe of military equipment by accumulating
information relating to program funding and associated military equipment, equipment useful life, program acquisitions and disposals.
The military equipment baseline is updated using expenditure information, and information related to acquisition and logistics to identify
acquisitions and disposals.


1.P.       Advances and Prepayments
The Army General Fund records payments in advance of the receipt of goods and services as advances or prepayments and reports them as
assets on the Balance Sheet. The Army General Fund recognizes advances and prepayments as expenses when it receives the related goods
and services.


1.Q.       Leases
Lease payments for the rental of equipment and operating facilities are classiﬁed as either capital or operating leases. When a lease is
essentially equivalent to an installment purchase of property (a capital lease), the Army General Fund records the applicable asset and liability
if the value equals or exceeds the current capitalization threshold. The Army General Fund records the amounts as the lesser of the present
value of the rental and other lease payments during the lease term (excluding portions representing executory costs paid to the lessor) or the
asset’s fair market value. The discount rate for the present value calculation is either the lessor’s implicit interest rate or the governmental’s
incremental borrowing rate at the inception of the lease. The Army General Fund as the lessee receives the use and possession of leased
property, for example real estate or equipment, from a lessor in exchange for a payment of funds. An operating lease does not substantially
transfer all the beneﬁts and risk of ownership. Payments for operating leases are charged to expense over the lease term as it becomes
payable.

Ofﬁce space and leases entered into by the Army General Fund in support of contingency operations are the largest component of operating
leases. These costs were gathered from existing leases, General Service Administration (GSA) bills and Inter-service Support Agreements.
Future year projections use the Consumer Price Index (CPI), rather than the DoD inﬂation factor. The CPI impacts increases to the leases,
especially those at commercial lease sites. Equipment leases have a variety of lease terms which are not expected to be renewed upon
expiration. Other operating leases are generally one-year leases. The Army General Fund expects to continue to reduce the level of owned
assets while increasing the number of leased assets. The Army General Fund will strive to replace commercial leases with more economical
GSA leases.


1.R.       Other Assets
The Army General Fund conducts business with commercial contractors under two primary types of contracts: ﬁxed price and cost reimbursable.
To alleviate the potential ﬁnancial burden on the contractor that long-term contracts can cause, the Army General Fund provides ﬁnancing
payments. One type of ﬁnancing payment that the Army General Fund makes for real property is based upon a percentage of completion. In
accordance with the SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” such payments are treated as construction in process and
are reported on the General PP&E line on the Balance Sheet and in the related note.

Other assets include those assets, such as military and civil service employee pay advances, travel advances, and contract ﬁnancing payments,
that are not reported elsewhere on the Department’s Balance Sheet.

Contract ﬁnancing payments are deﬁned in the Federal Acquisition Regulations (FAR), Part 32, as authorized disbursements of monies to a
contractor prior to acceptance of supplies or services by the Government. These payments are designed to alleviate the potential ﬁnancial
burden on contractors performing on certain long-term contracts and facilitate competition for defense contracts. Contract ﬁnancing payments
clauses are incorporated in the contract terms and conditions and may include advance payments, performance-based payments, commercial
advance and interim payments, progress payments based on cost, and interim payments under certain cost-reimbursement contracts. Contract
ﬁnancing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or progress payments
based on a percentage or stage of completion, which the Defense Federal Acquisitions Regulations Supplement (DFARS) authorizes only
for construction of real property, shipbuilding, and ship conversion, alteration, or repair. Progress payments for real property and ships are
reported as Construction in Progress in Note 10.


1.S.       Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition of Contingent
Liabilities Arising from Litigation,” deﬁnes a contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future events occur or fail to occur. The Army
General Fund recognizes contingent liabilities when past events or exchange transactions occur, a future loss is probable and the loss amount
can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least a reasonable
possibility of incurring a loss or additional losses. Examples of loss contingencies include the collectibility of receivables, pending or
threatened litigation and possible claims and assessments. The Army General Fund’s loss contingencies arise as a result of pending or
threatened litigation or claims; and assessments occur due to events such as aircraft, ship and vehicle accidents, medical malpractice, property
or environmental damages, and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for the Army General Fund’s assets. This type of liability has two components:
nonenvironmental and environmental. Consistent with SFFAS No. 6, “Accounting for Property, Plant, and Equipment,” recognition of an
anticipated environmental disposal liability begins when the asset is placed into service. Nonenvironmental disposal liabilities are recognized
when management decides to dispose of an asset based upon the DoD’s policy, which is consistent with SFFAS No. 5, “Accounting for
Liabilities of Federal Government.” The DoD recognizes nonenvironmental disposal liabilities for military equipment nuclear-powered
assets when placed into service. Such amounts are developed in conjunction with, and not easily identiﬁable separately from, environmental
disposal costs.




                                                                                         48 FY 2006 United States Army Annual Financial Statement
                                                                     General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                     49
1.T.       Accrued Leave
The Army General Fund reports as liabilities military leave and civilian earned leave, except sick leave that has been accrued and not used
as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the accounting period reﬂects the current
pay rates.


1.U.       Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of authority that are unobligated and have not been rescinded or withdrawn. Unexpended
appropriations also represent amounts obligated for which legal liabilities for payments have not been incurred.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses and ﬁnancing
sources (including appropriations, revenue, and gains). Beginning with FY 1998, the cumulative results also include donations and transfer
in and out of assets without reimbursement.


1.V.       Treaties for Use of Foreign Bases
The Army General Fund has the use of land, building, and other overseas facilities that are obtained through various international treaties
and agreements negotiated by the Department of State. The Army General Fund purchases capital assets overseas with appropriated funds;
however, the host country retains title to land and improvements. Generally, treaty terms allow the Army General Fund continued use of these
properties until the treaties expire. In the event treaties or other agreements are terminated, whereby use of the foreign bases is prohibited,
losses are recorded for the value of any nonretrievable capital assets. This takes place after negotiations between the U.S. and the host country
have determined the amount to be paid the U.S. for such capital investments.


1.W.       Comparative Data
Balance Sheet and Statement of Net Cost ﬂuctuations greater than two percent of total assets on the Balance Sheet or ten percent from the
prior period presented are explained within the notes to the ﬁnancial statements.


1.X.       Unexpended Obligations
The Army General Fund obligates funds to provide goods and services for outstanding orders not yet delivered. The ﬁnancial statements do
not reﬂect this liability for payment for goods and services not yet delivered.


1.Y.       Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the transaction level
to a speciﬁc obligation, payable, or receivable in the activity ﬁeld records as opposed to those reported by the U.S. Treasury. These amounts
should agree with the undistributed amounts reported on the departmental accounting reports. In-transit payments are those payments that
have been made to other agencies or entities that have not been recorded in their accounting records. These payments are applied to the
entities’ outstanding accounts payable balance. In-transit collections are those collections from other agencies or entities that have not been
recorded in the accounting records. These collections are also applied to the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal categories based on the
percentage of federal and nonfederal accounts payable and accounts receivable. Unsupported undistributed disbursements are recorded in
accounts payable. Unsupported undistributed collections are recorded in other liabilities. The Army General Fund follows this procedure.
Unsupported undistributed collections and disbursements represent collections and disbursements that are not in agreement with accounting
records. These are normally reconciled in the following month.


1.Z.       Development Fund for Iraq
On June 28, 2004, transfer of power from the Coalition Provisional Authority (CPA) to the Interim Iraqi Government (IIG) occurred. Prior
to the transfer, the CPA was responsible for the management and accounting of the Development Fund for Iraq (DFI). Ongoing resolution
of issues surrounding transfers of approximately $1.7 billion of DFI assets, including $86 million transferred from IIG to the Multi-National
Force-Iraq in August 2004, will require additional disclosure in future ﬁnancial statements. The Army General Fund has established a plan to
reconcile and account for these amounts and record DFI funds received. As of the 4th Quarter, FY 2006, Army General Fund has reconciled
the $86 million transferred from IIG. The Army General Fund has recorded a total of $136 million in DFI assets, which includes the
$86 million reconciled and a $50 million transfer in 1st Quarter, FY 2005. See Note 22 for additional discussion on DFI.
Note 2.         Nonentity Assets
 As of September 30                                                        2006                                        2005
 (Amounts in thousands)


 1. Intragovernmental Assets
    A. Fund Balance with Treasury                         $                              202,731       $                             294,283
    B. Accounts Receivable                                                                     0                                           0
    C. Total Intragovernmental Assets                     $                              202,731       $                             294,283

 2. Nonfederal Assets
    A. Cash and Other Monetary Assets                     $                           1,784,810        $                           1,482,046
    B. Accounts Receivable                                                               50,670                                       53,773
    C. Other Assets                                                                           0                                            0
    D. Total Nonfederal Assets                            $                           1,835,480        $                           1,535,819


 3. Total Nonentity Assets                                $                           2,038,211        $                           1,830,102

 4. Total Entity Assets                                   $                         224,547,274        $                        207,554,225


 5. Total Assets                                          $                         226,585,485        $                        209,384,327

Fluctuations and/or Abnormalities
Total Nonentity Assets increased $208.1 million, or 11 percent, from FY 2005 to FY 2006 primarily caused by an increase in cash and other
monetary assets, which increased $302.8 million due to advances from the Republic of Korea received during FY 2006 for engineering
and construction work to be done by the U.S. Army Corps of Engineers. In addition, Fund Balance with Treasury decreased $91.6 million,
or 31 percent, from FY 2005 to FY 2006 due to decreases in Nonentity Seized Iraqi Cash and Nonentity Other.

Fund Balance with Treasury Nonentity Seized Iraqi Cash decreased $31.2 million, or 51 percent from FY 2005 to FY 2006 due to
disbursements in support of the Iraqi people throughout the ﬁscal year. Disbursements will continue until all cash is liquidated. A breakout
of the disbursements is reﬂected in Note 22.

Fund Balance with Treasury Nonentity Other includes development funds for Iraq and deposit funds. Fund Balance with Treasury Nonentity
Other decreased $60.4 million, or 26 percent, from FY 2005 to FY 2006, primarily caused by a decrease in the Army Member Savings
Deposit accounts of $91.4 million as a result of transferring accrued funds to the account steward, the Department of the Navy, in 4th Quarter,
FY 2006. The Department of the Navy is responsible for making the disbursements to the military service members. In addition, the Army
General Fund implemented Ofﬁce of the Secretary of Defense guidance to reclassify Thrift Savings Plan suspense accounts as nonentity in
3rd Quarter, FY 2006 resulting in a $31.3 million increase.

Deﬁnitions
Nonentity assets are assets for which the Army General Fund maintains stewardship accountability and responsibility to report, but are not
available for the Army General Fund’s operation.

Nonentity Fund Balance with Treasury consists of deposit funds, seized Iraqi cash and development fund for Iraq. Deposit funds are generally
used to record amounts held temporarily until paid to the appropriate government or public entity. Seized Iraqi cash is former Iraqi regime
monies conﬁscated by coalition forces. The development fund for Iraq consists of proceeds from Iraqi oil sales, repatriated assets from the
United States and other nations, and deposits from unencumbered oil-for-food program funds.

Nonentity Cash and Other Monetary Assets consist of cash held by disbursing ofﬁcers to carry out their paying, collecting, and foreign
currency accommodation exchange missions. Foreign currency is valued using the Department of the Treasury prevailing rate of exchange.

Nonentity Nonfederal Accounts Receivable are primarily from cancelled year appropriations. These receivables will be returned to the
Department of the Treasury as miscellaneous receipts once collected.




                                                                                         50 FY 2006 United States Army Annual Financial Statement
                                                                  General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  51

Note 3.           Fund Balance with Treasury
 As of September 30                                                                  2006                                   2005
 (Amounts in thousands)


 1. Fund Balances
    A. Appropriated Funds                                             $                     94,368,206        $                     86,709,695
    B. Revolving Funds                                                                          19,851                                  47,069
    C. Trust Funds                                                                               1,051                                     798
    D. Special Funds                                                                            41,090                                  41,472
    E. Other Fund Types                                                                        202,731                                 294,283
     F. Total Fund Balances                                           $                     94,632,929        $                     87,093,317


 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                                      $                     95,471,092        $                     87,794,995
    B. Fund Balance per Army                                                                94,632,929                              87,093,317

 3. Reconciling Amount                                                $                         838,163       $                         701,678


Fluctuations and/or Abnormalities
Entity Fund Balance with Treasury increased $7.6 billion, or 9 percent, from FY 2005 to FY 2006 primarily due to an increase in the DoD
appropriations received in FY 2006. Appropriations received increased to ensure that resources, equipment, and supplies remain available
without interruption in support of Operation Iraqi Freedom and Operation Enduring Freedom. The increase also funds an increase in military
basic pay and in basic allowance for housing. Finally, the increase provides funds for the procurement of equipment to address immediate
shortfalls for the National Guard and Reserve, for armor and personal protection equipment, and training and equipment for Afghan and Iraqi
Security Forces.

Reconciling Amount
The Department of the Treasury reports an additional $838.2 million in Fund Balance with Treasury than reported by the Army General Fund.
This includes $702.9 million in canceling year authority, $164.9 million in unavailable receipts, and $30.6 million in a transfer fund where
Army General Fund executes the funding on behalf of the Executive Ofﬁce of the President and the Department of Transportation that is not
included in Army General Fund’s Fund Balance with Treasury. In addition, $60.2 million in transfer funds are reported by the Department
of the Treasury under the Department of Transportation and Department of Agriculture whereas the Army General Fund includes these funds
in its Treasury balance.

Vested Iraqi Cash
The Army General Fund has collected $1.7 billion of Vested Iraqi Cash which is included in the $94.4 billion in appropriated funds. These
funds are Iraqi funds in U.S. banks that were frozen by Executive Order, vested in the Department of the Treasury and authorized for use to
beneﬁt the people of Iraq. The Army General Fund disbursed $1.7 billion in support of the Iraqi people as follows:

 Vested Iraqi Cash                                                                  Amount
 (Amounts in thousands)                                                          $1,724,131
 Collected
 Disbursed
 Iraqi Salaries                                                                  $1,184,791
 Repair/Reconstruction/Humanitarian Assistance                                      148,923
 Iraqi Ministry Operations (Ministry of Finance, Defense, etc.)                     356,818
 Total Disbursed                                                                 $1,690,532
 Remaining Funds                                                                    $33,599
Other Fund Types
Other Fund Types consists of deposit funds, seized Iraqi cash and development fund for Iraq. Deposit funds are generally used to record
amounts held temporarily until paid to the appropriate government or public entity. Seized Iraqi cash is former Iraqi regime monies conﬁscated
by coalition forces. The development fund for Iraq consists of proceeds from Iraqi oil sales, repatriated assets from the United States and other
nations, and deposits from unencumbered oil-for-food program funds.

Canceling Appropriated Funds
As of September 2006, the Army withdrew $702.9 million in canceling appropriated funds in accordance with the Department of the
Treasury’s policy.


Status of Fund Balance with Treasury
  As of September 30                                                         2006                                       2005
  (Amounts in thousands)

  1. Unobligated Balance
     A.    Available                                       $                           14,884,671      $                          13,678,958
     B.    Unavailable                                                                  2,140,616                                  1,799,859

  2. Obligated Balance not yet Disbursed                   $                           90,155,105      $                          80,720,880

  3. Nonbudgetary FBWT                                     $                             4,592,476     $                           7,250,455


  4. NonFBWT Budgetary Accounts                            $                          (17,139,939)     $                        (16,354,933)

  5. Total                                                 $                           94,632,929      $                          87,095,219

Fluctuations and/or Abnormalities
Total Status of Fund Balance with Treasury increased $7.5 billion, or 9 percent, from FY 2005 to FY 2006 primarily due to increased
appropriations received in FY 2006. Appropriations received increased in Army General Fund’s operation and maintenance to fully fund key
readiness programs critical to the Global War on Terror, in military pay due to an overall pay increase and an increase in basic allowance for
housing to eliminate out-of-pocket expenses for military personnel, and for the procurement of equipment to address immediate shortfalls for
the National Guard and Reserve.

Deﬁnitions
The Status of Fund Balance with Treasury consists of unobligated and obligated balances. These balances reﬂect the budgetary authority
remaining for disbursements against current or future obligations. In addition, the Status includes various accounts that affect either budgetary
reporting or Fund Balance with Treasury, but not both.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover outstanding obligations.
Unobligated Balance is classiﬁed as available or unavailable and is associated with appropriations expiring at ﬁscal year end that remain
available only for obligation adjustments until the account is closed. The Army General Fund does not have any restrictions on unobligated
balances.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been received or services that have
not been performed.

Nonbudgetary Fund Balance with Treasury includes entity and nonentity Fund Balance with Treasury accounts which do not have budgetary
authority, such as unavailable receipt accounts or clearing accounts.

Non-Fund Balance with Treasury Budgetary Accounts include budgetary accounts that do not affect Fund Balance with Treasury, such as
contract authority, borrowing authority, and investment accounts. This category reduces the Status of Fund Balance with Treasury.




                                                                                          52 FY 2006 United States Army Annual Financial Statement
                                                                  General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  53
Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                                                                (Decrease)/
  As of September 30                                                   2004              2005               2006               Increase from
                                                                                                                              FY 2005 - 2006
  (Amounts in thousands)

 Account
  F3845 – Personal Property Proceeds                               $           0     $          931 $             360     $               (571)
  F3875 – Disbursing Officer Suspense                                          0           (27,176)          555,556                    582,732
  F3880 – Lost or Cancelled Treasury Checks                                    0              7,973            19,311                    11,338
  F3882 – Uniformed Services Thrift Savings Plan Suspense                  (820)             25,084            31,181                     6,097
  F3885 – Interfund/IPAC Suspense                                              0           (36,501)          (24,652)                    11,849
  F3886 – Thrift Savings Plan Suspense                                       187                117                72                     ( 45)

 Total                                                             $       (633)     $     (29,572) $        581,828      $             611,400

Fluctuations and/or Abnormalities
Suspense/Budget Clearing accounts increased $611.4 million, or 2,070 percent, from FY 2005 to FY 2006 primarily due to the $582.7 million
increase in F3875 caused by a timing difference in the disbursement of military and civilian payroll taxes. In 4th Quarter, FY 2006, this
account included individual income and Federal Insurance Contributions Act (FICA) tax withholdings, whereas 4th Quarter, FY 2005 payroll
tax withholdings were disbursed prior to the end of the accounting period. Disbursement for the payroll withholdings related to individual
income and FICA tax for FY 2006 is expected in October 2006.

A substantial amount of increases/decreases in the suspense accounts from FY 2004 to FY 2005, reﬂects a change in year end recording. In
the past, at the end of each ﬁscal year most suspense/budget clearing accounts were reduced to zero (as required by the Department of the
Treasury) by transferring the balances to proper appropriation accounts. For FY 2005 the Ofﬁce of Management and Budget requested the
departments to not reduce the budget clearing accounts to zero at year end.

The Army General Fund transferred the following accounts to their Operation and Maintenance Account for FY 2004 (amounts in
thousands):

                            Accounts                                        FY 2004
 (Amounts in thousands)
 F3845                        Personal Property Proceeds                       $3,805
 F3875                        Disbursing Ofﬁcer Suspense                       37,389
 F3880                        Lost or Cancelled Treasury Checks                33,815
 F3885                        Interfund/IPAC Suspense                         (18,896)

Deﬁnitions
The F3845 suspense account represents the balance of proceeds from the sale of personal property.

The F3875 suspense clearing account represents the Disbursing Ofﬁcer’s suspense, which includes military pay’s Federal Income tax
withholding monies.

The F3880 suspense account represents the balance of Treasury checks that have either been lost by the payee and need to be reissued,
have never been cashed by the payee, or have been cancelled by the Department of the Treasury and need to be transferred to the original
appropriation.

The F3882 suspense account was established for the Uniformed Services Thrift Savings Plan in FY 2002. The amounts in this account
represent a timing difference between the posting of the Thrift Savings Plan deductions by the National Finance Center and the posting of
these amounts in the military accounting systems in the following month.

The F3885 suspense account includes the Interfund and Intragovernmental Payment and Collections (IPAC) suspense.

The F3886 suspense account includes payroll deductions for civilian employees Thrift Savings Plan.
Disclosures Related to Problem Disbursements and In-Transit Disbursements
                                                                                                                             (Decrease)/
  As of September 30                                                2004             2005               2006                Increase from
                                                                                                                           FY 2005 to 2006
  (Amounts in thousands)

 1. Total Problem Disbursements, Absolute Value
      A. Unmatched Disbursements (UMDs)                         $      69,858 $          120,703 $              44,409 $             (76,294)
      B. Negative Unliquidated Obligations (NULO)                      24,424             20,927                15,445                (5,482)

 2. Total In-transit Disbursements, Net                         $ 1,652,211 $          1,143,441 $       1,942,899 $                 799,458

Fluctuations and/or Abnormalities
Absolute UMDs decreased $76.3 million, or 63 percent, from FY 2005 to FY 2006 primarily due to a change in process in FY 2006 where
contingency disbursing stations in Iraq and Kuwait process payments via an electronic ﬁle rather than shipping vouchers via postal service.
Consequently, the unmatched disbursements decreased due to the enhanced timing of posting disbursements into the accounting system and
with the Department of the Treasury. In addition, changes were completed to an Automatic Reject Control System during FY 2006, which
led to quicker isolation of problems, implementation of corrective actions, and an increase of the automatic posting rate of Mechanization of
Contract Administration Services disbursements.

Absolute NULO decreased $5.5 million, or 26 percent, from FY 2005 to FY 2006 primarily due to Military Pay operations change in
procedure in 1st Quarter, FY 2006 to report obligations by the speciﬁc ﬁscal station, as opposed to open allotment level allowing more
oversight of obligations at a detailed level.

Net In-transit disbursements increased $799.5 million, or 70 percent, from FY 2005 to FY 2006 primarily due to Mechanization of Contract
Administration Services ﬁles for payments received that did not get loaded into the accounting system before September 30, 2006.

Deﬁnitions
Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign.

Unmatched Disbursements (UMDs) occur when payments do not match to a corresponding obligation in the accounting system.

Negative Unliquidated Obligations (NULOs) occur when payments have a valid obligation but the payment is greater than the amount of the
obligation recorded in the ofﬁcial accounting system. These payments use available funds for valid receiving reports on delivered goods and
services under valid contracts.

In-Transits represent the net value of disbursements and collections made by a DoD disbursing activity on behalf of an accountable activity,
but not yet attempted to be posted in an accounting system.

Aged UMDs, NULOs, and In-transits
The Army General Fund absolute value UMDs, NULOs, and $8.8 million in aged in-transit disbursements represent problem disbursements.
UMDs and NULOs are considered to be problem disbursements immediately, while in-transits are considered normal business activity up to
the 30-day aging category. After 30 days, they are considered problem disbursements.

Problem disbursements related to Foreign Military Sales
In FY 2006, Army General Fund problem disbursements included $9.5 thousand, $799.5 million, and $2.3 billion in UMDs, NULOs, and
total in-transit disbursements, respectively, that are associated with foreign military sales.




                                                                                         54 FY 2006 United States Army Annual Financial Statement
                                                                     General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                     55

Note 4.         Investments and Related Interest

                                                                                                 2006
 As of September 30                                                                             Amortized                                 Market
                                                                     Amortization                                   Investments,
                                                     Cost                                      (Premium) /                                Value
                                                                       Method                                           Net
                                                                                                 Discount                               Disclosure
 (Amounts in thousands)


 1. Intragovernmental Securities
    A. Nonmarketable, Market-Based              $         3,337     Effective interest   $                    46 $           3,383 $            3,380
    B. Accrued Interest                                      24                                                                 24                 24
    C. Total Intragovernmental Securities       $         3,361                          $                    46 $           3,407 $            3,404

 2. Other Investments
    A. Total Investments                        $             0                          $                     0 $                0              N/A

 3. Intragovernmental Securities
    A. Nonmarketable, Market-Based              $         3,463     Effective interest   $                    14 $           3,477 $            3,471
    B. Accrued Interest                                      18                                                                 18                 18
    C. Total Intragovernmental Securities       $         3,481                          $                    14 $           3,495 $            3,489


Relevant Information for Comprehension
The Army Gift Fund was established to control and account for the disbursement and use of monies donated to Army General Fund along with
the interest received from the investment of such donations. The related earnings are allocated to appropriate Army General Fund activities to
be used in accordance with the directions of the donor. These funds are recorded as Non-Marketable Market-Based U.S. Treasury Securities,
which are not traded on any securities exchange, but mirror the prices of marketable securities with similar terms.

The Federal Government does not set aside assets to pay future beneﬁts or other expenditures associated with earmarked funds. The cash
receipts collected from the public for an earmarked fund are deposited in the Department of the Treasury, which uses the cash for general
government purposes. The Department of the Treasury securities are issued to the Army General Fund as evidence of its receipts. Treasury
securities are an asset to the Army General Fund and a liability to the Department of the Treasury. Because the Army General Fund and
the Department of the Treasury are both parts of the Government, these assets and liabilities offset each other from the standpoint of the
government as a whole. For this reason, they do not represent an asset or a liability in the U.S. Government-wide ﬁnancial statements. The
Department of the Treasury securities provides the Army General Fund with authority to draw upon the Department of the Treasury to make
future beneﬁt payments or other expenditures. When Army General Fund requires redemption of these securities to make expenditures, the
government ﬁnances those expenditures out of accumulated cash balances, by raising taxes or other receipts, by borrowing from the public or
repaying less debt, or by curtailing other expenditures. This is the same way that the government ﬁnances all other expenditures.


Note 5.         Accounts Receivable
                                                                                         2006                                            2005
 As of September 30                                                                  Allowance For
                                                          Gross Amount                                       Accounts               Accounts
                                                                                      Estimated
                                                                 Due                                      Receivable, Net        Receivable, Net
                                                                                     Uncollectibles
 (Amounts in thousands)


 1. Intragovernmental Receivables                     $            357,182       $                 N/A   $           357,182      $        276,634
 2. Nonfederal Receivables (From the Public)          $            752,367       $           (124,646)   $           627,721      $        584,005


 3. Total Accounts Receivable                         $           1,109,549      $           (124,646)   $           984,903      $        860,639

Fluctuations and/or Abnormalities
Intragovernmental Receivables increased $80.5 million, or 29 percent, from FY 2005 to FY 2006 primarily due to a $90 million increase with
Defense Agencies. The receivables with Defense Agencies increased due to research and development performed for advanced component
prototypes in support of Soldier Biological and Chemical Command and due to increases in operation support for land force readiness,
speciﬁcally base operations during FY 2006. Army General Fund can not identify the speciﬁc Defense Agency associated with the increases
due to the implementation of a change in allocation methodology for intragovernmental receivables to Defense Agencies in 1st Quarter,
FY 2006.

Relevant Information for Comprehension
Non-Federal Receivables (from the Public) consists of accounts receivable, refunds receivable, claims receivable, and interest receivable.
The following schedule illustrates the major contributors to Gross Amount Due from Non-Federal Accounts Receivable (from the Public),
by type of debt:

 Type of Debt
 (Amounts in thousands)
 Military Pay (In Service Debt Only)                                                            $124,103
 Civilian Pay (In Service Debt Only)                                                               34,311
 Individual Out-of-Service                                                                        198,197
 Contractor Debt                                                                                  128,734
 Vendor Debt                                                                                        1,194
 Non Appropriated Funds                                                                            40,890
 Foreign Military Sales (FMS)                                                                      29,930
 Non FMS Foreign Government Indebtedness                                                           71,695
 Sales of Goods & Services (Excluding Referrals to CDS - Columbus)                                 30,295
 Interest, Penalty and Administrative                                                              38,230
 Other                                                                                             54,813
     Subtotal                                                                                   $752,392
 Undistributed Collections Public                                                                     (25)
     Gross Non-Federal Accounts Receivable (Public)                                             $752,367




                                                                                      56 FY 2006 United States Army Annual Financial Statement
                                                                        General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                        57
Aged Accounts Receivable
                                                                2006                                                      2005
 As of September 30
                                            Intragovernmental               Nonfederal                Intragovernmental              Nonfederal
 (Amounts in thousands)

           CATEGORY
 Nondelinquent
     Current                            $           1,311,916       $                454,202      $            1,168,045       $              386,915
     Noncurrent                                             0                              0                           0                            0
 Delinquent
     1 to 30 days                       $                1,400      $                   1,270     $                29,384      $                4,772
     31 to 60 days                                         834                         10,481                         570                      10,910
     61 to 90 days                                       2,486                         20,184                       5,137                      28,836
     91 to 180 days                                      4,042                         25,401                       9,303                      68,398
     181 days to 1 year                                  6,506                         20,895                       2,756                     103,908
     Greater than 1 year and less
     than or equal to 2 years                            2,714                         40,034                          207                      54,541
     Greater than 2 years and less
     than or equal to 6 years                                   0                      51,565                             0                     39,808
     Greater than 6 years and less
     than or equal to 10 years                                  0                    117,830                              0                     67,020
     Greater than 10 years                                      0                     10,528                              0                      7,664
 Subtotal                               $           1,329,898       $                752,390      $            1,215,402       $              772,772
    Less Supported
    Undistributed
    Collections                                       (35,470)                            (23)                     52,512                     (63,039)
    Less Eliminations                                (937,246)                               0                  (991,280)                            0
    Less Other                                               0                               0                          0                            0
 Total                                  $             357,182       $                752,367      $               276,634      $              709,733

Nondelinquent accounts receivable are receivables not yet due under the contract or billing documents pertaining to the receivable. Current
nondelinquent accounts receivable are those that are due in the next 12 months. Noncurrent nondelinquent accounts receivable are those
amounts that are due beyond the next 12 months. Delinquent accounts receivable are aged from the date the account is considered delinquent
as outlined in the DoD Financial Management Regulations.

The majority of intragovernmental accounts receivable are in current status. Of the $18 million delinquent, $10 million is related to debt with
the other DoD entities, $8 million is related to a charge back for lack of or improper documentation from the Federal Emergency Management
Agency (FEMA), and $1 million has been identiﬁed to the U.S. Coast Guard Medical Facilities. The DoD entities are receiving monthly
30 day delinquent notices until receivables are collected. Documentation is being collected for resubmission of the bills to FEMA. The Coast
Guard payment process takes about eight weeks and is expected in early FY 2007.

The majority of nonfederal accounts receivable are in current status. Of the $298.2 million delinquent, $86.9 million is in litigation with the
Deferment/Contract Appeals Board, $159.6 million is in the Department of the Treasury’s litigation board, $5 million in bankruptcy court,
$1.4 million at the Department of Justice and $45.3 million being actively pursued by Army with expected collection during the 1st Quarter,
FY 2007.

The abnormal Supported Undistributed Collections of $52.5 million reported in FY 2005 intragovernmental receivables represents an
accounting error that was corrected in FY 2006.
Note 6.         Other Assets

 As of September 30                                                               2006                                     2005
 (Amounts in thousands)


 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                   $                           601,861      $                           824,303
    B. Other Assets                                                                                 0                                        0
    C. Total Intragovernmental Other Assets                       $                           601,861      $                           824,303

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                    $                         5,310,457      $                         3,470,563
    B. Other Assets (With the Public)                                                         384,228                                  373,961
    C. Total Nonfederal Other Assets                              $                         5,694,685      $                         3,844,524


 3. Total Other Assets                                            $                         6,296,546      $                         4,668,827


Fluctuation and/or Abnormalities
Intragovernmental advances and prepayments decreased $222.4 million, or 27 percent, from FY 2005 to FY 2006. The entire decrease is a
result of advances with the Department of Interior. Based on a DoD review of Department of Interior’s advances, advances were returned to
the Army General Fund during the 3rd Quarter, FY 2006.

Nonfederal Other Assets increased $1.9 billion, or 48 percent, from FY 2005 to FY 2006 primarily due to $1.1 billion in outstanding contract
ﬁnancing payments for the procurement of Patriot Missiles and Bradley Combat Vehicles in support of the Global War on Terror during
FY 2006 and $780.5 million in Mechanization of Contract Administration Services contingent ﬁnancing payments ﬁrst recorded in the
4th Quarter, FY 2006.

Other Assets (with the public) largely consists of military pay and travel advances.

Other Relevant Information
Contract terms and conditions for certain types of contract ﬁnancing payments convey certain rights to the Department that protect the
contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property, or disposition in bankruptcy;
however, these rights should not be misconstrued to mean that ownership of the contractor’s work has transferred to the Government. The
Government does not have the right to take the work, except as provided in contract clauses related to termination or acceptance, and the
Department is not obligated to make payment to the contractor until delivery and acceptance of a satisfactory product.

The Contract Financing Payment balance of $5.3 billion is comprised of $4.5 billion in contract ﬁnancing payments and an additional
$780.5 million in estimated future payments that will be paid to the contractor upon future delivery and Government acceptance of a
satisfactory product.


Note 7.         Cash and Other Monetary Assets

 As of September 30                                                                        2006                               2005
 (Amounts in thousands)


 1. Cash                                                                      $                      980,861     $                    1,010,331
 2. Foreign Currency                                                                                 803,949                            471,715

 3. Total Cash, Foreign Currency, & Other Monetary Assets                     $                   1,784,810      $                    1,482,046




                                                                                           58 FY 2006 United States Army Annual Financial Statement
                                                                   General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                   59
Fluctuations and/or Abnormalities
Cash and Other Monetary Assets increased $302.8 million, or 20 percent, from FY 2005 to FY 2006 due to an increase in advances from the
Republic of Korea for engineering and construction work to be done by the U.S. Army Corps of Engineers. Construction projects include
upgrading electrical systems, water and sewer systems, housing, schools, fences, and bridges on various bases in Korea. The ﬁrst increase
occurred in 3rd Quarter, FY 2006 with the receipt of an advance of $249.6 million with the remaining advance of $125.2 million occurring
in 4th Quarter, FY 2006. Disbursements of $41.6 million and $9.0 million were incurred against these advances in the 3rd and 4th Quarters
respectively resulting in the net increase of $324.2 million.

Deﬁnitions
Cash – The total of cash resources under the control of the Army General Fund, which includes coin, paper currency, negotiable instruments,
and amounts on deposit in banks and other ﬁnancial institutions. Cash available for agency use includes petty cash funds and cash held in
revolving funds which will not be transferred into the U.S. Government General Fund.

Foreign Currency – The total U.S. dollar equivalent of purchased and non-purchased foreign currencies held in foreign currency fund
accounts.

Other Monetary Assets - Gold, special drawing rights, and U.S. Reserves in the International Monetary Fund. This category is principally for
use by the Department of the Treasury and is not used by Army General Fund.

Other Information Related to Cash and Other Monetary Assets
Cash and foreign currency reported consists primarily of cash held by disbursing ofﬁcers to carry out their paying, collecting, and foreign
currency accommodation exchange mission. Foreign currency is valued using the Department of the Treasury Prevailing Rate of Exchange.
This rate is the most favorable rate that would legally be available to the U.S. Government’s acquisition of foreign currency for its ofﬁcial
disbursements and accommodation of exchange transactions. All Army General Fund cash and foreign currency is nonentity and is therefore
restricted.

Breakdown of Cash
Cash and foreign currency are broken down into the elements shown in the table below:

 Breakdown of Cash                           U.S. $ / Negotiable Instruments                Foreign Currency
 (Amounts in thousands)
 Cash on Deposit in Bank                                           $240,019                          $802,170
 Cash on Hand                                                       256,305                                985
 Cash – Undeposited Collections                                            74                                 0
 Custody of Contingency Cash                                             885                                  0
 Cash in Transit                                                      17,626                                  0
 Cash – Other                                                          3,298                                  0
 Cash adjustments                                                      2,195                                  0
 Total Cash on Hand                                                $520,402                          $803,155
 Total Cash in Custody of Agents                                    460,459                                794
 Total Cash                                                        $980,861                          $803,949

The amount reported as Cash in the Custody of Agents, $461.3 million, reﬂects cash provided to the disbursing agents. However, due to
inherent timing differences based on location, this amount is not properly reduced by agent disbursements thus causing the Disbursing
Ofﬁcer’s cash to be subject to overstatement.
Note 8.           Direct Loan and/or Loan Guarantee Programs
As of September 30

Direct Loan and/or Loan Guarantee Programs The entity operates the following direct loan and/or Loan guarantee program(s)
         Military Housing Privatization Initiative
         Armament Retooling & Manufacturing Support Initiative

The Federal Credit Reform Act of 1990 governs all amended loan guarantee commitments made after FY 1991 resulting in loan guarantees.

Loan guarantee liabilities are reported at the net present value. The cost of the loan guarantee is the net present value of the following
estimated projected cash ﬂows:
     – Payments by the Department to cover defaults and delinquencies, interest subsidies, or other payments; offset by
     –    Payments to the Department including origination and other fees, penalties and recoveries.

Armament Retooling and Manufacturing Support Initiative
The Armament Retooling and Manufacturing Support Initiative (ARMS), Title 10 United States Code 4551-4555, is designed to encourage
commercial use of the Army General Fund’s inactive ammunition plants through many incentives for businesses willing to locate to a
government ammunition production facility. These facilities have production capacity greater than the current military requirements;
however, this capacity could be needed in the event of a major war. The revenues from the property rental are used to pay for the operation,
maintenance, and environmental clean up at the facilities. This savings in overhead cost lowers the production cost of the goods manufactured
and funds the environmental clean up at no cost to the government.

The Army General fund, by means of ARMS Initiative legislation, established a loan guarantee program to facilitate commercial ﬁrms’ use
of speciﬁed ammunition manufacturing facilities. The Army and the Department of Agriculture Rural business-Cooperative Service (RBS)
established a Memorandum of Understanding for the RBS to administer the ARMS Initiative Loan Guarantee Program.


Direct Loans Obligated After FY 1991
Not applicable.


Total Amount of Direct Loans Disbursed
Not applicable.


Subsidy Expense for Post FY 1991 Direct Loan
Not applicable.


Subsidy Rate for Direct Loans
Not applicable.


Schedule for Reconciling Subsidy Cost Allowance Balances for Post 1991 Direct Loans
Not applicable.


Defaulted Guaranteed Loans from Post FY 1991 Guarantees
Not applicable.




                                                                                       60 FY 2006 United States Army Annual Financial Statement
                                                               General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                               61
Guaranteed Loans Outstanding
                                                                          Outstanding Principal of
                                                                                                                Amount of Outstanding
 As of September 30                                                            Guaranteed Loans,
                                                                                                                 Principal Guaranteed
                                                                                Face Value
 (Amounts in thousands)

 Guaranteed Loans Outstanding
 1. Military Housing Privatization Initiative                         $                                0    $                                 0
 2. Armament Retooling & Manufacturing Support
    Initiative                                                        $                          20,508     $                          18,232

 3. Total                                                             $                         20,508      $                          18,232

                               2006
 New Guaranteed Loans Disbursed
 1. Military Housing Privatization Initiative                         $                               0     $                               0
 2. Armament Retooling & Manufacturing Support Initiative             $                           2,694     $                           2,290

 3. Total                                                             $                           2,694     $                           2,290

                                 2005
 New Guaranteed Loans Disbursed
 1. Military Housing Privatization Initiative                         $                               0     $                                0
 2. Armament Retooling & Manufacturing Support Initiative             $                             740     $                              629

 3. Total                                                             $                             740     $                              629


The FY 2005 disbursements of $740 thousand and $629 thousand are due to an FY 2005 loan closing and disbursement of an FY 2004 loan
obligation. The FY 2006 disbursements of $2.7 million and $2.3 million are due to disbursements on loan obligations incurred in prior
years.


Liabilities for Post FY 1991 Loan Guarantees, Present Value
 As of September 30                                                                 2006                                   2005
 (Amounts in thousands)

 Loan Guarantee Program(s)
 1. Military Housing Privatization Initiative                         $                                0    $                                 0
 2. Armament Retooling & Manufacturing Support Initiative                                        12,853                                12,394


 3. Total                                                             $                          12,853     $                          12,394
Subsidy Expense for Post FY 1991 Loan Guarantees
As of September 30
(Amounts in thousands)

              2006                  Interest Differential         Defaults                 Fees                   Other              Total
1. New Loan Guarantees
   Disbursed:
   Military Housing Privatization
   Initiative                       $                   0   $                   0   $                 0    $                 0   $           0
   Armament Retooling &
   Manufacturing Support
   Initiative                                           0                       0                     0                      0               0

  Total                             $                   0   $                   0   $                 0    $                 0   $           0
              2005                  Interest Differential         Defaults                 Fees                   Other              Total
2. New Loan Guarantees
   Disbursed:
   Military Housing Privatization
   Initiative                       $                   0   $                   0   $                 0    $                 0   $           0
   Armament Retooling &
   Manufacturing Support
   Initiative                                           0                       0                     0                      0               0

  Total                             $                   0   $                   0   $                 0    $                 0   $           0
                                                                Interest Rate            Technical                Total
              2006                      Modifications                                                                                Total
                                                                Reestimates             Reestimates            Reestimates
3. Modifications and
   Reestimates:
   Military Housing Privatization
   Initiative                       $                   0   $                   0   $                 0    $                 0   $           0
   Armament Retooling &
   Manufacturing Support
   Initiative                                           0                    162                11,532               11,694           11,694

  Total                             $                   0   $               162     $          11,532      $         11,694      $    11,694
                                                                Interest Rate            Technical                Total
              2005                      Modifications                                                                                Total
                                                                Reestimates             Reestimates            Reestimates
4. Modifications and
   Reestimates:
   Military Housing Privatization
   Initiative                       $                   0   $                   0   $                 0    $                 0   $           0
   Armament Retooling &
   Manufacturing Support
   Initiative                                           0                       0                     0                      0               0

  Total                             $                   0   $                   0   $                 0    $                 0   $           0

              2000                          2006                   2005
5. Total Loan Guarantee:
   Military Housing Privatization
   Initiative                       $                   0   $                   0
   Armament Retooling &
   Manufacturing Support
   Initiative                                      11,694                       0

  Total                             $              11,694   $                   0



                                                                                         62 FY 2006 United States Army Annual Financial Statement
                                                                  General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  63
The increase of $162 thousand for Interest Rate Reestimates and $11.5 million for Technical Reestimates for FY 2006 are for an impending
loss claim for a guaranteed loan that was defaulted in September 2006.

Subsidy Rates for Loan Guarantees
                                                                                                    Fees and
                                                                 Interest
  As of September 30                                                                Defaults          other            Other             Total
                                                               Supplements
                                                                                                   Collections
  (Amounts in thousands)

  Loan Guarantee Programs:
  1. Military Housing Privatization Initiative                         0.00%           0.00%            0.00%               0.00%          0.00%
  2. Armament Retooling & Manufacturing Support
     Initiative                                                        0.00%         20.00%             0.00%               0.00%        20.00%


Schedule for Reconciling Loan Guarantee Liability Balances for Post FY 1991 Loan Guarantees
 As of September 30                                                                                        2006                     2005
 (Amounts in thousands)


 1. Beginning Balance of the Loan Guarantee Liability                                               $            12,394       $           12,293

 2. Add: Subsidy Expense for Guaranteed Loans Disbursed during the Reporting Years
     by Component
    A. Interest Supplement Costs                                                                    $                   0     $                  0
    B. Default Costs (Net of Recoveries)                                                                                0                        0
    C. Fees and Other Collections                                                                                       0                        0
    D. Other Subsidy Costs                                                                                              0                        0
    E. Total of the above Subsidy Expense Components                                                $                   0     $                  0

 3. Adjustments
    A. Loan Guarantee Modifications                                                                 $                 0       $                 0
    B. Fees Received                                                                                                  0                        60
    C. Interest Supplements Paid                                                                                      0                         0
    D. Foreclosed Property and Loans Acquired                                                                         0                         0
    E. Claim Payments to Lenders                                                                               (11,436)                         0
    F. Interest Accumulation on the Liability Balance                                                               201                        41
    G. Other                                                                                                          0                         0
    H. Total of the above Adjustments                                                               $          (11,235)       $               101

 4. Ending Balance of the Loan Guarantee Liability before Reestimates                               $             1,159       $           12,394

 5. Add or Subtract Subsidy Reestimates by Component
    A. Interest Rate Reestimate                                                                                     162                          0
    B. Technical/default Reestimate                                                                              11,532                          0
    C. Total of the above Reestimate Components                                                     $            11,694       $                  0



 6. Ending Balance of the Loan Guarantee Liability                                                  $            12,853       $           12,394

The Fees Received decreased $60 thousand, or 100 percent, from FY 2005 to FY 2006 due to FY 2005 guaranteed fees on the $12 million in
loan obligations that were not received in FY 2006.
The Claim Payments to Lenders increased $11.4 million from FY 2005 to FY 2006 due to a January 2006 payment on a loss claim to a bank
for a defaulted loan to make bullet casings.
The Interest Accumulation on the Liability Balance increased $160 thousand from FY 2005 to FY 2006 due to the implementation of
Department of the Treasury guidance to include an estimate of accrued interest revenue from the Department of the Treasury. The interest is
calculated using the Department of Agriculture’s consolidate credit tool.
The Reestimate Components increased $11.7 million, or 100 percent, from FY 2005 to FY 2006 primarily due new impending loss claims for
a guaranteed loan that was defaulted in September 2006.


Administrative Expenses
Administrative Expense is limited to separately identiﬁed expenses administered to direct and guaranteed loans. Administrative Expense for
the ARMS is a fee paid to the U.S. Department of Agriculture RBS for administering the loan guarantees under the ARMS, which is a joint
program. There were no administrative expenses in FY 2006.


Note 9.          Inventory and Related Property

  As of September 30                                                         2006                                           2005
  (Amounts in thousands)


  1. Inventory, Net                                       $                                 94,400         $                            109,586
  2. Operating Materials & Supplies, Net                                                38,544,639                                   37,593,767
  3. Stockpile Materials, Net                                                                    0                                            0

  4. Total                                                $                             38,639,039         $                         37,703,353


Inventory, Net
                                                                          2006                                   2005
  As of September 30                                Inventory,        Revaluation           Inventory,         Inventory,
                                                                                                                              Valuation Method
                                                   Gross Value         Allowance               Net                Net
  (Amounts in thousands)

  1. Inventory Categories
     A. Available and Purchased for
          Resale                                   $        18,549    $       (554)     $       17,995     $       20,057             LAC
     B. Held for Repair                                          0                0                  0                  0
     C. Excess, Obsolete, and
          Unserviceable                                         19               (19)                0                  0            NRV
     D. Raw Materials                                            0                  0                0                  0
     E. Work in Process                                     76,405                  0           76,405             89,529             SP

      F.     Total                                $        94,973     $       (573)     $       94,400     $      109,586

 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                           NRV = Net Realizable Value
 SP = Standard Price                                                                                     O = Other
 AC = Actual Cost



Restrictions of Inventory Use, Sale, or Disposition
There are no restrictions on the use, sale, or disposition of inventory except in the following situations:
     a) Distributions without reimbursements made when authorized by DoD directives;
     b)    War Reserve Materiel to include fuels and subsistence items that are considered restricted; and
     c)    Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments, private parties, and contractors
           in accordance with current policies and guidance or at the direction of The President.




                                                                                             64 FY 2006 United States Army Annual Financial Statement
                                                                   General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                   65
Other Information
Inventory is comprised of ammunition in the Conventional Ammunition Working Capital Fund (CAWCF). Inventory is tangible personal
property that is:
     a) Held for Sale, or Held for Repair for eventual sale;
     b)   In the process of production for sale; or
     c)   To be consumed in the production of goods for sale or in the provision of services for a fee.
Excess, obsolete, and unserviceable inventory is condemned material that must be retained for management purposes. Work in Process
includes munitions in production and depot maintenance work with its associated labor, applied overhead, and supplies used in the delivery of
maintenance services. The U.S. Standard General Ledger does not include a separate Work in Process account unrelated to sales.

Managers determine which items are more costly to repair than replace. Items retained for management purposes are coded condemned.
The net value of these items is zero, and is shown as excess, obsolete, and unserviceable. The category includes all material held for sale.
Economically repairable material is categorized as held for repair.

The Army General Fund expects a year-to-year decrease in CAWCF Inventory as the program progresses toward its ﬁnal closeout. The
CAWCF program managers are uncertain as to the ﬁnal closeout date. Effective September 30, 1998, CAWCF ofﬁcially stopped the
acceptance of new orders for the procurement of conventional ammunitions.


Operating Materials and Supplies, Net
                                                                           2006                                      2005
  As of September 30                                 OM&S               Revaluation                                                   Valuation
                                                                                              OM&S, Net            OM&S, Net
                                                   Gross Value          Allowance                                                      Method
  (Amounts in thousands)
  1. OM&S Categories
     A. Held for Use                           $      38,544,639    $                 0   $    38,544,639      $    37,593,767            LAC
     B. Held for Repair                                        0                      0                 0                    0
     C. Excess, Obsolete, and
         Unserviceable                                  295,578            (295,578)                      0                    0           SP

    D. Total                                   $      38,840,217    $      (295,578)      $    38,544,639      $    37,593,767

 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                       NRV = Net Realizable Value
 SP = Standard Price                                                                                 O = Other
 AC = Actual Cost



Relevant Information for Comprehension
Operating Material and Supplies (OM&S) includes spare and repair parts, ammunition, and tactical missiles. The Army General Fund
reported $3.0 billion of OM&S Held for Future Use. This amount represents ammunition held under a host nation treaty agreement and is not
intended for use by U.S. Forces. The ammunition is intended for use in defense of the host nation by the host nation. The category Held for
Use includes all material able to be issued. Economically repairable material is categorized as held for repair.

Managers determine which items are more costly to repair than to replace. Items retained for management purposes are coded condemned.
The net value of these items is zero, and is shown as Excess, Obsolete, and Unserviceable.

The Army General Fund establishes an allowance for excess, obsolete, and unserviceable OM&S and inventory at 100 percent of the carrying
amount in accordance with DoD policy.

The value of the Army’s Government Furnished Material and Contractor Acquired Material in the hands of contractors is normally not
included in the OM&S values reported above. The DoD is presently reviewing its process for reporting these amounts in an effort to
determine the appropriate accounting treatment and the best method to annually collect and report required information without duplicating
information in other existing logistics systems.

There are no restrictions on the use, repair, or disposition of OM&S.
Stockpile Materials, Net
Not applicable.


Note 10. General PP&E, Net
                                                                          2006                                                    2005
 As of September 30             Depreciation/                                    (Accumulated
                                                 Service        Acquisition                            Net Book                Prior FY Net
                                Amortization                                     Depreciation/
                                                  Life            Value                                  Value                 Book Value
                                  Method                                         Amortization)
 (Amounts in thousands)


 1. Major Asset Classes
    A. Land                         N/A            N/A      $        515,882 $              N/A    $         515,882       $          473,405
    B. Buildings,
       Structures, and
       Facilities                   S/L          20 or 40        45,256,045       (28,925,653)            16,330,392              15,420,688
    C. Leasehold                                  lease
       Improvements                 S/L            term               14,431          (10,706)                  3,725                    2,618
                                                  2-5 or
      D. Software                   S/L             10               536,052         (246,355)               289,697                  348,416
      E. General
         Equipment                  S/L          5 or 10           3,516,473       (2,386,277)             1,130,196                1,076,527
      F. Military
         Equipment                  S/L          various         97,915,799       (39,045,993)            58,869,806              53,890,902
      G. Assets Under                             lease
         Capital Lease              S/L           term               166,617         (147,111)                 19,506                  28,002
      H. Construction-in-
         Progress                   N/A            N/A             7,064,762                N/A            7,064,762                6,246,266
      I. Other                                                        19,884                  0               19,884                   85,825
      J. Total General
         PP&E                                               $ 155,005,945 $ (70,762,095)           $      84,243,850       $      77,572,649

  1
   Note 15 for additional information on Capital Leases
  Legend for Valuation Methods:
  S/L = Straight Line      N/A = Not Applicable



Fluctuations and/or Abnormalities
General property, plant and equipment increased $6.7 billion, or 9 percent, from FY 2005 to FY 2006 primarily due to the change in evaluation
method for military equipment. If the evaluation method for military equipment had not changed, military equipment would have increased
$1.7 billion for FY 2006.

The Department changed its method of valuing military equipment in 3rd Quarter, FY 2006. Previously, military equipment was valued using
Bureau of Economic Analysis (BEA) data. Beginning with the 3rd Quarter, FY 2006, military equipment is valued based on internal records.
The value of military equipment for the 4th Quarter, FY 2005 was restated from $96.7 billion to $53.9 billion for comparative purposes using
the new valuation method.

For 4th Quarter, FY 2006, military equipment is valued at $58.9 billion based on internal records. Under the previously used BEA valuation
methodology, this equipment would have been valued at $98.4 billion.

Other includes the projected value of forest product sales (timber reserve).

Currently, there are no restrictions for General PP&E.

Other Information Related to Heritage Assets and Stewardship Land
The mission of the DoD, including the Army General Fund, is to provide the military forces needed to deter war and protect the security of
the United States by organizing, training, supplying, equipping and mobilizing forces for assignment in support of that mission. Executing
the mission requires efﬁcient and effective use of resources in a manner that ensures operational and environmental sustainability, while


                                                                                          66 FY 2006 United States Army Annual Financial Statement
                                                                      General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                      67
respecting the history and heritage that reﬂect and support the military mission. The Army General Fund has stewardship responsibilities for
Heritage Assets that date not only from the military history of the land, but from prior historic and prehistoric occupations. The Army General
Fund relies upon Heritage Assets, such as historic buildings, and stewardship land for daily use in administration, housing, or training soldiers.
Those heritage assets not currently employed as “multi-use,” such as archeological collections or museum collections, are important items
that embody the multi-faceted history of the land, the military, the local communities, and the nation - the heritage that the Army defends.

The Army’s policy for managing cultural resources and heritage assets are published in Army Regulations 200-4, Cultural Resources
Management, and 870-20, Army Museums, Historical Artifacts, and Art. These policies provide in-depth procedures for managing the
Army’s cultural resources and museum collections. The Army regulations take into account the Army’s responsibilities under various legal
compliance requirements such as the National Historic Preservation Act, the Native American Graves Protection and Repatriation Act, the
National Environmental Policy Act, and the Archeological Resources Protection Act, among others. The regulations provide guidance
to all Active Army, Army Reserves and National Guard units and installations as to the appropriate policies, responsibilities, procedures,
and requirements affecting heritage assets. These policies are designed to ensure that Army installations and commanders make informed
decisions regarding the cultural resources under their stewardship in compliance with public laws, in support of the military mission and
consistent with sound principles of cultural resource management.

The DoD Financial Management Regulation deﬁnes the categories of heritage assets reported by each of the military services.

Heritage Assets are items that are distinguished by historical or natural signiﬁcance; cultural, educational, or artistic importance; or signiﬁcant
architectural characteristics. Heritage Assets are expected to be preserved. Heritage Assets shall be reported within the following categories.

           Museums: Buildings that house collection-type items including artwork, archeological artifacts, archival materials, and other
           historical artifacts. The primary use of such buildings shall be the preservation, maintenance, and display of the collection-type
           Heritage Assets.
           Monuments and Memorials: Sites and structures built to honor and preserve the memory of signiﬁcant individuals and/or events in
           history.
           Cemeteries: Land on which gravesites of prominent historical ﬁgures are located.
           Archeological Sites: Land on which items of signiﬁcance are located.
           Buildings and Structures: Includes buildings and structures that are listed on, or eligible for listing on the National Register of
           Historic Places, including Multi-use Heritage Assets. These are buildings other than those used as museums.
           Major Collections: Signiﬁcant collections that are maintained outside of a museum.



Assets Under Capital Lease
 As of September 30                                                               2006                                      2005
 (Amounts in thousands)


 1. Entity as Lessee, Assets Under Capital Lease
    A. Land and Buildings                                         $                           166,071 $                                  166,071
    B. Equipment                                                                                  546                                        546
    C. Accumulated Amortization                                                             (147,111)                                  (138,615)

     D. Total Capital Leases                                      $                             19,506 $                                   28,002


Fluctuations and/or Abnormalities
Assets Under Capital Lease decreased by $8.5 million, or 30 percent, from FY 2005 to FY 2006 due to straight-line amortization of leased
assets during FY 2006.

Relevant Information Related to Assets under Capital Lease
The Army General Fund is the lessee in eight Section 801 Family Housing Leases, which consist of two on-post and six off-post housing
facilities. These leases have between one and seven years remaining on their terms. In addition, the Eighth U.S. Army G-3 Aviation
leases equipment for a training simulator ﬁrst reported in 3rd Quarter, FY 2005. As shown in Note 15, the Net Capital Lease Liability is
$33.1 million. Of that net, current liability is valued at $11.8 million and non-current liability is $21.3 million. The future executory and
imputed interest costs, as shown in a combined form in Note 15 Capital Lease Liability section, are $7.6 million and $5.7 million, respectively.
Future executory costs are estimates based on historical data. The imputed interest that was necessary to reduce the net minimum lease
payments to the present value was calculated at the incremental borrowing rate at the inception of the leases.
Note 11. Liabilities Not Covered by Budgetary Resources

 As of September 30                                                                               2006                           2005
 (Amounts in thousands)


 1. Intragovernmental Liabilities
    A. Accounts Payable                                                                 $                      0       $                         0
    B. Debt                                                                                                    0                                 0
    C. Other                                                                                             472,874                           473,993
    D. Total Intragovernmental Liabilities                                              $                472,874       $                   473,993

 2. Nonfederal Liabilities
    A. Accounts Payable                                                                 $                  96,276      $                    90,204
    B. Military Retirement and
       Other Federal Employment Benefits                                                               1,461,098                       1,663,650
    C. Environmental Liabilities                                                                      41,662,756                      38,399,062
    D. Other Liabilities                                                                               4,493,222                       4,357,513
    E. Total Nonfederal Liabilities                                                     $             47,713,352       $              44,510,429

 3. Total Liabilities Not Covered by Budgetary Resources                                $             48,186,226       $              44,984,422


 4. Total Liabilities Covered by Budgetary Resources                                  $               22,082,464      $               17,281,633

 5. Total Liabilities                                                                 $               70,268,690      $               62,266,055

Relevant Information for Comprehension
Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered funded by realized budgetary resources as of
the balance sheet date.

Intragovernmental Liabilities
Intragovermental Liabilities Other represents liabilities associated with Federal Employees Compensation Act, unemployment beneﬁts, and
canceled accounts receivable.

Nonfederal Liabilities
Nonfederal Liabilities Other represents unfunded annual leave, contingent liabilities, capital lease liabilities, and custodial liabilities.

Nonfederal Other Employment-Related Actuarial Liabilities represents the actuarial liability for Federal Employees Compensation Act.


Note 12. Accounts Payable

                                                                                 2006                                              2005

  As of September 30                                                    Interest, Penalties,
                                                      Accounts
                                                                        and Administrative               Total                     Total
                                                       Payable
                                                                               Fees
 (Amounts in thousands)
 1. Intragovernmental Payables                    $     1,593,783       $                   N/A   $       1,593,783        $           1,918,309
 2. Non-Federal Payables (to the Public)               10,884,188                            74          10,884,262                   10,137,011

 3. Total                                         $    12,477,971       $                   74    $      12,478,045        $          12,055,320


Fluctuations and/or Abnormalities
Intragovernmental Payables with entities other than the Army General Fund decreased $324.5 million, or 17 percent, from FY 2005 to
FY 2006, primarily due to a $227.2 million decrease with General Services Administration. During FY 2006, the Army General Fund


                                                                                             68 FY 2006 United States Army Annual Financial Statement
                                                                  General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  69
adjusted accounts payable to agree with the accounts receivable reported by General Services Administration and, therefore, does not have
supporting records to determine the reason for the decrease. Efforts are underway to coordinate with General Services Administration to
obtain proper documentation or adequate reconciliations.

Deﬁnitions
Intragovernmental Payables consists of amounts owed to other federal agencies for goods or services ordered and received but not paid.
Interest, penalties, and administrative fees are not applicable to intragovernmental payables.

Non-Federal payables (to the Public) are payables for debts owed to individuals and entities outside the federal government.


Note 13. Debt
 As of September 30                                                        2006                                                    2005
 (Amounts in thousands)                           Beginning                   Net                        Ending                   Ending
                                                   Balance                  Borrowings                   Balance                  Balance

 1. Agency Debt
    A. Debt to the Treasury                   $                  0     $             11,404       $            11,404      $                    0
    B. Debt to the Federal
       Financing Bank                                            0                        0                         0                           0
    C. Total Agency Debt                      $                  0     $             11,404       $            11,404      $                    0


 2. Total Debt                                $                  0     $             11,404       $            11,404      $                    0


Debt to the Treasury increased $11.4 million, or 100 percent, from FY 2005 to FY 2006 for borrowing authority received from the Department
of the Treasury in 2nd Quarter, FY 2006 for a loan default related to the Armament Retooling and Manufacturing Support Initiative (ARMS).
This initiative is designed to encourage commercial use of Army General Fund’s inactive ammunition plants through many incentives
for businesses willing to locate to a government ammunition production facility. The Army General Fund, by means of ARMS Initiative
legislation, established a loan guarantee program to facilitate commercial ﬁrms’ use of speciﬁed ammunition manufacturing facilities.
Note 14. Environmental Liabilities and Disposal Liabilities

                                                                            2006                                        2005
As of September 30
                                                                          Noncurrent
                                                  Current Liability                               Total                 Total
                                                                           Liability
 (Amounts in thousands)


 1. Environmental Liabilities--Nonfederal
  A. Accrued Environmental Restoration
     Liabilities
   1. Active Installations—Installation
      Restoration Program (IRP) and Building
      Demolition and Debris Removal (BD/DR)       $        379,462    $      2,539,781     $       2,919,243      $       3,211,982
   2. Active Installations—Military Munitions
      Response Program (MMRP)                               19,216           3,298,574             3,317,790              5,182,734
   3. Formerly Used Defense Sites—IRP and
      BD/DR                                               158,136            4,011,443            4,169,579               4,227,450
   4. Formerly Used Defense Sites--MMRP                    86,654           14,710,623           14,797,277              14,584,052

 B. Other Accrued Environmental Liabilities—
    Active Installations
  1. Environmental Corrective Action                         9,707             362,305                372,012               379,604
  2. Environmental Closure Requirements                      2,759              94,088                 96,847                96,847
  3. Environmental Response at Operational
     Ranges                                                  6,490             297,596                304,086               304,087
  4. Other                                                       0              35,676                 35,676                     0

 C. Base Realignment and Closure (BRAC)
  1. Installation Restoration Program                       25,778             497,908                523,686               523,443
  2. Military Munitions Response Program                    10,670             789,642                800,312               634,093
  3. Environmental Corrective Action / Closure
     Requirements                                           3,451               28,825                 32,276                54,146
  4. Other                                                149,165                    0                149,165               112,026

 D. Environmental Disposal for Weapons
    Systems Programs
  1. Nuclear Powered Aircraft Carriers                           0                   0                    0                       0
  2. Nuclear Powered Submarines                                  0                   0                    0                       0
  3. Other Nuclear Powered Ships                                 0                   0                    0                       0
  4. Other National Defense Weapons Systems                      0                   0                    0                       0
  5. Chemical Weapons Disposal Program                   2,460,994          14,996,294           17,457,288              10,450,050
  6. Other                                                       0                   0                    0                       0

 2. Total Environmental Liabilities               $      3,312,482    $     41,662,755     $     44,975,237       $      39,760,514


Other Disclosures
 Others Category Disclosure Comparative Table                             FY 2006         FY 2005
 (Amounts in thousands)
 Other Accrued Environmental Costs - Other
 Low Level Radioactive Waste                                               $35,676               $0
 Base Realignment and Closure - Other
 BRAC Unliquidated Liabilities that can not be categorized within          149,165         112,026
 BRAC program lines on Note 14
 Total                                                                    $184,841        $112,026



                                                                                70 FY 2006 United States Army Annual Financial Statement
                                                                    General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                      71
Amounts are presented in the Note 14 Environmental Liabilities and Disposal Liabilities schedule. See Environmental Disclosures section
of this note for additional information.

Fluctuations and Abnormalities
Accrued Environmental Restoration Liabilities
Active Installations - Military Munitions Response Program (MMRP) decreased $1.9 billion, or 36 percent, from FY 2005 to FY 2006. The
decrease is due to the use of more reﬁned estimates from site evaluations and installation action plan workshops to determine a more realistic
path forward. Additionally, the decrease is due to Defense Environmental Restoration Program (DERP) site reclassiﬁcation to the Base
Realignment and Closure (BRAC) program during FY 2006.

Other Accrued Environmental Liabilities – Active Installations
Other Accrued Environmental Liabilities – Other increased $35.7 million, or 100 percent, from FY 2005 to FY 2006 due to reclassiﬁcation
of various environmental liabilities by the Low Level Radioactive Waste program managers during FY 2006. This information was formerly
disclosed on Note 16, Commitments and Contingencies as a possible contingent liability.

Base Realignment and Closure (BRAC)
BRAC - MMRP increased $166.2 million, or 26 percent, from FY 2005 to FY 2006 due to the reclassiﬁcation of 38 DERP active sites to the
BRAC MMRP in FY 2006 as a result of the BRAC 2005 law to close active installations.

BRAC - Environmental Corrective Action / Closure Requirements decreased $21.9 million, or 40 percent, from FY 2005 to FY 2006. This
entire decrease is attributable to disbursement of funds to process corrective actions at BRAC installations during FY 2006.

BRAC - Other increased $37.1 million or 33 percent from FY 2005 to FY 2006. This entire increase was due to new contracts for continued
cleanup at BRAC installations initiated in FY 2006.

Chemical Demilitarization Program
The Chemical Weapons Disposal Program liability increased $7 billion, or 67 percent, from FY 2005 to FY 2006. The entire increase is
attributable to the initial use of the Army Cost Position in 3rd Quarter, FY 2006 rather than an inﬂationary adjusted FY 2003 Acquisition
Program Baseline. It is expected that the total liability will ﬂuctuate as a result of program execution and revised program cost estimates.


Environmental Disclosures

   As of September 30                                                                                                        2006          2005

   (Amounts in thousands)
     A.    Amount of operating and capital expenditures used to remediate legacy waste. Legacy wastes
           are the remediation efforts covered by IRP, MMRP, and BD/DR regardless of funding source.                                0             0
      B.   The unrecognized portion of the estimated total cleanup costs associated with general property,
           plant and equipment.                                                                                                     0             0
      C.   The estimated cleanup costs associated with general property, plant and equipment placed into
           service during each fiscal year.                                                                                         0             0
      D.   Changes in total cleanup costs due to changes in laws, regulations, and/or technology.
                                                                                                                                    0             0
      E.   Portion of the changes in estimated costs due to changes in laws and technology that is related
           to prior periods.                                                                                                        0             0


The Army General Fund reports zeros in the Environmental Disclosure table for this quarter. The Army General Fund is unable to
systematically report and gather information for items presented above. These reporting deﬁciencies result from system and internal control
weaknesses. The Army General Fund will continue coordination with the Ofﬁce of the Under Secretary of Defense (Comptroller) to address
these deﬁciencies and additionally outline speciﬁc tasks and milestones in the Army Chief Financial Ofﬁcer’s Strategic Plan in the future.

In addition to the liabilities reported above, the Army General Fund has the potential to incur costs for restoration initiatives in conjunction
with returning overseas Defense facilities to host nations. The Army General Fund is unable to provide a reasonable estimate at this time
because the extent of restoration required is not known.
Applicable Laws and Regulations
Defense Environmental Restoration Program
The Army General Fund is required to cleanup contamination resulting from past waste disposal practices, leaks, spills and other past activity
prior to 1986 from hazardous substances and wastes that created a public health or environmental risk and prior to FY 2003 from unexploded
ordnance (UXO), discarded military munitions, and munitions constituents at other than operational ranges under the DERP, established by
Section 211 of the Superfund Amendments and Reauthorization Act of 1986 codiﬁed in Title 10 of the United States Code 2701. The Army
General Fund is also required to cleanup contamination resulting from waste disposal practices, leaks, spills and other activity after 1986 from
hazardous substances and wastes and after FY 2003 from UXO, discarded military munitions, and munitions constituents migrating from
an operational range under the Army Compliance Cleanup Program. Applicable laws are as follows for the DERP, Non-DERP, Low Level
Radioactive Waste, and the BRAC programs:

     -     Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
     -     Superfund Amendments and Reauthorization Act
     -     Clean Water Act
     -     Safe Drinking Water Act
     -     Clean Air Act
     -     Resource Conversation and Recovery Act (RCRA)
     -     Toxic Substances Control Act (TSCA)
     -     Low Level Radioactive Waste Policy Amendments
     -     National Defense Authorization Acts
Chemical Demilitarization Program
There are two primary public laws that require the chemical stockpile and non-stockpile chemical materiel destruction efforts to be carried out
as part of the Chemical Demilitarization Program. The ﬁrst is the 1986 Defense Authorization Act (Public Law (PL) 99-145, as amended by
subsequent acts) that directed the DoD to destroy the unitary chemical stockpile while providing for maximum protection of the environment,
public, and personnel involved in the destruction effort by April 29, 2004. The deadline for completion of destruction was amended by
subsequent acts to April 29, 2007. The second is the 1993 Defense Authorization Act (PL 102-484) which required the establishment of
the Non-Stockpile Chemical Material Project to safely dispose of all non-stockpile chemical materiel. The destruction operations being
carried out using the facilities and equipment developed and ﬁelded as part of the program are also subject to numerous federal and state
environmental regulations. The major regulations applicable to the program are as follows:

     -     CERCLA
     -     Clean Water Act
     -     Clean Air Act
     -     RCRA
     -     TSCA
Methods for Assigning Estimated Total Cleanup Costs to Current Operating Periods
DERP, Non-DERP, and BRAC
The Army General Fund uses engineering estimates and independently validated models to estimate environmental liabilities. The Remedial
Action Cost Engineering Requirements (RACER) is the Army’s preferred model. The Army General Fund relies upon the Air Force, which is
the RACER executive agent, to validate the model in accordance with DoD Instruction 5000.61 and primarily uses the model to estimate the
liabilities based on data received during a preliminary assessment and initial site investigation. The Army primarily uses engineering estimates
after obtaining extensive data during the remedial investigation/feasibility phase of the environmental project. Once the environmental cost
estimates are complete, the Army complies with accounting standards to assign costs to current operating periods.

In compliance with accounting standards, the Army General Fund expenses the costs for cleanup associated with general property, plant, and
equipment (PP&E) placed into service prior to October 1, 1997 unless the costs are intended to be recovered through user charges. If the costs
are recovered through user charges, then the Army General Fund expenses the portion of the asset that has passed since the general PP&E was
placed into service and systematically recognizes the remaining cost over the life of the asset.

For general PP&E placed into service after September 30, 1997, the Army General Fund is required to expense the associated environmental
costs systematically over the life of the asset. The Army expenses the full cost to cleanup contamination for stewardship PP&E at the time
the asset is placed into service. The Army General Fund will use two methods for systematic recognition: physical capacity for operating
landﬁlls and life expectancy in years for all other assets.

                                                                                         72 FY 2006 United States Army Annual Financial Statement
                                                                     General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                     73
Chemical Demilitarization Program
The basis for calculating environmental liabilities for the Army components of the Chemical Demilitarization Program is a bottoms up
estimate developed using parametric, analogous, and engineering methodologies, as appropriate. The schedule component of the estimate
is based on analysis of historical processing rates with down time adjustments. The cost methodology is based on the historical costs of the
project and utilizes the Army cost analysis community directed Automated Cost Estimating Integrated Tool software as the platform for
cost modeling. To the greatest extent possible, actual costs are broken down to produce a site-speciﬁc model based on actual or analogous
costs. Inclusion of site-speciﬁc schedules in the model results in the current working estimate. The estimate and its methodology have
been independently reviewed, supported, and approved by the Deputy Assistant Secretary of the Army (Cost and Economics) staff as well
as the Army Cost Review Board, the Assistant Secretary of the Army (Financial Management and Comptroller), and the Army Acquisition
Executive.

Types of Environmental Liabilities and Disposal Liabilities Identiﬁed
DERP, Non-DERP, and BRAC
The Army General Fund has environmental clean up requirements for the DERP sites at active installations, BRAC installations, Formerly
Used Defense Sites, non-DERP sites at active installations, weapon systems programs, and chemical weapons disposal programs. The
DERP and non-DERP sites are required to clean up contamination in coordination with regulatory agencies, other responsible parties, and
current property owners. For the Army General Fund, environmental disposal for weapons systems programs consists of chemical weapons
disposal.

Chemical Demilitarization Program
The Army, as Executive Agent within the DoD, provides policy, direction, and oversight for the Chemical Demilitarization Program, except
at the Pueblo, Colorado and Blue Grass, Kentucky locations. The disposal program for these locations is managed separately by the Program
Manager for Assembled Chemical Weapons Alternatives that reports directly to the Ofﬁce of the Under Secretary of Defense (Acquisition,
Technology and Logistics).

The Chemical Demilitarization Program mission is to safely and effectively destroy the entire U.S. stockpile of chemical agents and munitions
located at Johnston Island in the Paciﬁc and in Utah, Alabama, Oregon, Arkansas, Indiana, and Maryland in accordance with public law.
The Johnston Island facility has completed its mission and facility closure. The Maryland facility has completed the disposal mission
and is currently undergoing closure. The other ﬁve facilities are currently in operation and working to complete their disposal missions.
The Chemical Demilitarization Program mission also includes the safe disposal of non-stockpile chemical materiel. This includes binary
chemical weapons, old chemical weapons recovered as part of remediation and recovery operations, and miscellaneous materiel associated
with chemical weapon production, storage, testing, maintenance, and disposal. The Chemical Demilitarization Program does not include the
mission to recover and dispose of buried chemical weapons.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inﬂation, Deﬂation, Technology, or
Applicable Laws and Regulations
The Army General Fund had changes in estimates resulting from overlooked or previously unknown contaminants, better site characterization
with sampling, re-estimation based on different assumptions, and lessons-learned. Environmental liabilities can also change in the future due
to changes in laws and regulations, changes in agreements with regulatory agencies, and advances in technology.

Uncertainty Regarding the Accounting Estimates used to Calculate the Reported Environmental Liabilities
DERP, Non-DERP, and BRAC
The environmental liabilities for the Army General Fund are based on accounting estimates which require certain judgments and assumptions
that are believed to be reasonable based upon information available to us at the time of calculating the estimates. The actual results may
materially vary from the accounting estimates if agreements with regulatory agencies require remediation to a different degree than anticipated
when calculating the estimates. The liabilities also can be impacted if further investigation of the environmental sites discloses contamination
different than known at the time of the estimates.

In addition to the liabilities reported above, the Army General Fund is uncertain regarding the extent of the liabilities at installations that
are realigning or closing as a result of the FY 2005 BRAC round. The Army General Fund is in the process of determining the extent of
environmental liabilities at bases due to realign or close; in particular those liabilities associated with unexploded ordnance on training ranges
that are due to realign or close.

Chemical Demilitarization Program
The schedules and cost estimates in the approved baseline for this liability estimate are the best available and have been through the formal
Acquisition Program Baseline approval process at the time of report submission. It should be noted that they are subject to fact of life changes
and impacts from program risks and uncertainties inherent to the task of chemical demilitarization and the political sensitivity of the program.
These risks may include processing changes required to meet the operational schedules due to the deteriorating condition of the stockpile and
additional schedule time and/or cost to address changes in environmental laws or Congressional requirements.
Note 15. Other Liabilities

                                                                                             2006                                   2005
 As of September 30
                                                                     Current             Noncurrent
                                                                                                                 Total              Total
                                                                     Liability            Liability
 (Amounts in thousands)


 1. Intragovernmental
     A.   Advances from Others                                   $       155,613     $               0     $        155,613     $     138,074
     B.   Deposit Funds and Suspense Account Liabilities                 704,266                     0              704,266           213,950
     C.   Disbursing Officer Cash                                      1,784,811                     0            1,784,811         1,482,046
     D.   Judgment Fund Liabilities                                            0                     0                    0                 0
     E.   FECA Reimbursement to the Department of Labor                   99,409               175,876              275,285           274,311
     F.   Other Liabilities                                              261,321                     0              261,321           263,880
    G. Total Intragovernmental Other Liabilities                 $     3,005,420     $         175,876     $      3,181,296     $   2,372,261
 2. Nonfederal
     A. Accrued Funded Payroll and Benefits                      $       918,321     $                 0   $        918,321     $     578,786
     B. Advances from Others                                           1,222,335                       0          1,222,335           866,239
     C. Deferred Credits                                                       0                       0                  0                 0
     D. Deposit Funds and Suspense Accounts                                    0                       0                  0                 0
     E. Temporary Early Retirement Authority                                   0                       0                  0                 0
     F. Nonenvironmental Disposal Liabilities
         (1) Military Equipment (Nonnuclear)                                     0                     0                   0                 0
         (2) Excess/Obsolete Structures                                        0                     0                    0                 0
         (3) Conventional Munitions Disposal                                   0             1,217,768            1,217,768         1,318,443
     G. Accrued Unfunded Annual Leave                                  3,078,596                     0            3,078,596         2,728,211

     H. Capital Lease Liability                                           11,777                21,277               33,054            47,031
     I. Other Liabilities                                                760,723               917,960            1,678,683           863,206

     J. Total Nonfederal Other Liabilities                       $     5,991,752     $       2,157,005     $      8,148,757     $   6,401,916


 3. Total Other Liabilities                                      $     8,997,172     $       2,332,881     $    11,330,053      $   8,774,177


Fluctuations and/or Abnormalities
Intragovernmental
Intragovernmental Other Liabilities increased $809.0 million, or 34 percent, from FY 2005 to FY 2006 primarily due to ﬂuctuations in
Deposit Funds and Suspense Accounts Liabilities and Disbursing Ofﬁcer Cash.

Deposit Funds and Suspense Account Liabilities increased by $490.3 million, or 229 percent, from FY 2005 to FY 2006 primarily due
to a timing difference in the disbursement of payroll tax withholdings and Federal Insurance Contributions Act (FICA). In FY 2005, the
disbursement for withheld tax withholdings and FICA was disbursed in September 2005 whereas in FY 2006 the disbursements will not occur
until October 2006. This timing difference is a normal part of business.

Disbursing Ofﬁcer Cash increased $302.8 million, or 20 percent, from FY 2005 to FY 2006 primarily due to an increase in advances from
the Republic of Korea during FY 2006 for engineering and construction work to be done by the U.S. Army Corps of Engineers to upgrade
electrical systems, water and sewer systems, housing, schools, fences, and bridges on various bases in Korea.

Intragovernmental Other Liabilities, Other consists of unemployment compensation; cancelled accounts receivable; employee beneﬁts for
retirement, health and life insurance; and education beneﬁts trust fund.

Nonfederal
Nonfederal Other Liabilities increased $1.7 billion, or 27 percent, from FY 2005 to FY 2006 primarily due to reporting of contingent
liabilities, accrued unfunded annual leave, and accrued funded payroll and beneﬁts. Beginning in 4th Quarter, FY 2006, Army General Fund
began reporting the Mechanization of Contract Administration Services contingent liability for $780.5 million that was not required to be
recognized in prior years. The Accrued Unfunded Annual Leave increased $350.4 million due to the continued deployment of soldiers in


                                                                                         74 FY 2006 United States Army Annual Financial Statement
                                                                    General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                    75
support of Operation Iraqi Freedom restricting the use of annual leave during FY 2006. The Accrued Funded Payroll and Beneﬁts increased
$339.5 million as a result of capturing previously omitted Military Pay accruals beginning in 2nd Quarter, FY 2006. The Military Pay anti-
deﬁciency act review identiﬁed that Army General Fund was not properly capturing the required Military Pay accruals.

Contingent Liabilities balance includes $780.5 million in estimated future contract ﬁnancing payments that will be paid to the contractor upon
delivery and Government acceptance of a satisfactory product. In accordance with contract terms, speciﬁc rights to the contractor’s work
vests with the Government when a speciﬁc type of contract ﬁnancing payments are made, thereby protecting taxpayer funds in the event of
contract nonperformance. These rights should not be misconstrued as the rights of ownership. The Department is under no obligation to pay
the contractor for amounts greater than the amounts authorized in the contract until delivery and Government acceptance of a satisfactory
product. Because it is probable that the contractor will complete its efforts and deliver a satisfactory product to the Department and the
amount of potential future payments are estimable, the Department has recognized a contingent liability for estimated future payments, which
are conditional pending delivery and Government acceptance of a satisfactory product.

Nonfederal Other Liabilities, Other consists of employer contributions and payroll taxes, contingent liabilities, contract holdbacks, and
custodial liabilities for Iraqi seized cash and development fund for Iraq.


Capital Lease Liability
                                                                                 2006                                                2005
 As of September 30                                                          Asset Category
                                                        Land and
                                                                      Equipment            Other              Total                  Total
                                                        Buildings
 (Amounts in thousands)

 1. Future Payments Due
     A. 2006                                        $           0    $           0     $            0     $          0      $                20,929
     B. 2007                                               18,008              150                  0           18,158                       18,157
     C. 2008                                                8,529              156                  0            8,685                        8,685
     D. 2009                                                5,376               93                  0            5,469                        5,469
     E. 2010                                                5,376                0                  0            5,376                        5,376
     F. 2011                                                    0                0                  0                0                            0
     G. After 5 Years                                       8,682                0                  0            8,682                        8,682

      H. Total Future Lease Payments Due            $      45,971    $         399     $            0     $     46,370      $                67,298
      I. Less: Imputed Interest Executory
         Costs                                             13,218                98                 0           13,316                       20,267

      J. Net Capital Lease Liability                $      32,753    $         301     $            0     $     33,054      $                47,031

 2. Capital Lease Liabilities Covered by Budgetary Resources                                              $     22,667      $                26,466

 3. Capital Lease Liabilities Not Covered by Budgetary Resources                                          $     10,387      $                20,565


The Army General Fund is the lessee in eight capital leases for military family housing and one equipment lease. The Ofﬁce of Management
and Budget Circular A-136 directs that any capital leases entered into during FY 1992 or later are required to be fully funded in the ﬁrst year
of the lease.

Capital Lease Liabilities Covered by Budgetary Resources
The present value of the lease payments, $22.7 million, for leases originating after FY 1991 plus the current portion of the Pre-1992 leases are
shown as Covered by Budgetary Resources.

Capital Lease Liabilities Not Covered by Budgetary Resources
The remaining six leases that originated before FY 1992 are funded on a ﬁscal year basis causing the non-current amounts of $10.4 million to
be shown as Not Covered by Budgetary Resources.
Note 16. Commitments and Contingencies
Relevant Information for Comprehension
The Army General Fund is a party in various administrative proceedings and legal actions, with claims including environmental damage
claims, equal opportunity matters, and contractual bid protests. The Army General Fund has accrued contingent liabilities for legal actions
where the Army’s Ofﬁce of the General Counsel considers an adverse decision probable and the amount of loss is measurable. In the event
of an adverse judgment against the Government, some of the liabilities may be payable from the Judgment Fund. The Army General fund
records Judgment fund liabilities in Note 15, “Other Liabilities,” and Note 12 “Accounts Payable.” See Notes 15 and 12 for details.

Nature of Contingency
The FY 2006 Army Legal Representation Letter outlines claims against the Army General Fund totaling $28 billion for which the Army
Ofﬁce of General Counsel is unable to express an opinion. The historical payout percentage for these cases is less than one percent. To
determine the historical payout, the Army Ofﬁce of General Counsel divides the total amount reported as a payout in the ﬁscal year by the
total amount of claimed in the Army Legal Representation Letter.

The Army General Fund has other contingent liabilities in which the possibility of loss is considered reasonable. These liabilities
are not accrued in the Army General Fund’s ﬁnancial statements nor reported in the FY 2006 Army Legal Representation Letter. As of
September 30, 2006, the Army General Fund had approximately $307.8 million in claims considered reasonably possible. These contingent
liabilities and estimates are presented in the following table. Estimates for litigations, claims and assessments are required to be fully
supported. Additionally, Army General Fund has coordinated with Army Ofﬁce of General Counsel to ensure that estimates agree with the
legal representation letters and management summary schedule.

 Title of Contingent Liabilities                                                                 Estimate
 (Amounts in thousands)
 Litigation Division                                                                             $136,021
 Administrative Tort Claims                                                                        50,000
 European Environmental Claims                                                                     50,000
 Army Environmental Law Division                                                                   46,226
 Army Contract Appeals Division                                                                    24,913
 Network Enterprise Technology Command                                                                 400
 Army Personnel Claims                                                                                 228
 Total                                                                                           $307,788

Other Information Pertaining to Commitments
The Army General Fund has entered into contractual commitments that require future use of ﬁnancial resources. It has signiﬁcant amounts
of long-term lease obligations, undelivered orders, and cancelled accounts payable. The amount of contractual commitments for 4th Quarter,
FY 2006 is presented in the following schedule.

 Title of Contractual Commitments
 (Amounts in thousands)
 Long-term lease obligations                                                                     $33,053
 Undelivered orders                                                                         $80,793,552
 Cancelled accounts payable                                                                      $96,276




                                                                                      76 FY 2006 United States Army Annual Financial Statement
                                                                   General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                      77

Note 17. Military Retirement and Other Federal Employment Benefits
                                                                                       2006                                             2005
 As of September 30                                     Present          Assumed         (Less: Assets                                 Present
                                                                                                                 Unfunded
                                                        Value of       Interest Rate      Available to                                 Value of
                                                                                                                  Liability
                                                        Benefits            (%)          Pay Benefits)                                 Benefits
 (Amounts in thousands)


 1. Pension and Health Actuarial Benefits
   A. Military Retirement Pensions                  $              0                      $             0    $                0    $              0
   B. Military Retirement Health Benefits                          0                                    0                     0                   0
   C. Military Medicare-Eligible Retiree
      Benefits                                                     0                                    0                     0                   0
   D. Total Pension and Health Actuarial
      Benefits                                      $              0                      $             0    $                0    $              0

 2. Other Actuarial Benefits
   A. FECA                                          $    1,461,098        5.31%           $             0    $      1,461,098      $    1,663,650
   B. Voluntary Separation Incentive
      Programs                                                   0                                      0                   0                   0
   C. DoD Education Benefits Fund                                0                                      0                   0                   0
   D. Total Other Actuarial Benefits                $    1,461,098                        $             0    $      1,461,098      $    1,663,650

 3. Other Federal Employment Benefits               $              0                      $             0    $                0    $              0

 4. Total Military Retirement and Other
    Federal Employment Benefits:                    $    1,461,098                        $             0    $      1,461,098      $    1,663,650



Fluctuations and/or Abnormalities
The FECA actuarial liability decreased $202.6 million, or 12 percent, from FY 2005 to FY 2006 primarily due to the Army General Fund
reporting the US Corps of Engineers’ liability in FY 2005. In 4th Quarter, FY 2006 the US Corps of Engineers reported its own portion of
the FECA actuarial liability.

Federal Employees Compensation Act (FECA)
Actuarial Cost Method Used: The Army’s actuarial liability for Workers’ Compensation beneﬁts is developed by the Department of Labor
and provided to the Army General Fund each ﬁscal year end. The liability includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases. The liability is determined using a method that utilizes historical beneﬁt payment
patterns to predict the ultimate payments.

Assumptions: The projected annual beneﬁt payments are discounted to the present value using the Ofﬁce of Management and Budget’s
economic assumptions for 10-year U.S. Treasury notes and bonds. Cost of living adjustments and medical inﬂation factors provided by the
Department of Labor are also applied to the calculation of projected future beneﬁts.
Note 18. General Disclosures Related to the Statement of Net Cost

 As of September 30                                                           2006                                      2005

 (Amounts in thousands)


 1. Intragovernmental Costs                                   $                         43,852,068     $                          39,987,321
 2. Public Costs                                                                      131,165,204                               116,179,311
 3. Total Costs                                               $                       175,017,272      $                        156,166,632

 4. Intragovernmental Earned Revenue                          $                        (9,063,319)     $                         (8,491,159)
 5. Public Earned Revenue                                                              (1,340,202)                               (1,249,288)
 6. Total Earned Revenue                                      $                       (10,403,521)     $                         (9,740,447)


 7. Net Cost of Operations                                    $                       164,613,751      $                        146,426,185

Fluctuation and/or Abnormalities
Gross Costs increased $18.9 billion, or 12 percent, from FY 2005 to FY 2006 primarily due to a $5.1 billion increase in future funded
expenses, $6.6 billion increase in procurement, and $2.7 billion increase in military construction. The increase in future funded expense is for
environmental liabilities reported in FY 2006 for the Chemical Weapons Disposal Program. The program implemented the use of a new cost
estimation process beginning in 3rd Quarter, FY 2006.

The increase in procurement cost is a direct impact of a cumulative change in estimate for military equipment per Ofﬁce of the Secretary of
Defense guidance from October 1, 2005 to June 30, 2006 beginning in 3rd Quarter, FY 2006.

The increase in military construction is due to the construction, modiﬁcations, and procurement of facilities and attendant items for the Army
during FY 2006, speciﬁcally due to modiﬁcations required for the Fort Bragg, Fort Lewis, Fort Wainwright, and other Army installations.

Deﬁnitions
Intragovernmental costs and revenue are related to transactions made between two reporting entities within the federal government.

Public costs and revenue are exchange transactions made between the reporting entity and a nonfederal entity.

Other Information Regarding Costs
The Consolidated Statement of Net Cost in the federal government is unique because its principles are driven by understanding the net cost
of programs and/or organizations that the federal government supports through appropriations or other means. This statement provides gross
and net cost information that can be related to the amount of output or outcome for a given program and/or organization administered by a
responsible reporting entity.

The amounts presented in the Consolidated Statement of Net Cost are based on funding, obligation, accrual, and disbursing transactions,
which are not always recorded using accrual accounting. The Army General Fund’s systems do not always record the transactions on an
accrual basis as is required by the Generally Accepted Accounting Principles. The information presented also includes data from non-
ﬁnancial feeder systems to capture all cost and ﬁnancing sources for Army General Fund.

The Army General Fund recorded a prior period adjustment due to a change in the methodology for reporting of military equipment. The
FY 2005 restatement impacts the value of general property, plant, and equipment and associated accumulated depreciation reported on the
balance sheet. The Department has determined that developing the prior year value for the depreciation expense is cost-prohibitive, and thus
has elected not to restate the Statement of Net Cost.




                                                                                         78 FY 2006 United States Army Annual Financial Statement
                                                                   General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                    79

Note 19. Disclosures Related to the Statement of Changes in Net Position

                                                                        2006                                           2005
As of September 30                                         Cumulative
                                                                                Unexpended          Cumulative Results           Unexpended
                                                           Results of
                                                                               Appropriations         of Operations             Appropriations
                                                           Operations
(Amounts in thousands)

1. Prior Period Adjustments Increases
   (Decreases) to Net Position Beginning
   Balance

    A. Changes in Accounting Standards                 $                 0     $               0      $                   0     $               0
    B. Errors and Omissions in Prior Year
       Accounting Reports                                    (42,829,096)                      0            (42,829,096)                        0

    C. Total Prior Period Adjustments                  $     (42,829,096)      $               0      $     (42,829,096)        $               0

2. Imputed Financing
   A. Civilian CSRS/FERS Retirement                    $          306,148      $               0      $           316,873       $               0
   B. Civilian Health                                             561,369                      0                  525,159                       0
   C. Civilian Life Insurance                                       1,784                      0                    1,655                       0
   D. Judgment Fund                                                94,807                      0                  249,118                       0
   E. IntraEntity                                                       0                      0                        0                       0

    F. Total Imputed Financing                         $          964,108      $               0      $         1,092,805       $               0



Prior Period Adjustments: Errors and Omissions in Prior Year Accounting Reports
The Army General Fund recorded a $42.8 billion prior period adjustment due to a change in the methodology for reporting of military
equipment, resulting in a $42.8 billion restatement for FY 2005. The FY 2005 restatement impacts the value of general property, plant, and
equipment and associated accumulated depreciation reported on the balance sheet. The Department has determined that developing the prior
year value for the depreciation expense is cost-prohibitive, and thus has elected not to restate the Statement of Net Cost.

In accordance with the Statement of Federal Financial Accounting Standards (SFFAS) No. 23, Eliminating the Category National Defense
Property, Plant, and Equipment, the Department reported military equipment values in the ﬁnancial statements beginning in FY 2003. As
an interim measure, while the Department worked to develop its military equipment baseline from internal records, the military equipment
values reported were based on information from the Bureau of Economic Analysis (BEA).

Effective 3rd Quarter, FY 2006, the Department replaced the BEA estimation methodology with a valuation based on internal Departmental
records. During the process of establishing a baseline, we discovered that the BEA estimates had failed to consider disposals, thresholds, and
construction in process. While an estimation methodology is acceptable per SFFAS 23, due to the nature of the BEA omissions, we consider
that the method we previously used was not compliant with Generally Accepted Accounting Principles, and thus have treated the adjustment
as correction of a material error.

Cumulative Results of Operations
Other Budgetary Financing Sources (All other funds) and Other Financing Sources (Other) represent adjustments to bring the proprietary
accounts into agreement with the budgetary accounts. Due to system deﬁciencies, there are unreconciled differences between the budgetary
and proprietary trial balances. The net effect of these adjustments is reﬂected on Other budgetary ﬁnancing sources and Other Financing
Sources on the Statement of Net Position.

Unexpended Appropriations
Appropriations Received (All other funds) on the Statement of Changes in Net Position does not agree with the Appropriations Received on
the Statement of Budgetary Resources due to differences between proprietary and budgetary accounting concepts and reporting requirements.
The Statement of Budgetary Resources includes $13.1 million in receipts for Appropriated Trust or Special Fund Receipts that are not
included in the Statement of Changes in Net Position.

Other Adjustments represent recessions and cancelled authority enacted during FY 2006.
Note 20. Disclosures Related to the Statement of Budgetary Resources

  As of September 30                                                                                    2006                    2005
  (Amounts in thousands)
  1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End
     of the Period                                                                              $       80,977,698      $       71,524,849

  2. Available Borrowing and Contract Authority at the End of the Period                                     11,404                         0

Undelivered Orders
Undelivered Orders presented in the Statement of Budgetary Resources includes Undelivered Orders-Unpaid for both direct and reimbursable
funds.

Supplemental Appropriations Received
Appropriations received increased primarily due to the enactment of Public Law 109-234, FY 2006 Emergency Supplemental Appropriations
Act for Defense, the Global War on Terror, and Hurricane Recovery. This appropriation will fund ongoing military, diplomatic, and intelligence
operations in the Global War on Terror; stabilization and counter-insurgency activities in Iraq and Afghanistan; and other humanitarian
assistance.

 Breakdown of Emergency Supplemental Appropriations
 (Amounts in billions)
 Appropriation                                                                     Total
 Military Personnel                                                                 $6.8
 Operations & Maintenance                                                           18.0
 Afghanistan Security Forces                                                          1.9
 Iraqi Security Forces                                                                3.0
 Joint Improvised Explosive Device Defeat Fund                                        2.0
 Procurement                                                                          8.9
 Research, Development, Test and Evaluation                                           0.1
 Total Army Supplemental                                                           $40.7

Reporting of Appropriations Received
Appropriations received on the Statement of Budgetary Resources do not agree with appropriations received on the Statement of Changes in
Net Position because of differences between proprietary and budgetary accounting concepts and reporting requirements. The differences are
made up of the recording of receipts for trust and special funds and the appropriations anticipated-indeﬁnite accounts.

Presentation of Statement of Budgetary Resources
The Statement of Budgetary Resources does not include eliminating entries because the statements are presented as combined and combining.
Therefore, a Disaggregated Statement of Budgetary Resources is included in the Required Supplementary Information section of the ﬁnancial
statements.

Breakdown of Apportionment Categories
Ofﬁce of Management and Budget Circular A-136 speciﬁcally requires disclosure of the amount of direct and reimbursable obligations
incurred against amounts apportioned under Category A (apportioned by ﬁscal quarter), Category B (apportioned by project or activity),
and Exempt from Apportionment. Obligations incurred consists of $178.6 billion in Category A, Direct; $8.3 billion in Category B, Direct;
$19.5 billion in Category A, Reimbursable; and $5.9 billion in Category B, Reimbursable. This disclosure agrees with the aggregate of the
related information as reported on the Budgetary Execution Report and Obligations Incurred on the Statement of Budgetary Resources.

Terms of Borrowing Authority
Borrowing authority increased due to a loan default relating to the Armament Retooling and Manufacturing Support Initiative (ARMS). This
initiative is designed to encourage commercial use of inactive Army General Fund ammunition plants through many incentives for businesses
willing to locate to a government ammunition production facility. The Army General Fund, by means of ARMS Initiative legislation,
established a loan guarantee program to facilitate commercial ﬁrms’ use of speciﬁed ammunition manufacturing facilities. The Army General
Fund and Department of Agriculture Rural Business-Cooperative Service (RBS) established a Memorandum of Understanding for the RBS to
administer the ARMS Initiative Loan Guarantee Program. The borrowing authority was received from Treasury to pay for a loan 90 percent
guaranteed by ARMS to make bullet casings. The loan was defaulted in August 1999 and Army General Fund was in litigation to determine
the actual amount of debt owed. In January 2006, Army General Fund used the borrowing authority to pay for the guaranteed loan.

                                                                                        80 FY 2006 United States Army Annual Financial Statement
                                                                      General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                      81
Differences with the Budget of the United States Government
A Nonbudgetary Credit Program Finance Account section allows for a clear distinction between budgetary and nonbudgetary credit program
ﬁnancing. Nonbudgetary credit ﬁnancing accounts are reported separately from the budgetary totals in the Budget of the United States
Government. Separate reporting on the Statement of Budgetary Resources enhances reconciliation of the two sets of information.

Offsetting Receipts are collections that are credited to the general, special, suspense or trust fund receipt accounts. In addition, they represent
offsetting receipts distributed to Army General Fund. Offsetting receipts offset budget authority and outlays at the agency level in the Budget
of the United States Government. Offsetting receipts must be included in the Statement of Budgetary Resources to reconcile it to information
in the Budget of the United States Government.


Note 21. Disclosures Related to the Statement of Financing
The Statement of Financing is intended to explain and deﬁne the relationship between net obligations from budgetary accounting and net cost
of operations from proprietary accounting. The following Statement of Financing lines are presented as combined instead of consolidated
due to intra-agency budgetary transactions not being eliminated:

     •     Obligations Incurred,
     •     Less: Spending Authority from Offsetting collections and Recoveries,
     •     Obligations Net of Offsetting Collections and Recoveries,
     •     Less: Offsetting Receipts,
     •     Net Obligations,
     •     Undelivered Orders, and
     •     Unﬁlled Customer Orders.

Other Resources – Other, and Other resources or adjustments to net obligated resources that do not affect net cost operations – Other includes
Other Gains and Losses which represents adjustments to bring the proprietary accounts into agreement with the budgetary accounts. Due to
system deﬁciencies, there are unreconciled differences between the budgetary and proprietary trial balances. In addition, Other resources or
adjustment to net obligated resources that do not affect net cost operations – Other includes transfers in and out without reimbursement.

Other Components Requiring or Generating Resources in Future Period represents increases in future funded expense for various liabilities
such as Federal Employment Compensation Act, Judgment Fund, Unemployment Compensation, and Closed Accounts Payable.

Other Components not Requiring or Generating Resources is comprised of Other Expenses not Requiring Budgetary Resources for the Iraqi
Relief and Reconstruction Fund. The Iraqi Relief and Reconstruction Fund is a transfer fund where Army General Fund executes the funding
on behalf of the Executive Ofﬁce of the President. The Department of the Treasury requires that the execution for this type of transfer is
presented on Army General Fund’s ﬁnancial statements except for the Statements of Budgetary Resources. A reconciling item is included in
Other because Obligations incurred on the Statement of Financing does not include expenses related to the Iraqi Relief and Reconstruction
Fund.

Components Requiring or Generating Resources in Future Period reports $5.5 billion increases in unfunded expenses that were incurred
during FY 2006. The cumulative total of unfunded expenses from all ﬁscal years is reported as “Liabilities Not Covered by Budgetary
Resources” in Note 11.


Note 22. Disclosures Related to the Statement of Custodial Activity
The Statement of Custodial Activity displays current year collections and disbursements for two custodial accounts: Development Fund
for Iraq and Iraqi Seized Assets. Funds held in a Custodial Activity are only used for their stated purposes and are not available for the
Department’s use.

Development Fund for Iraq (DFI)
The DFI is for urgent humanitarian assistance, reconstruction, and other projects carried out for the beneﬁt of the Iraqi people. In the current
year, there were $34.6 million in disbursements by the Multi-National Force Iraq with no additional deposits. Some of the disbursements for
FY 2005 were incorrectly classiﬁed. Disbursements during FY 2006 were processed to correct the misclassiﬁcation which caused negative
disbursements for Education, Refugees, Human Rights, and Governance. As of September 30, 2006, $18.8 million remains to be disbursed.
                                                                                                        During FY 2006                  Cumulative from Inception
 (Amounts in Thousands)
 Source of Collections
      Deposits By Foreign Governments                                                                                         $0                                 $136,000
 Disposition of Collections
      Security and Law Enforcement                                                                                        $216                                      $979
      Electric Sector                                                                                                  20,778                                      45,145
      Oil Infrastructure                                                                                                      36                                     466
      Water Resources and Sanitation                                                                                     9,922                                     16,584
      Transportation and Telecommunications                                                                                   64                                    5,272
      Roads, Bridges and Construction                                                                                       794                                     5,024
      Health Care                                                                                                           154                                     2,874
      Private Sector Development                                                                                         3,364                                      7,181
      Education, Refugees, Human Rights, and Governance                                                                 (764 )                                     33,652
      Total Disbursed on Behalf of Foreign Governments                                                                 34,564                                     117,177
 Retained for Future Support of Foreign Governments *                                                               (34,564 )                                      18,823
   Total Disposition of Collections                                                                                           $0                                 $136,000
 Net Custodial Collection Activity                                                                                            $0                                      $0

*Retained for Future Support of Foreign Governments is reflected as an Increase/(Decrease) in Amounts to be Transferred on the Statement of Custodial Activity


Seized Assets
During Operation Iraqi Freedom, the U.S. Government seized assets from the Iraqi Government that are used in support of the Iraqi people.
In FY 2006, $31.2 million was disbursed with no additional seized assets. As of September 30, 2006, $30.2 million of seized monetary assets
remain to be disbursed in support of the Iraqi people as shown in the table below.

                                                                                                        During FY 2006                   Cumulative from Inception
 (Amounts in Thousands)
 Source of Collections
      Seized Iraqi Cash                                                                                                      $0                                  $927,216
 Disposition of Collections
      Iraqi Salaries                                                                                                         $0                                   $30,838
      Repair/Reconstruction/Humanitarian Assistance                                                                    31,154                                     526,113
      Iraqi Ministry Operations                                                                                                0                                  264,737
      (Ministry of Finance, Defense, etc.)
      Fuel/Supplies                                                                                                            0                                   75,312
      Total Disbursed on Behalf of Iraqi People                                                                        31,154                                     897,000
      Retained for Future Support of the Iraqi People                                                              (31,154 )                                       30,216
      Total Disposition of Collections                                                                                       $0                                  $927,216
 Net Custodial Collection Activity                                                                                           $0                                        $0




                                                                                                                                      82 FY 2006 United States Army Annual Financial Statement
                                                                   General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                     83

Note 23. Earmarked Funds
 BALANCE SHEET                                                                               Other
 As of September 30                                     MRF          MERHCF                Earmarked        Eliminations              Total
 (Amounts in thousands)                                                                      Funds
 ASSETS
 Fund balance with Treasury                         $          0    $           0      $        43,434      $              0    $         43,434
 Investments                                                   0                0                3,407                     0               3,407
 Accounts and Interest Receivable                              0                0               22,965            (22,965)                       0
 Other Assets                                                  0                0                    0                   0                       0
 Total Assets                                       $          0    $           0      $        69,806      $     (22,965)      $         46,841


 LIABILITIES and NET POSITION
 As of September 30

 Military Retirement Benefits and Other Federal
 Employment Benefits                                $          0    $           0      $               0    $              0    $                0
 Other Liabilities                                             0                0               27,014                     0              27,014
 Unexpended Appropriations                                     0                0                      0                   0                     0
 Cumulative Results of Operations                              0                0               42,792                     0              42,792
 Total Liabilities and Net Position                 $          0    $           0      $        69,806      $              0    $         69,806


 STATEMENT OF NET COST
 As of September 30

 Program Costs                                      $          0    $           0      $         6,291      $              0    $           6,291
 Less Earned Revenue                                           0                0                    0                     0                    0
 Net Program Costs                                  $          0    $           0      $         6,291      $              0    $           6,291
 Less Earned Revenues Not Attributable to
 Programs                                                      0                0                    0                     0                    0
 Net Cost of Operations                             $          0    $           0      $         6,291      $              0    $           6,291


 STATEMENT OF CHANGES IN NET POSITION
 As of September 30


 Net Position Beginning of the Period               $          0    $           0      $        35,140      $              0    $         35,140
 Net Cost of Operations                                        0                0                6,291                     0               6,291
 Budgetary Financing Sources                                   0                0               13,953                     0              13,953
 Other Financing Sources                                       0                0                 (10)                     0                (10)
 Change in Net Position                             $          0    $           0      $         7,652      $              0    $          7,652
 Net Position End of Period                         $          0    $           0      $        42,792      $              0    $         42,792


Earmarked Funds
Earmarked Funds represent funds received from outside sources for speciﬁc purposes. Army receives earmarked for the following:

     –    Sale of Hunting and Fishing Permits. Fees are received from individuals for the issuance of special hunting and ﬁshing permits.
          The funds for this account are used for wildlife, ﬁsh, and game conservation and rehabilitation on military reservations.
     –    Restoration of Rocky Mountain Arsenal. Funds are received from private industry for the cleanup of contamination areas of Rocky
          Mountain Arsenal. Public Law 99-661, Section 1367 provides the authority for this explicit use.
     –    Royalties for Use of DoD-Military Insignia and Trademarks. Funds are received from the sale of commemorative memorabilia,
          trademarks, and licensing activities. The funds are used to replenish inventory stock for such items and other related Commemorative
          Program expenses. The authority to create expenditures originates from Public Law 102-484, Section 378.
     –    Forest and Wildlife Conservation, Military Reservations. These funds are produced from the sale of forest products that are in
          excess of operation and maintenance expenses at ﬁscal year-end for the payment of entitlements to States.
     –    National Science Center. Funds received from the collection of fees for the use of the National Science Center and use for the
          operation and maintenance of the National Science Center as authorized under Public Law 99-145, Defense Authorization Act
          1986, Section 1459.
     –    Bequest of Major General Fred C. Ainsworth to Walter Reed Army Medical Center. Funds received from interest on investments
          for the use of purchasing supplies and equipment for the library at Walter Reed Army Medical Center.
     –    Department of the Army General Gift Fund. Funds are received from private parties and estates and used for various purposes.
The Total Earmarked Funds column is shown as consolidated. All intra-DoD activity between earmarked funds and non-earmarked funds has
been eliminated from this column, which causes assets to not equal liabilities and net position.


Note 24. Other Disclosures
                                                                                          2006
As of September 30                                                                    Asset Category

                                                    Land and Buildings          Equipment              Other                   Total
(Amounts in thousands)


1. ENTITY AS LESSEE-Operating Leases
   Future Payments Due
   Fiscal Year
    2007                                        $                  6,298 $                    0 $                 0 $                   6,298
    2008                                                           4,950                      0                   0                     4,950
    2009                                                           3,794                      0                   0                     3,794
    2010                                                           2,118                      0                   0                     2,118
    2011                                                              67                      0                   0                        67
    After 5 Years                                                 15,484                      0                   0                    15,484

   Total Future Lease Payments Due                  $             32,711 $                    0 $                 0 $                  32,711


Deﬁnitions
Lessee – A person or entity who receives the use and possession of leased property (e.g. real estate or equipment) from a lessor in exchange
for payment of funds.

Operating Lease - A lease which does not substantially transfer all the beneﬁts and risks of ownership. Payments are charged to an expense
account over the lease term as it becomes payable.

Relevant Information for Comprehension
Land and Building lease periods vary and are not expected to be renewed at the end of the lease term. There are no material escalation clauses
or contingent rental restrictions. Costs are gathered from existing leases, General Service Administration bills, and Interservice Support
Agreements of which the largest component is ofﬁce space. Future year projections use the Consumer Price Index (CPI), rather than the DoD
inﬂation factor. The CPI impacts increases to the leases, especially those at commercially leased sites.




                                                                                        84 FY 2006 United States Army Annual Financial Statement
General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                85
Department of the Army

FY 2006 Required Supplementary Stewardship Information (RSSI)

National Defense Property, Plant, and Equipment
The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial Accounting Standards No. 6 to
require the capitalization and depreciation of military equipment (formerly National Defense Property, Plant and Equipment-ND PP&E) for
ﬁscal year (FY) 2003 and beyond, and encouraged early implementation.

The following summarizes Heritage Assets. In most cases, the additions and deletions are the result of sites/installations: (a) identifying
cemeteries and historical facilities; (b) disposing of Base Realignment and Closure (BRAC) property or excess installations; and
(c) privatization based on the Residential Communities Initiative program. BRAC Mission Closure installations and sites also are included
in this report.

                                                                 Heritage Assets
                                                    For Fiscal Year Ended September 30, 2006
 (a)                                                   (b)                 (c)                 (d)                  (e)                 (f)
                                                  Measurement         As of 10/1/05         Additions           Deletions         As of 9/30/06
                                                   /Quantity
 Museums (Note 2)                                     Each                   60                      1                    0               61
 Monuments and Memorials (Note 3)                     Each                1,240                  60                   75              1,225
 Cemeteries (Note 4)                                  Sites                 466                  67                   62                471
 Archeological Sites (Note 6)                         Sites              68,280               4,008               3,821              68,467
 Buildings & Structures (Note 1)                      Each               10,066                 310                1142               9,234
 Major Collections (Note 5)                           Each                   90                  17                       1             106

Notes:
1. Historical Buildings and Structures: buildings and structures designated as historical exclude museums, monuments, and memorials.
    The number of Buildings and Structures increased as a result of the following initiatives:
       –    Installations conducting real property surveys and making adjustments according to their ﬁndings;
       –    Active installations now reporting previously omitted National Guard Bureau buildings and structures designated as heritage
            assets; and
       –    Both National Guard and Reserve are now reporting new buildings and structures designated as heritage assets.
2.     Museums: The Army Museum System consists of 61 museums and museum activities in the active Army and Army Reserve. There
       are a relatively small number of federally-owned artifacts in National Guard Museum activities, which are primarily state entities. In
       addition, there is historical property displayed in numerous regimental rooms, trophy rooms, ofﬁcer’s clubs, visitor’s centers, chapels,
       and headquarters building elements that are not individually recognized by the Department of the Army as museums or museum
       activities.
3.     Memorial/Monuments: includes category code 76020 (monuments).
4.     Cemeteries: includes category code 76030 (cemetery), 76031 (National Cemeteries), 76032 (Veterans Cemeteries), and excludes
       76033 (Pet Cemeteries).
5.     Major Collections: The US Army Tank automotive & Armaments Life Cycle Management Command (TACOM LCMC) reports
       two (2) major collections under the Army Donations Program consisting of Ceremonial Riﬂes and Monuments/Static Displays.
       The Ceremonial Riﬂe collection consists of 371,163 weapons in the hands of 29,402 veterans’ organizations, law enforcement agencies
       and National cemeteries.
       Major collections also include 84 archeological collections identiﬁed at individual Army installations. These collections, kept in
       perpetuity, are managed in accordance with Federal Regulations. While some collections are available to the public, a number of items
       within an Archeological Collection are protected by Federal regulations such as the Native American Graves Protection and Repatriation
       Act (1990). Each installation maintaining an archeological collection is considered to have only one collection, regardless of whether
       the collection is divided among different facilities or locations. The collections are the responsibility of the Army, but may be in the care
       of a contractor, a public institution or other entity.


                                                                                            86 FY 2006 United States Army Annual Financial Statement
                                                                       General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                       87
6.   Archeological collections: The Army reports Archeological Sites in two categories:
     –    All recorded archeological sites on Army-owned Federal land whose eligibility is undetermined; and
     –    All archeological sites eligible for the National Register as determined by a formal evaluation process.
     The ﬁrst number reﬂects the total number of archeological sites for which the Army is responsible for managing and evaluating their
     signiﬁcance. This number was calculated as of September 30, 2006. The Army does not generally acquire or remove new archeological
     sites during the calendar year, but instead identiﬁes new sites on existing Army land or evaluates existing sites during the course
     of the ﬁnancial year. New land acquisitions that include new archeological sites will be speciﬁcally noted in future calendar year
     “additions”. Typical additions reﬂect the Army’s policy to inventory land in accordance with Sections 106 and 110 of the National
     Historic Preservation Act. As more land is surveyed, more archeological sites are identiﬁed. Deletions reﬂect changes to the status of
     a recorded archeological site that may have been determined ineligible for listing, or they may be evidence of an accounting correction
     by an installation. In some cases, an archeological site may appear as a deletion if it was mitigated or destroyed, or if multiple sites
     previously counted as individual sites were found to have only one ofﬁcial trinomial number.

     The conditions of archeological sites across the Army remain varied from poor to excellent, based on a number of factors, including the
     environmental setting, the type of the site, and the effects of Army activities. If an Army activity has the potential to adversely affect an
     archeological site eligible for the National Register of Historic Places, the installation’s Installation Cultural Resource Management Plan
     (ICRMP) deﬁnes the installation’s actions to address that potential damage. Army installations use ICRMPs to manage their cultural
     resources, including archeological sites that are in compliance with federal requirements. These plans provide for site protection, site
     conditions monitoring, and mitigation procedures. Overall, the conditions of sites on Army installations are “fair,” based on the Army’s
     cultural resource management procedures.

The following summarizes Stewardship Land. Additions/deletions are the result of: (a) acquiring additional land through donation or
withdrawal from public domain; (b) identiﬁcation of missing land records; and (c) disposal of BRAC Closure sites or transfer of land to
another DOD agency. BRAC Mission Closure installations and sites are included in this report.

                                                              Stewardship Land
                                                   For Fiscal Year Ended September 30, 2006
                                                             (Acres in Thousands)
                 (a)                                             (b)                  (c)                (d)                (e)
                                                           As of 10/1/05          Additions          Deletions        As of 9/30/06
                 Land Use
                 Mission (Note 1)                            6,914.50                   .37              5.62           6,909.25
                 Parks & Historic Sites (Note 2)                  .94                   .08                .07                .95
                 Total

Notes:
1. Mission Land: includes the following category codes: 91120, 91131, 91141, 91210, 91310, 91320, 91330, 91410, 92111, 92121, 92131,
    and 92190. These category codes represent land that was not purchased, but was either donated or withdrawn from public domain.


2.   Parks/Historic Sites: Same as Cemetery Acreage on Heritage Report (includes category codes 76030, 76031, and 76032; excludes Pet
     Cemeteries). Unable to determine if cemeteries are purchased, donated or transferred property. This value could be double reported
     within Mission Related; therefore; this report should not be totaled.
The following summarizes Nonfederal Physical Property. Investments in Non-federal Physical Property refers to those expenses incurred
by the Army for the purchase, construction, or major renovation of physical property owned by State and Local Governments, including
major additions, alterations and replacements; the purchase of major equipment; and the purchase of improvement of other physical assets. A
schedule of estimated investments value of state-owned properties that are used by the Federal Government is shown below.

                                                      Non-federal Physical Property
                                           Yearly Investment in State and Local Governments
                                                 For Fiscal Years FY 2002 through FY 2006
                                                           (In Millions of Dollars)
 (a)                                                      (b)                (c)                  (d)                  (e)                 (f)
 Categories                                            FY 2002           FY 2003               FY 2004            FY 2005                FY 2006
 Transferred Assets:
 1. National Defense Mission Related                      $7.4             $85.0                $54.7                 $70.7              $66.5
 Funded Assets:
 2. National Defense Mission Related                         0                 0                     0                   0                   0
 Total                                                    $7.4             $85.0                $54.7                 $70.7              $66.5

Notes:
1. Investment values included in this report are based on Non-federal Physical Property outlays (expenditures). Outlays are used because
    current DoD systems are unable to capture and summarize costs in accordance with the Federal Accounting Standards requirements.
2.     Data provided here are signiﬁcant because these are properties that are owned by the various U.S. Property and Fiscal Ofﬁces and are
       essential in accomplishing the mission of the Army National Guard.
3.     Costs of maintenance of these non-federal assets are included in the budgetary resources of Army National Guard.
4.     These properties represent non-cash items that were transferred to State and local governments.


The following summarizes Basic Research, Applied Research, and Development Investments and provides examples of each.

                                                Investments in Research and Development
                                             Yearly Investment in Research and Development
                                                 For Fiscal Years FY 2002 through FY 2006
                                                           (In Millions of Dollars)
 (a)                                                                               (b)            (c)           (d)             (e)              (f)
 Categories                                                                   FY 2002          FY 2003       FY 2004          FY 2005      FY 2006
 Basic Research                                                                    $206.4         $226.9        $291.6          $360.0       $355.4
 Applied Research                                                                   864.1          847.2         886.8           995.1       1,006.8
 Development
     Advanced Technology Development                                                863.1          988.6       1,010.4         1,185.8       1,369.3
     Advanced Component Development and Prototypes                                  897.7          880.1         767.7           830.3            659.7
     Systems Development and Demonstration                                         1,954.9       2,265.1       3,288.3         4,309.4       4,963.5
     Research, Development, Test and Evaluation Management Support                  880.9          979.4       1.069.8         1,157.3       1,287.5
     Operational Systems Development                                                970.4          964.9         929.8         1,156.7       1,218.7
 Total                                                                         $6,637.5         $7,152.2      $8,244.4        $9,994.6    $10,860.9

Narrative Statement:
Basic Research is the systematic study directed toward greater knowledge or understanding of the fundamental aspects of phenomena and
of observable facts without speciﬁc applications towards processes or products in mind. It includes all scientiﬁc study and experimentation
directed toward increasing fundamental knowledge and understanding in those ﬁelds of the physical, engineering, environmental, and life
sciences related to long-term national security needs. It is farsighted high payoff research that provides the basis for technological progress.



                                                                                             88 FY 2006 United States Army Annual Financial Statement
                                                                   General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                   89
The following are two representative program examples for each of the major categories:

Defense Research Sciences (PE 0601102A): This program fosters fundamental scientiﬁc knowledge and contributes to the sustainment of
U.S. Army scientiﬁc and technological superiority in land war ﬁghting capability, provides new concepts and technologies for the Army’s
Future Force, and provides the means to exploit scientiﬁc breakthroughs and avoid technological surprises. It fosters innovation in Army
niche areas and where the commercial incentive to invest is lacking due to limited markets. It also focuses university single investigators
on research areas of Army interest. The in-house portion of the program capitalizes on the Army’s scientiﬁc talent and specialized facilities
to expeditiously transition knowledge and technology into the appropriate developmental activities. The extramural program leverages
the research efforts of other government agencies, academia, and industry. This translates to a coherent, well-integrated program which
is executed by four primary contributors: 1) the Army Research, Development and Engineering Command (RDECOM); 2) the U.S. Army
Engineer Research and Development Center (ERDC); 3) the Army Medical Research and Materiel Command (MRMC) laboratories; and
4) the Army Research Institute for Behavioral and Social Sciences (ARI). The basic research program is coordinated with the other Services
via Defense Science and Technology Reliance (Defense Basic Research Advisory Group), the Defense Basic Research Technology Area
Review and Assessment (TARA) process and other inter-service working groups. This program responds to the scientiﬁc and technological
requirements of the Department of Defense Basic Research Plan by enabling technologies that can signiﬁcantly improve joint war ﬁghting
capabilities.

University and Industry Research Centers (PE 0601104A): A signiﬁcant portion of the work performed within this program directly
supports Future Force requirements by providing research that supports enabling technologies for Future Force capabilities. Broadly, the
work in this program falls into three categories: Collaborative Technology Alliances (CTAs), University Centers of Excellence (COE), and
paradigm-shifting centers - University-Afﬁliated Research Centers (UARCs). The Army has formed CTAs to leverage large investments by
the commercial sector in basic research areas that are of great interest to the Army. Collaborative Technology Alliances involve partnerships
between industry, academia, and the Army Research Laboratory to incorporate the practicality of industry, the expansion of the boundaries of
knowledge from universities, and Army scientists to shape mature and transition technology. This program also includes the Army’s COE,
which focus on expanding the frontiers of knowledge in research areas where the Army has enduring needs. COEs couple state-of-the-art
research programs at academic institutions with broad-based graduate education programs to increase the supply of scientists and engineers
in information sciences, materials science, electronics, automotive and rotary wing technology. Historically Black Colleges and Universities
and Minority Institution (HBCU/MI) Centers of Excellence address critical research areas for Army Transformation. This program also
includes the four Army UARCs, which have been created to exploit opportunities to advance new capabilities through a sustained long-term
multidisciplinary effort. Also included in this program is eCYBERMISSION, the Army’s national web-based competition to stimulate
interest in science, math and technology among middle and high school students.

Applied Research is the systematic study to understand the means to meet a recognized and speciﬁc need. It is a systematic expansion
and application of knowledge to develop useful materials, devices, systems or methods. It may be oriented, ultimately, toward the design,
development, and improvement of prototypes and new processes to meet general mission area requirements. Applied research may translate
promising basic research into solutions for broadly deﬁned military needs, short of system development.

The following are two representative program examples for this category:

Materials Technology (PE 0602105A): This program researches and evaluates materials technologies for armor and armaments that will
signiﬁcantly enhance the survivability and lethality of Future Combat Systems (FCS) and Future Force systems and, where feasible, can be
exploited to enhance Current Force capabilities. It provides the technology base required for solving materials-related problems in individual
Soldier support equipment, armor, armaments, aircraft, ground and combat vehicles and combat support.

Combat Vehicle and Automotive Technology (PE 0602601A): This program researches, investigates and applies combat vehicle and
automotive component technologies that will improve survivability, mobility, sustainability, and maintainability of Army ground combat
and tactical vehicles. As combat vehicle systems become smaller and lighter, one of the greatest technological and operational challenges is
providing adequate crew protection without reliance on heavy passive armor. This challenge will be met using a layered approach, including
long-range situational awareness, multi-spectral signature reduction, Active Protection (AP) systems and advanced lightweight armor in place
of heavy conventional armor. This program also funds the National Automotive Center (NAC). The goal of the NAC is to leverage large
commercial investments in automotive technology research and development, pursuing automotive-oriented technology programs that have
potential beneﬁt to military ground vehicles. Additionally this program investigates, evaluates and characterizes unique AP countermeasure
concepts for intercepting chemical energy and kinetic energy threats before they reach the target vehicle. This program also investigates
hybrid electric propulsion and electronic vehicle component technologies.

Development takes what has been discovered or learned from basic and applied research and uses it to establish technological feasibility,
assessment of operability, and production capability. Development is comprised of ﬁve stages deﬁned below:

1.   Advanced Technology Development: This area of technology includes all efforts to mature technology (hardware or software) sufﬁcient
     for demonstration in an operational environment—this may be live or virtual. In this program experimental systems or subsystems are
     demonstrated to prove the technical feasibility and military utility of the approach selected. Advanced technology development provides
     the path for the rapid development and demonstration of new components and systems. The most complex efforts in this program are
     designated as Advanced Technology Demonstrations (ATDs). The Army’s ATDs are developed to facilitate the smooth transition of
     advanced technology into systems as part of a formal acquisition program.
2.   Advanced Component Development and Prototypes (ACD&P) evaluates integrated technologies in as realistic an operating
     environment as possible to assess the performance or cost reduction potential of advanced technology. Programs in this phase are
     generally system speciﬁc. Major outputs of ACD&P development are hardware and software components, or complete weapon
     systems, ready for operational and developmental testing and ﬁeld use.
3.   System Development and Demonstration concludes the program or project and prepares it for production. It consists primarily of
     preproduction efforts, such as logistics and repair studies. Major outputs are weapons systems ﬁnalized for complete operational and
     developmental testing.
4.   RDT&E Management Support includes research, development, test and evaluation efforts and funds to sustain and/or modernize the
     installations or operations required for general research, development, test and evaluation.
5.   Operational Systems Development includes developmental efforts to upgrade systems that have been ﬁelded or have received approval
     for full rate production and anticipate production funding in the current or subsequent ﬁscal years.
The following are ﬁve representative program examples of development:

Electronic Warfare Advanced Technology (PE 0603008A): The goal of this program is to provide enabling technologies for a secure,
mobile, wireless network that will operate reliably in diverse and complex terrain, in all environments for the Army’s Future Force and,
where feasible, exploit opportunities to enhance Current Force capabilities. Technologies will be matured and demonstrated to address
this challenge with distributed, mobile, secure, self-organizing communications networks. A key objective is to demonstrate seamlessly
integrated communications technologies across all network tiers, ranging from unattended networks and sensors through maneuver elements
and airborne/space assets. To accomplish the goal this program will investigate and leverage external communication technologies and
combine technology options in a series of Command, Control, Communications, and Computers Intelligence, Surveillance and Reconnaissance
(C4ISR) On-The-Move (OTM) experiments to measure the battleﬁeld effectiveness for Future Combat System (FCS) Brigade Combat
Team (BCT) and the Future Force. This program also provides: protection technologies for tactical wireless networks against modern
network attacks; smart communication technologies to network and control unmanned systems anywhere on the battleﬁeld enabling timely
sensor-decider-engagement linkage to defeat critical targets; advanced antenna technologies for greater communications mobility, range and
throughput; and automated network management aids.

Advanced Tank Armament System (PE 0603653A): This program supports the development of the Stryker family of vehicles. A critical
need exists to improve the deploy ability and operational effectiveness of rapid response/early entry forces. The Stryker family includes:
Infantry Carrier Vehicle (ICV), Reconnaissance Vehicle (RV), Mobile Gun System (MGS), Mortar Carrier (MC), Commander’s Vehicle
(CV), Fire Support Vehicle (FSV), Engineer Squad Vehicle (ESV), Medical Evacuation Vehicle (MEV), Anti-Tank Guided Missile Vehicle
(ATGM), and Nuclear/Biological/Chemical Reconnaissance (NBC RV). The use of a common platform/common chassis design reduces
requirements for repair parts and logistics support in the area of operations.

Air Defense Command, Control and Intelligence -- Engineering Development (PE 0604741A): This program supports the Air and
Missile Defense Planning and Control System (AMDPCS), which is an Army Future Force System with Homeland Defense capabilities that
allows for the integration of Air and Missile Defense (AMD)operations. It also supports the Forward Area Air Defense Command, Control,
and Intelligence (FAAD C2I) System, which provides continuously tailored situational awareness and situational understanding of the battle
space. The mission is to collect, digitally process and disseminate real time target cueing and tracking information, common tactical air
picture, and command, control, and intelligence information.

Army Test Ranges and Facilities (0605601A): This program provides the institutional funding required to operate the developmental test
activities required by Department of Defense (DoD), Department of the Army (DA) weapon system developers and Research, Development,
and Engineering Centers. This funding does not pay for program speciﬁc test costs. All functions and resources associated with this program
are managed by the U.S. Army Developmental Test Command (DTC), a subordinate command of the Army Test and Evaluation Command
(ATEC). This program provides resources to operate four Army Major Range and Test Facility Bases (MRTFB): White Sands Missile Range
(WSMR), New Mexico; Electronic Proving Ground (EPG), Fort Huachuca, Arizona; Aberdeen Test Center (ATC), Aberdeen Proving
Ground (APG), Maryland; Yuma Proving Ground (YPG), Arizona.

This program also provides the resources to operate the Army’s developmental test capability at: the Aviation Technical Test Center, Fort
Rucker, Alabama; and the Redstone Technical Test Center, Redstone Arsenal, Alabama. It also provides the resources for test planning
and safety veriﬁcation/conﬁrmation at Headquarters, DTC located at APG. Developmental test capabilities at the test ranges have been
uniquely established, are in place to support test and evaluation (T&E) requirements of funded weapons programs, and are required to assure
technical performance, adherence to safety requirements, reliability, logistics supportability, and quality of materiel in development and in
production.

                                                                                       90 FY 2006 United States Army Annual Financial Statement
                                                                 General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                 91
Multiple Launch Rocket System (MLRS) Product Improvement Program (PIP) (0603778A): This program provides support for the
following improvements to MLRS: High Mobility Artillery Rocket System (HIMARS), M270A1, Guided Multiple Launch Rocket System
(GMLRS) and GMLRS Unitary munition which provide precision strike capability.

     –    HIMARS, is a C-130 transportable launcher mounted on a Family of Medium Tactical Vehicles (FMTV) chassis. HIMARS is
          capable of ﬁring either six MLRS Family of Munitions (MFOM) rockets or one Army Tactical Missile (ATACMS) Family of
          Munitions (AFOM) missile, including precision munitions, to a range of 300KM.
     –    The M270A1 upgraded MLRS launcher is mounted on a Bradley Fighting Vehicle chassis, and is capable of ﬁring the MFOM and
          the AFOM, including precision munitions, to a range of 300KM.
     –    GMLRS is a precision munition which provides an increased range and Global Positioning System (GPS) accuracy. Fired from
          M270A1 and HIMARS launchers, GMLRS comes in two variants: Dual Purpose Improved Conventional Munitions (DPICM)
          which contains 414 sub munitions, for attacking area targets with improved accuracy and signiﬁcantly reduced hazardous duds; and
          GMLRS Unitary which has a 200lb High Explosive (HE) warhead for attacking point targets with reduced collateral damage.

Real Property Deferred Maintenance Amounts
As of September 30, 2006

Narrative Statement:
FY2006 sustainment requirements for the Army are from version 6.1 of the DoD Facilities Sustainment Model (FSM). The required and
executed amounts represent facilities funded from Operations & Maintenance (O&M), Army Family Housing (AFH), and Working Capital
Fund (WCF) appropriations, and from Non-Appropriated Funds (NAF). Sustainment funding contributions from host nation funding (Japan)
and military pay are included. The appropriated amount includes no contribution from WCF, NAF and host nation funding as these funds are
not appropriated by Congress. Army sustainment data includes facilities that are multi-use heritage assets. The sustainment data excludes
facilities funded from Research, Development, Test and Evaluation (RDTE), and Procurement appropriations, and Chemical Depots, because
we lack separately identiﬁable sustainment funding for these locations.

                                                     Annual Sustainment FY 2006
 Property Type                                1. Required            2. Appropriated              3. Executed                4. Difference
 Buildings, Structures, and Utilities          $3,114.5M               $2,500.1M                   $2,767.8M                   $346.7M


                                                 Annual Deferred Sustainment Trend
 Property Type                                  FY 2003                 FY 2004                     FY 2005                    FY 2006
 Buildings, Structures, and Utilities          $792.3M                  $959.9M                    $1,008.0M                   $346.7M

Army Restoration & Modernization (R&M) requirements are modeled in the annual Installation Status Report (ISR). During ISR data
collection, facility occupants evaluate the condition of each facility against published standards. The inspection generates a quality
improvement cost estimate for each facility based on the condition rating of each component of the facility, and the component improvement
cost factor. Improvement cost factors are developed for each component within each facility type.

The requirement reported for General PP&E R&M is the ISR cost to improve the quality of facilities to full up Q-1 status, which represents
full improvement cost for each facility. For FY2006, these requirements address facility types funded from Army appropriated operations
and maintenance (O&M), working capital fund (WCF), and Army family housing (AFH) funds. The Army’s R&M requirement does not
include requirements for facilities funded by Department of Defense agencies (DECA, DLA, TMA, DODDS), non-appropriated funds-NAF
(recreation, sports), Army Air Force Exchange Service, and private funding. The R&M requirement also excludes costs for utilities planned
for privatization, closures from base realignment and closure (BRAC) decisions, ammunition plants and chemical depots.

The Army’s estimate to return these facilities to a full-up Q-1 status for FY2006 is $22.2B, based on the 2006 ISR. Reduced requirements
for FY 2006 are a result of two actions:
     – Investments in restoration and modernization show improvements to the condition of facilities.
     –    Privatization efforts continue to move utilities and Army family housing away from Army responsibility to recapitalize.

                                             Restoration & Modernization Requirements
 Property Type                                                         End FY 2005                End FY 2006                    Change
 Buildings, Structures, and Utilities                                     $24.4B                      $22.2B                     -$2.2B
                                                               Military Equipment
                                                        Deferred Maintenance Amounts
                                                           As of September 30, 2006
                                                             (Amount in Thousands)
                                        (a)                                                            (b)
                                        Major Type
                                        1. Aircraft                                             $190,000
                                        2. Ships                                                        0
                                        3. Missiles                                             $155,500
                                        4. Combat Vehicles                                      $299,400
                                        5. Other Weapons Systems                                $293,200
                                        Total                                                   $938,100

The Op-30 report from the FY 2007 President Budget was used to compile the deferred depot level maintenance. Depot Maintenance
Operations and Planning System (DMOPS) is the automated system for capturing depot-level deferred maintenance data.

Stewardship Property, Plant and Equipment Condition:
The Federal Accounting Standards Advisory Board (FASAB), Statement of Federal Financial Accounting Standards 29 - Heritage Assets and
Stewardship Land, requires the Army to report the condition of heritage assets and stewardship land as required supplementary information.
The FASAB standard states that the condition of an asset is based on an evaluation of the physical status/state of an asset, its ability to perform
as planned, and its continued usefulness. Given the aforementioned criteria, most Army heritage assets and stewardship land are in an
acceptable physical state and have established data compilation standards. Speciﬁc examples of Stewardship Property, Plant and Equipment
condition are outlined below:

     –     Major Collections: The U.S. Army Tank Automotive and Armaments Life Cycle Management Command (TACOM LCMC)
           reports two major collections under the Army Donations Program consisting of Ceremonial Riﬂes and Monuments/Static Displays.
           The Ceremonial Riﬂes collection is in good condition with 101,985 riﬂes considered lost or stolen and 95 percent serial number
           accountability of the remaining 269,178 weapons. The Monuments/Static display collection consists of 5,375 major end items
           located in 3,169 organizations, which are in good condition with 100 percent accountability.
     –     Archeological Collections: The condition of the Army’s Archeological Collections is good. Thirty three percent of the Army’s
           existing archeological collections need upgrading of either curatorial facilities, accessioning, packaging and/or conservation to
           meet Federal requirements under title 36, chapter I of the code of federal regulation part 79 - Curation of Federally-Owned and
           Administered Archeological Collections.




                                                                                           92 FY 2006 United States Army Annual Financial Statement
General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                93
Department of Defense - Department of the Army
                                                                                        STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                                                                      Research,
                                                                                                                    Development,         Operation and
                                                                                                    Other          Test & Evaluation     Maintenance
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                                                $    5,576,863 $            2,308,224 $           1,525,639
Recoveries of prior year unpaid obligations                                                           182,894              1,576,841             9,533,254
Budget authority
  Appropriation                                                                                     8,724,028            11,240,197             71,144,696
  Borrowing authority                                                                                       0                     0                      0
  Contract authority                                                                                        0                     0                      0
  Spending authority from offsetting collections
    Earned
       Collected                                                                                            88             4,144,826            12,258,122
       Change in receivables from Federal sources                                                           87                65,638              (12,879)
    Change in unfilled customer orders
       Advance received                                                                                      0               41,971                 87,620
       Without advance from Federal sources                                                              (726)              421,326              (224,206)
    Anticipated for rest of year, without advances                                                           0                    0                      0
    Previously unavailable                                                                                   0                    0                      0
    Expenditure transfers from trust funds                                                                   0                    0                      0
  Subtotal                                                                                     $     8,723,477 $         15,913,958 $           83,253,353
Nonexpenditure transfers, net, anticipated and actual                                              (2,351,937)              615,848                889,982
Temporarily not available pursuant to Public Law                                                             0                    0                      0
Permanently not available                                                                             (26,047)            (219,324)              (850,595)
Total Budgetary Resources                                                                      $    12,105,250 $         20,195,547 $           94,351,633

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                                                       $    8,549,773 $          12,142,842 $           78,921,190
  Reimbursable                                                                                         13,696             5,359,087             13,452,403
  Subtotal                                                                                          8,563,469            17,501,929             92,373,593
Unobligated balance:
  Apportioned                                                                                       3,519,583             2,579,115                424,619
  Exempt from apportionment                                                                             4,035                     0                      0
  Subtotal                                                                                          3,523,618             2,579,115                424,619
Unobligated balance not available                                                                      18,164               114,504              1,553,420
Total status of budgetary resources                                                            $   12,105,251 $          20,195,548 $           94,351,632
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                                               $    1,918,960 $            8,869,649 $          34,298,575

  Less: Uncollected customer payments from Federal sources, brought forward October 1                   (4,271)          (3,477,142)            (6,360,776)
  Total unpaid obligated balance                                                                     1,914,689             5,392,507             27,937,799
Obligations incurred net (+/-)                                                                 $     8,563,469 $          17,501,929 $           92,373,593
Less: Gross outlays                                                                                (6,772,855)          (15,032,449)           (80,852,392)
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                                                 0                     0                     0

  Actual transfers, uncollected customer payments from Federal sources (+/-)                                0                      0                      0
  Total Unpaid obligated balance transferred, net                                                           0                      0                      0
Less: Recoveries of prior year unpaid obligations, actual                                           (182,894)            (1,576,841)            (9,533,254)
Change in uncollected customer payments from Federal sources (+/-)                                        640              (486,964)                237,085
Obligated balance, net, end of period
  Unpaid obligations                                                                                3,526,680              9,762,287             36,286,522
  Less: Uncollected customer payments (+/-) from Federal sources (-)                                   (3,632)           (3,964,106)            (6,123,691)
  Total, unpaid obligated balance, net, end of period                                               3,523,048              5,798,181             30,162,831
Net Outlays
Net Outlays:
  Gross outlays                                                                                     6,772,855             15,032,449             80,852,392
  Less: Offsetting collections                                                                           (88)            (4,186,797)           (12,345,741)
  Less: Distributed Offsetting receipts                                                             (783,002)                      0                      0
Net Outlays                                                                                    $    5,989,765 $           10,845,652 $           68,506,651




                                                                                                   94 FY 2006 United States Army Annual Financial Statement
                                                                      General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                      95




    Procurement           Military Personnel       Military Construction/Family Housing       2006 Combined               2005 Combined


$          3,139,105 $                 330,804 $                              2,596,656 $              15,477,292 $                22,880,756
           1,424,875                 3,430,037                                  703,146                16,851,046                  17,033,447

          24,890,956                53,135,553                                3,892,087               173,027,517                 149,846,916
                   0                         0                                        0                         0                           0
                   0                         0                                        0                         0                           0


           1,372,751                   221,124                                3,808,580                21,805,492                  20,948,239
            (41,171)                  (47,231)                                   15,068                  (20,488)                   (415,099)

               2,970                         0                                  287,723                    420,284                     77,733
              35,563                  (11,397)                                  585,028                    805,587                  2,159,939
                   0                         0                                        0                          0                          0
                   0                         0                                        0                          0                          0
                   0                         0                                        0                          0                          0
$         26,261,069 $              53,298,049 $                              8,588,486 $             196,038,392 $               172,617,728
           2,183,002                 2,139,513                                (306,640)                  3,169,768                  3,415,759
                   0                         0                                        0                          0                          0
           (342,045)                 (534,766)                                (190,920)                (2,163,696)                  (877,523)
$         32,666,006 $              58,663,637 $                             11,390,728 $             229,372,802 $               215,070,167




$         25,325,841 $              58,185,538 $                              3,788,175 $             186,913,360 $               175,086,215
           1,671,362                   198,528                                4,740,373                25,435,449                  24,506,660
          26,997,203                58,384,066                                8,528,548               212,348,809                 199,592,875

           5,482,787                    18,252                                2,855,744                14,880,099                  13,665,452
                   0                         0                                        0                     4,035                      11,980
           5,482,787                    18,252                                2,855,744                14,884,134                  13,677,432
             186,017                   261,317                                    6,437                 2,139,859                   1,799,860
$         32,666,007 $              58,663,635 $                             11,390,729 $             229,372,802 $               215,070,167


$         26,638,521 $               1,191,314 $                              7,803,860 $              80,720,880 $                71,629,016

          (2,244,936)                 (31,510)                               (4,232,821)              (16,351,456)               (14,606,617)
           24,393,585                1,159,804                                 3,571,039                64,369,424                 57,022,399
$          26,997,203 $             58,384,067 $                               8,528,548 $             212,348,809 $              199,592,876
         (22,343,392)             (54,256,654)                               (6,805,794)             (186,063,536)              (173,467,566)

                   0                           0                                      0                         0                           0

                    0                        0                                        0                          0                           0
                    0                        0                                        0                          0                           0
          (1,424,875)              (3,430,037)                                (703,146)               (16,851,046)                (17,033,447)
                5,608                   58,628                                (600,096)                  (785,100)                 (1,744,839)

           29,867,458                1,888,691                                 8,823,467                90,155,105                  80,720,880
          (2,239,328)                   27,118                               (4,832,918)              (17,136,557)                (16,351,456)
           27,628,130                1,915,809                                 3,990,549                73,018,548                  64,369,424


           22,343,392               54,256,654                                 6,805,794               186,063,536                 173,467,566
          (1,375,722)                (221,124)                               (4,096,302)              (22,225,774)                (21,025,971)
                    0                        0                                         0                 (783,002)                   (195,234)
$          20,967,670 $             54,035,530 $                               2,709,492 $             163,054,760 $               152,246,361
Department of Defense - Department of the Army
                                                                                         STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                                                                        Research,
                                                                                                                      Development,         Operation and
                                                                                                     Other           Test & Evaluation     Maintenance
NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                                                 $        1,525 $                     0 $                   0
Recoveries of prior year unpaid obligations                                                                  0                       0                     0
Budget authority
  Appropriation                                                                                              0                       0                     0
  Borrowing authority                                                                                   11,404                       0                     0
  Contract authority                                                                                         0                       0                     0
  Spending authority from offsetting collections
    Earned
       Collected                                                                                             325                     0                     0
       Change in receivables from Federal sources                                                              0                     0                     0
    Change in unfilled customer orders
       Advance received                                                                                      0                       0                     0
       Without advance from Federal sources                                                                  0                       0                     0
    Anticipated for rest of year, without advances                                                           0                       0                     0
    Previously unavailable                                                                                   0                       0                     0
    Expenditure transfers from trust funds                                                                   0                       0                     0
  Subtotal                                                                                              11,729                       0                     0
Nonexpenditure transfers, net, anticipated and actual                                                        0                       0                     0
Temporarily not available pursuant to Public Law                                                             0                       0                     0
Permanently not available                                                                                    0                       0                     0
Total Budgetary Resources                                                                       $       13,254 $                     0 $                   0

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                                                        $       11,962 $                     0 $                   0
  Reimbursable                                                                                               0                       0                     0
  Subtotal                                                                                              11,962                       0                     0
Unobligated balance:
  Apportioned                                                                                              535                       0                     0
  Exempt from apportionment                                                                                  0                       0                     0
  Subtotal                                                                                                 535                       0                     0
Unobligated balance not available                                                                          757                       0                     0
Total status of budgetary resources                                                             $       13,254 $                     0 $                   0
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                                                $              0 $                   0 $                   0

  Less: Uncollected customer payments from Federal sources, brought forward, October 1                       0                       0                     0
  Total unpaid obligated balance                                                                             0                       0                     0
Obligations incurred net (+/-)                                                                  $       11,962 $                     0 $                   0
Less: Gross outlays                                                                                   (11,962)                       0                     0
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                                                   0                     0                     0

  Actual transfers, uncollected customer payments from Federal sources (+/-)                                   0                     0                     0
  Total Unpaid obligated balance transferred, net                                                              0                     0                     0
Less: Recoveries of prior year unpaid obligations, actual                                                      0                     0                     0
Change in uncollected customer payments from Federal sources (+/-)                                             0                     0                     0
Obligated balance, net, end of period
  Unpaid obligations                                                                                           0                     0                     0
  Less: Uncollected customer payments (+/-) from Federal sources (-)                                           0                     0                     0
  Total, unpaid obligated balance, net, end of period                                                          0                     0                     0
Net Outlays
Net Outlays:
  Gross outlays                                                                                         11,962                       0                     0
  Less: Offsetting collections                                                                           (325)                       0                     0
  Less: Distributed Offsetting receipts                                                                      0                       0                     0
Net Outlays                                                                                     $       11,637 $                     0 $                   0




                                                                                                    96 FY 2006 United States Army Annual Financial Statement
                                                                      General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                      97




    Procurement         Military Personnel         Military Construction/Family Housing       2006 Combined               2005 Combined


$                 0 $                        0 $                                      0 $                    1,525 $                    1,424
                  0                          0                                        0                          0                          0

                  0                          0                                        0                         0                            0
                  0                          0                                        0                    11,404                            0
                  0                          0                                        0                         0                            0


                  0                          0                                        0                       326                          101
                  0                          0                                        0                         0                            0

                  0                          0                                        0                         0                           0
                  0                          0                                        0                         0                           0
                  0                          0                                        0                         0                           0
                  0                          0                                        0                         0                           0
                  0                          0                                        0                         0                           0
                  0                          0                                        0                    11,730                         101
                  0                          0                                        0                         0                           0
                  0                          0                                        0                         0                           0
                  0                          0                                        0                         0                           0
$                 0 $                        0 $                                      0 $                  13,255 $                     1,525




$                 0 $                        0 $                                      0 $                  11,962 $                          0
                  0                          0                                        0                         0                            0
                  0                          0                                        0                    11,962                            0

                  0                          0                                        0                       535                       1,525
                  0                          0                                        0                         0                           0
                  0                          0                                        0                       535                       1,525
                  0                          0                                        0                       758                           0
$                 0 $                        0 $                                      0 $                  13,255 $                     1,525


$                 0 $                        0 $                                      0 $                       0 $                          0

                  0                          0                                        0                          0                           0
                  0                          0                                        0                          0                           0
$                 0 $                        0 $                                      0 $                   11,962 $                         0
                  0                          0                                        0                   (11,962)                           0

                  0                          0                                        0                         0                            0

                  0                          0                                        0                         0                            0
                  0                          0                                        0                         0                            0
                  0                          0                                        0                         0                            0
                  0                          0                                        0                         0                            0

                  0                          0                                        0                         0                            0
                  0                          0                                        0                         0                            0
                  0                          0                                        0                         0                            0


                  0                          0                                        0                    11,962                             0
                  0                          0                                        0                     (325)                         (101)
                  0                          0                                        0                         0                             0
$                 0 $                        0 $                                      0 $                  11,637 $                       (101)
                                                                            Required Supplemental Information - Part A

AT21 - Army General Fund
($ Amounts in Thousands)


Schedule, Part A                                     Treasury     Fund Balance     Accounts    Loans
                                                                                                        Investments             Other
DoD Intra-governmental Asset Balances                  Index      with Treasury   Receivable Receivable

Executive Office of the President                       11                            $1,245
Department of Agriculture                               12                            $1,647                                      $498
Department of Commerce                                  13                              $316                                     $7,264
Department of the Interior                              14                              $197                                   $264,733
Department of Justice                                   15                           $20,182                                      $979
Department of Labor                                     16                                $0
Navy General Fund                                       17                           $52,816
United States Postal Service                            18                               $28
Department of State                                     19                            $1,924
Department of the Treasury                              20          $94,632,928       $1,071                        $3,406
Office of Personnel Management                          24                               $50                                     $92,871
Library of Congress                                      3                               $10
Nuclear Regulatory Commission                           31                               $91
Department of Veterans Affairs                          36                              $602
General Service Administration                          47                               $50                                     $23,344
Independent Agencies                                    48                              $241
National Science Foundation                             49                               $10
Central Intelligence Agency                             56                              $139
Air Force General Fund                                  57                           $34,964                                     $56,502
Tennessee Valley Authority                              64                                                                          $154
Environmental Protection Agency                         68                               $217                                     $2,992
Department of Transportation                            69                               $157                                     $3,008
Homeland Security                                       70                             $9,055                                    $71,784
Small Business Administration                           73                                                                          $155
American Battle Monuments                               74                                $4
Department of Health and Human Services                 75                                $0                                         $16
National Aeronautics and Space Administration           80                            $1,225                                      $3,105
Armed Forces Retirement Home                            84                                $7
Department of Energy                                    89                              $485                                      $7,484
Selective Service System                                90                              $238
Department of Education                                 91                              $219
Independent Agencies                                    95                              $900
US Army Corps of Engineers                              96                            $9,879                                          $0
Other Defense Organizations General Funds               97                          $167,935                                       $186
Other Defense Organizations Working Capital Funds     97-4930                        $21,536                                     $66,584
Army Working Capital Fund                           97-4930.001                      $22,606
Navy Working Capital Fund                           97-4930.002                       $6,572
Air Force Working Capital Fund                      97-4930.003                         $564                                       $202
Totals                                                             $94,632,928      $357,182                        $3,406     $601,861




                                                                                  98 FY 2006 United States Army Annual Financial Statement
                                                          General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                           99

                                                                 Required Supplemental Information - Part B

AT21 - Army General Fund
($ Amounts in Thousands)


                                                                                           Debts/Borrowings
Schedule, Part B                                                         Accounts
                                                    Treasury Index                           From Other                    Other
DoD Intra-governmental entity liabilities                                Payable
                                                                                               Agencies
Executive Office of the President                        11                                                                    $36,345
Department of Agriculture                                12                    $11,860                         $0
Department of Commerce                                   13                       $530
Department of the Interior                               14                     $5,900                                               $92
Department of Justice                                    15                     $3,425
Department of Labor                                      16                        $13                                        $422,208
Navy General Fund                                        17                    $16,144                                             $73
United States Postal Service                             18                    $10,503
Department of State                                      19                    $73,289                                          $2,407
Department of the Treasury                               20                   $212,515                  $11,404                   $167
Office of Personnel Management                           24                     $4,738                                         $62,488
Federal Communications Commission                        27                       $396
Library of Congress                                       3                                                                          $15
Nuclear Regulatory Commission                            31                        $97
Department of Veterans Affairs                           36                     $5,853                                           $1,488
General Service Administration                           47                   $295,511
National Science Foundation                              49                     $2,021
Central Intelligence Agency                              56                                                                        $217
Air Force General Fund                                   57                    $20,239                                             $660
Tennessee Valley Authority                               64                    $12,271
Environmental Protection Agency                          68                    $11,585
Department of Transportation                             69                    $26,050                                            $185
Homeland Security                                        70                    $12,139                                         $49,577
Department of Health and Human Services                  75                       $328                                         $53,939
National Aeronautics and Space Administration            80                     $3,380                                          $9,786
Department of Energy                                     89                    $23,794                                             $48
Independent Agencies                                     95                                                                       $614
US Army Corps of Engineers                               96                     $5,675
Other Defense Organizations General Funds                97                    $14,332                                           $1,245
Other Defense Organizations Working Capital Funds      97-4930                $584,635
Army Working Capital Fund                            97-4930.001              $211,321
Navy Working Capital Fund                            97-4930.002               $23,849
Air Force Working Capital Fund                       97-4930.003                $1,387
The General Fund of the Treasury                         99                                                                $2,539,742
Totals                                                                     $1,593,780                   $11,404            $3,181,296
                                                    Required Supplemental Information - Part C

AT21 - Army General Fund
($ Amounts in Thousands)



Schedule, Part C
                                                               Treasury Index          Earned Revenue
DoD Intra-governmental revenue and related costs

The Judiciary                                                       10                                    $40
Executive Office of the President                                   11                                $29,326
Department of Agriculture                                           12                                 $5,730
Department of Commerce                                              13                                 $7,514
Department of the Interior                                          14                                 $1,113
Department of Justice                                               15                                $20,209
Department of Labor                                                 16                                     $1
Navy General Fund                                                   17                             $1,009,494
United States Postal Service                                        18                                   $668
Department of State                                                 19                               $342,346
Department of the Treasury                                          20                                 $9,318
Office of Personnel Management                                      24                                   $159
Federal Communications Commission                                   27                                   $177
Social Security Administration                                      28                                     $1
Library of Congress                                                  3                                 $3,736
Nuclear Regulatory Commission                                       31                                   $140
Department of Veterans Affairs                                      36                                 $2,552
General Service Administration                                      47                                 $3,818
Independent Agencies                                                48                                 $1,055
National Science Foundation                                         49                                 $1,628
Central Intelligence Agency                                         56                                $13,647
Air Force General Fund                                              57                             $1,274,029
National Labor Relations Board                                      63                                   $201
Environmental Protection Agency                                     68                                 $1,896
Department of Transportation                                        69                                $15,052
Homeland Security                                                   70                               $243,835
American Battle Monuments                                           74                                    $11
Department of Health and Human Services                             75                                $53,859
National Aeronautics and Space Administration                       80                                $21,281
Armed Forces Retirement Home                                        84                                    $19
National Archives and Records Administration                        88                                   $112
Department of Energy                                                89                                 $6,621
Other Legislative Branch Agencies                                    9                                    $67
Selective Service System                                            90                                 $2,727
Department of Education                                             91                                 $2,595
Arms Control and Disarmament Agency                                 94                                    $20
Independent Agencies                                                95                                 $7,688
US Army Corps of Engineers                                          96                               $213,706
Other Defense Organizations General Funds                           97                             $4,927,306
Other Defense Organizations Working Capital Funds                 97-4930                            $121,931
Army Working Capital Fund                                       97-4930.001                                $0
Navy Working Capital Fund                                       97-4930.002                           $74,065
Air Force Working Capital Fund                                  97-4930.003                           $13,461
DoD Medicare-Eligible Retiree Health Care Fund                                                       $104,482
Totals                                                                                             $8,537,636



                                                                100 FY 2006 United States Army Annual Financial Statement
                                                    General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                  101

                                                          Required Supplemental Information - Part E

AT21 - Army General Fund
($ Amounts in Thousands)

Schedule, Part E
                                                     Treasury Index                Transfers In             Transfers Out
DoD Intra-governmental non-exchange revenues
Executive Office of the President                          11                             $453,164
Air Force General Fund                                     57                              $26,738
US Army Corps of Engineers                                 96                                  $35
Other Defense Organizations General Funds                  97                             $544,888                        $6,422
Other Defense Organizations Working Capital Funds        97-4930                            $2,300                        $1,618
Army Working Capital Fund                              97-4930.001                             $68
The General Fund of the Treasury                           99                                   $0
Totals                                                                                  $1,027,193                        $8,040
102 FY 2006 United States Army Annual Financial Statement
                                                                                                    General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                                                                                  103


                                                                                 INSPECTOR GENERAL
                                                                              DEPEARTMENT OF DEFENSE
                                                                                 400 ARMY NAVY DRIVE
                                                                            ARLINGTON, VIRGINIA 22202-4704




                                                                                                                                                                                    November 8, 2006

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT
               AND COMPTROLLER)

SUBJECT:                Independent Auditor’s Report on the Fiscal Year 2006 Army General Fund Financial
                        Statements (Report No. D-2007-018)

The Chief Financial Ofﬁcers Act of 1990, as amended, requires the Department of Defense Inspector General to audit the
accompanying Army General Fund Consolidated Balance Sheet as of September 30, 2006 and 2005, the related Consolidated
Statement of Net Cost, the Consolidated Statement of Changes in Net Position, the Combined Statement of Budgetary
Resources, the Combined Statement of Financing, and the Statement of Custodial Activity for the ﬁscal years then ended. The
ﬁnancial statements are the responsibility of Army management. The Army is also responsible for implementing effective
internal control and for complying with laws and regulations. We are unable to give an opinion on the Army General Fund
Fiscal Year 2006 ﬁnancial statements because of limitations on the scope of our work. Thus, the ﬁnancial statements may
be unreliable. In addition to our disclaimer of opinion on the ﬁnancial statements, we are including the required Report on
Internal Control and Compliance with Laws and Regulations. The Report on Internal Control and Compliance with Laws and
Regulations is an integral part of our disclaimer of opinion on the ﬁnancial statements and should be considered in assessing
the results of the audit.


Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that ﬁnancial management
systems used to prepare the Army General Fund ﬁnancial statements do not substantially comply with Federal ﬁnancial
management system requirements, generally accepted accounting principles, or the U.S. Government Standard General
Ledger at the transaction level. Therefore, Army cannot provide adequate evidence supporting various material amounts on
the ﬁnancial statements. As a result, we did not perform auditing procedures to determine whether material amounts on the
ﬁnancial statements were fairly presented. We did not perform these and other auditing procedures because Section 1008(d)
of the FY 2002 National Defense Authorization Act limits the Department of Defense Inspector General to perform only audit
procedures required by generally accepted government auditing standards that are consistent with the representations made
by management. The Army has also acknowledged, and prior audits have identiﬁed, the material weaknesses listed in the
Summary of Internal Control. These material weaknesses also affect the reliability of certain information contained in the
annual ﬁnancial statements—much of which is taken from the same data sources as the basic ﬁnancial statements.1 Therefore,
we are unable to express, and we do not express, an opinion on the basic ﬁnancial statements. Additionally, the purpose of the
audit was not to express an opinion on the information accompanying the basic ﬁnancial statements. Accordingly, we express
no opinion on the accompanying information.




1
  The annual financial statements include the basic financial statements, management discussion and analysis, consolidating and combining financial statements, Required Supplementary Stewardship Information,
Required Supplementary Information, and Other Accompanying Information.
Summary of Internal Control
In planning our audit, we considered Army internal control over ﬁnancial reporting and compliance. We did this to determine
our procedures for auditing the ﬁnancial statements and to comply with Ofﬁce of Management and Budget guidance, but our
purpose was not to express an opinion on internal control. Accordingly, we do not express an opinion on internal control over
ﬁnancial reporting and compliance. However, previously identiﬁed reportable conditions, all of which are material, continued
to exist in the following areas:

     –    Financial Management Systems

     –    Accounting Adjustments

     –    Intragovernmental Eliminations

     –    Abnormal Account Balances

     –    Fund Balance With Treasury

     –    Accounts Receivable

     –    Inventory and Related Property

     –    General Property, Plant, and Equipment

     –    Accounts Payable

     –    Environmental Liabilities

     –    Statement of Net Cost

     –    Statement of Budgetary Resources

     –    Statement of Financing

Material weaknesses are reportable conditions in which internal controls do not reduce (to a relatively low level) the risk
of misstatements that are material to the ﬁnancial statements and that might not be timely detected by employees while
performing their normal assigned functions.

Reportable conditions are matters coming to the auditor’s attention that, in his or her judgment, should be communicated
to management because they represent signiﬁcant deﬁciencies in the design or operation of internal control, which could
adversely affect the organization’s ability to initiate, record, process, and report ﬁnancial data consistent with the assertions
of management in ﬁnancial statements. We performed ﬁnancial-related audit work in DoD that was not part of the Chief
Financial Ofﬁcers Act audit and we identiﬁed weaknesses in contingent legal liabilities and cash in the custody of agents,
which we consider to be reportable conditions.

Our internal control work (conducted during prior audits) would not necessarily disclose all reportable conditions. The
Attachment offers additional details on reportable conditions, most of which we consider to be material internal control
weaknesses.


Summary of Compliance with Laws and Regulations
Our work to determine compliance with selected provisions of applicable laws and regulations related to ﬁnancial reporting
was limited because management acknowledged, and prior audits conﬁrm, that instances of noncompliance continue to
exist. The Assistant Secretary of the Army (Financial Report and Comptroller) acknowledged to us that many of its ﬁnancial
management and feeder systems do not comply with the requirements of the Federal Financial Management Information Act
of 1996. The Army was also unable to comply with the Government Performance and Results Act requirements because it

                                                                                 104 FY 2006 United States Army Annual Financial Statement
                                                            General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                          105
did not have cost accounting systems in place to collect, process, and report operating costs. Therefore, we did not determine
whether the Army was in compliance with all applicable laws and regulations related to ﬁnancial reporting. Providing an
opinion on compliance with certain provisions of laws and regulations was not an objective of our audit and, accordingly, we
do not express such an opinion. See the Attachment for additional details on compliance with laws and regulations.


Management Responsibility
Management is responsible for:

    –    preparing the ﬁnancial statements in conformity with generally accepted accounting principles;

    –    establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control
         objectives of the Federal Managers’ Financial Integrity Act are met; and

    –    complying with applicable laws and regulations.

We provided a draft of this report to the Army.



                                        We provided a draft of this report to the Army.




Attachment:
As stated
106 FY 2006 United States Army Annual Financial Statement
                                                            General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                          107
Report on Internal Control and Compliance with Laws and Regulations
Internal Control
Management is responsible for implementing and maintaining effective internal control and for providing reasonable
assurance that accounting data are accumulated, recorded, and reported properly; the requirements of applicable laws and
regulations are met; and assets are safeguarded against misappropriation and abuse. Our purpose was not to, and we do not,
express an opinion on internal control over ﬁnancial reporting. However, we have identiﬁed the following material weaknesses
and reportable conditions that could adversely affect a favorable opinion on internal control.

Material Weaknesses. Management acknowledged that previously identiﬁed reportable conditions, all of which are material,
continue to exist.

         Financial Management Systems. Army accounting systems lacked a single, standard transaction-driven general
         ledger. The Army also needed to upgrade or replace many of its non ﬁnancial feeder systems so that ﬁnancial
         statement reporting requirements could be met. The lack of a single, standard transaction-driven general ledger will
         continue to prevent the Army from preparing auditable ﬁnancial statements.

         The Army has acknowledged that its ﬁnancial management systems were unable to meet all of the requirements
         for full accrual accounting. Many of the Army ﬁnancial systems, nonﬁnancial feeder systems, and processes were
         designed and implemented before generally accepted accounting principles were issued and, therefore, were not
         designed to collect and record ﬁnancial information on the accrual basis. Until the Army’s systems and processes
         are updated in accordance with generally accepted accounting principles, the Army’s ﬁnancial data will be based
         on budgetary transactions, nonﬁnancial feeder system transactions, and adjustments for known accruals of major
         items. The Army derives its reported values and information for major asset and liability accounts from nonﬁnancial
         feeder systems, such as inventory and logistics systems. Major assets include Property, Plant, and Equipment
         and Inventory and Related Property. In addition, budgetary transactions were recorded in line items such as Fund
         Balance With Treasury, Accounts Receivable, Accounts Payable, Gross Costs, and Earned Revenue. Until the Army
         systems are updated, Army ﬁnancial data will be based on budgetary transactions (obligations, disbursements, and
         collections).

         Accounting Adjustments. Because of inadequate ﬁnancial management systems and processes, journal voucher
         adjustments and data calls were used to prepare the Army General Fund ﬁnancial statements. Defense Finance
         and Accounting Service Indianapolis Operations did not adequately support $270.1 billion in journal voucher
         adjustments used to prepare the Army General Fund ﬁnancial statements. Speciﬁcally, Defense Finance and
         Accounting Service Indianapolis Operations made:

         –    $130.1 billion in unsupported adjustments to force amounts to agree with other sources of information and
              records or ﬁnancial statement lines,

         –    $32.1 billion in unsupported adjustments to intragovernmental accounts to force the accounts to agree with the
              records of the Army’s trading partners,

         –    $44.4 billion in unsupported adjustments to correct errors and reclassify amounts to other accounts, and

         –    $63.5 billion in unsupported adjustments to force general ledger accounts to agree with status of appropriations
              data (or ending balance adjustments) without reconciling the differences or determining which data source was
              correct.

         Intragovernmental Eliminations. DoD is unable to collect, exchange, and reconcile buyer and seller
         intragovernmental transactions, resulting in adjustments that cannot be veriﬁed. This is primarily because of systems
         limitations, as the majority of the systems currently used within DoD do not allow for the capture of buyer-side
         information for use in reconciliations and eliminations. DoD and Army accounting systems were unable to capture
         trading partner data at the transaction level in a manner that facilitated required trading partner eliminations, and

                                                                                                                               Attachment
DoD guidance did not require adequate support for eliminations. In addition, DoD procedures required that buyer-
side transaction data be forced to agree with seller-side transaction data without performing proper reconciliations.
Therefore, Defense Finance and Accounting Service Indianapolis Operations made $32.1 billion in unsupported
adjustments to intragovernmental accounts to force the accounts to agree with the records of Army’s trading partners.

Abnormal Account Balances. Defense Finance and Accounting Service Indianapolis Operations did not detect,
report, or take action to eliminate abnormal balances included in the Army General Fund accounting records. The
FY 2006 trial balance data for the Army General Fund included 180 general ledger accounts with $149.6 billion of
unresolved abnormal balances for proprietary and budgetary accounts used by Defense Finance and Accounting
Service Operations as part of the compilation of the Army General Fund ﬁnancial statements. The FY 2006 trial
balance data for the Army General Fund included an additional 79 budgetary general ledger accounts with abnormal
balances of $962 billion. Defense Finance and Accounting Service Indianapolis Operations considers this budgetary
data to be so unreliable that the trial balance for budgetary accounts must be constructed from other budgetary
reports.

In response to DoD IG Report No. D-2004-118, “Army General Fund Controls Over Abnormal Balances For Field
Accounting Activities,” September 28, 2004, Defense Finance and Accounting Service Indianapolis Operations
stated that the Defense Departmental Reporting System-Budgetary Module (Budgetary Module) would signiﬁcantly
reduce abnormal balances in accounting records. Defense Finance and Accounting Service Indianapolis Operations
estimated the completion date for corrective action to be September 30, 2005. However, the implementation of
the Budgetary Module has been delayed until January 2007. The DoD Financial Management Regulation has not
been revised to require the disclosure of the amounts of unresolved abnormal balances for all ﬁnancial statement
lines affected in the notes to the ﬁnancial statements. Since FY 2004, the Army has chosen not to disclose abnormal
balances in the ﬁnancial statement footnotes. However, the Army reported abnormal balances as an area of concern
in its FY 2006 Annual Statement of Assurance. Abnormal balances not only distort the Army General Fund ﬁnancial
statements, but also indicate internal control and operational deﬁciencies and may conceal instances of fraud.

Fund Balance With Treasury. DoD and its Components, including the Army, have had long-standing problems in
reconciling transaction activity in their Fund Balance with Treasury accounts. Appropriation balances recorded in
the accounting records do not agree with balances held at Treasury. Therefore, the Defense Finance and Accounting
Service Indianapolis Operations made unsupported adjustments that had a net effect of $38.3 billion on the three
Fund Balance With Treasury line items.

Accounts Receivable. DoD has acknowledged weaknesses in its accounts receivable management. The
weaknesses are considered to be DoD-Wide and apply to both public and intragovernmental receivables at the Army
General Fund level. Weaknesses include:

–   noncompliance with policies and procedures regarding referrals to the Debt Management Ofﬁce and the
    Department of Treasury and for write-offs of 2 year old debt,
–   a lack of controls to ensure all entitlement system receivables (vendor pay, civilian pay, and interest) are
    recorded in the accounting systems, and
–   a lack of controls to ensure that accounts receivable balances are supportable at the transaction level.

As a result, Defense Finance and Accounting Service Indianapolis Operations made $688.9 million in unsupported
adjustments for FY 2006 that decreased accounts receivable balances by $436 million.

Inventory and Related Property. Inventories are valued and reported at approximate historical cost using latest
acquisition cost adjusted for holding gains and losses. The systems do not maintain historical cost data necessary
to comply with Statement of Federal Financial Accounting Standards No. 3, “Accounting for Inventory and Related
Property.” The systems also are unable to produce ﬁnancial transactions using the U.S. Government Standard
General Ledger. Statement of Federal Financial Accounting Standards No. 3 states that Operating Materials and
Supplies must be expensed when the items are consumed. However, DoD has acknowledged that signiﬁcant
amounts of Operating Materials and Supplies were expensed when they were purchased instead of when they were
consumed.

                                                                     108 FY 2006 United States Army Annual Financial Statement
                                                   General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                 109
General Property, Plant, and Equipment. Statement of Federal Financial Accounting Standards No. 6,
“Accounting for Property, Plant, and Equipment,” requires that all General Property, Plant, and Equipment be
recorded at cost, and that depreciation expense be recognized on all General Property, Plant, and Equipment. The
Army has acknowledged that real property was not recorded at acquisition or historical cost and did not include all
costs needed to bring the real property to a form and location suitable for its intended use. Also, the Army could
not support the reported cost of Military Equipment in accordance with Statement of Federal Financial Accounting
Standards No. 6. Military Equipment was not recorded at acquisition or historical cost and did not include all costs
needed to bring the equipment to a form and location suitable for its intended use. The Army also lacks ﬁnancial
accountability systems for all its Military Table of Equipment unit property books that comply with the Federal
Financial Management Improvement Act of 1996.

Accounts Payable. The Army is unable to properly account for and report Accounts Payable. Defense Finance and
Accounting Service Indianapolis Operations made $6 billion in unsupported adjustments for FY 2006 that increased
Accounts Payable by $268.3 million. In addition, the Army accounting systems do not capture trading partner data
at the transaction level in a manner that facilitates trading partner aggregations for intra-agency sales. Therefore,
the Army has acknowledged that it was unable to reconcile intragovernmental accounts payable to the related
intragovernmental accounts receivable that generated the payables.

Environmental Liabilities. The Army has not properly estimated and reported its environmental liabilities. For
example, the processes used to report environmental liabilities for the Defense Environmental Restoration Program,
Base Realignment and Closure, and the non Defense Environmental Restoration Program on the ﬁnancial statements
were not adequate to establish or maintain sufﬁcient documentation and audit trails. Although estimators were
properly qualiﬁed to perform estimates, the Army did not document supervisory reviews of estimates and did not
have adequate quality control programs in place to ensure the reliability of data.

Statement of Net Cost. The ﬁnancial information contained in the Statement of Net Cost is not presented by
programs that align with major goals and outputs described in the DoD strategic and performance plans required by
the Government Performance and Results Act. Because ﬁnancial processes and systems do not correlate costs with
performance measures, revenues and expenses are reported by appropriation categories. The amounts presented
in the Statement of Net Cost are based on funding, obligation, and disbursing transactions, which are not always
recorded using accrual accounting. Army systems do not always record the transactions on an accrual basis as is
required by the generally accepted accounting principles. To capture all cost and ﬁnancing sources for the Army,
the information presented also includes data from nonﬁnancial feeder systems. In addition, Army General Fund
budgetary and proprietary information does not correlate. As a result, Defense Finance and Accounting Service
Indianapolis Operations made $14.9 billion in unsupported adjustments to force costs to agree with obligation
information. Speciﬁcally, these adjustments forced costs reported on the Statement of Net Cost to match the value of
Expended Appropriations minus the amount of Capitalized Assets reported on the Statement of Financing.

Statement of Budgetary Resources. The Army accounting systems do not provide or capture data needed
for obligations incurred or prior year obligations recovered in accordance with Ofﬁce of Management and
Budget Circular No. A-11, “Preparation, Submission, and Execution of the Budget Requirements.” Although
the Army developed an alternative methodology to calculate these items, the amount of distortion cannot be
reliably determined. The Statement of Budgetary Resources does not include eliminating entries and, therefore, a
Disaggregated Statement of Budgetary Resources is included in the Required Supplementary Information section
of the ﬁnancial statements. The Army uses budget execution data, which is composed of transaction report codes,
to prepare the monthly Standard Form 133 and the quarterly Federal Agencies Centralized Trial Balance System II
budgetary general ledger accounts. Defense Finance and Accounting Service Indianapolis Operations personnel then
use the Federal Agencies Centralized Trial Balance System II data to prepare the Statement of Budgetary Resources.
Because both the Standard Form 133 and the Statement of Budgetary Resources are prepared using budget execution
data, there is no true reconciliation between the two reports. Ofﬁce of Management and Budget Circular No. A-136,
“Financial Reporting Requirements,” states that the Statement of Budgetary Resources should be predominantly
derived from an entity’s budgetary general ledger, instead of being based on budget execution data. In FY 2006,

                                                                                                                      Attachment
Defense Finance and Accounting Service Indianapolis Operations prepared $1.4 billion in unsupported adjustments
that affected general ledger accounts used in the Statement of Budgetary Resources.

Defense Finance and Accounting Service Indianapolis Operations reported budget execution data to the Department
of the Treasury that did not agree with the data reported on the Army ﬁnancial statements. The differences between
the amounts reported on the Standard Forms 133 provided to the Ofﬁce of Management and Budget and the Army
General Fund Statement of Budgetary Resources totaled $115.9 billion for fourth quarter FY 2005 and $1.1 billion
for ﬁrst quarter FY 2006. This occurred because Defense Finance and Accounting Service Indianapolis Operations
did not perform an effective reconciliation among Federal Agencies Centralized Trial Balance System II data, the
Army General Fund Statement of Budgetary Resources, and the Standard Form 133 prepared for the Army. As a
result, Defense Finance and Accounting Service Indianapolis Operations used one set of budget execution data to
manage Army funds, but provided the Department of the Treasury a different set of budget execution data for the
Ofﬁce of Management and Budget’s use. Also, Defense Finance and Accounting Service Indianapolis Operations
reported inaccurate and misleading budget execution data on the Standard Form 133 provided to the Army, Army
Statements of Budgetary Resources and related footnote, and to the Department of the Treasury for the Standard
Forms 133 provided to the Ofﬁce of Management and Budget. In addition, Defense Finance and Accounting
Service Indianapolis Operations will perpetuate the material differences in the newly-ﬁelded accounting system if
the differences are not corrected.

Statement of Financing. The Ofﬁce of Management and Budget requires a consolidated Statement of Financing,
except for the budgetary information used to calculate net obligations, which must be presented on a combined basis.
However, the Statement of Financing for the Army General Fund is prepared on a combined basis. Also, because the
differences between the Statement of Net Cost and the Statement of Financing were not reconciled, the Statement
of Financing does not accurately present the relationship between budgetary obligations incurred by the Army
General Fund and its Net Cost of Operations. For example, Defense Finance and Accounting Service Indianapolis
Operations prepared $14.8 billion in unsupported adjustments to force costs to agree with obligation information.

Other Reportable Conditions. During FY 2006, as part of our ﬁnancial-related audits, we noted deﬁciencies
related to contingent legal liabilities and cash in the custody of agents.

The Army legal representation process did not provide meaningful assessments of potential liabilities and was not
linked to the Army process for reporting and disclosing contingent legal liabilities on the ﬁnancial statements. The
legal representation letter from the Army Ofﬁce of General Counsel and its attached management schedule did not
corroborate either the $205.7 million reported on the Balance Sheet as part of Non-Federal Other Liabilities or the
$307.8 million disclosed as contingent legal liabilities on footnote 16 in the FY 2006 Army General Fund Financial
Statements.

Internal and physical controls over Army Cash and Other Monetary Assets were inadequate. The auditors also
concluded that cash in the custody of agents reported on the Monthly Accountability Form (Standard Form 1219)
was unreliable and unauditable. The Defense Finance and Accounting Service Indianapolis Operations used the
monthly Consolidated Statement of Accountability to make a $1.78 billion adjustment to the accounting records
This occurred because the Army and the Defense Finance and Accounting Service were not in compliance with
reporting and control requirements mandated by the Ofﬁce of Management and Budget and DoD. As a result,
there was no assurance that cash transactions were recorded, accumulated, and reported properly and that cash was
adequately safeguarded. In addition, the Army may have materially overstated the $1.78 billion of Cash and Other
Monetary Assets reported on the Army General Fund Balance Sheet.

These ﬁnancial management deﬁciencies are indications of material weaknesses and reportable conditions in internal
control that may adversely affect any decision by Army mangement that is based, in whole or in part, on information
that is inaccurate because of these deﬁciencies. Financial information reported by DoD may also contain
misstatements resulting from these deﬁciencies.



                                                                    110 FY 2006 United States Army Annual Financial Statement
                                                            General Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                          111
Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to ﬁnancial reporting. Our work to
determine compliance with selected provisions of the applicable laws and regulations was limited because management
acknowledged instances of noncompliance, and previously reported instances of noncompliance continue to exist. Therefore,
we did not determine whether the Army was in compliance with selected provisions of all applicable laws and regulations
related to ﬁnancial reporting. Our objective was not to, and we do not, express an opinion on compliance with applicable laws
and regulations.

Statutory Financial Management Systems Reporting Requirements. The Army is required to comply with ﬁnancial
management systems reporting requirements. For example, the Federal Financial Management Information Act of 1996
requires the Army to establish and maintain ﬁnancial management systems that comply substantially with Federal ﬁnancial
management systems requirements, applicable Federal accounting standards, and the U.S. Government Standard General
Ledger at the transaction level. In addition, the Federal Managers’ Financial Integrity Act of 1982 requires DoD to evaluate
the systems and to annually report whether those systems are in compliance with applicable requirements. The Act requires
that each agency develop and maintain an integrated agency accounting and ﬁnancial management system, including ﬁnancial
reporting and internal control. The system should comply with internal control standards and applicable accounting principles,
standards, and requirements; and it should provide for complete, reliable, consistent, and timely information.

The Army acknowledged that many of its critical ﬁnancial management and feeder systems do not comply substantially
with Federal ﬁnancial management systems requirements, Federal accounting standards, and the U.S. Government Standard
General Ledger at the transaction level. The Army was also unable to comply with the Chief Financial Ofﬁcers Act because
its ﬁnancial management systems were not integrated, and it has acknowledged that many of its ﬁnancial management and
feeder systems do not comply with applicable Federal accounting standards.

In an attempt to comply with statutory reporting requirements and applicable ﬁnancial systems requirements in the future,
the Secretary of Defense has initiated a comprehensive ﬁnancial management reform program. DoD is currently undergoing
a major reevaluation of the ways in which it performs its ﬁnancial management operations. The centerpiece of this ﬁnancial
management reform effort is the development of a DoD-Wide Business Enterprise Architecture. The Business Enterprise
Architecture essentially will be a blueprint describing the Department’s future ﬁnancial management systems and processes.

Government Performance and Results Act. The Government Performance and Results Act requires each Federal agency
to prepare a strategic plan and annual performance plans and reports. The Army did not comply with the Government
Performance and Results Act because it did not have cost accounting systems in place to collect, process, and report operating
costs. This resulted in the Army General Fund Statement of Net Cost being unable to provide cost-of-operations data that
were consistent with the Government Performance and Results Act performance goals and measures.


Audit Disclosures
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us on January 27, 2006,
that the Army ﬁnancial management systems cannot provide adequate evidence supporting various material amounts on
the ﬁnancial statements. Therefore, we did not conduct detailed testing related to the previously identiﬁed deﬁciencies. In
addition, we did not perform audit work related to the following selected provisions of laws and regulations.

    –    Antideﬁciency Act
    –    Provisions Governing Claims of the United States Government
    –    Federal Credit Reform Act of 1990
    –    Pay and Allowance System for Civilian Employees
    –    Prompt Payment Act

This report does not include recommendations to correct the material internal control weaknesses and instances of
noncompliance because previous audit reports contained recommendations for corrective actions.



                                                                                                                               Attachment
112 FY 2006 United States Army Annual Financial Statement
 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                       113




LIMITATIONS
                    LIMITATIONS OF THE FINANCIAL
                    STATEMENTS
                The ﬁnancial statements have been prepared to report the
                ﬁnancial position and results of operations for the entity,
                pursuant to the requirements of Title 31, United States
Code, section 3515(b).

While the statements have been prepared from the books and records of the
entity, in accordance with the formats prescribed by the Ofﬁce of Management
and Budget, the statements are in addition to the ﬁnancial reports used to
monitor and control budgetary resources which are prepared from the same
books and records.

The statements should be read with the realization that they are for a
component of the United States Government, a sovereign entity.
Department of Defense - Army Working Capital Fund
                                                                                   CONSOLIDATED BALANCE SHEET
As of September 30, 2006 and 2005 ($ in Thousands)
                                                                          2006 Consolidated                     2005 Consolidated
ASSETS (Note 2)
  Intragovernmental:
     Fund Balance with Treasury (Note 3)
     Entity                                                          $                    875,344 $                                 623,330
     Non-Entity Seized Iraqi Cash                                                               0                                         0
     Non-Entity-Other                                                                           0                                         0
     Investments (Note 4)                                                                       0                                         0
     Accounts Receivable (Note 5)                                                         243,005                                   366,622
     Other Assets (Note 6)                                                                  8,670                                         0
     Total Intragovernmental Assets                                  $                  1,127,019 $                                 989,952

  Cash and Other Monetary Assets (Note 7)                            $                         0 $                                       0
  Accounts Receivable, Net (Note 5)                                                        9,355                                    12,035
  Loans Receivable (Note 8)                                                                    0                                         0
  Inventory and Related Property, Net (Note 9)                                        17,939,567                                15,933,141
  General Property, Plant and Equipment, Net (Note 10)                                 1,267,070                                 1,228,213
  Investments (Note 4)                                                                         0                                         0
  Other Assets (Note 6)                                                                  417,914                                   333,741
TOTAL ASSETS                                                         $                20,760,925 $                              18,497,082

LIABILITIES (Note 11)
  Intragovernmental:
     Accounts Payable (Note 12)                                      $                     78,917 $                                 105,603
     Debt (Note 13)                                                                             0                                         0
     Other Liabilities (Note 15 & 16)                                                      58,150                                    75,579
     Total Intragovernmental Liabilities                             $                    137,067 $                                 181,182

  Accounts Payable (Note 12)                                          $                   576,037 $                                295,820
  Military Retirement and Other Federal Employment Benefits (Note 17)                     262,499                                  286,523
  Environmental and Disposal Liabilities (Note 14)                                              0                                        0
  Loan Guarantee Liability (Note 8)                                                             0                                        0
  Other Liabilities (Note 15 and Note 16)                                                 468,617                                  642,522
TOTAL LIABILITIES                                                     $                 1,444,220 $                              1,406,047

NET POSITION
  Unexpended Appropriations - Earmarked Funds (Note 23)              $                         0 $                                       0
  Unexpended Appropriations - Other Funds                                                      0                                         0
  Cumulative Results of Operations - Earmarked Funds                                           0                                         0
  Cumulative Results of Operations - Other Funds                                      19,316,705                                17,091,035
TOTAL NET POSITION                                                   $                19,316,705 $                              17,091,035

TOTAL LIABILITIES AND NET POSITION                                   $                20,760,925 $                              18,497,082

                                                                    The accompanying notes are an integral part of these financial statements.




                                                                             114 FY 2006 United States Army Annual Financial Statement
                                                      Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                    115
Department of Defense - Army Working Capital Fund
                                                                      CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2006 and 2005 ($ in Thousands)
                                                                         2006 Consolidated                        2005 Consolidated
Program Costs
  Gross Costs                                                     $                     15,905,976 $                              12,616,600
  (Less: Earned Revenue)                                                              (17,697,044)                              (14,474,627)
  Net Program Costs                                               $                    (1,791,068) $                             (1,858,027)
Cost Not Assigned to Programs                                                                    0                                         0
(Less: Earned Revenue Not Attributable to Programs)                                              0                                         0
Net Cost of Operations                                            $                    (1,791,068) $                             (1,858,027)

                                                                       The accompanying notes are an integral part of these financial statements.
Department of Defense - Army Working Capital Fund
                                                     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                        Earmarked Funds                             All Other Funds
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                              $                                      0 $                      17,091,034
Prior Period Adjustments:
  Changes in Accounting Principles (+/-)                                                               0                                 0
  Corrections of errors (+/-)                                                                          0                                 0
Beginning Balances, as adjusted                                 $                                      0 $                      17,091,034
Budgetary Financing Sources:                                                                           0                                 0
  Appropriations received                                                                              0                                 0
  Appropriations transferred-in/out (+/-)                                                              0                                 0
  Other Adjustments (recissions, etc.) (+/-)                                                           0                                 0
  Appropriations used                                                                                  0                           459,521
  Nonexchange revenue                                                                                  0                                 0
  Donations and forfeitures of cash and cash equivalents                                               0                                 0
  Transfers-in/out without reimbursement (+/-)                                                         0                                 0
  Other budgetary financing sources (+/-)                                                              0                                 0
Other Financing Sources:
  Donations and forfeitures of property                                                                0                                 0
  Transfers-in/out without reimbursement (+/-)                                                         0                                 7
  Imputed financing from costs absorbed by others                                                      0                           157,074
  Other (+/-)                                                                                          0                         (181,999)
Total Financing Sources                                         $                                      0 $                         434,603
Net Cost of Operations (+/-)                                                                           0                       (1,791,068)
Net Change                                                      $                                      0                         2,225,671
Ending Balances                                                 $                                      0                        19,316,705

UNEXPENDED APPROPRIATIONS
Beginning Balances                                              $                                      0 $                                   0
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                                               0                                     0
  Corrections of errors (+/-)                                                                          0                                     0
Beginning Balances, as adjusted                                 $                                      0 $                                   0
Budgetary Financing Sources:
  Appropriations received                                                                              0                            459,521
  Appropriations transferred-in/out (+/-)                                                              0                                  0
  Other adjustments (rescissions, etc) (+/-)                                                           0                                  0
  Appropriations used                                                                                  0                          (459,521)
  Nonexchange revenue                                                                                  0                                  0
  Donations and forfeitures of cash and cash equivalents                                               0                                  0
  Transfers-in/out without reimbursement (+/-)                                                         0                                  0
  Other budgetary financing sources (+/-)                                                              0                                  0
Other Financing Sources:
  Donations and forfeitures of property                                                                0                                     0
  Transfers-in/out without reimbursement (+/-)                                                         0                                     0
  Imputed financing from costs absorbed by others                                                      0                                     0
  Other (+/-)                                                                                          0                                     0
Total Financing Sources                                         $                                      0 $                                   0
Net Cost of Operations (+/-)                                                                           0                                     0
Net Change                                                                                             0                                     0
Ending Balances                                                 $                                      0 $                                   0

                                                                    The accompanying notes are an integral part of these financial statements.




                                                                               116 FY 2006 United States Army Annual Financial Statement
                                                           Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                           117
Department of Defense - Army Working Capital Fund
                                                     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                        Eliminatons               2006 Consolidated             2005 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                              $                           0 $             17,091,034 $                  15,370,834
Prior Period Adjustments:
  Changes in Accounting Principles (+/-)                                                    0                        0                             0
  Corrections of errors (+/-)                                                               0                        0                             0
Beginning Balances, as adjusted                                 $                           0 $             17,091,034 $                  15,370,834
Budgetary Financing Sources:                                                                0                        0                             0
  Appropriations received                                                                   0                        0                             0
  Appropriations transferred-in/out (+/-)                                                   0                        0                             0
  Other Adjustments (recissions, etc.) (+/-)                                                0                        0                             0
  Appropriations used                                                                       0                  459,521                            53
  Nonexchange revenue                                                                       0                        0                             0
  Donations and forfeitures of cash and cash equivalents                                    0                        0                             0
  Transfers-in/out without reimbursement (+/-)                                              0                        0                     (515,944)
  Other budgetary financing sources (+/-)                                                   0                        0                             0
Other Financing Sources:
  Donations and forfeitures of property                                                     0                         0                            0
  Transfers-in/out without reimbursement (+/-)                                              0                         7                            0
  Imputed financing from costs absorbed by others                                           0                   157,074                      147,135
  Other (+/-)                                                                               0                 (181,999)                      230,930
Total Financing Sources                                         $                           0 $                 434,603 $                  (137,826)
Net Cost of Operations (+/-)                                                                0               (1,791,068)                  (1,858,027)
Net Change                                                      $                           0 $               2,225,671 $                  1,720,201
Ending Balances                                                 $                           0 $              19,316,705 $                 17,091,035

UNEXPENDED APPROPRIATIONS
Beginning Balances                                              $                           0 $                          0 $                         53
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                                    0                            0                            0
  Corrections of errors (+/-)                                                               0                            0                            0
Beginning Balances, as adjusted                                 $                           0                            0 $                         53
Budgetary Financing Sources:
  Appropriations received                                                                   0                   459,521                               0
  Appropriations transferred-in/out (+/-)                                                   0                         0                               0
  Other adjustments (rescissions, etc) (+/-)                                                0                         0                               0
  Appropriations used                                                                       0                 (459,521)                            (53)
  Nonexchange revenue                                                                       0                         0                               0
  Donations and forfeitures of cash and cash equivalents                                    0                         0                               0
  Transfers-in/out without reimbursement (+/-)                                              0                         0                               0
  Other budgetary financing sources (+/-)                                                   0                         0                               0
Other Financing Sources:
  Donations and forfeitures of property                                                     0                            0                            0
  Transfers-in/out without reimbursement (+/-)                                              0                            0                            0
  Imputed financing from costs absorbed by others                                           0                            0                            0
  Other (+/-)                                                                               0                            0                            0
Total Financing Sources                                         $                           0 $                          0 $                       (53)
Net Cost of Operations (+/-)                                                                0                            0                            0
Net Change                                                                                  0                            0                         (53)
Ending Balances                                                 $                           0 $                          0 $                          0

                                                                              The accompanying notes are an integral part of these financial statements.
Department of Defense - Army Working Capital Fund
                                                                                   COMBINED STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2006 and 2005 ($ in Thousands)                           Budgetary Financing Accounts                  Non-Budgetary Financing Accounts
                                                                          2006 Combined        2005 Combined             2006 Combined               2005 Combined
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                       $         1,176,499 $           1,530,241 $                            0 $                           0
Recoveries of prior year unpaid obligations                                     1,372,092             1,435,592                              0                             0
Budget authority
  Appropriation                                                                   459,521                    0                               0                             0
  Borrowing authority                                                                   0                    0                               0                             0
  Contract authority                                                            9,970,837           10,951,904                               0                             0
  Spending authority from offsetting collections
       Earned
         Collected                                                             14,013,375           14,180,281                               0                             0
         Change in receivables from Federal sources                             (142,805)             (29,369)                               0                             0
       Change in unfilled customer orders
         Advance received                                                           39,953               19,271                              0                             0
         Without advance from Federal sources                                       59,027            (774,190)                              0                             0
       Anticipated for rest of year, without advances                                    0                    0                              0                             0
       Previously unavailable                                                            0                    0                              0                             0
       Expenditure transfers from trust funds                                            0                    0                              0                             0
  Subtotal                                                                      24,399,908           24,347,897                              0                             0
Nonexpenditure transfers, net, anticipated and actual                                    0            (515,944)                              0                             0
Temporarily not available pursuant to Public Law                                         0                    0                              0                             0
Permanently not available                                                     (10,299,718)          (8,798,841)                              0                             0
Total Budgetary Resources                                             $         16,648,781 $        17,998,945 $                             0 $                           0

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                              $                 0 $                  0 $                             0 $                           0
  Reimbursable                                                                 14,857,316           16,822,445                               0                             0
  Subtotal                                                            $        14,857,316 $         16,822,445 $                             0 $                           0
Unobligated balance:
  Apportioned                                                                   1,791,465            1,176,499                               0                             0
  Exempt from apportionment                                                             0                    0                               0                             0
  Subtotal                                                                      1,791,465            1,176,499                               0                             0
Unobligated balance not available                                                       0                    1                               0                             0
Total status of budgetary resources                                   $        16,648,781 $         17,998,945 $                             0 $                           0
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                      $        10,331,509 $           8,953,395 $                            0 $                           0
  Less: Uncollected customer payments from Federal sources, brought
  forward, October 1                                                           (4,181,756)          (4,985,314)                              0                             0
  Total unpaid obligated balance                                                 6,149,753            3,968,081                              0                             0
  Obligations incurred net (+/-)                                      $         14,857,316 $         16,822,445 $                            0 $                           0
  Less: Gross outlays                                                         (14,260,837)         (14,008,740)                              0                             0
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                              0                      0                           0                             0
  Actual transfers, uncollected customer payments from Federal
  sources (+/-)                                                                          0                    0                              0                             0
  Total Unpaid obligated balance transferred, net                                        0                    0                              0                             0
Less: Recoveries of prior year unpaid obligations, actual                      (1,372,092)          (1,435,592)                              0                             0
Change in uncollected customer payments from Federal sources (+/-)                  83,777              803,558                              0                             0
Obligated balance, net, end of period                                                                                                        0                             0
  Unpaid obligations                                                             9,555,896           10,331,509                              0                             0
  Less: Uncollected customer payments (+/-) from Federal Sources(-)            (4,097,980)          (4,181,756)
  Total, unpaid obligated balance, net, end of period                            5,457,916            6,149,753                              0                             0
Net Outlays
Net Outlays:
   Gross outlays                                                                14,260,837           14,008,740                              0                             0
   Less: Offsetting collections                                               (14,053,327)         (14,199,551)                              0                             0
   Less: Distributed Offsetting receipts                                                 0                    0                              0                             0
   Net Outlays                                                        $            207,510 $          (190,811) $                            0 $                           0

                                                                                                  The accompanying notes are an integral part of these financial statements.




                                                                                               118 FY 2006 United States Army Annual Financial Statement
                                                              Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                                 119
Department of Defense - Army Working Capital Fund
                                                                                 CONSOLIDATED STATEMENT OF FINANCING
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                                                      2006 Consolidated              2005 Consolidated
Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations incurred                                                                            $             14,857,316 $                    16,822,445
  Less: Spending authority from offsetting collections and recoveries (-)                                     (15,341,642)                    (14,831,585)
  Obligations net of offsetting collections and recoveries                                        $              (484,326) $                     1,990,860
  Less: Offsetting receipts (-)                                                                                          0                               0
  Net obligations                                                                                 $              (484,326) $                     1,990,860
Other Resources
  Donations and forfeitures of property                                                                                   0                               0
  Transfers in/out without reimbursement (+/-)                                                                            7                               1
  Imputed financing from costs absorbed by others                                                                   157,074                         147,135
  Other (+/-)                                                                                                     (181,998)                         230,930
  Net other resources used to finance activities                                                  $                (24,917) $                       378,066
  Total resources used to finance activities                                                      $               (509,243) $                     2,368,926

Resources Used to Finance Items not Part of the Net Cost of Operations
  Change in budgetary resources obligated for goods,
  services and benefits ordered but not yet provided
    Undelivered Orders (-)                                                                        $              1,113,635 $                   (1,514,883)
    Unfilled Customer Orders                                                                                        98,980                       (754,919)
  Resources that fund expenses recognized in prior periods                                                        (24,024)                        (21,283)
  Budgetary offsetting collections and receipts that do not affect net cost of operations                                0                               0
  Resources that finance the acquisition of assets                                                             (8,630,584)                     (7,998,973)
  Other resources or adjustments to net obligated resources

       Less: Trust or Special Fund Receipts Related to Exchange in the entitys Budget (-)                                0                               0
       Other (+/-)                                                                                                 181,991                       (230,931)
Total resources used to finance items not part of the net cost of operations                      $            (7,260,002) $                  (10,520,989)
Total resources used to finance the net cost of operations                                        $            (7,769,245) $                   (8,152,063)

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Period:
  Increase in annual leave liability                                                              $                    5,056 $                        28,898
  Increase in environmental and disposal liability                                                                         0                               0
  Upward/Downward reestimates of credit subsidy expense (+/-)                                                              0                               0
  Increase in exchange revenue receivable from the the public (+/-)                                                        0                               0
  Other (+/-)                                                                                                          1,515                               0
  Total components of Net Cost of Operations that
  will require or generate resources in future periods                                            $                    6,571 $                        28,898
Components not Requiring or Generating Resources:
  Depreciation and amortization                                                                                      31,293                          95,884
  Revaluation of assets or liabilities (+/-)                                                                        781,326                         699,913
  Other (+/-)
     Trust Fund Exchange Revenue                                                                                          0                               0
     Cost of Goods Sold                                                                                           5,718,283                       6,025,370
     Operating Material & Supplies Used                                                                                   0                               0
     Other                                                                                                        (559,296)                       (556,029)

  Total components of Net Cost of Operations that will not require or generate resources  $                       5,971,606 $                     6,265,138
Total components of net cost of operations that will not require or generate resources in
the current period                                                                        $                      5,978,177 $                     6,294,036
Net Cost of Operations                                                                    $                    (1,791,068) $                   (1,858,027)

                                                                                    The accompanying notes are an integral part of these financial statements.
120 FY 2006 United States Army Annual Financial Statement
                                                            Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  121

Note 1.         Significant Accounting Policies
1.A.      Basis of Presentation
These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of the Army Working Capital Fund
(AWCF), as required by the Chief Financial Ofﬁcers Act of 1990, amended by the Government Management Reform Act of 1994, and
other appropriate legislation. The ﬁnancial statements have been prepared from the books and records of AWCF in accordance with the
Department of Defense (DoD) Financial Management Regulation, Ofﬁce of Management and Budget (OMB) Circular A-136, Financial
Reporting Requirements, and to the extent possible, Federal generally accepted accounting principles (Federal GAAP).

The accompanying ﬁnancial statements account for all resources for which AWCF is responsible. Under the above guidance, classiﬁed assets,
programs, and operations have been excluded from the statement, or otherwise aggregated and reported, in such a manner that they are no
longer classiﬁed. The AWCF ﬁnancial statements are in addition to the ﬁnancial reports also prepared by AWCF pursuant to OMB directives
that are used to monitor and control AWCF use of budgetary resources.

The AWCF is unable to fully implement all elements of Federal GAAP and OMB Circular A-136 due to limitations of its ﬁnancial and
nonﬁnancial management processes and systems. The Army derives its reported values and information for major asset and liability
categories largely from nonﬁnancial feeder systems, such as inventory and logistics systems. These systems were designed to support
reporting requirements focusing on maintaining accountability over assets and reporting the status of Federal appropriations rather than
preparing ﬁnancial statements in accordance with Federal GAAP. As a result, AWCF cannot currently implement every aspect of Federal
GAAP and OMB Circular A-136. The AWCF continues to implement processes and system improvements addressing the limitations of its
ﬁnancial and nonﬁnancial feeder systems. As of year-end ﬁscal year (FY) 2005, AWCF has agreed with eight auditor-identiﬁed ﬁnancial
statement material weaknesses: (1) ﬁnancial management systems and processes; (2) inventory; (3) general property, plant, and equipment;
(4) intragovernmental transactions and eliminations; (5) accounting adjustments; (6) accounts payable; (7) Statement of Net Cost; and
(8) Statement of Financing.

The accounting structure of Federal agencies is designed to reﬂect both accrual and budgetary accounting transactions. Under the accrual
method of accounting, revenues are recognized when earned, and expenses are recognized when incurred, without regard to receipt or
payment of cash. The budgetary accounting principles, on the other hand, are designed to recognize the obligation of funds according to
legal requirements, which in many cases is prior to the occurrence of an accrual-based transaction. The recognition of budgetary accounting
transactions is essential for compliance with legal constraints and controls over the use of Federal funds.


1.B.      Mission of the Reporting Entity
The AWCF is part of the Defense Working Capital Fund, and is divided into two separate business areas: Supply Management and Industrial
Operations. These business areas ensure delivery of critical items, such as petroleum products, repair parts, consumable supplies, depot
maintenance services, munitions, and weapons to support the deployment and projection of lethal force as and when required by the nation.


1.C.      Appropriations and Funds
The Army appropriations and funds are divided into the general, working capital (revolving funds), trust, special, and deposit funds. These
appropriations and funds are used to fund and report how the resources have been used in the course of executing the Army missions.

Working capital funds (revolving funds) receive their initial working capital through an appropriation or a transfer of resources from existing
appropriations or funds and use those capital resources to ﬁnance the initial cost of products and services. Financial resources to replenish
the initial working capital, and to permit continuing operations, are generated by the acceptance of customer orders. The AWCF operates
with ﬁnancial principles that provide improved cost visibility and accountability to enhance business management and improve the decision-
making process. The activities provide goods and services on a reimbursable basis. Receipts derived from operations generally are available
in their entirety for use without further congressional action.


1.D.      Basis of Accounting
The AWCF generally records transactions on an accrual accounting basis as is required by Federal GAAP. For FY 2006, AWCF ﬁnancial
management systems are unable to meet all of the requirements for full accrual accounting. Many AWCF ﬁnancial and nonﬁnancial feeder
systems and processes were designed and implemented prior to the issuance of Federal GAAP for Federal agencies and, therefore, were not
designed to collect and record ﬁnancial information on the full accrual accounting basis as required by Federal GAAP.

The AWCF has undertaken efforts to determine the actions required to bring all of its ﬁnancial and nonﬁnancial feeder systems and processes
into compliance with all elements of Federal GAAP. One such action is the current revision of its accounting systems to record transactions
based on the US Standard General Ledger (USSGL). At this time, not all AWCF accounting systems are USSGL compliant. In addition,
with the full implementation of the Logistics Modernization Program (LMP), AWCF will be in compliance with Statement of Federal
Financial Accounting Standard (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government.” As
of December 31, 2003, LMP has been implemented at Tobyhanna Army Depot, Communications–Electronics Command, and other Army
Materiel Command activities. Until LMP is fully implemented and all of the processes are updated to collect and report ﬁnancial information
as required by Federal GAAP, some of AWCF ﬁnancial data will be based on budgetary transactions (obligations, disbursements, collections),
and nonﬁnancial feeder systems. For example, most ﬁnancial information presented on the Statement of Net Costs is based on accrued costs;
however, some of the ﬁnancial information is based on obligations and disbursements.

In addition, the Army identiﬁes programs based upon the major appropriation groups provided by Congress. The Army does not, however,
accumulate costs for major programs based on performance measures because its ﬁnancial processes and systems do not account for costs in
line with established measures. The Army is reviewing available data and attempting to develop a cost reporting methodology that provides
the cost information required by the SFFAS No. 4.


1.E.      Revenues and Other Financing Sources
The AWCF Industrial Operations activities recognize revenue according to the percentage-of-completion method. Supply Management
activities recognize revenue when an inventory item is sold. Prices set for products and services offered through AWCF are intended to
recover the full costs (cost plus administrative fees) incurred by these activities. Unearned revenue is recorded as deferred revenue until
earned.

Other ﬁnancing sources reported by AWCF do not include nonmonetary support provided by our allies for common defense and mutual
security. The United States has agreements with foreign countries that include both direct and indirect sharing of costs that each country
incurs in support of the same general purpose. Examples include countries where there is a mutual or reciprocal defense agreement, where
U.S. troops are stationed, or where the U.S. Fleet is serviced in a port. The DoD is reviewing these types of ﬁnancing and cost reductions in
order to establish accounting policies and procedures to identify what, if any, of these costs are appropriate for disclosure in AWCF ﬁnancial
statements in accordance with Federal GAAP. Recognition of support provided by host nations would affect both ﬁnancing sources and
expense recognition.


1.F.      Recognition of Expenses
For ﬁnancial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. However, because AWCF
ﬁnancial and nonﬁnancial feeder systems were not designed to collect and record ﬁnancial information on the full accrual accounting basis,
accrual adjustments are made for major items such as payroll expenses and accounts payable. Expenditures for capital and other long-term
assets are not recognized as expenses in AWCF operations until depreciated, as in the case of property, plant, and equipment (PP&E). Net
increases or decreases in unexpended appropriations are recognized as a change in the net position.

The AWCF adjusted operating expenses as a result of the elimination of balances between DoD Components. See Note 18, Disclosures
Related to the Statement of Net Cost, for disclosure of elimination amounts.


1.G.      Accounting for Intragovernmental Activities
The AWCF, as an agent of the Federal government, interacts with and is dependent upon the ﬁnancial activities of the Federal government
as a whole. Therefore, these ﬁnancial statements do not reﬂect the results of all ﬁnancial decisions applicable to AWCF as though it was a
stand alone entity.

The AWCF proportionate share of public debt and related expenses of the Federal government are not included. Debt issued by the Federal
government and the related costs are not apportioned to Federal agencies. Therefore, the AWCF ﬁnancial statements do not report any
portion of the public debt or interest, nor do the ﬁnancial statements report the source of public ﬁnancing whether from issuance of debt or
tax revenues.

Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this ﬁnancing may have been
obtained through the issuance of public debt, interest costs have not been capitalized since the Department of the Treasury does not allocate
such interest costs to the beneﬁting agencies.

The AWCF civilian employees participate in the Civil Service Retirement System (CSRS) or the Federal Employees Retirement Systems
(FERS). Employees and personnel covered by FERS also have varying coverage under Social Security. The AWCF funds a portion of civilian
and military pensions. Reporting civilian pensions under CSRS and FERS is the responsibility of the Ofﬁce of Personnel Management
(OPM). The AWCF recognizes an imputed expense for the portion of civilian employee pensions and other retirement beneﬁts funded by


                                                                                       122 FY 2006 United States Army Annual Financial Statement
                                                            Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  123
OPM in the Statement of Net Cost and recognizes corresponding imputed revenue from the civilian employee pensions and other retirement
beneﬁts in the Statement of Changes in Net Position.

To prepare reliable ﬁnancial statements, transactions occurring between components or activities within AWCF must be eliminated for
consolidated ﬁnancial reporting purposes. However, AWCF cannot accurately identify all intragovernmental transactions by its related
components or activities because AWCF systems do not track buyer and seller data needed to match related transactions. The Defense
Finance and Accounting Service (DFAS) is responsible for eliminating transactions between components or activities of AWCF. Beginning
in FY 1999, seller entities within AWCF provided summary seller-side balances for revenue, accounts receivable, transfers-in/out, and
unearned revenue to the buyer-side internal AWCF accounting ofﬁces. In most cases, the buyer-side records have been adjusted to recognize
unrecorded costs and accounts payable. The AWCF intragovernmental balances are then eliminated. The DoD and AWCF are developing
long-term system improvements that will include sufﬁcient up-front edits and controls to eliminate the need for after-the-fact reconciliations.
The volume of intragovernmental transactions is so large that after-the-fact reconciliation cannot be accomplished effectively with existing
or foreseeable resources.

The Department of the Treasury Financial Management Service (FMS), is responsible for eliminating transactions between the DoD and
other federal agencies. The Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report
of the United States Government” and the Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide,” provide guidance
for reporting and reconciling intragovernmental balances. While the AWCF is unable to fully reconcile intragovernmental transactions with
all federal partners, the AWCF is able to reconcile balances pertaining to borrowings from the U.S. Treasury and the Federal Financing Bank,
Federal Employees’ Compensation Act transactions with the Department of Labor (DOL), and beneﬁt program transactions with the Ofﬁce
of Personnel Management (OPM). The DoD’s proportionate share of public debt and related expenses to the federal government are not
included. The federal government does not apportion debt and its related costs to federal agencies. The DoD’s ﬁnancial statements, therefore,
do not report any portion of the public debt or interest thereon, nor do the statements report the source of public ﬁnancing whether from
issuance of debt or tax revenues.


1.H.       Transactions with Foreign Governments and International Organizations
Each year, AWCF sells defense items and services to foreign governments and international organizations, primarily under the provisions of
the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has the authority to sell defense articles and services to foreign
countries and international organizations generally at no proﬁt or loss to the U.S. government. Customers may be required to make payments
in advance.


1.I.       Funds with the U.S. Treasury
The Department of the Treasury accounts maintain AWCF monetary ﬁnancial resources. The DFAS, Military Services, U.S. Army Corps of
Engineers (USACE) disbursing stations as well as the Department of State ﬁnancial service centers process the majority of cash collections,
disbursements, and adjustments for the Federal government worldwide. Each disbursing station prepares monthly reports that provide
information to the Department of the Treasury on check issues, electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the Department of the Treasury, by appropriation, on interagency
transfers, collections received, and disbursements issued. The Department of the Treasury then records this information to the applicable Fund
Balance with Treasury (FBWT) account maintained in the Department of the Treasury’s system. Differences between AWCF and Department
of the Treasury’s records sometime result and are subsequently reconciled. Material disclosures are provided in Note 3. Differences between
accounting ofﬁces’ detail level records and Department of the Treasury FBWT accounts are disclosed in Note 3, Fund Balance with Treasury,
speciﬁcally differences caused by in-transit disbursements and unmatched disbursements, which are not recorded in the accounting ofﬁces’
detail level records.


1.J.       Foreign Currency
Not applicable.


1.K.       Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivables from other Federal agencies and
the public. Federal accounts receivable arise generally from the provision of goods and services to other Federal agencies and, with the
exception of occasional billing disputes, are considered to be fully collectible. Receivables from the public generally arise from the provision
of goods and services to state, local, and foreign governments. Refunds receivable, however, are overpayments by the Federal government
in the process of being collected. An allowance for doubtful accounts is established for reporting purposes based on past experience in the
collection of accounts receivable and analysis of outstanding balances by fund type. The AWCF methodology recognizes an allowance of
50 percent for all nonfederal debt between 180 days and two years old, and a 100 percent allowance for all nonfederal debt over two years
old. The allowance is updated annually, based on the aged accounts receivable at the end of the 2nd Quarter. The AWCF does not recognize an
allowance for estimated uncollectible amounts from other Federal agencies. Claims against other Federal agencies are to be resolved between
the agencies (per Code of Federal Regulations 4 CFR 101). Material disclosures are provided in Note 5, Accounts Receivable.


1.L.       Loans Receivable
Not applicable.


1.M.       Inventories and Related Property
The inventory reported in AWCF ﬁnancial statements is not all valued using the same valuation method. The AWCF inventories are reported
using the Latest Acquisition Cost (LAC), which approximates historical cost, adjusted for holding gains and losses, and Moving Average
Cost (MAC), which computes a new average cost each time a purchase is made. The AWCF uses LAC method because its inventory systems
were designed for material management rather than accounting, except for activities that have transitioned to LMP. The systems provide
accountability and visibility over inventory items. They do not maintain, however, the exact historical cost data necessary to comply with
SFFAS No. 3, “Accounting for Inventory and Related Property,” nor can they directly produce ﬁnancial transactions using USSGL, as
required by the Federal Financial Management Improvement Act of 1996. The AWCF transition to LMP will also allow the use of a MAC
methodology for valuing inventory that, when fully implemented, will allow AWCF to comply with SFFAS No. 3 (see Note 9, Inventory and
Related Property).

Approximately 22 percent of the AWCF’s inventory value is now being reported from systems that have transitioned to moving average cost
functionality. However, since the on-hand balances which transitioned were not, for the most part, baselined to auditable historical cost, the
reported values remain noncompliant with SFFAS 3 and GAAP.

SFFAS No. 3 distinguishes between inventory held for sale and inventory held in reserve for future sale. There is no management or valuation
difference between the two USSGL accounts. Further, DoD manages only military or government-speciﬁc material under normal conditions.
Items commonly used in and available from the commercial sector are not managed in DoD material management activities. Operational
cycles are irregular, and the military risks associated with stock-out positions have no commercial parallel. The AWCF holds material based
on military need and support for contingencies. Therefore, AWCF does not attempt to account separately for items held for current or future
sale.

In accordance with new DoD policy, the Army accounts for condemned material as excess, obsolete, and unserviceable. The net value of
this type of condemned material is zero, because the costs of disposal are greater than the potential scrap value. Potentially redistributable
material, presented in previous years as excess, obsolete and unserviceable, is included in held for use or held for repair categories according
to its condition.

In addition, past audit results identiﬁed uncertainties about the completeness and existence of quantities used to produce the reported values.
Material disclosures related to inventory and related property are provided in Note 9, Inventory and Related Property.


1.N.       Investments in U.S. Treasury Securities
Not applicable.


1.O.       General Property, Plant and Equipment
General Property, Plant & Equipment (PP&E) assets are capitalized at historical acquisition cost plus capitalized improvements when an asset
has a useful life of two or more years, and when the acquisition cost equals or exceeds DoD capitalization threshold. The capitalizations
threshold was revised from $100 thousand to $20 thousand for real property. The current $100 thousand capitalization threshold remained
unchanged for the remaining General PP&E categories. The Army will validate existing real property values and implement sustainable
business processes prior to incorporating the revised capitalization threshold for ﬁnancial statement reporting. All General PP&E, other than
land, is depreciated on a straight-line basis. Land is not depreciated.

Prior to FY 1996, General PP&E with an acquisition cost of $15 thousand, $25 thousand, and $50 thousand for FY 1993, FY 1994, and
FY 1995 respectively, and an estimated useful life of two or more years was capitalized. These assets remain capitalized and reported on
AWCF ﬁnancial statements.

For AWCF activities, all PP&E used in the performance of their mission is categorized as General PP&E, whether or not it meets the deﬁnition
of any other PP&E categories. Heritage Assets and Stewardship Land owned or maintained on AWCF installations are reported in the
Required Supplemental Stewardship Information Report of the Army General Fund. Material disclosures are provided in Note 10, General
PP&E, Net.

                                                                                        124 FY 2006 United States Army Annual Financial Statement
                                                               Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                     125
Internal use software is capitalized at cost if the acquisition cost is $100 thousand or more. For commercial off-the-shelf software, the
capitalized costs include the amount paid to the vendor for the software; for contractor-developed software, it includes the amount paid to a
contractor to design, program, install, and implement the software. Capitalized costs for internally developed software include the full cost
(direct and indirect) incurred during the software development stage. The estimated useful life for calculating amortization of software is two
to ﬁve years using the straight-line method.


1.P.       Advances and Prepayments
The AWCF records payments made prior to the receipt of goods and services as advances or prepayments and reports them as assets on the
Balance Sheet. The AWCF recognizes advances and prepayments as expenses when it receives the related goods and services.


1.Q.       Leases
Not applicable.


1.R.       Other Assets
The AWCF conducts business with commercial contractors under two primary types of contracts: ﬁxed price and cost reimbursable. To
alleviate the potential ﬁnancial burden on the contractor that long-term contracts can cause, AWCF provides ﬁnancing payments. Real
property ﬁnancing payments are based upon a percentage of completion. In accordance with SFFAS No. 1, “Accounting for Selected Assets
and Liabilities,” such payments are treated as construction in progress and are reported on the General PP&E line on the Balance Sheet and
in Note 10, General PP&E, Net.

In addition, based on the Federal Acquisition Regulation, AWCF makes ﬁnancing payments under ﬁxed price contracts. The AWCF reports
these ﬁnancing payments as Other Assets because AWCF becomes liable only after the contractor delivers the goods in conformance with the
contract terms. If the contractor does not deliver a satisfactory product, AWCF is not obligated to reimburse the contractor for its costs and
the contractor is liable to repay AWCF for the full amount of the advance.

Other assets includes those assets, such as military and civil service employee pay advances, travel advances, and contract ﬁnancing payments,
that are not reported elsewhere on the Department’s Balance Sheet.

Contract ﬁnancing payments are deﬁned in the Federal Acquisition Regulations (FAR), Part 32, as authorized disbursements of monies to a
contractor prior to acceptance of supplies or services by the Government. These payments are designed to alleviate the potential ﬁnancial
burden on contractors performing on certain long-term contracts and facilitate competition for defense contracts. Contract ﬁnancing payments
clauses are incorporated in the contract terms and conditions and may include advance payments, performance-based payments, commercial
advance and interim payments, progress payments based on cost, and interim payments under certain cost-reimbursement contracts. Contract
ﬁnancing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or progress payments
based on a percentage or stage of completion, which the Defense Federal Acquisitions Regulations Supplement (DFARS) authorizes only
for construction of real property, shipbuilding, and ship conversion, alteration, or repair. Progress payments for real property and ships are
reported as Construction in Progress in Note 10.


1.S.       Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition of Contingent
Liabilities Arising from Litigation,” deﬁnes a contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss to AWCF. The uncertainty will be resolved when one or more future events occur or fail to occur. The
AWCF recognizes contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount can
be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least a reasonable
possibility of incurring a loss or additional losses. Loss contingencies include the collectibility of receivables, pending or threatened litigation,
and possible claims and assessments. The AWCF loss contingencies arise as a result of pending or threatened litigation or claims and
assessments occur due to events such as aircraft, ship and vehicle accidents; medical malpractice; property or environmental damages; and
contract disputes.


1.T.       Accrued Leave
The AWCF reports as liabilities civilian annual leave that has been accrued and not used as of the balance sheet date. The liability reported
at the end of the accounting period reﬂects the current pay rates.
1.U.       Net Position
Net position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations represent budget
authority, which is unobligated and has not been rescinded or withdrawn, and funds obligated but for which legal liabilities for payments have
not been incurred.

Cumulative results of operations for AWCF represents the excess of revenues over expenses less refunds to customers and returns to the
Department of the Treasury since fund inception. Beginning with FY 1998, the cumulative results also include donations and transfers-in/out
of assets without reimbursement.


1.V.       Treaties for Use of Foreign Bases
Not applicable.


1.W.       Comparative Data
The ﬁnancial statements and accompanying notes to the ﬁnancial statements report the ﬁnancial position and results of operations as of the
end of the 4th Quarter, FY 2006. The DoD requires disclosure of variances exceeding 10 percent (when comparing prior year and current year
statements) or two percent of total assets. The required disclosure threshold applies only to the Balance Sheet and Statement of Net Cost. In
addition, DoD requires variance disclosure on some items not directly linked to the Balance Sheet or Statement of Net Cost.


1.X.       Unexpended Obligations
The AWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The ﬁnancial statements do not reﬂect this
liability for payment for goods or services not yet delivered.


1.Y.       Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the transaction level
to a speciﬁc obligation, payable, or receivable in the activity ﬁeld records as opposed to those reported by the Department of the Treasury.
These amounts should agree with the undistributed amounts reported on the departmental accounting reports. In-transit payments are those
payments that have been made to other agencies or entities that have not been recorded in their accounting records. These payments are
applied to the entities’ outstanding accounts payable balance. In-transit collections are those collections from other agencies or entities that
have not been recorded in the accounting records. These collections are also applied to the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between Federal and nonfederal categories based on the
percentage of Federal and nonfederal accounts payable and accounts receivable. The AWCF records unsupported undistributed disbursements
in accounts payable and unsupported undistributed collections in other liabilities.




                                                                                        126 FY 2006 United States Army Annual Financial Statement
                                                          Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  127

Note 2.          Nonentity Assets
  As of September 30                                                       2006                                        2005
  (Amounts in thousands)

  1. Intragovernmental Assets
     A. Fund Balance with Treasury                       $                                      0        $                                    0
     B. Accounts Receivable                                                                     0                                             0
     C. Total Intragovernmental Assets                   $                                      0        $                                    0

  2. Nonfederal Assets
     A. Cash and Other Monetary Assets                   $                                      0        $                                    0
     B. Accounts Receivable                                                                     0                                             0
     C. Other Assets                                                                            0                                             0
     D. Total Nonfederal Assets                          $                                      0        $                                    0


  3. Total Nonentity Assets                              $                                      0        $                                    0

  4. Total Entity Assets                                 $                           20,760,925          $                         18,497,082


  5. Total Assets                                        $                           20,760,925          $                         18,497,082


Deﬁnitions
Nonentity assets are assets held by an entity but are not available for use in the operations of the entity. The Army Working Capital Fund
(AWCF) does not have nonentity assets.

Entity assets are resources that AWCF has the authority to use or where management is legally obligated to use funds to meet entity
obligations.


Note 3.          Fund Balance with Treasury
  As of September 30                                                                  2006                                    2005
  (Amounts in thousands)


  1. Fund Balances
     A. Appropriated Funds                                             $                               0       $                               0
     B. Revolving Funds                                                                          875,344                                 623,330
     C. Trust Funds                                                                                    0                                       0
     D. Special Funds                                                                                  0                                       0
     E. Other Fund Types                                                                               0                                       0
      F. Total Fund Balances                                           $                         875,344       $                         623,330


  2. Fund Balances Per Treasury Versus Agency
     A. Fund Balance per Treasury                                      $                         875,344       $                         623,330
     B. Fund Balance per AWCF                                                                    875,344                                 623,330

  3. Reconciling Amount                                                $                                 0     $                                  0


Fluctuations and/or Abnormalities
Fund Balance with Treasury increased $252.0 million, or 40 percent due to the following:

In 1st Quarter, FY 2006, the Army Working Capital Fund (AWCF) received a warrant for $106.5 million in accordance with DoD Appropriation
Act, 2006, P.L. 109-148, 119 STAT 2680. In 1st Quarter, FY 2006, AWCF distributed $42.5 million for war reserves and Army combat
uniforms to the Supply Management (SMA) business area and $64.0 million to the Industrial Operations (IO) business area for industrial
mobilization capacity.
In 3rd Quarter, FY 2006, AWCF received a warrant for $348.3 million in accordance with Emergency Supplemental Appropriations Act for
Defense, the Global War on Terror, and Hurricane Recovery, 2006, P.L. 109-234, 120 STAT 418. In 3rd Quarter, FY 2006, the SMA business
area received $92.1 million for war reserves and $255.0 million for inventory augmentation. The IO business area received $1.2 million for
fuel cost increases.

In 4th Quarter, FY 2006, funds were appropriated to the Defense-Wide Defense Working Capital Fund in title IX, Division A of the Department
of Defense Appropriations Act, 2006, P.L. 109-148, 119 STAT 2680. The IO business area received $4.7 million for fuel cost increases.

The $459.5 million in appropriations received, as discussed above, were offset by disbursements that exceeded collections during FY 2006
in the amount of $207.5 million.


Status of Fund Balance with Treasury
  As of September 30                                                        2006                                        2005
  (Amounts in thousands)

  1. Unobligated Balance
     A. Available                                           $                           1,791,465     $                             1,176,499
     B. Unavailable                                                                             0                                           0

  2. Obligated Balance not yet Disbursed                    $                           9,555,896     $                           10,331,508

  3. Nonbudgetary FBWT                                      $                                     0   $                                      0

  4. NonFBWT Budgetary Accounts                             $                         (10,472,017)    $                          (10,884,677)

  5. Total                                                  $                             875,344     $                               623,330


Deﬁnitions
The Status of Fund Balance with Treasury consists of unobligated and obligated balances. These balances reﬂect the budgetary authority
remaining for disbursements against current or future obligations. In addition, the Status includes various accounts that affect either budgetary
reporting or Fund Balance with Treasury (FBWT), but not both.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover outstanding obligations.
Unobligated Balance is classiﬁed as available or unavailable and is associated with contract authority, customer orders, and appropriations.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been received or goods and or services
that have been received but have not been disbursed.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts which do not have budgetary authority, such as unavailable receipt
accounts or clearing accounts.

NonFBWT Budgetary Accounts include budgetary accounts that do not affect FBWT, such as contract authority, borrowing authority, and
investment accounts. This category reduces the Status of Fund Balance with Treasury.

There are no restrictions on Unobligated Balances Available.

Fluctuations and/or Abnormalities
Unobligated Balance Available increased $615.0 million, or 52 percent from FY 2005 to FY 2006. This change is attributable to increased
unﬁlled orders in the IO business area for repair of military equipment. During the 4th Quarter, FY 2006, the IO business area received
$436 million of reimbursable customer orders after AWCF customers received supplemental funding. These orders came from Army General
Fund, Air Force, Marine Corps, and other DoD entities.

Obligated Balance not yet Disbursed decreased $775.6 million, or 8 percent, from FY 2005 to FY 2006. Between FY 2005 and FY 2006,
SMA business area disbursements remained relatively constant while net obligations decreased by $722.3 million.

NonFBWT Budgetary Accounts decreased $412.7 million, or 4 percent from FY 2005 to FY 2006. During FY 2005, AWCF received contract
authority to incur obligations exceeding earnings in the SMA business area to support anticipated operational requirements in support of


                                                                                         128 FY 2006 United States Army Annual Financial Statement
                                                          Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                129
contingency missions Operation Enduring Freedom, Iraqi Freedom, and Noble Eagle. In FY 2006, the SMA business area had a lower level
of activity than in FY 2005. As a result, earnings and obligations were less in FY 2006 than in FY 2005 primarily due to customer funding
shortfalls and reduced overall customer spending throughout the 3rd and 4th Quarters of FY 2006.


Disclosures Related to Suspense/Budget Clearing Accounts
The Suspense/Budget Clearing Accounts shown above are maintained and reported by the Army General Fund. Some transactions relating
to AWCF may be in suspense accounts, but are not identiﬁable. When they are identiﬁed to AWCF, they will be transferred from the
suspense/clearing account to the correct Department of the Treasury appropriation.

Disclosures Related to Problem Disbursements and In-Transit Disbursements
                                                                                                                               (Decrease)/
  As of September 30                                        2004                   2005                    2006             Increase from FY
                                                                                                                              2005 to 2006
  (Amounts in thousands)

 1. Total Problem Disbursements, Absolute Value
      A. Unmatched Disbursements (UMDs)              $             25,484 $               10,064     $            4,843       $           (5,221)
      B. Negative Unliquidated Obligations (NULO)                   3,810                  3,773                  2,703                   (1,070)

 2. Total In-transit Disbursements, Net              $           135,730 $                94,626     $          180,610       $           85,984


Deﬁnitions
An Unmatched Disbursement (UMD) occurs when a payment does not match to a corresponding obligation in the accounting system.
Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign (plus or minus).

A Negative Unliquidated Obligation (NULO) occurs when a payment is made against a valid obligation, but the payment is greater than the
amount of the obligation recorded in the ofﬁcial accounting system. These payments have been made using available funds and are based on
valid receiving reports for goods and services delivered under valid contracts.

In-transit Disbursements represent the net value of disbursements and collections made by a DoD disbursing activity on behalf of an
accountable activity but have not been posted in an accounting system.

Fluctuations and/or Abnormalities
Unmatched Disbursements (UMD) decreased $5.2 million or 52 percent from FY 2005 to FY 2006. This decrease is attributed to system
and process improvements implemented in 1st Quarter, FY 2006 at Defense Finance and Accounting Service (DFAS)-St. Louis. These
improvements allow for quicker isolation of problems and expedite the corrective process. DFAS-St. Louis worked with the Logistics
Modernization Program (LMP) to receive better information enabling them to match Mechanization of Contract Administration Services
(MOCAS) disbursements to LMP obligations in more timely manner.

Negative Unliquidated Obligations (NULO) decreased $1.1 million or 28 percent from FY 2005 to FY 2006. This decrease is attributed to
changes made in 1st Quarter, FY 2006 by DFAS-St. Louis that streamlined the error correction process. DFAS-St. Louis worked with the
LMP to receive better information enabling them to match MOCAS disbursements to LMP obligations in more timely manner.

In-transit Disbursements increased $86.0 million, or 91 percent, from FY 2005 to FY 2006. This increase is attributed to disbursement ﬁles
reported by DFAS-Columbus on behalf of DFAS-St. Louis and DFAS-Rock Island received after the year-end processing deadline. Although
these payments were disbursed in FY 2006, they were not recorded in the accounting systems until early FY 2007. These disbursements are
considered in-transit until recorded in the accounting systems.

Other Disclosures
There are no problem disbursements related to Foreign Military Sales in AWCF.

There are no discrepancies between the amounts reported in the problem disbursement metric furnished to DFAS-Arlington and the Note 3
schedule.


Note 4.           Investments and Related Interest
Not applicable.
Note 5.          Accounts Receivable
                                                                                           2006                                                   2005
 As of September 30                                                                     Allowance For
                                                                Gross Amount                                        Accounts                Accounts
                                                                                         Estimated
                                                                     Due                                         Receivable, Net         Receivable, Net
                                                                                        Uncollectibles
 (Amounts in thousands)


 1. Intragovernmental Receivables                               $       243,005     $                  N/A       $         243,005       $          366,622
 2. Nonfederal Receivables (From the Public)                    $        16,896     $              (7,541)       $           9,355       $           12,035


 3. Total Accounts Receivable                                   $       259,901     $              (7,541)       $         252,360       $          378,657


Fluctuations and/or Abnormalities
Intragovernmental Receivables decreased $123.6 million, or 34 percent, from FY 2005 to FY 2006. The majority of the decrease,
$116.5 million, is attributable to a change in billing criteria in the Supply Management (SMA) business area. During the 3rd Quarter,
FY 2006, the Army Working Capital Fund (AWCF) accelerated the billing cycle. Previously, AWCF did not bill the customer until seven days
after preparation of the material release order. The customer is now billed after two days.

Nonfederal Receivables, Net decreased $2.7 million or 22 percent, from FY 2005 to FY 2006. The decrease is attributable to a decrease in
outstanding Foreign Military Sales (FMS) receivables in the SMA business area. Previously, AWCF did not bill the FMS customer until
seven or more days after conﬁrmation of shipment. The FMS customer is now billed two days after shipment.


Aged Accounts Receivable
                                                                                   2006                                            2005
 As of September 30
                                                                    Intragovernmental           Nonfederal           Intragovernmental           Nonfederal
 (Amounts in thousands)

                           CATEGORY
 Nondelinquent
      Current                                                       $          254,993      $       11,930           $        407,782        $       13,298
     Noncurrent                                                                      0                   0                          0                     0
 Delinquent
      1 to 30 days                                                  $             1,822     $          196           $           8,014       $             230
      31 to 60 days                                                                 374                  1                         203                     178
      61 to 90 days                                                                 119                 19                          48                       0
      91 to 180 days                                                                 65                 27                          99                      59
      181 days to 1 year                                                            117                303                         723                   3,559
      Greater than 1 year and less than or equal to 2 years                         79               3,822                       4,556                        5
      Greater than 2 years and less than or equal to 6 years                        83                       3                       55                       1
      Greater than 6 years and less than or equal to 10 years                           0                7                            0                      9
      Greater than 10 years                                                             0              588                            0                  1,395
 Subtotal                                                           $          257,652      $       16,896           $        421,480        $       18,734
     Less Supported Undistributed
     Collections                                                                21,939                       0                       0                        0
     Less Eliminations                                                         (36,586)                      0                (53,967)                        0
     Less Other                                                                      0                       0                   (891)                        0
 Total                                                              $          243,005      $       16,896           $        366,622        $       18,734


The table above identiﬁes aged accounts receivable groups for AWCF as reported in AWCF Monthly Report on Receivables (MRR).



                                                                                            130 FY 2006 United States Army Annual Financial Statement
                                                           Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                 131
The balance of $21.9 million reported as supported undistributed collections is abnormal due to differences between the Department of the
Treasury and AWCF ﬁeld reported collections. The majority of these collections were previously reported by the former Army Information
Services business area, which closed at the end of FY 2003. The AWCF did not properly close out and transfer existing collection balances
to the SMA business area. The AWCF is still working to resolve the abnormal balance.

During FY 2005, AWCF did not separately identify $20.1 million of supported undistributed collections on the MRR and incorrectly
included these amounts in the current Intragovernmental Accounts Receivable totals. Also, during FY 2005, AWCF incorrectly included
$891.3 thousand of unsupported undistributed collections in the current Intragovernmental Accounts Receivable total. These unsupported
undistributed collection amounts were not included in AWCF Intragovernmental Accounts Receivable ﬁnancial statement balances. The
improper MRR reporting issues were corrected beginning with the 3rd Quarter, FY 2006.

Relevant Information
The AWCF does not have any Nondelinquent Accounts Receivable over 30 days old.

The majority of accounts receivable from Federal sources are in a current status. The AWCF follows the DoD concept of operations for
collections. This requires follow-up actions at 30-day intervals with ordering activities.

The majority of accounts receivable due from the public are in a current status. Delinquent accounts receivable from the public includes
$3.7 million in disputed billings pending resolution. Further, $336.7 thousand has been referred to the Department of the Treasury for
collection and $674.7 thousand has been referred to the Department of Justice for legal action. The remaining debt of $236.5 thousand is
being actively pursued by AWCF in accordance with the Debt Collection Improvement Act of 1996.


Note 6.         Other Assets

As of September 30                                                             2006                                        2005
(Amounts in thousands)


1. Intragovernmental Other Assets
   A. Advances and Prepayments                                   $                              8,670     $                                     0
   B. Other Assets                                                                                  0                                           0
   C. Total Intragovernmental Other Assets                       $                              8,670     $                                     0

2. Nonfederal Other Assets
   A. Outstanding Contract Financing Payments                    $                           417,830      $                             331,500
   B. Other Assets (With the Public)                                                              84                                      2,241
   C. Total Nonfederal Other Assets                              $                           417,914      $                             333,741


3. Total Other Assets                                            $                           426,584      $                             333,741


Fluctuations and/or Abnormalities
Intragovernmental Other Assets increased $8.7 million, or 12,384,263 percent from FY 2005 to FY 2006. The entire balance in
Intragovernmental Other Assets Advances and Prepayments is based upon unearned revenue reported by the Defense Reutilization and
Marketing Ofﬁce (DRMO). The DRMO bills Army Working Capital Fund (AWCF) at the beginning of each quarter for hazardous waste
removal work that DRMO expects to perform in that quarter for the Supply Management (SMA) business area. The $8.7 million advance
represents the amount DRMO billed over the amount of actual revenue earned. This account balance is dictated by trading partner seller-side
rules.

Nonfederal Other Assets increased $84.2 million or 25 percent, from FY 2005 to FY 2006. During the 4th Quarter, FY 2006, AWCF
recognized a contingent liability for the estimated future funded payments that will be paid upon delivery and acceptance of a satisfactory
product. The majority of this increase is attributable to contingent liabilities for estimated future funded payments. A contingent liability
in the amount of $855.3 thousand is attributable to the Industrial Operations business area, while a contingent liability in the amount of
$87.7 million is attributable to the SMA business area.

Other Assets (With the Public) consists of travel advances and prepaid expenses.
Other Disclosures
Contract terms and conditions for certain types of contract ﬁnancing payments convey certain rights to the Department that protect the
contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property, or disposition in bankruptcy;
however, these rights should not be misconstrued to mean that ownership of the contractor’s work has transferred to the Government. The
Government does not have the right to take the work, except as provided in contract clauses related to termination or acceptance, and the
Department is not obligated to make payment to the contractor until delivery and acceptance of a satisfactory product.

The Nonfederal Other Assets Outstanding Contract Financing Payments balance of $417.8 million is comprised of $329.3 million in Contract
Financing Payments and an additional $88.5 million in estimated future funded payments that will be paid to the contractor upon future
delivery and Government acceptance of a satisfactory product (see additional discussion in Note 15, Other Liabilities).


Note 7.           Cash and Other Monetary Assets
Not applicable.


Note 8.           Direct Loan and/or Loan Guarantee Programs
Not applicable.


Note 9.           Inventory and Related Property

  As of September 30                                                          2006                                         2005
  (Amounts in thousands)


  1. Inventory, Net                                         $                            17,939,567      $                            15,933,141
  2. Operating Materials & Supplies, Net                                                          0                                            0
  3. Stockpile Materials, Net                                                                     0                                            0

  4. Total                                                  $                            17,939,567      $                            15,933,141



Inventory, Net
                                                                                2006                                    2005
As of September 30                                         Inventory,         Revaluation          Inventory,                           Valuation
                                                                                                                    Inventory, Net
                                                          Gross Value         Allowance               Net                                Method

(Amounts in thousands)


1. Inventory Categories

    A. Available and Purchased for Resale             $      19,948,643   $      (5,190,993)       14,757,650      $   13,389,441       LAC,MAC
    B. Held for Repair                                        4,877,241          (1,738,468)        3,138,773           2,517,932       LAC,MAC

    C. Excess, Obsolete, and Unserviceable                      557,240              (557,240)               0                   0       NRV
    D. Raw Materials                                             43,144                      0          43,144              25,768     MAC,SP,L
    E. Work in Process                                                0                      0               0                   0       AC

    F. Total                                         $ 25,426,268 $       (7,486,701)      17,939,567              $   15,933,141
Legend for Valuation Methods:
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and NRV = Net Realizable Value
SP = Standard Price                                                    O = Other
AC = Actual Cost                                                       MAC = Moving Average Cost




                                                                                            132 FY 2006 United States Army Annual Financial Statement
                                                             Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                   133
2. Restrictions of Inventory Use, Sale, or Disposition:
There are no restrictions on the use, sale, or disposition of inventory except in the following situations:
     1) Distributions without reimbursement are made when authorized by DoD directives;
     2)    War reserve material includes petroleum products and subsistence items that are considered restricted; and
     3)    Inventory, with the exception of safety stocks, may be sold to foreign, state, and local governments; private parties; and contractors
           in accordance with current policies and guidance or at the direction of the President.
There are no restrictions on disposition of inventory as related to environmental or other liabilities.

3. Other Information:
Deﬁnitions
The Inventory, Net is composed of the categories listed below. Inventory items are assigned to a category based upon the type and condition
of the asset.

Inventory Available and Purchased for Resale – spare and repair parts, clothing and textiles, petroleum products, and ammunition.

Inventory Held for Repair – damaged material held as inventory that is more economical to repair than to dispose of.

Excess, Obsolete, and Unserviceable Inventory – condemned materiel that must be retained for management purposes.

Raw Materials – items consumed in the production of goods for sale or in the provision of services for a fee.

Fluctuations and/or Abnormalities
Total Inventory increased $2.0 billion, or 13 percent, from FY 2005 to FY 2006. This increase is detailed in the paragraph below.

The Inventory Available and Purchased for Resale increased $1.4 billion, or 10 percent, from FY 2005 to FY 2006. Approximately
$977.3 million of the increase is attributable to several performance based logistics contracts established by the Aviation and Missile Command
in FY 2004 and FY 2005 to accelerate the replenishment of inventory. The contracts with General Electric Company and Honeywell to supply
various engines and Sikorsky Aircraft Corporation and Boeing supply airframes and component parts. These contracts will last for another
three to ﬁve years. Also, the Tank-automotive and Armaments Command has increased inventory levels by $591.4 million in support of
Operation Iraqi Freedom and Operation Enduring Freedom.


Operating Materials and Supplies, Net
Not applicable


Stockpile Materials, Net
Not applicable
Note 10. General PP&E, Net
                                                                                     2006                                                2005
As of September 30                              Depreciation/                                     (Accumulated
                                                                Service       Acquisition                             Net Book       Prior FY Net
                                                Amortization                                      Depreciation/
                                                                 Life           Value                                   Value        Book Value
                                                  Method                                          Amortization)
(Amounts in thousands)


1. Major Asset Classes
   A. Land                                          N/A            N/A    $                 0 $              N/A $               0 $             0
                                                                 20 Or
     B. Buildings, Structures, and Facilities       S/L            40           2,231,876            (1,438,786)         793,090          797,228
                                                                 lease
     C. Leasehold Improvements                      S/L           term             95,213               (79,006)          16,207           18,877
                                                                2-5 Or
     D.   Software                                  S/L            10             433,573              (262,275)         171,298           87,092
     E.   General Equipment                         S/L         5 or 10         1,497,770            (1,247,840)         249,930          275,791
     F.   Military Equipment                        S/L         Various                 0                     0                0                0
     G.   Assets Under Capital Lease                             lease
                                                    S/L           term                      0                     0              0               0
     H. Construction-in- Progress
                                                    N/A          N/A           36,545                        N/A      36,545      49,225
     I. Other                                                                       0                          0           0           0
     J. Total General PP&E                                                $ 4,294,977 $              (3,027,907) $ 1,267,070 $ 1,228,213

 1
  Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight Line      N/A = Not Applicable


Other Disclosures
There are no known restrictions on the use or convertibility of the Army Working Capital Fund (AWCF) general property, plant, and
equipment.

The entire amount shown on the Leasehold Improvements line is for improvements made to facilities at Corpus Christi Army Depot (CCAD).
The CCAD, a tenant on a Navy installation, does not maintain a lease with the Navy. The AWCF records improvements made on these
facilities as leasehold improvements.

Heritage Assets and Stewardship Land owned or maintained on AWCF installations are reported in the Required Supplemental Stewardship
Information Report of the Army General Fund.


Assets Under Capital Lease
The AWCF does not have any Assets Under Capital Lease.




                                                                                            134 FY 2006 United States Army Annual Financial Statement
                                                            Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                    135

Note 11. Liabilities Not Covered by Budgetary Resources

As of September 30                                                                                                 2006                 2005
(Amounts in thousands)


1. Intragovernmental Liabilities
   A. Accounts Payable                                                                                    $                0      $                 0
   B. Debt                                                                                                                 0                        0
   C. Other                                                                                                           48,768                   47,253
   D. Total Intragovernmental Liabilities                                                                 $           48,768      $            47,253

2. Nonfederal Liabilities
   A. Accounts Payable                                                                                    $                0      $                 0
   B. Military Retirement Benefits and Other Employment-Related Actuarial Liabilities                                262,499                  286,523
   C. Environmental Liabilities                                                                                            0                        0
   D. Other Liabilities                                                                                                    0                        0
   E. Total Nonfederal Liabilities                                                                        $          262,499      $           286,523

3. Total Liabilities Not Covered by Budgetary Resources                                                   $          311,267      $           333,776


4. Total Liabilities Covered by Budgetary Resources                                                       $        1,132,953     $       1,072,271

5. Total Liabilities                                                                                      $        1,444,220     $       1,406,047


Deﬁnitions
Intragovernmental Other Liabilities represents future funded Federal Employees Compensation Act (FECA) liabilities billed to the Army
Working Capital Fund (AWCF) by the Department of Labor (DOL). This amount represents amounts paid by the DOL to beneﬁciaries for
which DOL has billed AWCF.

Military Retirement Beneﬁts and Other Employment-Related Actuarial Liabilities represents the FECA actuarial liability as estimated for
AWCF by DOL. This amount represents amounts that DOL estimates will be paid to beneﬁciaries in the future on behalf of AWCF.


Note 12. Accounts Payable

                                                                                  2006                                                2005

 As of September 30                                                        Interest, Penalties,
                                                 Accounts Payable          and Administrative              Total                      Total
                                                                                  Fees
 (Amounts in thousands)


 1. Intragovernmental Payables                   $          78,917     $                     N/A      $         78,917     $                  105,603
 2. Nonfederal Payables (to the Public)                    576,037                             0               576,037                        295,820

 3. Total                                        $         654,954     $                          0   $       654,954      $                  401,423


Fluctuations and/or Abnormalities
Intragovernmental Payables decreased $26.7 million, or 25 percent, from FY 2005 to FY 2006. The decrease is primarily attributable to
decreased payables with the Defense Logistics Agency (DLA). The Army Working Capital Fund (AWCF) is required to follow Department
of Defense (DoD) seller side rules based on trading partner reported balances. During FY 2006, the DLA reported less accounts receivable
business with AWCF. Therefore, AWCF was required to match DLA reported accounts receivable with AWCF accounts payable.

Nonfederal Payables increased $280.2 million, or 95 percent, from FY 2005 to FY 2006. The increase is primarily attributable to corrections of
abnormal accounts payable balances that were reported by the Logistics Modernization Program (LMP) for the Supply Management business
area in FY 2005. During FY 2006, the LMP Program Management Ofﬁce worked with Army Working Capital Fund (AWCF) to initiate
systemic corrections, which reduced the previously reported abnormal balances. The FY 2006 corrections reduced the abnormal balance by
$211.0 million to the current abnormal balance of $88.7 million. This is an unresolved issue that AWCF is continuing to research.
Note 13. Debt
Not applicable.


Note 14. Environmental Liabilities and Disposal Liabilities
Not applicable.


Note 15. Other Liabilities
                                                                                              2006                                 2005
  As of September 30                                                     Current             Noncurrent
                                                                                                                  Total             Total
                                                                         Liability            Liability
  (Amounts in thousands)
  1. Intragovernmental
       A.   Advances from Others                                     $             0     $              0     $          0     $      19,661
       B.   Deposit Funds and Suspense Account Liabilities                         0                    0                0                 0
       C.   Disbursing Officer Cash                                                0                    0                0                 0
       D.   Judgment Fund Liabilities                                              0                    0                0                 0
       E.   FECA Reimbursement to the Department of Labor                     21,675               27,093           48,768            47,253
       F.   Other Liabilities                                                  9,382                    0            9,382             8,665

     G. Total Intragovernmental Other Liabilities                    $        31,057     $         27,093     $     58,150     $      75,579
  2. Nonfederal
       A.   Accrued Funded Payroll and Benefits                      $        70,441     $                0   $     70,441     $      91,586
       B.   Advances from Others                                              83,267                      0         83,267            42,429
       C.   Deferred Credits                                                       0                      0               0                0
       D.   Deposit Funds and Suspense Accounts                                (898)                      0          ( 898)            (891)
       E.   Temporary Early Retirement Authority                                   0                      0               0                0
       F.   Nonenvironmental Disposal Liabilities
             (1) National Defense PP&E (Nonnuclear)                                  0                    0               0                 0
           (2) Excess/Obsolete Structures                                          0                      0              0                 0
           (3) Conventional Munitions Disposal                                     0                      0              0                 0
           (4) Other                                                               0                      0              0                 0
       G. Accrued Unfunded Annual Leave                                      100,812                      0        100,812            95,756
       H. Capital Lease Liability                                                  0                    0                0                 0
       I. Other Liabilities                                                  126,461               88,534          214,995           413,642

       J. Total Nonfederal Other Liabilities                         $       380,083     $         88,534     $    468,617     $     642,522

  3. Total Other Liabilities                                         $       411,140     $       115,627      $    526,767     $     718,101


Fluctuations and/or Abnormalities
Total Other Liabilities decreased 191.3 million, or 27 percent, due to the following:

Total Intragovernmental Other Liabilities decreased $17.4 million, or 23 percent, primarily due to a $19.7 million, or 100 percent, decrease
in Intragovernmental Advances from Others from FY 2005 to FY 2006. The reduction resulted from a change in reporting procedure. In
FY 2005, the $19.7 million reported as advances was based upon over-billings resulting in unearned revenue reported by the Army Working
Capital Fund (AWCF). The unearned revenue was erroneously attributed to advances from Army General Fund. Further research revealed
that the unearned revenue was actually collections received in excess of earnings. Beginning in 1st Quarter, FY 2006, and throughout
FY 2006, the unearned revenue and associated advance were eliminated from AWCF ﬁnancial statements.

Total Nonfederal Other Liabilities decreased $173.9 million, or 27 percent, primarily due to a decrease in Nonfederal Other Liabilities of
$198.6 million, or 48 percent, from FY 2005 to FY 2006. During FY 2005, AWCF reported other liabilities when accepting ownership of
materiel at the point of origin. This amount also erroneously included a liability for materiel that should not have been recorded until the
materiel was received at the destination. In September 2006, in accordance with audit recommendations, AWCF ﬁxed this procedure and

                                                                                         136 FY 2006 United States Army Annual Financial Statement
                                                            Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  137
now correctly records the liability in accordance with the terms of the contract. The correction resulted in a Nonfederal Other Liability
decrease of $274.3 million between FY 2005 and FY 2006. However, the reduction was offset by an $88.5 million contingent liability that
was established during the 4th Quarter, FY 2006, for estimated future contract ﬁnancing payments that will be paid to the contractor upon
delivery, and Government acceptance of, a satisfactory product.

The $898.0 thousand abnormal balance in Nonfederal Deposit Funds and Suspense Accounts is due to differences between the Department
of the Treasury and AWCF ﬁeld reported collections. The majority of this amount results from a balance brought forward that existed in
FY 2005. The AWCF is working to resolve these differences.

Other Disclosures
The Intragovernmental Other Liabilities line includes employer contributions for employee beneﬁts and payroll taxes payable.

The Nonfederal Other Liabilities line consists of inventory in-transit posted by the Logistics Modernization Program (LMP), contingent
liabilities, contract holdbacks, and employer’s contribution for employee beneﬁts.

Contingent liabilities balance includes $88.5 million in estimated future contract ﬁnancing payments that will be paid to the contractor upon
delivery, and Government acceptance of, a satisfactory product. In accordance with contract terms, speciﬁc rights to the contractor’s work
vests with the Government when a speciﬁc type of contract ﬁnancing payments is made, thereby protecting taxpayer funds in the event of
contract nonperformance. These rights should not be misconstrued as the rights of ownership. The Department is under no obligation to pay
the contractor for amounts greater than the amounts authorized in the contract until delivery and Government acceptance of a satisfactory
product. Because it is probable that the contractor will complete its efforts and deliver a satisfactory product to the Department and the
amount of potential future payments are estimable; the Department has recognized a contingent liability for estimated future payments, which
are conditional pending delivery and Government acceptance of a satisfactory product.

Capital Lease Liability
Not applicable.


Note 16. Commitments and Contingencies
Relevant Information
The Army Working Capital Fund (AWCF) is a party in various administrative proceedings and legal actions, with claims including
environmental damage claims, equal opportunity matters, and contractual bid protests. The AWCF has accrued contingent liabilities for legal
actions where the Army’s Ofﬁce of the General Counsel considers an adverse decision probable and the amount of loss is measurable. In the
event of an adverse judgment against the Government, some of the liabilities may be payable from the Judgment Fund. The AWCF records
Judgment Fund liabilities in Note 15 Other Liabilities, and Note 12 Accounts Payable. See Notes 15 and 12 for details.

Nature of Contingency
The FY 2006 Army Legal Representation Letter outlines one claim against AWCF totaling $486.7 million for which the Army Ofﬁce of
General Counsel is unable to express an opinion.

The AWCF has other contingent liabilities in which the possibility of loss is considered reasonable. These liabilities are not accrued in the
Army’s ﬁnancial statements nor are reported in the FY 2006 Army Legal Representation Letter. As of September 30, 2006, AWCF has
approximately $140 thousand in claims considered reasonably possible. These contingent liabilities and estimates are presented in the
following table. Estimates for litigations, claims and assessments are required to be fully supported. Additionally, AWCF has coordinated with
Army Ofﬁce of General Counsel to ensure that estimates agree with the legal representation letters and management summary schedule.

 Estimate of the Possible Liability
 (Amounts in thousands)
 Title of Contingent Liabilities                                                       Estimate
 Army Materiel Command                                                                     $140
Other Disclosures
The AWCF does not have open contracts citing cancelled appropriations.
Note 17. Military Retirement and Other Federal Employment Benefits

                                                                                     2006                                               2005
 As of September 30                                                        Assumed          (Less: Assets
                                                      Present Value of                                             Unfunded         Present Value
                                                                         Interest Rate     Available to Pay
                                                          Benefits                                                  Liability        of Benefits
                                                                              (%)             Benefits)
 (Amounts in thousands)


 1. Pension and Health Actuarial Benefits
    A. Military Retirement Pensions                   $              0                     $              0    $                0   $           0
    B. Military Retirement Health Benefits                           0                                    0                     0               0
    C. Military Medicare-Eligible Retiree Benefits                   0                                    0                     0               0
    D. Total Pension and Health Actuarial Benefits    $              0                     $              0    $                0   $           0

 2. Other Actuarial Benefits
    A. FECA                                           $       262,499        5.31          $              0    $      262,499       $    286,523
    B. Voluntary Separation Incentive Programs                      0                                     0                 0                  0
    C. DoD Education Benefits Fund                                  0                                     0                 0                  0
    D. Total Other Actuarial Benefits                 $       262,499                      $              0    $      262,499       $    286,523

 3. Other Federal Employment Benefits                 $              0                     $              0    $                0   $           0

 4. Total Military Retirement and Other Federal
    Employment Benefits:                              $       262,499                      $              0    $      262,499       $    286,523

  Actuarial Cost Method Used: See below
  Assumptions: See below
  Market Value of Investments in Market-based and Marketable Securities: See below

Actuarial Cost Method Used
The Army’s actuarial liability for Workers’ Compensation beneﬁts is developed by the Department of Labor and provided to the Army at
the end of each ﬁscal year. The liability includes the expected liability for death, disability, medical and miscellaneous costs for approved
compensation cases. The liability is determined using a method that utilizes historical beneﬁt payment patterns to predict the ultimate
payments.

Assumptions
The projected annual beneﬁt payments are discounted to the present value using the Ofﬁce of Management and Budget economic assumptions
for 10-year U.S. Treasury notes and bonds. Cost of Living adjustments and medical inﬂation factors are applied to the calculation of projected
future beneﬁts.

Other Disclosures
The AWCF does not invest in Market-based and Marketable Securities.

The Army Working Capital Fund (AWCF) actuarial liabilities decreased $24.0 million since the previous calculation at the end of FY 2005.

Actuarial liabilities are computed for employee compensation beneﬁts as mandated by the Federal Employment Compensation Act (FECA).
The Ofﬁce of Personnel Management provides updated Army actuarial liabilities during the 4th Quarter of each ﬁscal year. The AWCF
computes its portion of the total Army actuarial liability based on the percentage of AWCF FECA expense to the total Army FECA expense.




                                                                                         138 FY 2006 United States Army Annual Financial Statement
                                                            Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                   139

Note 18. General Disclosures Related to the Statement of Net Cost

  As of September 30                                                           2006                                        2005

  (Amounts in thousands)



  1. Intragovernmental Costs                                   $                             450,715       $                          2,016,164
  2. Public Costs                                                                        15,455,261                                  10,600,436
  3. Total Costs                                               $                         15,905,976        $                         12,616,600

  4. Intragovernmental Earned Revenue                          $                        (11,459,046)       $                         (7,556,355)
  5. Public Earned Revenue                                                               (6,237,998)                                 (6,918,272)
  6. Total Earned Revenue                                      $                        (17,697,044)       $                       (14,474,627)


  7. Net Cost of Operations                                    $                         (1,791,068)       $                         (1,858,027)


Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The Statement of Net Cost is unique because its principles are driven by understanding the net cost of programs and/or organizations that
the Federal Government supports through appropriations or other means. This statement provides gross and net cost information that can be
related to the amount of output or outcome for a given program and/or organization administered by a responsible reporting entity.

While the Army Working Capital Fund (AWCF) activities generally record transactions on an accrual basis, as is required by federal generally
accepted accounting principles, the systems do not always capture actual costs. Information presented on the Consolidated Statement of Net
Cost is primarily based on budgetary obligation, disbursement, or collection transactions, as well as information from non-ﬁnancial feeder
systems. The AWCF is in the process of upgrading its ﬁnancial and logistical feeder systems to the Logistics Modernization Program (LMP)
to address this issue.

The AWCF does not own heritage assets or stewardship land.

The Statement of Net Cost includes expenses and other gains and losses. It does not include expenses related to capitalized purchases. Per
seller side rules, intragovernmental costs, including intra-AWCF costs, are matched to the revenue reported by federal trading partners. Public
costs are derived by subtracting the federal trading partner amounts from the total expenses and other gains and losses contained in AWCF
accounting systems.

In 4th Quarter, FY 2005, AWCF begin identifying purchases reported as revenue by federal trading partners and separating those purchases
from other expenses. These capitalized purchases are reﬂected within the Statement of Financing.

Fluctuations and/or Abnormalities
Gross Costs increased $3.3 billion or 26 percent between FY 2005 and FY 2006. The 4th quarter, FY 2005, Gross Costs should have been
$16.1 billion, instead of the $12.6 billion reported at year-end due to an over elimination of intra-AWCF costs. In 4th quarter, FY 2005,
AWCF eliminated an additional $3.5 billion as intra-AWCF costs on the ﬁnancial statements because intragovernmental trading partners
could not be identiﬁed. During FY 2005, sufﬁcient detail needed to identify AWCF trading partners was not available. When AWCF could
not identify trading partners, the costs were reported as intra-AWCF and eliminated from the statement. Beginning in the 1st Quarter,
FY 2006, AWCF improved trading partner identiﬁcation processes to provide for more accurate reporting of Intragovernmental Costs.

Earned Revenue increased $3.2 billion or 22 percent between FY 2005 and FY 2006. The 4th Quarter, FY 2005, Earned Revenue should
have been $18.0 billion, instead of the $14.5 billion reported at year-end due to an over elimination of intra-AWCF Earned Revenue. In
4th Quarter, FY 2005, AWCF eliminated an additional $3.5 billion in intra-AWCF Earned Revenue on the ﬁnancial statements because
intragovernmental trading partners could not be identiﬁed. During FY 2005, sufﬁcient detail needed to identify AWCF trading partners was
not available. When AWCF could not identify trading partners, the Earned Revenue was reported as intra-AWCF and eliminated from the
statement. Beginning in the 1st Quarter, FY 2006, AWCF improved trading partner identiﬁcation processes to provide for more accurate
reporting of Intragovernmental Earned Revenue.
Note 19. Disclosures Related to the Statement of Changes in Net Position

                                                                             2006                                          2005
  As of September 30                                            Cumulative                                    Cumulative
                                                                                      Unexpended                                    Unexpended
                                                                Results of                                    Results of
                                                                                     Appropriations                                Appropriations
                                                                Operations                                    Operations
  (Amounts in thousands)

  1. Prior Period Adjustments Increases (Decreases) to
     Net Position Beginning Balance
      A. Changes in Accounting Standards                    $                0   $                    0   $                0   $                    0
      B. Errors and Omissions in Prior Year Accounting
         Reports                                                             0                        0                    0                        0

      C. Total Prior Period Adjustments                     $                0   $                    0   $                0   $                    0

  2. Imputed Financing
     A. Civilian CSRS/FERS Retirement                       $         53,486     $                    0   $         55,172     $                    0
     B. Civilian Health                                              103,362                          0             91,750                          0
     C. Civilian Life Insurance                                          226                          0                213                          0
     D. Judgment Fund                                                      0                          0                  0                          0
     E. IntraEntity                                                        0                          0                  0                          0

      F. Total Imputed Financing                            $        157,074     $                    0   $        147,135     $                    0


Legend:
CSRS – Civil Service Retirement System
FERS – Federal Employees Retirement System

Other Financing Sources – Other consists of the net of transfers-in and transfers-out for which trading partners cannot be identiﬁed.


Note 20. Disclosures Related to the Statement of Budgetary Resources

 As of September 30                                                                                               2006                  2005
 (Amounts in thousands)


 1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period               $    9,001,781       $   10,115,417


 2. Available Borrowing and Contract Authority at the End of the Period                                            6,374,039            6,702,921



The Army Working Capital Fund (AWCF) had $14.9 billion reimbursable obligations for apportionment category B. Category B apportionments
provide funding for the entire ﬁscal year without quarterly limitations.

The AWCF does not make eliminating entries in the Statement of Budgetary Resources because the statements are presented as combined and
combining and, therefore, are presented as a Disaggregated Statement of Budgetary Resources in the Required Supplementary Information
section of the ﬁnancial statements.

Contract Authority
Operating contract authority for the Supply Management (SMA) business area increased $1.0 billion to accommodate increased obligations
to support higher sales.

The contract authority for the capital investment program increased overall by $2.3 million. SMA decreased $5.2 million due to reduced
software purchases while the Industrial Operations (IO) business area increased $7.5 million primarily to provide for additional equipment
purchases.

                                                                                          140 FY 2006 United States Army Annual Financial Statement
                                                            Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  141
Reimbursable Authority
Reimbursable authority in the IO business area increased $2.2 billion due to higher than anticipated orders.

Appropriations
In 1st Quarter, FY 2006, AWCF received a warrant for $106.5 million in accordance with DoD Appropriation Act, 2006, P.L. 109-148,
119 STAT 2680. In 1st Quarter, FY 2006, AWCF distributed $42.5 million for war reserves and Army combat uniforms to the SMA business
area and $64.0 million to the IO business area for industrial mobilization capacity.

In 3rd Quarter, FY 2006, AWCF received a warrant for $348.3 million in accordance with Emergency Supplemental Appropriations Act for
Defense, the Global War on Terror, and Hurricane Recovery, 2006, P.L. 109-234, 120 STAT 418. In 3rd Quarter, FY 2006, the SMA business
area received $92.1 million for war reserves and $255.0 million for inventory augmentation. The IO business area received $1.2 million for
fuel cost increases.

In 4th Quarter, FY 2006, AWCF received a warrant for $4.7 million in accordance with title IX, Division A of the Department of Defense
Appropriations Act, 2006, P.L. 109-148, 119 STAT 2680. The IO business area received this $4.7 million for fuel cost increases.

Other Disclosures
There are no legal arrangements affecting the use of unobligated balances of budgetary authority.

The AWCF did not receive any capital infusions beyond the appropriations discussed above.


Note 21. Disclosures Related to the Statement of Financing
The objective of the Statement of Financing is to allow users to understand the difference between the Statement of Budgetary Resources and
the Statement of Net Cost. The statement provides this understanding through a comprehensive reconciliation process.

The Army Working Capital Fund (AWCF) budgetary data does not agree with its proprietary expenses and assets capitalized. This results in
a difference in net cost between the Statement of Net Cost and the Statement of Financing. Resources That Finance the Acquisition of Assets
were adjusted by $1.6 billion to bring the statements into agreement. The differences between budgetary and proprietary data for AWCF were
reported as material weaknesses in the FY 2005 AWCF annual ﬁnancial statement report.

The following Statement of Financing lines are presented as combined instead of consolidated due to interagency budgetary transactions not
being eliminated:
     – Obligations Incurred
     –    Less: Spending Authority from Offsetting Collections and Recoveries
     –    Obligations Net of Offsetting Collections and Recoveries
     –    Less: Offsetting Receipts
     –    Net Obligations
     –    Undelivered Orders
     –    Unﬁlled Customer Orders
Other Resources Other consists of other gains and other losses primarily attributable to differences between intragovernmental transfers-in/
out for which trading partners could not be identiﬁed.

Other Resources or Adjustments to Net Obligated Resources that do not affect Net Cost of Operations Other consists mostly of other gains
and other losses primarily attributable to differences between intragovernmental transfers-in/out for which trading partners could not be
identiﬁed.

Components Requiring or Generating Resources in Future Period Other consists of the increase in the FECA liability.

Components not Requiring or Generating Resources Other Other consists of cost capitalization offsets.

The AWCF does not have any allocation transfers.

Components Requiring or Generating Resources in Future Period reports a $1.5 million increase in unfunded expenses that were incurred
during FY 2006. The $1.5 million is the increase between FY 2005 and FY 2006 on Note 11, Liabilities not Covered by Budgetary Resources,
for Unfunded Federal Employees Compensation Act (FECA) liability as reported on the line Intragovernmental Liabilities Other.
Note 22. Disclosures Related to the Statement of Custodial Activity
Not Applicable.


Note 23. Earmarked Funds
Not applicable.


Note 24. Other Disclosures
Not applicable.




                                                      142 FY 2006 United States Army Annual Financial Statement
Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                      143
Department of Defense - Army Working Capital Fund
                                                                           STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                                   Working Capital Funds     2006 Combined         2005 Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                                $               1,176,499 $          1,176,499 $           1,530,241
Recoveries of prior year unpaid obligations                                                    1,372,092            1,372,092             1,435,592
Budget authority
  Appropriation                                                                                  459,521              459,521                     0
  Borrowing authority                                                                                  0                    0                     0
  Contract authority                                                                           9,970,836            9,970,837            10,951,904
  Spending authority from offsetting collections
    Earned
       Collected                                                                              14,013,376           14,013,375            14,180,281
       Change in receivables from Federal sources                                              (142,805)            (142,805)              (29,369)
    Change in unfilled customer orders
       Advance received                                                                           39,952                39,953                19,271
       Without advance from Federal sources                                                       59,028                59,027             (774,190)
    Anticipated for rest of year, without advances                                                     0                     0                     0
    Previously unavailable                                                                             0                     0                     0
    Expenditure transfers from trust funds                                                             0                     0                     0
  Subtotal                                                                                    24,399,908            24,399,908            24,347,897
Nonexpenditure transfers, net, anticipated and actual                                                  0                     0             (515,944)
Temporarily not available pursuant to Public Law                                                       0                     0                     0
Permanently not available                                                                   (10,299,718)          (10,299,718)           (8,798,841)
Total Budgetary Resources                                                      $              16,648,781 $          16,648,781 $          17,998,945

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                                       $                       0 $                  0 $                   0
  Reimbursable                                                                                14,857,316           14,857,316            16,822,445
  Subtotal                                                                                    14,857,316           14,857,316            16,822,445
Unobligated balance:
  Apportioned                                                                                  1,791,465            1,791,465             1,176,499
  Exempt from apportionment                                                                            0                    0                     0
  Subtotal                                                                                     1,791,465            1,791,465             1,176,499
Unobligated balance not available                                                                      0                    0                     1
Total status of budgetary resources                                            $              16,648,781 $         16,648,781 $          17,998,945
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                               $              10,331,508 $         10,331,509 $           8,953,395
  Less: Uncollected customer payments
  from Federal sources, brought forward, October 1                                           (4,181,757)           (4,181,756)           (4,985,314)
  Total unpaid obligated balance                                                               6,149,751             6,149,753             3,968,081
Obligations incurred net (+/-)                                                 $              14,857,316 $          14,857,316 $          16,822,445
Less: Gross outlays                                                                         (14,260,836)          (14,260,837)          (14,008,740)
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                                            0                    0                     0
  Actual transfers, uncollected customer payments from Federal sources (+/-)                            0                    0                     0
  Total Unpaid obligated balance transferred, net                                                       0                    0                     0
Less: Recoveries of prior year unpaid obligations, actual                                     (1,372,092)          (1,372,092)           (1,435,592)
Change in uncollected customer payments from Federal sources (+/-)                                 83,777               83,777               803,558
Obligated balance, net, end of period
  Unpaid obligations                                                                            9,555,896            9,555,896            10,331,509
  Less: Uncollected customer payments (+/-) from Federal sources (-)                          (4,097,979)          (4,097,980)           (4,181,756)
  Total, unpaid obligated balance, net, end of period                                           5,457,917            5,457,916             6,149,753
Net Outlays
Net Outlays:
  Gross outlays                                                                               14,260,836            14,260,837            14,008,740
  Less: Offsetting collections                                                              (14,053,328)          (14,053,327)          (14,199,551)
  Less: Distributed Offsetting receipts                                                                0                     0                     0
Net Outlays                                                                    $                 207,508 $             207,510 $           (190,811)




                                                                                              144 FY 2006 United States Army Annual Financial Statement
                                                                   Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                         145
Department of Defense - Army Working Capital Fund
                                                                           STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                                     Working Capital Funds       2006 Combined          2005 Combined
NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                                  $                       0 $                     0 $                    0
Recoveries of prior year unpaid obligations                                                              0                       0                      0
Budget authority
  Appropriation                                                                                          0                       0                      0
  Borrowing authority                                                                                    0                       0                      0
  Contract authority                                                                                     0                       0                      0
  Spending authority from offsetting collections
    Earned
       Collected                                                                                         0                       0                      0
       Change in receivables from Federal sources                                                        0                       0                      0
    Change in unfilled customer orders
       Advance received                                                                                  0                       0                      0
       Without advance from Federal sources                                                              0                       0                      0
    Anticipated for rest of year, without advances                                                       0                       0                      0
    Previously unavailable                                                                               0                       0                      0
    Expenditure transfers from trust funds                                                               0                       0                      0
  Subtotal                                                                                               0                       0                      0
Nonexpenditure transfers, net, anticipated and actual                                                    0                       0                      0
Temporarily not available pursuant to Public Law                                                         0                       0                      0
Permanently not available                                                                                0                       0                      0
Total Budgetary Resources                                                        $                       0 $                     0 $                    0

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                                         $                       0 $                     0 $                    0
  Reimbursable                                                                                           0                       0                      0
  Subtotal                                                                                               0                       0                      0
Unobligated balance:
  Apportioned                                                                                            0                       0                      0
  Exempt from apportionment                                                                              0                       0                      0
  Subtotal                                                                                               0                       0                      0
Unobligated balance not available                                                                        0                       0                      0
Total status of budgetary resources                                              $                       0 $                     0 $                    0
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                                 $                       0 $                     0 $                    0
  Less: Uncollected customer payments
  from Federal sources, brought forward, October 1                                                       0                       0                      0
  Total unpaid obligated balance                                                                         0                       0                      0
Obligations incurred net (+/-)                                                   $                       0 $                     0 $                    0
Less: Gross outlays                                                                                      0                       0                      0
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                                             0                       0                      0
  Actual transfers, uncollected customer payments from Federal sources (+/-)                             0                       0                      0
  Total Unpaid obligated balance transferred, net                                                        0                       0                      0
Less: Recoveries of prior year unpaid obligations, actual                                                0                       0                      0
Change in uncollected customer payments from Federal sources (+/-)                                       0                       0                      0
Obligated balance, net, end of period
  Unpaid obligations                                                                                     0                       0                      0
  Less: Uncollected customer payments (+/-) from Federal sources (-)                                     0                       0                      0
  Total, unpaid obligated balance, net, end of period                                                    0                       0                      0
Net Outlays
Net Outlays:
  Gross outlays                                                                                          0                       0                      0
  Less: Offsetting collections                                                                           0                       0                      0
  Less: Distributed Offsetting receipts                                                                  0                       0                      0
Net Outlays                                                                      $                       0 $                     0 $                    0
                                                                             Required Supplemental Information - Part A

AT97 - Army Working Capital Fund
($ in Thousands)


Schedule, Part A                                     Treasury     Fund Balance     Accounts       Loans
                                                                                                           Investments          Other
DoD Intra-governmental Asset Balances                  Index      with Treasury   Receivable    Receivable
Executive Office of the President                        11                              $210
Department of Agriculture                                12                                $7
Department of the Interior                               14                                $0
Department of Justice                                    15                               $95
Navy General Fund                                        17                           $11,884
Department of State                                      19                               $49
Department of the Treasury                               20            $875,343           $99
Army General Fund                                        21                          $211,321
Library of Congress                                       3                               $14
Department of Veterans Affairs                           36                               $13
General Service Administration                           47                              $191
Central Intelligence Agency                              56                              $202
Air Force General Fund                                   57                            $5,039
Department of Transportation                             69                              $403
Homeland Security                                        70                            $1,030
Department of Health and Human Services                  75                               $60
National Aeronautics and Space Administration            80                                $0
Department of Energy                                     89                               $11
US Army Corps of Engineers                               96                               $40
Other Defense Organizations General Funds                97                            $4,297
Other Defense Organizations Working Capital Funds     97-4930                          $5,149                                      $8,669
Navy Working Capital Fund                           97-4930.002                        $2,474
Air Force Working Capital Fund                      97-4930.003                          $419
Totals                                                                 $875,343      $243,007             $0            $0         $8,669




                                                                                  146 FY 2006 United States Army Annual Financial Statement
                                                    Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                          147

                                                                     Required Supplemental Information - Part B

AT97 - Army Working Capital Fund
($ in Thousands)

                                                                                             Debts/Borrowings
Schedule, Part B                                                            Accounts
                                                     Treasury Index                            From Other                    Other
DoD Intra-governmental entity liabilities                                   Payable
                                                                                                 Agencies
Department of Labor                                        16                                                                      $48,768
Navy General Fund                                          17                     $1,745
Army General Fund                                          21                    $22,606
Office of Personnel Management                             24                                                                        $9,382
Air Force General Fund                                     57                         $6
US Army Corps of Engineers                                 96                         $0
Other Defense Organizations General Funds                  97                        $96
Other Defense Organizations Working Capital Funds       97-4930                  $46,777                                                  $0
Navy Working Capital Fund                             97-4930.002                 $4,607
Air Force Working Capital Fund                        97-4930.003                 $3,081
Totals                                                                           $78,918                                           $58,150
                                                    Required Supplemental Information - Part C

AT97 - Army Working Capital Fund
($ in Thousands)

Schedule, Part C
                                                          Treasury Index              Earned Revenue
DoD Intra-governmental revenue and related costs
Executive Office of the President                               11                                   $3,597
Department of Agriculture                                       12                                      $99
Department of Commerce                                          13                                     ($29)
Department of the Interior                                      14                                      $22
Department of Justice                                           15                                   $3,338
Navy General Fund                                               17                                 $410,292
Department of State                                             19                                     $436
Department of the Treasury                                      20                                     $136
Army General Fund                                               21                              $10,387,173
Office of Personnel Management                                  24                                       $5
Library of Congress                                              3                                     $111
Department of Veterans Affairs                                  36                                      $13
General Service Administration                                  47                                     $801
Central Intelligence Agency                                     56                                   $1,569
Air Force General Fund                                          57                                 $100,157
Department of Transportation                                    69                                   $3,635
Homeland Security                                               70                                   $7,047
Department of Health and Human Services                         75                                     $613
National Aeronautics and Space Administration                   80                                      $64
Department of Energy                                            89                                      $10
US Army Corps of Engineers                                      96                                     $402
Other Defense Organizations General Funds                       97                                 $103,178
Other Defense Organizations Working Capital Funds            97-4930                                $73,474
Navy Working Capital Fund                                  97-4930.002                             $168,304
Air Force Working Capital Fund                             97-4930.003                             $194,266
Totals                                                                                           $11,458,713




                                                      148 FY 2006 United States Army Annual Financial Statement
                                                    Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                            149
                                                                                        Required Supplemental Information - Part E

AT97 - Army Working Capital Fund
($ in Thousands)

Schedule, Part E
                                                                       Treasury Index              Transfers In             Transfers Out
DoD Intra-governmental non-exchange revenue
Army General Fund                                                             21                                                            $68
Other Defense Organizations Working Capital Funds                          97-4930                                 $75
Totals                                                                                                             $75                      $68
150 FY 2006 United States Army Annual Financial Statement
                                                                                         Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                                                                                  151


                                                                                 INSPECTOR GENERAL
                                                                              DEPEARTMENT OF DEFENSE
                                                                                 400 ARMY NAVY DRIVE
                                                                            ARLINGTON, VIRGINIA 22202-4704




                                                                                                                                                                                     November 8, 2006

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT
               AND COMPTROLLER)

SUBJECT:                Independent Auditor’s Report on the Fiscal Year 2006 Army Working Capital Fund
                        Financial Statements (Report No. D-2007-013)

The Chief Financial Ofﬁcers Act of 1990, as amended, requires the Department of Defense Inspector General to audit the
accompanying Army Working Capital Fund Consolidated Balance Sheet as of September 30, 2006 and 2005, the related
Consolidated Statement of Net Cost, the Consolidated Statement of Changes in Net Position, the Combined Statement of
Budgetary Resources, and the Combined Statement of Financing for the ﬁscal years then ended. The ﬁnancial statements
are the responsibility of Department of Army management. The Army is also responsible for implementing effective internal
control and for complying with laws and regulations. We are unable to give an opinion on the Fiscal Year 2006 Army Working
Capital Fund Financial Statements because of limitations on the scope of our work. Thus, the ﬁnancial statements may be
unreliable. In addition to our disclaimer of opinion on the ﬁnancial statements, we are including the required Report on
Internal Control and Compliance with Laws and Regulations. The Report on Internal Control and Compliance with Laws and
Regulations is an integral part of our disclaimer of opinion on the ﬁnancial statements and should be considered in assessing
the results of the audit.


Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that the ﬁnancial
management and feeder systems that provide evidence supporting the Army Working Capital Fund ﬁnancial statements do
not comply with Federal ﬁnancial management system requirements, generally accepted accounting principles, and the U.S.
Government Standard General Ledger at the transaction level. Therefore, we did not perform auditing procedures to determine
whether material amounts on the ﬁnancial statements were fairly presented. We did not perform these and other auditing
procedures because Section 1008(d) of the FY 2002 National Defense Authorization Act limits the Department of Defense
Inspector General to perform only audit procedures required by generally accepted government auditing standards that are
consistent with the representations made by management. The Army has also acknowledged, and prior audits have identiﬁed,
the material weaknesses listed in the Summary of Internal Control. These material weaknesses also affect the reliability of
certain information contained in the annual ﬁnancial statements—much of which is taken from the same data sources as the
basic ﬁnancial statements.1 Therefore, we are unable to express, and we do not express, an opinion on the basic ﬁnancial
statements. Additionally, the purpose of the audit was not to express an opinion on the information accompanying the basic
ﬁnancial statements. Accordingly, we express no opinion on the accompanying information.




1
  The annual financial statements include the basic financial statements, management discussion and analysis, consolidating and combining financial statements, Required Supplementary Stewardship Information,
Required Supplementary Information, and Other Accompanying Information.
Summary of Internal Control
In planning our audit, we considered Army internal control over ﬁnancial reporting and compliance. We did this to determine
our procedures for auditing the ﬁnancial statements and to comply with Ofﬁce of Management and Budget guidance, but our
purpose was not to express an opinion on internal control. Accordingly, we do not express an opinion on internal control over
ﬁnancial reporting and compliance. However, previously identiﬁed reportable conditions, all of which are material, continued
to exist in the following areas:

     –    Financial Management Systems

     –    Inventory

     –    General Property, Plant, and Equipment

     –    Intragovernmental Transactions and Eliminations

     –    Accounting Adjustments

     –    Accounts Payable

     –    Statement of Net Cost

     –    Statement of Financing

Material weaknesses are reportable conditions in which internal controls do not reduce (to a relatively low level) the risk
of misstatements that are material to the ﬁnancial statements and that might not be timely detected by employees while
performing their normal assigned functions.

Reportable conditions are matters coming to the auditor’s attention that, in his or her judgment, should be communicated
to management because they represent signiﬁcant deﬁciencies in the design or operation of internal control, which could
adversely affect the organization’s ability to initiate, record, process, and report ﬁnancial data consistent with the assertions of
management in ﬁnancial statements.

Our internal control work (conducted during prior audits) would not necessarily disclose all reportable conditions. The
Attachment offers additional details on reportable conditions, all of which we consider to be material internal control
weaknesses.


Summary of Compliance with Laws and Regulations
Our work to determine compliance with selected provisions of applicable laws and regulations related to ﬁnancial reporting
was limited because management acknowledged, and prior audits conﬁrm, that instances of noncompliance continue to exist.
The Army acknowledged to us that many of its critical ﬁnancial management and feeder systems do not comply with the
requirements of the Federal Financial Management Information Act of 1996. Therefore, we did not determine whether the
Army complied with all applicable laws and regulations related to ﬁnancial reporting. Providing an opinion on compliance
with certain provisions of laws and regulations was not an objective of our audit and, accordingly, we do not express such an
opinion. See the Attachment for additional details on compliance with laws and regulations.


Management Responsibility
Management is responsible for:

     –    preparing the ﬁnancial statements in conformity with generally accepted accounting principles;

     –    establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control
          objectives of the Federal Managers’ Financial Integrity Act are met; and

                                                                                 152 FY 2006 United States Army Annual Financial Statement
                                                    Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                          153
    –    complying with applicable laws and regulations.

We provided a draft of this report to the Army. Army ofﬁcials concurred with the facts and conclusions in the report. Army
ofﬁcials also provided technical comments, which have been incorporated as appropriate. Army ofﬁcials expressed their
continuing commitment to address the problems this report outlines.



                                       We provided a draft of this report to the Army.




Attachment:
As stated
154 FY 2006 United States Army Annual Financial Statement
                                                     Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                           155
Report on Internal Control and Compliance with Laws and Regulations
Internal Control
Management is responsible for implementing and maintaining effective internal control and for providing reasonable
assurance that accounting data are accumulated, recorded, and reported properly; the requirements of applicable laws and
regulations are met; and assets are safeguarded against misappropriation and abuse. Our purpose was not to, and we do
not, express an opinion on internal control over ﬁnancial reporting. However, we have identiﬁed the following material
weaknesses that could adversely affect a favorable opinion on internal control.

Material Weaknesses. Management acknowledged that previously identiﬁed reportable conditions, all of which are material,
continue to exist.

         Financial Management Systems. Army Working Capital Fund systems are unable to meet all of the requirements
         for full accrual accounting. The systems do not collect and record ﬁnancial information, as required by generally
         accepted accounting principles. Financial and nonﬁnancial feeder systems are not integrated and do not contain
         an audit trail at the transaction level for the amounts reported in the proprietary and budgetary account balances.
         The Army Working Capital Fund derives most of its ﬁnancial information for major accounts from noncompliant
         ﬁnancial systems, such as the Commodity Command Standard System and the Standard Industrial Funds System.

         In FY 2003, the Army began the deployment of the Logistics Modernization Program as its future core accounting
         system for the Army Working Capital Fund. The Army originally anticipated full implementation of the Logistics
         Modernization Program system by September 2005. However, implementation problems and the system’s inability
         to stabilize data and achieve compliance with the Federal Financial Management Information Act of 1996 at the
         initial ﬁeld locations have prevented further implementation of the system.

         During FY 2006, as part of our ﬁnancial-related audits, we noted deﬁciencies in the ability of the Logistics
         Modernization Program system to properly record transactions in the U.S. Government Standard General Ledger.
         The Logistics Modernization Program system did not have the internal system functionality to perform prevalidation
         with DoD payment systems as required by Public Law 108-287. In other words, the system could not match
         obligations to anticipated disbursements before payment. The Army also disclosed in the notes to its FY 2006 Army
         Working Capital Fund Financial Statements instances where the Logistics Modernization Program system did not
         properly populate general ledger accounts and either reported abnormal balances or required forced journal entries to
         remedy the situation. These problems could further delay the implementation of the system. Other system changes
         are also necessary. For example, the Logistics Modernization Program system is unable to record memorandum
         entries in the U.S. Government Standard General Ledger for current year asset activity and receive General Property,
         Plant, and Equipment data from feeder systems as required for Federal ﬁnancial management system requirements.

         Full deployment of the Logistics Modernization Program system is scheduled for FY 2010. This implementation
         date is contingent on the ability to restructure the system acquisition process, improve project governance, and meet
         performance goals. Because the Army is relying on the success of the Logistics Modernization Program system
         to obtain an unqualiﬁed opinion on the Army Working Capital Fund ﬁnancial statements, these problems could
         jeopardize Army’s success.

         Inventory. The existing inventory valuation method does not produce an auditable approximation of historical cost.
         The Army uses the latest acquisition cost method of valuing most of the inventory because Army legacy inventory
         systems were designed for materiel management rather than accounting. The systems provide accountability and
         visibility over inventory items, but do not maintain the historical cost data necessary to comply with Statement of
         Federal Financial Accounting Standards No. 3, “Accounting for Inventory and Related Property.” The systems are
         unable to produce ﬁnancial transactions using the U.S. Government Standard General Ledger accounts and neither
         the Defense Finance and Accounting Service nor the Army reconciled all differences between the accounting records
         and the logistical records. Instead, the Defense Finance and Accounting Service accepted the data from the logistical
         records and adjusted the accounting records by at least $3.6 billion.

                                                                                                                                Attachment
General Property, Plant, and Equipment. The reported value of Army Working Capital Fund General Property,
Plant, and Equipment is unreliable because the Army lacked the documentation needed to support the historic
acquisition cost of its assets. Information on the acquisition date and cost is not always available and is sometimes
incorrectly recorded. These conditions will continue to exist until the Army can establish a methodology to baseline
and support the reported acquisition costs of its General Property, Plant, and Equipment. In addition, the Army did
not implement the new DoD capitalization threshold of $20,000 for real property assets. During FY 2006, the Army
reported that the Integrated Facilities System used to report real property assets was substantially compliant with
the Federal Financial Management Information Act of 1996. In August 2006, the DoD Ofﬁce of Inspector General
announced an audit to evaluate the controls over Army Working Capital Fund real property assets. The audit
will determine whether controls over real property additions, deletions, and modiﬁcations entering the Integrated
Facilities System are sufﬁcient to maintain accurate balances once the Army establishes a supportable baseline.

Intragovernmental Transactions and Eliminations. DoD is unable to collect, exchange, and reconcile buyer and
seller intragovernmental transactions, resulting in adjustments that cannot be veriﬁed. DoD and Army Working
Capital Fund systems do not capture the trading partner ﬁnancial data at the transaction level, as necessary, to
facilitate the reconciliation and elimination of intragovernmental transactions. DoD procedures require that buyer-
side transaction data be forced to agree with seller-side transaction data from other intragovernmental entities
without the entities performing proper reconciliations. As a result, Defense Finance and Accounting Service
Indianapolis made $15.4 billion in adjustments to Army Working Capital Fund accounts to force these accounts into
agreement with the corresponding records of intragovernmental trading partners.

Accounting Adjustments. Defense Finance and Accounting Service Indianapolis did not adequately support
$8 billion in journal vouchers used to prepare the Army Working Capital Fund ﬁnancial statements. Defense
Finance and Accounting Service Indianapolis made the unsupported adjustments to force amounts to agree with
other sources of information and records used to prepare the FY 2006 Army Working Capital Fund Financial
Statements. Defense Finance and Accounting Service Indianapolis did not always follow the established minimum
requirements for documenting journal vouchers to support adjusting accounting entries made to the general ledger
accounts. The resulting unsupported accounting adjustments presented a material uncertainty regarding the line
item balances on the FY 2006 Army Working Capital Fund Financial Statements. These adjustments affected the
ﬁnancial information on all of the statements.

Accounts Payable. Army Working Capital Fund systems are unable to properly account for and report Accounts
Payable. The Supply Management activity group does not establish Accounts Payable in accordance with Statement
of Federal Financial Accounting Standards No. 1, “Accounting for Selected Assets and Liabilities,” which requires
the Army to establish an Accounts Payable when it accepts title to goods or services. The Army recognized
Accounts Payable based on the physical receipt of the goods or services rather than when the Government accepted
title to the goods or services. The Army further misstated the Accounts Payable balances by approximately
$174.9 million because organizations using the Logistics Modernization Program system had not resolved
$88.7 million in abnormal Accounts Payable balances and reported $86.2 million in Accounts Payable related
to inventories in transit that the Army had accepted at the shipping point as “other liabilities.” Defense Finance
and Accounting Service Indianapolis was unable to reconcile intragovernmental Accounts Payable with the
intragovernmental Accounts Receivable that generated the payable. As a result, the Defense Finance and
Accounting Service Indianapolis made $39.5 million in unsupported adjustments to increase intragovernmental
Accounts Payable to force the amounts to agree with Army Working Capital Fund trading partners. Defense Finance
and Accounting Service Indianapolis also adjusted Accounts Payable with the public downward by $2.7 million for
undistributed disbursements.

Statement of Net Cost. The Statement of Net Cost was not presented by responsibility segments consistent with
DoD performance goals and measures. Accounting systems were unable to accurately capture costs for Army
Working Capital Fund programs and properly account for intragovernmental transactions and related eliminations.
In addition, the Army Working Capital Fund used budgetary obligation, collection, and disbursement data to present
some of the information reported on the Statement of Net Cost.

                                                                    156 FY 2006 United States Army Annual Financial Statement
                                                      Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                            157
         Statement of Financing. The Ofﬁce of Management and Budget requires a consolidated Statement of Financing
         except for the budgetary information used to calculate net obligations, which is prepared on a combined basis.
         The Army Working Capital Fund prepares the Statement of Financing on a combined basis. Also, because no
         reconciliation of differences between the Statement of Net Cost and the Statement of Financing occurred, the
         Statement of Financing does not accurately present the relationship between budgetary obligations incurred by the
         Army Working Capital Fund and its Net Cost of Operations. For example, Defense Finance and Accounting Service
         Indianapolis prepared $1.6 billion in unsupported adjustments to the equipment general ledger account to force costs
         to match with obligation information.

         These ﬁnancial management deﬁciencies are indications of material weaknesses in internal control that may
         adversely affect any decision by Army management that is based, in whole or in part, on information that is
         inaccurate because of these deﬁciencies. Financial information reported by DoD may also contain misstatements
         resulting from these deﬁciencies.

Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to ﬁnancial reporting. Our work to
determine compliance with selected provisions of the applicable laws and regulations was limited because management
acknowledged instances of noncompliance, and previously reported instances of noncompliance continue to exist. Therefore,
we did not determine whether the Army Working Capital Fund was in compliance with selected provisions of all applicable
laws and regulations related to ﬁnancial reporting. Our objective was not to, and we do not, express an opinion on compliance
with applicable laws and regulations.

Statutory Financial Management Systems Reporting Requirements. The Army Working Capital Fund is required
to comply with ﬁnancial management systems reporting requirements. For example, the Federal Financial Management
Information Act of 1996 requires DoD to establish and maintain ﬁnancial management systems that comply substantially
with Federal ﬁnancial management systems requirements, applicable Federal accounting standards, and the U.S. Government
Standard General Ledger at the transaction level. In addition, the Federal Managers’ Financial Integrity Act of 1982 requires
the Army to evaluate its systems and to report annually whether those systems comply with applicable requirements. The
Chief Financial Ofﬁcers Act of 1990 requires that each agency develop and maintain an integrated agency accounting and
ﬁnancial management system, including ﬁnancial reporting and internal control. The system should comply with internal
control standards and applicable accounting principles, standards, and requirements; and it should provide complete, reliable,
consistent, and timely information.

The Army acknowledged that many of its critical ﬁnancial management and feeder systems did not substantially comply
with Federal ﬁnancial management system requirements, generally accepted accounting principles, and the U.S. Government
Standard General Ledger at the transaction level. The Army was also unable to comply with the Chief Financial Ofﬁcers Act
of 1990, which requires agencies to develop and maintain integrated agency accounting and ﬁnancial systems.


Audit Disclosures
The Army acknowledged to us on February 10, 2006, that the Army Working Capital Fund ﬁnancial management systems
cannot provide adequate evidence supporting various material amounts on the ﬁnancial statements. Therefore, we did not
conduct audit work related to the previously identiﬁed deﬁciencies.

In addition, we did not perform audit work related to the following selected provisions of laws and regulations:
    –    Antideﬁciency Act
    –    Provisions Governing Claims of the United States Government
    –    Federal Credit Reform Act of 1990
    –    Pay and Allowance System for Civilian Employees
    –    Prompt Payment Act

This report does not include recommendations to correct the material internal control weaknesses and instances of
noncompliance because previous audit reports contained recommendations for corrective actions.
158 FY 2006 United States Army Annual Financial Statement
Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                      159
Relevant and Ready Landpower in Service to the Nation
The Civil Works’ mission is constantly evolving to keep pace with
the changing needs of the Nation. Today, those missions fall in four
broad areas: water infrastructure, environmental management and
restoration, emergency response and assistance, and engineering
support and technical services.
                                                                                                             Civil Works Fund
                                                                                                                                  161
Overview
Mission
The civil works mission is to contribute to the national welfare and serve the public by providing the nation and the
Army with quality, responsive development and management of the nation’s water resources; protection, restoration,
and management of the environment; disaster response and recovery; and engineering and technical services. The
mission will be accomplished in an environmentally sustainable, economic, and technically sound manner through
partnerships with other governmental agencies and nongovernmental organizations.


Developing and Managing Water Resources
The original role of the Corps of Engineers in civil works, as it related to developing and managing water resources,
was to support navigation by maintaining and improving water channels. Over the years and through subsequent
legislation, the Corps’ role was expanded to include ﬂood damage reduction, hydroelectric power generation,
recreation, and water storage.


Protecting, Restoring, and Managing the Environment
The Rivers and Harbors Act of 1899 required the Corps to prevent the obstruction of navigable waterways. As
concern over the environment grew in the late 20th century, the Clean Water Act of 1972 greatly broadened the




                                                                                                                          Washington, and Idaho”
                                                                                                                          Ice Harbor Lock and Dam-Lake Sacajawea is Unit 1 of 4 included in the “Lower Snake River Project,




                                                                                               Civil Works Fund




                                                                  2006
Corps’ responsibility by providing authority over the dredging and ﬁlling in of United States’ waters, including
the country’s wetlands. The civil works program’s environmental responsibilities have continued to grow through
additional legislation.




                                                                                                                               recovery effort.
                                                                                                                               U.S. Army Corps of Engineers deployable tactical operations system trailers assist in hurricane
Responding and Assisting in Disaster Relief
Throughout the Corps’ history, America has relied on the civil works program for help in times of national disaster.
This help is now provided under two basic authorities: the Flood Control and Coastal Emergency Act (P.L. 84-99, as
amended), and the Robert T. Stafford Disaster and Emergency Assistance Act. The primary role of the civil works
program in emergency relief and recovery operations is to provide public works and engineering support.


Providing Engineering Support and Technical Services
In Titles 10 and 33 of the U.S. Code, Congress expresses its intent that the Corps provide services on a reimbursable
basis to other federal entities; state, local, and tribal governments; private ﬁrms; and international organizations.
Additional authorities to provide services that are applicable to all federal agencies are provided in Titles 15, 22, and
31. These authorities include providing services to foreign governments.



                                                                                                                        channel maintained by the USACE.
                                                                                                                        A United States Coast Guard cutter and an ore carrier pass each other in a Michigan navigation




                                                                    162 FY 2006 United States Army Annual Financial Statement
                                                                                                                      Civil Works Fund
                                                                                                                                   163
Civil Works Programs
The Corps has multiple programs to accomplish its mission. Figure 14 lists the programs that receive direct
appropriations; furthermore it shows the funds used for executive direction and management for those programs.
Another program, support for others, is conducted on a reimbursable basis. Each program speciﬁcally addresses a
single mission component, but each may also contribute to one or more of the other’s missions.
Figure 14. FY 2006 Civil Works Initial Appropriation by Program

                                   $2 million       $154 million
              $275 million
          $5 million
   $140 million

$92 million


                                                                                   Navigation
                                                                                   Flood and Coastal Storm Damage Prevention
                                                                                   Hydropower
                                                                                   Regulatory
           $516 m                                                                  Environment-Ecosystem Restoration
                      illion                                                       Environment-Stewardship
                                                                   $2.1 billion    Environment-FURAP
          $160 million                                                             Emergency Management
                                                                                   Recreation
                          n                                                        Water Supply
                     milio
              $288                                                                 Executive Direction & Management




                                                $1.5 billion




Navigation
The navigation program is responsible for providing safe, reliable, efﬁcient, and environmentally sustainable
waterborne transportation systems for the movement of commercial goods and for national security needs. The
program seeks to meet this responsibility through a combination of capital improvements and the operation and
maintenance of existing infrastructure projects. The navigation program is vital to the nation’s economic prosperity:
95 percent of America’s overseas international trade moves through its ports. Our nation’s marine transportation
system (MTS) encompasses a network of navigable channels, waterways, and infrastructure maintained by the
Corps, as well as publicly and privately owned vessels, marine terminals, inter-modal connections, shipyards,
and repair facilities. The MTS consists of approximately 12,000 miles of inland and intracoastal waterways; over
900 coastal, Great Lakes, and inland harbors; and channel projects that are maintained by the Corps.

In FY 2006, this $2.06 billion program accounted for over 38 percent of civil works appropriations.
Flood and Coastal Storm Damage Reduction Program
This program is aimed at saving lives and reducing property damage in the event of ﬂoods and coastal storms.
The civil works program has constructed 8,500 miles of levees and dikes, 383 reservoirs, and more than 90 storm
damage reduction projects along 240 miles of the nation’s 2,700 miles of shoreline. With the exception of the
reservoirs, most of the infrastructure constructed under this program is owned and operated by the sponsoring cities,
towns, and agricultural levee districts.

The ﬂood and coastal storm damage reduction program has compiled an impressive record of performance. In the
period 1995–2004, ﬂoods in unprotected areas caused the United States an average of $5.4 billion yearly in property
damage. In the same period, Corps projects in protected areas prevented $22.9 billion in average annual damages.
Through FY 2000, the nation had invested $43.6 billion ($122 billion, adjusted for inﬂation) in ﬂood damage
reduction projects, preventing an estimated $419 billion ($709 billion, adjusted for inﬂation) of ﬂood damage.
Adjusted for inﬂation, these ﬁgures show a return on investment of more than $6.36 in damage prevented for each
dollar spent. The program also has helped reduce the number of lives lost annually due to ﬂoods from an average of
179 in the decade 1972–1981 to 89 in the period 1991–2000.

In FY 2006, this $1.51 billion program accounted for more than 28 percent of civil works appropriations.


Environmental Protection, Restoration, and Management
Three distinct programs, aquatic ecosystem restoration, stewardship of Corps lands, and the Formerly Utilized Sites
Remedial Action Program, make up the environmental program. Responding to the growing national awareness of
the importance of the natural environment, these programs address many issues such as monitoring water quality at
dam sites, managing the natural resources on 11.5 million acres of land and water at 456 multi-purpose Corps project
sites, restoring degraded aquatic habitats to more natural conditions, and clean up of hazardous material.

The Army’s mission in the area of aquatic ecosystem restoration is to help restore aquatic habitat to a less degraded
and more natural condition in ecosystems whose structures, functions, and dynamic processes have become
degraded. The emphasis is on restoration of nationally or regionally signiﬁcant habitat where the solution primarily
involves manipulating the hydrology and geomorphology. During ﬁscal year (FY) 2005, a total of 32,500 acres of
aquatic, wetland, and ﬂoodplain habitat were restored.

In FY 2006, the combined environmental programs received a total initial appropriation of $748 million, which
accounted for almost 14 percent of the total civil works initial appropriation.
                                                                                                                      Engineers land devoted to wildlife management.
                                                                                                                      Ducks, geese, and other waterfowl are protected on more than 85,200 acres of Army Corps of




                                                                 164 FY 2006 United States Army Annual Financial Statement
                                                                                                             Civil Works Fund
                                                                                                                                        165
Regulation of Wetlands and Waterways
In accordance with the Rivers and Harbors Act of 1899 (Sec. 10) and the Clean Water Act of 1972 (Sec. 404), as
amended, the Army Civil Works Regulatory Program regulates the discharge of dredged and ﬁll material into waters
of the United States, including wetlands. The Corps implements many of its oversight responsibilities by means of
a permit process.

Throughout the permit evaluation process, the Corps must comply with the National Environmental Policy Act and
other applicable environmental and historic preservation laws. The objective of the program is to protect America’s
aquatic resources while allowing reasonable use of private property for important economic or infrastructure
development on both private and public lands. The Corps must also consider the views of other federal, tribal,
state, and local governments and agencies; interest groups; and the general public when rendering its ﬁnal permit
decisions.

In FY 2006, this $160 million program accounted for almost 3 percent of civil works appropriations.


Emergency Management
Throughout Corps history, America has relied on the civil works program for help in times of national disaster.
Emergency management continues to be an important part of the civil works program. The civil works program
supports the Department of Homeland Security in carrying out the National Response Plan. The Corps’ primary role
in support of this plan is to provide emergency support in areas of public works and engineering. The Corps responds
to more than 30 presidential disaster declarations in a typical year, and its highly trained workforce is prepared to
deal with both man-made and natural disasters. After being struck by three major storms in 2005, the 2006 hurricane
season has been relatively mild.

In FY 2006 the Corps continues to support major recovery operations in the Gulf Coast region in response to
Hurricanes Rita and Katrina. Over 8,000 Corps employees were deployed from their home stations to assist
in this response; and at the end of FY 2005, several thousand Corps employees remained deployed in Florida,
Louisiana, Texas and Mississippi. Corps personnel provide temporary housing, power, debris removal, ice, water,
and infrastructure support to the impacted region.

Hurricanes Katrina, Rita, Wilma, and Ophelia caused signiﬁcant damage to the ﬂood protection and hurricane
protection projects along the Gulf Coast and South Atlantic states. Hurricane Katrina alone caused extensive damage
to the hurricane shore protection and ﬂood control projects in the states of Louisiana, Mississippi and Alabama,         New Orleans to help pump the water out of the lower Ninth Ward.
                                                                                                                         Rock District pass through the Inner Harbor Navigation Canal Lock. The equipment was unloaded in
                                                                                                                         Two barge loads of pumping equipment and their support crew from the Corps of Engineers Little
totaling over $2.1 billion. Major damages to the storm protection system in the New Orleans area included major
breaches of signiﬁcant sections of levees and ﬂoodwalls on the Lake Pontchartrain and Vicinity and the New Orleans
to Venice projects that required major repairs prior to the beginning of hurricane season on June 1, 2006. Emergency
repairs to these projects totaled more than $800 million and were completed before the start of the 2006 hurricane
season. Repair work on other projects in the New Orleans area is continuing.

In addition, major improvements and accelerated completion of portions of authorized projects in the New
Orleans area were authorized by Congress through additional emergency supplemental appropriations. Planning
and construction of these improvements began in early FY 2006 and will continue through FY 2010. To date,
$5.6 billion has been appropriated for the repairs and improvements authorized for the storm and ﬂood damage
reduction systems in New Orleans, Southeast Louisiana, and other Gulf Coast states.

The Corps not only makes contributions to domestic emergency management efforts, it also plays a major role on
the international stage through its participation in the civil military emergency preparedness program. In support of
DoD, the Corps shares emergency management knowledge and expertise with U.S. Allies and partners in the former
Soviet Republics and Eastern Europe. This valuable program brings together key leaders and builds relationships
between nations in direct support of the National Defense Strategy.

In FY 2006, this program received new budget authority of $5 million, accounting for less than 1 percent of civil
works’ new appropriation authority.




                                                                                                                       their own safety and the safety of their parents and friends.
                                                                                                                       A USACE employee makes two children “official safety officers” and tells them to be responsible for




Hydropower
The Corps’ multi-purpose authorities afford hydroelectric power as an additional beneﬁt of projects built for
navigation and ﬂood control. The Corps is the largest owner/operator of hydroelectric power plants in the United
States and one of the largest in the world. The Corps operates 345 generating units at 75 multipurpose reservoirs,
mostly in the Paciﬁc Northwest, accounting for about 24 percent of America’s hydroelectric power and about
three percent of the country’s total electric-generating capacity. Its hydroelectric plants produce nearly 100 billion
kilowatt-hours each year, sufﬁcient to serve about 10 million households—equal to ten cities the size of Seattle,
Washington. Hydropower is a renewable source of energy and one of the least environmentally disruptive sources
of electric power, producing none of the airborne emissions that contribute to acid rain or the greenhouse effect.

In FY 2006, this $288 million program accounted for just over ﬁve percent of civil works appropriations.




                                                                  166 FY 2006 United States Army Annual Financial Statement
                                                                                                               Civil Works Fund
                                                                                                                                          167




                                                                                                                            generate electricity. This picture, looking down river, shows both falls.
                                                                                                                            Niagara Falls altitude varies from 100 to 600 feet and the power of the falling water is used to
Water Supply
Careful management of the nation’s water supply is critical to limiting water shortages and lessening the impact of
droughts. The Corps has an important role in ensuring that homes, businesses, and farms nationwide have enough
water to meet their needs. The Corps has the authority for water supply as part of projects that serve navigation, ﬂood
protection, and hydroelectric purposes.

In FY 2006, this $2 million program accounted for less than 1 percent of civil works appropriations.


Recreation
The Corps is an important provider of outdoor recreation as an ancillary beneﬁt of ﬂood prevention and navigation
projects. The mission of the recreation program is to provide quality outdoor public recreation experiences to serve
the needs of present and future generations and to contribute to the quality of American life, while managing and
conserving natural resources consistent with ecosystem management principles.

This $275 million program accounted for just over ﬁve percent of the civil works budget in FY 2006.

Organizational Structure
The Workforce
The Corps employs almost 35,000 people, including 650 military ofﬁcers and 24,800 civilians, who perform civil
works duties. It is funded through the energy and water development appropriation and executes programs through
eight regional divisions and 38 of the 41 districts of the Corps of Engineers — the remaining three districts have only
military-related missions. There is a ninth provisional division in the Gulf Region supporting operations in Iraq and
Afghanistan and it has four provisional districts embedded within the division.

Figure 15 shows the division boundaries. These are deﬁned by watersheds and drainage basins, reﬂecting the water
resources nature of the civil works mission.

The distribution of civil works employees similarly highlights the customer focus of the program: 95 percent of
employees work at the district level, labs or ﬁeld operating agencies reﬂecting the fact that project management is
performed at the district level. The civil works program contracts out to civilian companies all of its construction
Figure 15. Civil Works Boundaries

                                                                                                                          North
                                                                                   Great Lakes                           Atlantic
                            Seattle
                                                                                   & Ohio River
     Alaska                                                                                                             New
                                                                   St.                                                 England
                 Portland     Walla
                              Walla
                                              Northwestern         Paul                         Buffalo
                                                                                      Detroit
                                                                          Rock                    Pittsburgh        New York
                                                                          Island
                                                          Omaha                          Chicago                  Philadelphia
                      Sacramento                                                           Cincinnati Baltimore
 San                                                     Kansas City           St. Louis              Huntington
                                                                                                                 Norfolk
 Francisco                  South Pacific                                              Louisville
                                                                                         Nashville
                                                                       Little
                                                              Tulsa Rock              Memphis                  Wilmington
            Los                                                                                                                Legend:
            Angeles                                     Southwestern                                         Charleston            Div./Regional HQ location
                                          Albuquerque                                        Atlanta
                                                        Ft. Worth                                         Savannah                 District HQ location
                                                                                         Mobile                                    Division boundary
                                                                            Vicksburg                     Jacksonville
                                                                  Dallas                                                           District boundary
     Honolulu                                                                                                                      State boundary
                                                             Galveston                  New
                                Pacific Ocean                                           Orleans                  South                     Key
                                                                                                                Atlantic Follows Watershed Boundaries
                                                                       Mississippi Valley


                     and most of its design work. As many as 150,000 people are indirectly employed in support of civil works projects.
                     These contractual arrangements have served the nation well in times of emergency.

 Figure 16. Civil Works Levels of Authority
                                                                                   The Leadership
                                                                                   Oversight of civil works is provided through four levels of
                                                                                   authority. As shown in Figure 16, the Assistant Secretary of
                                    ASA (CW)                                       the Army for Civil Works (ASA (CW)) is appointed by the
                            Provides policy guidance                               President and is responsible for civil works policy. The Chief
                                                                                   of Engineers is a military ofﬁcer who reports to the ASA (CW)
                                                                                   and is responsible for mission accomplishment. He delegates
                                                                                   most of his responsibilities for managing the various programs
                            Chief of Engineers                                     to the Director of Civil Works. The Chief of Engineers, through
                             Applies policy guidance                               the Director of Civil Works, is responsible for the leadership
                                                                                   and management of the civil works program and for ensuring
                                                                                   that policies established by the ASA (CW) are applied to all
                                                                                   phases of the civil works mission. The divisions, commanded
                               Director of CW                                      by division engineers, are regional ofﬁces responsible for the
                  Acts on behalf of the Chief of Engineers
                                                                                   supervision and management of their subordinate districts,
                                                                                   including the monitoring and quality assurance of district work.
                                                                                   The districts are the foundation of the civil works mission,
                                    8 Divisions                                    managing water resource development over a project’s life
                      Supervise and manage districts
                   Perform quality assurance on districts                          cycle.



         Plan                                            Operate
         Design                  38 Districts            Maintain
         Construction
            Management



                                                                                                  168 FY 2006 United States Army Annual Financial Statement
                                                                                                           Civil Works Fund
                                                                                                                        169
Civil Works Fund Performance Results
Civil works directly impacts America’s prosperity, competitiveness, quality of life, and environmental stability.
In March 2004 the civil works leaders published a strategic plan that provides a framework for enhancing the
sustainability of America’s resources. The strategic goals listed in the plan support the strategic direction of
Corps over the ﬁve-year period from FY 2004 – FY 2009. Key performance measures developed in conjunction
with the Ofﬁce of Management and Budget through the Performance Assessment Rating Tool process for
FY 2002 – FY 2006 are presented below.


Goal 1: Provide Sustainable Development and Integrated Management of the Nation’s
Water Resources.
Navigation
Objective: To invest in navigation infrastructure that is fully capable of supporting maritime requirements in
           environmentally sustainable ways where economically justiﬁed.

Performance Indicator: Track navigation lock availability by identifying trends in scheduled and unscheduled
lock closures for the navigation system, measured in hours.

Performance Result: The Corps uses the same indicator as in Goal 3; please see Table 18 for the results.


Flood and Coastal Storm Damage Reduction
Objective: To invest in ﬂood and coastal storm damage reduction solutions when the beneﬁts exceed the costs.

Performance Indicator: This is measured by the performance of civil works facilities in reducing damage where
ﬂooding otherwise would have been experienced.

Performance Result: The Corps uses the same indicator as in Goal 3; please see Table 19 for the results.


Hydropower
Objective: To invest in hydropower solutions when beneﬁts exceed the costs.

Performance Result: The Corps uses the same indicator as in Goal 3; please see Table 20 for the results.


Goal 2: Repair Past Environmental Degradation and Prevent Future Environmental Losses
Regulatory
Objective: To administer the regulatory program in a manner that protects the aquatic environment (assures zero
           net-loss of wetlands).

Performance Indicators: The eight measures listed in Table 15 serve as indicators to assist Corps personnel to
determine their progress in meeting this objective. The indicators are explained below along with the Fiscal Year
2006 goals.

         Individual permit compliance. The Corps shall complete compliance inspections on 15 percent of all
         individual permits issued and constructed within the preceding ﬁscal year.
         General permit compliance. The Corps shall complete compliance inspections of 5 percent of all
         peneral permits with reporting requirements issued and constructed within the preceding ﬁscal year.
               Mitigation site compliance. The Corps shall complete ﬁeld compliance inspections of 15 percent of
               active mitigation sites each ﬁscal year. Active mitigation sites are those sites authorized through the permit
               process. They are monitored as part of the permit process but have not met ﬁnal approval under the permit
               special conditions.
               Mitigation inspections or audits. The Corps shall complete compliance inspections or audits on
               50 percent of active mitigation banks and in lieu of fee programs annually.
               Resolution of non-compliance issues. The Corps will reach resolution on non-compliance with permit
               conditions or mitigation requirements on 25 percent of activities determined to be non-compliant at the
               end of the previous ﬁscal year and determined to be non-compliant during the current ﬁscal year.
               Resolution of enforcement actions. The Corps shall reach resolution on 25 percent of all pending
               enforcement actions (i.e., unauthorized activities) that are unresolved at the end of the previous ﬁscal year
               and have been received during the current ﬁscal year.
               General permit decisions. The Corps shall reach permit decisions on 90 percent of all general permit
               applications within 60 days.
               Individual permits. The Corps shall reach permit decisions on 65 percent of all standard permits and
               letters of permission within 120 days. This standard shall not include individual permits with Formal
               Endangered Species Act consultations.

 Table 15. Regulatory Indicators
                                                                                         FY 2002    FY 2003     FY 2004    FY 2005
 Percent of compliance inspections on individual permits                                   21          18         16          14
 Percent of compliance inspections on general                                               7          6           5           5
 Percent of active mitigation sites inspected                                              13          15         11           9
 Percent of compliance inspections on active mitigation banks                              25          25         20          19
 Percent resolution on non-compliance with permit conditions or mitigation                 33          30         26          24
 requirements
 Percent resolution on pending enforcement actions                                         25          25         37          23
 Percent of general permit applications decisions made within 60 days.                     90          88         85          85
 Percent of standard permits and letter of permission permit decisions made within         65          58         61          61
 120 days
 Note: FY 2006 data were not available at time of printing.




Environmental Remediation
Objective: To achieve the clean-up objectives of the Formerly Utilized Sites Remedial Action Program. The Corps
           uses three outcome measures to indicate progress meeting this objective: Minimize risk to human health
           and the environment, maximize the cubic yardage of contaminated material disposed in a safe and legal
           disposal facility, and return the maximum number of affected individual properties to beneﬁcial use.

Performance Indicators: The measures listed in Table 16 serve as indicators to assist Corps personnel to determine
their progress in meeting this objective. The indicators are explained below.

               Number of records of decision (ROD) signed. As studies are completed and best alternatives for cleanup
               activities are decided, the number of RODs will increase. A ﬁnal ROD establishes the ﬁnal cleanup
               standard, which controls the actual estimate of the remaining environmental liability for each site.
               Number of remedial investigations (RI) completed. The RI establishes the baseline risk assessment
               whereby the level of risk to human health and the environment is identiﬁed.


                                                                             170 FY 2006 United States Army Annual Financial Statement
                                                                                                                                       Civil Works Fund
                                                                                                                                                           171
          Number of action memorandums signed. Where warranted by risk or other limited factors, action
          memorandums allow the Corps to move toward reducing risk more rapidly than through production of
          a ROD. No action memorandums are Table 16. Remedial Action Indicators
          presently identiﬁed.
                                                                                                     FY 2004                FY 2005            FY 2006
          Cubic yardage of contaminated                                                              (actual)               (actual)         (estimated)

          material disposed. Target soil                                                      Target         Actual   Target      Actual   Target   Actual
          amounts are dependent on previous-        Number of RODs signed                        9              9       2              3     3         2
          year funding and scheduled activities.    Remedial investigations                     21              21      4              5     5         4
                                                    completed
          Number of remedies in place or
                                                    Action memos signed                          3              3       -              -     1         1
          response complete. As select portions
                                                    Cubic yards of                            2,927          2,927     168         243      213      225
          of sites or complete sites meet their     contaminated material
          remedial action goals, the risk to        removed (in thousands)
          human health and the environment is       Individual properties                       65              65      5              5    15        15
                                                    returned to beneficial use
          reduced to within acceptable levels and
          properties are able to be used within a   Remedies in place or                         4              4       1              2     2         0
                                                    response complete
          community without fear of increasing
                                                    Complete FY 2006 data were not available at time of printing.
          cancer risk or further degrading the
          environment.


Environmental Stewardship
Objective: To improve the efﬁciency and effectiveness of existing Corps water resources projects.

Performance Indicator: The outcome for this objective is to manage projects in an efﬁcient manner. This measure
is an assessment of federal costs avoided in relation to the program cost. Revenue recovered each year, equivalent
to the federal costs avoided, will vary due to the nature and extent of the sustainability practices implemented. The
program emphasis, however, is on resource sustainability as opposed to revenue generation. Indicator results data
are in Table 25.

Objective: To ensure healthy and sustainable lands and waters and associated natural resources on Corps lands in
           public trust to support multiple purposes.

Performance Indicator: This measure is deﬁned as the number of Corps fee-owned acres classiﬁed as in a
sustainable condition divided by the total number of Corps fee-owned acres. The result provides an indicator of the
condition status of all Corps fee-owned acres. Sustainable is deﬁned as meeting the desired state. The acreage is not
signiﬁcantly impacted by any factors that can be managed and does not require intensive management to maintain
the health. The acreage also meets operational goals and objectives set forth in applicable management documents.
Results for this indicator may also be found in Table 24.

Performance Indicator: This measure demonstrates the status of Corps efforts in completing basic, level one
natural resource inventories required by ER 1130-2-540. Such inventories are necessary for sound resource
management decisions and strategies development. The measure is deﬁned as the sum total number of acres of
completed inventory for each of the four components of the minimum level one natural resources inventory, divided
by four times the total number of Corps fee-owned acres. The proportion (percentage) yielded is used to evaluate the
relative completeness of the inventory. Results for this indicator may be found in Table 17.

Performance Indicator: A master plan is completed, per regulation, to foster an efﬁcient and cost-effective project
for natural resources, cultural resources, and recreational management programs. This measure demonstrates Corps
commitment to fully integrate environmental stewardship in the management of operating projects. The measure is
expressed as a percentage and is derived by dividing the number of required master plans completed in compliance
with regulation, divided by the total number of required master plans. Results for this indicator may be found in
Table 17.
                Objective: To ensure that the operation of all Civil Works facilities and management of associated lands, including
                out-granted lands, complies with the environmental requirements of relevant federal, state, and local laws and
                regulations.

                Performance Indicator: This measure is the percentage of signiﬁcant environmental ﬁndings corrected compared
                to the number identiﬁed. The goal is 100 percent corrected. Results for this indicator may be found in Table 17.

                Objective: To meet the mitigation requirements of authorizing legislation or applicable Corps authorization decision
                           document.

                      Performance Indicator: This measure demonstrates the Corps performance in meeting mitigation requirements
                                                                                        that are speciﬁed in project authorizations.
Table 17. Environmental Stewardship Indicators
                                                                                        The measure is a percentage of the number of
                                                               FY 2005 FY 2006 FY 2006
                                                                Actual  Actual Estimate designated Corps-administered mitigation lands
 Efficiency Percentage                                             9       1       1
                                                                                        (acres) meeting mitigation requirements divided
                                                                                        by the total number of designated Corps-
 Percent of sustainable acreage                                   37      40      36
                                                                                        administered mitigation lands, or the number of
 Percent of natural resources inventory completed                 33      36      33    pounds (or number of individual) ﬁsh produced
 Percent of master plans completed                                32      35      33    in a mitigation hatchery, divided by the number
 Percent of significant environmental findings corrected          75     100      70    of ﬁsh to be produced at a mitigation hatchery to
 Percent of mitigated land meeting requirements                   76      95      76    meet the mitigation requirement. Results for this
 Complete FY 2006 data were not available at time of printing.                          indicator may be found in Table 17.


                Environmental Stewardship
                Objective: Restore degraded, signiﬁcant ecosystems structure, function and process to a more natural condition by
                           investing in restoration projects or features that make a positive contribution to the nation’s environmental
                           resources in a cost-effective manner.

                Performance Indicators: Four indicators were recently established that will assist Corps personnel to determine
                progress in meeting this objective. The Corps began collecting performance data relating these indicators during the
                current year and sufﬁcient data are not yet available to establish baselines.

                          Number of acres of habitat restored, created, improved, or protected. The number of acres of
                          habitat restored is an appropriate measure for documenting progress towards restoration of degraded
                          ecosystems.
                          Number of nationally signiﬁcant acres of habitat restored, created, improved, or protected. This
                          measure will document the subset of acres of habitat restored each year that have high-quality outputs as
                          compared to national needs.
                          Dollars per acre to restore, create, improve, or protect nationally signiﬁcant habitat. The cost of the
                          projects that produce nationally signiﬁcant acres in any given year will be used to calculate this ﬁgure. In
                          the long run through efﬁciencies in project execution or other considerations, the goal would be to restore
                          more acres per dollar expended.
                          Percentage of all acres of habitat restored, created, improved, or protected that are nationally
                          signiﬁcant. Restoration of acreage that meets the criteria for national signiﬁcance is expected to have
                          the greatest impact on the restoration of the nation’s ecosystems. The goal is to increase the percentage of
                          nationally signiﬁcant acres over time.




                                                                                    172 FY 2006 United States Army Annual Financial Statement
                                                                                                                                          Civil Works Fund
                                                                                                                                                               173
Goal 3: Ensure that Projects Perform to Meet Authorized Purposes and Evolving Conditions
Navigation
Objective: To address the operation and maintenance backlog.

Performance Indicator: Track navigation lock        Table18. Unscheduled Lock Closures
availability to identify trends in scheduled and                                                                   FY 2003     FY 2004       FY 2005   FY 2006
unscheduled hours closed for the navigation
                                                     Lock unscheduled closures (in thousands                         47              39        44         68
system. Table 18 shows unscheduled closure           of hours)
trends.


Flood and Coastal Storm Damage Reduction
Objective: To improve the efﬁciency and effectiveness of existing Corps water resource projects.

Performance Indicator: This is measured by the performance of civil works facilities in reducing damage where
ﬂooding otherwise would have been experienced.

Performance Result: Table 19 shows that             Table 19. Flood Damages Prevented
during FY 2005, the Corps prevented $24 billion                                                                           FY 2003          FY 2004     FY 2005
in ﬂood damages. This can be compared to
                                                     Flood damage prevented (in billions of dollars)                         $15.7          $22.5       $24.0
$21.4 billion, the 10-year moving average that
                                                     10-year rolling average                                                 $19.6          $21.7       $21.4
is used to smooth out the signiﬁcant ﬂuctuations
                                                     Note: FY 2006 data were not available at time of printing.
in year-to-year ﬂood damages prevented that
are associated with variations in meteorological
events.


Hydropower
Objective: To improve the efﬁciency and effectiveness of existing Corps water resource projects.

Performance Indicator: The objective of the hydropower program is to maintain a high availability of hydroelectric
power-generating capability at multipurpose reservoir projects. There are two primary indicators with which to
measure successful performance toward this objective. One is to keep the forced outage (unplanned) rate at or below
2.0 percent. The lower the forced outage rate, the more reliable and the less expensive is the electrical power provided
to the customer. The second goal is to maintain the power generating unit’s availability during peak demand periods
at or above 95 percent.                              Table 20. Power Generating Capability
                                                                                                                             2003           2004        2005
Performance Result: Table 20 shows additional
investment is required to meet the desired            Percent of forced outages                                              3.45            4.00        4.66
objectives.                                           Percent available during periods of peak demand                        88.44          87.48       87.24
                                                      Note: FY 2006 data were not available at time of printing.


Recreation
Objective: To provide justiﬁed outdoor recreation opportunities in an effective and efﬁcient manner at all Corps-
           operated water resources projects.

Performance Indicators: The three measures listed in Table 21 serve as indicators to assist Corps personnel to
determine their progress in meeting the Corps’ recreation efﬁciency objective. The indicators are explained on the
following page.
                       Total NED Beneﬁts. NED beneﬁts are estimated using the Unit Day Value Method, which was originally developed
                       by the Water Resources Council.1

                                        Beneﬁt to cost ratio. This is the ratio of recreation beneﬁts to recreation costs.
                                        Cost recovery. This indicator measures the percent of total recreation receipts to the recreation budget.

Table 21. Recreation Efficiency
                                                                                                                                        Objective: To provide continued outdoor
                                                                                                                                        recreation opportunities to meet the needs of
                                                                             FY 2004             FY 2005            FY 2006
                                                                                                                                        present and future generations.
 Total NED Benefits (in millions of dollars)                                  $1,223             $1,243              $1,216
 Benefit to Cost Ratio                                                         4.28        Performance Indicator: The recreation unit
                                                                                                   4.30                4..27
 Cost Recovery                                                                 16%         day availability is a measure of the capacity of
                                                                                                   16%                 16%
                                                                                           facilities to provide recreation opportunities. It
                       is expressed in millions of days that Corps recreation units were available for public use. Results for this indicator
                       may be found in Table 22.

 Table 22. Recreation Day Availability                                                                                                  Objective: To provide a safe and healthful
                                                                             FY 2004             FY 2005            FY 2006             outdoor recreation environment for Corps
 Available for Use Days (in millions of days)                                    74                  74                 74              customers.

                       Performance Indicators: The four measures listed in Table 23 serve as indicators to assist Corps personnel to
                       determine their progress in meeting the Corps’ recreation objectives. The indicators are explained below.

                                        Customer service. This is measured as a percentage of visitors to Corps-managed recreation areas who
                                        reported acceptable service.
                                        Customer Satisfaction. This is measured as a percentage of visitors reporting satisfaction with their visit
                                        to a Corps recreation area.
Table 23. Recreation Service Measures                                                                                                              Facility service. This is measured as the
                                                                             FY 2004             FY 2005            FY 2006                        percentage of visitors served at a Corps-
 Customer Service – Visitor Centers                                            Note 1              79%                 78%
                                                                                                                                                   managed recreation area with a facility
                                                                                                                                                   condition score of 4 or better, which
 Customer Service – Recreation Areas                                           Note 1              51%                 50%
                                                                                                                                                   indicates their experience was fair to
 Customer Satisfaction                                                         Note 2              88%                 87%
                                                                                                                                                   good.
 Facility Service                                                              Note 3              48%                 48%
                                                                                                                                                   Facility condition. This is the average
 Facility Condition                                                              3.7                3.7                 3.7
                                                                                                                                                   condition of facilities at Corps-managed
 Note 1: Services standards were revised in FY 2005 and FY 2004 data are not comparable with the current format.
 Note 2: There is no completed survey data available for FY 2004.                                                                                  recreation areas. The score is based on
 Note 3: This measure was established at the end of FY 2004 and FY 2005 is the first year data was collected.
                                                                                                                                                   a seven-point scale where 1 = poor and
                                                                                                                                                   7 = excellent.

                       Water Supply
                       Objective: To provide water supply storage in a cost-efﬁcient and environmentally responsible manner, in partnership
                                  with nonfederal water management plans, that is consistent with law and policy.




                       1
                        NED benefits arising from recreation experiences are measured in terms of willingness to pay for each increment of supply or type of recreation opportunity. The unit day value method relies
                       on expert or informed opinion and judgment to approximate the average willingness to pay of users of federal or federally assisted recreation resources. The unit day value is estimated at the
                       park (recreation area) level by evaluating each park against a set of published criteria. By applying a carefully thought-out and adjusted unit day value to estimated use, an approximation is
                       obtained that may be used as an estimate of project recreation benefit (i.e., NED benefits = Unit Day Value X Recreation Use in Visitor Days).




                                                                                                                                    174 FY 2006 United States Army Annual Financial Statement
                                                                                                                            Civil Works Fund
                                                                                                                                              175
Performance Indicator: To assist in measuring progress toward this objective, the Corps measures the percentage
of the acre-feet of water supply storage space
under contract compared to the acre-feet of Table 24. Acre-Feet of Water Supply
space available for water storage.                                                               FY 2004                           FY 2005
                                                      Acre-Feet Available (in millions of acre-feet)               9.856            9.761
Performance Indicator: Another measure the            Acre-Feet Under Contract (in millions of acre-feet)          9.108            9.356
Corps uses for water supply is cost recovery. This
                                                      Percent Under Contract                                        92.4            95.9
is measured as a percentage of costs available
                                                      Note: FY 2006 data were not available at time of printing.
for recovery compared to costs recovered.
                                                     Table 25. Cost Recovery
                                                                                                                   FY 2004         FY 2005
                                                      Costs Available for Recovery (in millions of dollars)        $1,477.2        $1,459.8
                                                      Costs Recovered (in millions of dollars)                     $1,064.0        $1,096.1
                                                      Percent Recovered                                              72.0            75.0
                                                      Note: FY 2006 data were not available at time of printing.




Goal 4: Reduce Vulnerabilities and Losses to the Nation and the Army from Natural and
Man-Made Disasters, Including Terrorism
The purpose of this goal is to manage the risks associated with all types of hazards and to increase the responsiveness
to disasters of the civil works emergency management program within the Corps’ Ofﬁce of Homeland Security in
support of federal, state, and local emergency management efforts. Disaster preparedness and response capabilities
are not limited to water-related disasters, but draw on the engineering skills and management capabilities of the
Corps, encompassing a broad range of natural disasters and national emergencies. Emergency readiness contributes
to national security.

Objective: To attain and maintain a high, consistent state of preparedness.

Performance Indicators: The two measures listed in Table 26 serve as indicators to assist Corps personnel to
determine their progress in meeting the Corps’ emergency management objective. The indicators are explained
below.

          Planning response team readiness. The Corps has established designated Planning and Response Teams
          (PRT) that are organized to provide rapid emergency response for a speciﬁc mission area. This measure is
          calculated as a percentage of time during the ﬁscal year that PRTs are fully staffed, trained, and ready to
          deploy.
          Project inspection performance. The Corps performs inspections of ﬂood control works operated
          and maintained by public sponsors to insure and assess their operations and maintenance condition.
          This measure is determined by the Table 26. Emergency Preparedness Measures
          percentage of scheduled inspections                                                  FY 2004                             FY 2005
          completed during the ﬁscal year.
                                                      Planning Response Team Readiness                               93%             82%
Performance Indicator: The Corps performs             Project Inspection Performance                                 90%             96%
repairs of ﬂood control projects damaged by           Note: FY 2006 data were not available at time of printing.

ﬂood or storm under authority of P.L. 84-99.
This measure is determined by the percentage         Table 27. All-Hazards Response Measure
of projects damaged during a ﬁscal year that are                                                                   FY 2004         FY 2005
repaired prior to the next ﬂood season.               Restoration Of Damaged Projects                                92%             75%
                                                      Note: FY 2006 data were not available at time of printing.
                  Objective: To ensure effective and efﬁcient long-term recovery operations.

Table 28. Long-Term Recovery Measure                                                          Performance Indicator: Under the Corps
                                                          FY 2004           FY 2005           Rehabilitation and Inspection Program,
 Inspected Projects With Satisfactory Condition Ratings         93%              94%          inspected projects are given condition ratings that
 Note: FY 2006 data were not available at time of printing.                                   characterize the project maintenance condition.
                                                                                              This measure is determined by the percentage of
                       the total projects inspected during the ﬁscal year that received a rating of at least minimally acceptable.

                  Possible Future Effects of Existing Conditions
                  The Marine Transportation System (MTS)
                  Background
                  The national vision for the MTS is for it to be a safe, secure and globally integrated network that, in harmony
                  with the environment, ensures a free-ﬂowing, seamless, and reliable movement of people and commerce along its
                  waterways, sea lanes, and intermodal connections. In order to do that, the nation needs to invest in the maintenance
                  and construction of adequate infrastructure. Today, approximately 20 percent of the gross domestic product of the
                  United States is generated by foreign trade, and approximately 95 percent of that trade is moved by water. The value
                  of the foreign tonnage is over $900 billion and generates 16 million jobs. Current forecasts predict that maritime
                  trade will double, or possibly triple in the next 20 years. The MTS moved approximately 2.5 billion tons of the
                  15 billion tons of the freight moved in, out, and within the United States in 2004. This system is comprised of
                  1,000 harbor channels; 25,000 miles of inland, intracoastal, and coastal waterways; and 240 lock chambers. Eleven
                  of these locks are over 100 years old and 122 are over 50 years old.


                  Effects of Aging Infrastructure
                  As trade expands, our aging infrastructure is being increasingly strained. If our maritime transportation network is
                  going to keep pace with the increasing demands placed on it, it will be necessary to enhance efﬁciencies and improve
                  throughput in the near term while making signiﬁcant future investments. Otherwise, any substantial disruption to
                  the system will have devastating economic impact and irreversible repercussions in the global marketplace. For
                  example, in 2002 there was a work slow-down along the West Coast; while this was a labor issue, it is estimated that
                  this minor disruption in the ﬂow of goods cost the U.S. economy as much as $1 billion per day and the permanent
                  loss of some cargoes to Canadian ports. The MTS’ aging infrastructure resulted in the emergency closure of
                  the McAlpine locks and dam on the inland waterways in 2004. The closure caused the stranding of more than
                  1,800 barges and the equivalent capacity of 80,000 trucks for more than 14 days.




                                                                                         176 FY 2006 United States Army Annual Financial Statement
                                                                                                                                         Civil Works Fund
                                                                                                                                                            177
Analysis of Financial Statements and Stewardship Information
Civil Works Fund Financial Results                                Figure 17. Composition of General Fund Assets and Liabilities

Civil Works Balance Sheet                                                                                   Civil Works Assets
The Army Civil Works Fund balance sheet
includes total assets that exceed $43 billion.                                                                    Remaining Assets
Two asset categories – Fund Balance with                                                                                9%
                                                                               Accounts Receivable
Treasury and General Property, Plant and                                              10%
Equipment – make up almost 81 percent of
total assets, with values of $8.1 billion and                                                                                     General Property, Plant
$26.8 billion, respectively.                                                                                                         and Equipment
                                                                                                                                           62%
Liabilities primarily consist of $0.7 billion in
Environmental Liabilities and $0.5 billion in
Accounts Payable.
                                                                  Fund Balance with Treasury
Fund Balance with Treasury increased by
                                                                            19%
$5.0 billion (159 percent) in FY 2006 due
to additional funds in the ﬂood control and                                                                 Civil Works Liabilities
coastal emergencies appropriations. The
increased funding was due to the unprecedented                                                                   Remaining Liabilities
hurricane season in the Gulf of Mexico during                                  12%                                      7%
2005. Primary hurricane relief efforts included                           Accounts Payable

debris clean-up and removal, and purchases of
ice, water, and tarps for coverage of damaged
                                                                                                                                    Other Liabilities
roofs.
                                                                                                                                         64%

Environmental Liabilities increased $0.2 billion
(23 percent). The increase was due to recording
the liability for feasibility study cost estimates
in 4th Quarter, FY 2006, for Formerly Utilized        Environmental Disposal Liabilities
Sites Remedial Action Program project sites.                       17%
The feasibility costs were not included in the FY 2005 statements and were adjusted based on an audit recommendation
in FY 2006.

Figure 18. Select Civil Works Fund Assets and Liabilities
Civil Works Fund
$ in billions
Asset Type                                                  FY 2005       FY 2006           Change           Percentage of FY 2006 Assets
General Property, Plant and Equipment                         $26.8         $26.8              $0.0                       62%
Fund Balance with Treasury                                     $3.1          $8.1              $5.0                       19%
Accounts Receivable                                            $2.4          $4.2              $1.8                       10%
Remaining Assets                                               $3.2          $4.1              $0.9                        9%
Total Assets                                                  $35.5         $43.2              $7.7                      100%
Liability Type                                              FY 2005       FY 2006           Change          Percentage of FY 2006 Liabilities
Other Liabilities                                              $2.6          $2.7              $0.1                       65%
Environmental and Disposal Liabilities                         $0.5          $0.7              $0.2                       16%
Accounts Payable                                               $0.6          $0.5            ($0.1)                       13%
Remaining Liabiliites                                           0.0           0.3              $0.3                        6%
Total Liabilities                                              $3.7          $4.2              $0.5                      100%
178 FY 2006 United States Army Annual Financial Statement
     Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                       179




LIMITATIONS
                   LIMITATIONS OF THE FINANCIAL
                   STATEMENTS
                The ﬁnancial statements have been prepared to report the
                ﬁnancial position and results of operations for the entity,
                pursuant to the requirements of Title 31, United States
Code, section 3515(b).

While the statements have been prepared from the books and records of the
entity, in accordance with the formats prescribed by the Ofﬁce of Management
and Budget, the statements are in addition to the ﬁnancial reports used to
monitor and control budgetary resources which are prepared from the same
books and records.

The statements should be read with the realization that they are for a
component of the United States Government, a sovereign entity.
Department of Defense - US Army Corps of Engineers
                                                                                 CONSOLIDATED BALANCE SHEET
As of September 30, 2006 and 2005 ($ in Thousands)
                                                                               2006 Consolidated                  2005 Consolidated
ASSETS (Note 2)
  Intragovernmental:
     Fund Balance with Treasury (Note 3)
     Entity                                                              $                   8,141,325 $                       3,138,201
     Non-Entity Seized Iraqi Cash                                                                    0                                 0
     Non-Entity-Other                                                                            6,028                             7,849
     Investments (Note 4)                                                                    3,571,456                         3,127,832
     Accounts Receivable (Note 5)                                                            2,407,555                           613,904
     Other Assets (Note 6)                                                                           0                                 0
     Total Intragovernmental Assets                                      $                  14,126,364 $                       6,887,786

  Cash and Other Monetary Assets (Note 7)                                $                       1,310 $                           1,147
  Accounts Receivable, Net (Note 5)                                                          1,773,773                         1,750,925
  Loans Receivable (Note 8)                                                                          0                                 0
  Inventory and Related Property, Net (Note 9)                                                 121,340                           117,384
  General Property, Plant and Equipment, Net (Note 10)                                      26,821,962                        26,780,102
  Investments (Note 4)                                                                               0                                 0
  Other Assets (Note 6)                                                                        440,839                                 0
TOTAL ASSETS                                                             $                  43,285,588 $                      35,537,344

LIABILITIES (Note 11)
  Intragovernmental:
     Accounts Payable (Note 12)                                          $                       93,841 $                         87,230
     Debt (Note 13)                                                                              13,924                           14,600
     Other Liabilities (Note 15 & 16)                                                         1,987,573                        1,956,895
     Total Intragovernmental Liabilities                                 $                    2,095,338 $                      2,058,725

  Accounts Payable (Note 12)                                             $                      442,199 $                        535,882
  Military Retirement and Other Federal Employment Benefits (Note 17)                           250,575                                0
  Environmental and Disposal Liabilities (Note 14)                                              653,315                          529,617
  Loan Guarantee Liability (Note 8)                                                                   0                                0
  Other Liabilities (Note 15 and Note 16)                                                       753,399                          600,880
TOTAL LIABILITIES                                                        $                    4,194,826 $                      3,725,104

NET POSITION
  Unexpended Appropriations - Earmarked Funds (Note 23)                  $                           0 $                               0
  Unexpended Appropriations - Other Funds                                                    7,443,696                         1,005,843
  Cumulative Results of Operations - Earmarked Funds                                         5,588,141                                 0
  Cumulative Results of Operations - Other Funds                                            26,058,925                        30,806,397
TOTAL NET POSITION                                                       $                  39,090,762 $                      31,812,240

TOTAL LIABILITIES AND NET POSITION                                       $                  43,285,588 $                      35,537,344

                                                                  The accompanying notes are an integral part of these financial statements.




                                                                                180 FY 2006 United States Army Annual Financial Statement
                                                      Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                              181
Department of Defense - US Army Corps of Engineers
                                                               CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2006 and 2005 ($ in Thousands)
                                                                        2006 Consolidated                     2005 Consolidated
Program Costs
  Gross Costs                                                    $                    11,196,356 $                          10,261,283
  (Less: Earned Revenue)                                                              (5,104,928)                           (2,581,577)
  Net Program Costs                                              $                      6,091,428 $                           7,679,706
Cost Not Assigned to Programs                                                                   0                                     0
(Less: Earned Revenue Not Attributable to Programs)                                             0                                     0
Net Cost of Operations                                           $                      6,091,428 $                           7,679,706

                                                                 The accompanying notes are an integral part of these financial statements.
Department of Defense - US Army Corps of Engineers
                                                           CONSOLIDATED STATEMENT OF NET POSITION
As of September 30, 2006 and 2005 ($ in Thousands)

                                                               Earmarked Funds                             All Other Funds
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                         $                    4,781,544 $                              26,024,852
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                                0                                         0
  Corrections of errors (+/-)                                                           0                                         0
Beginning balances, as adjusted                            $                    4,781,544 $                              26,024,852
Budgetary Financing Sources:                                                            0                                         0
  Appropriations received                                                               0                                         0
  Appropriations transferred-in/out (+/-)                                               0                                         0
  Other adjustments (rescissions, etc.) (+/-)                                           0                                         0
  Appropriations used                                                                   0                                 4,516,312
  Nonexchange revenue                                                           1,841,682                                         0
  Donations and forfeitures of cash and cash equivalents                                0                                         0
  Transfers-in/out without reimbursement (+/-)                                      8,362                                   284,043
  Other budgetary financing sources (+/-)                                               0                                         0
Other Financing Sources:
  Donations and forfeitures of property                                                 0                                    19,888
  Transfers-in/out without reimbursement (+/-)                                  (135,271)                                   135,457
  Imputed financing from costs absorbed by others                                       0                                   261,624
  Other (+/-)                                                                           0                                         0
Total Financing Sources                                    $                    1,714,773 $                               5,217,324
Net Cost of Operations (+/-)                                                    1,115,652                                 4,975,776
Net Change                                                 $                      599,121 $                                 241,548
Ending Balances                                            $                    5,380,665 $                              26,266,400

UNEXPENDED APPROPRIATIONS
Beginning Balances                                         $                                0 $                            1,005,843
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                                    0                                      0
  Corrections of errors (+/-)                                                               0                                      0
Beginning balances, as adjusted                            $                                0 $                            1,005,843
Budgetary Financing Sources:
  Appropriations received                                                                   0                             10,980,882
  Appropriations transferred-in/out (+/-)                                                   0                                 27,114
  Other adjustments (rescissions, etc) (+/-)                                                0                               (53,831)
  Appropriations used                                                                       0                            (4,516,312)
  Nonexchange revenue                                                                       0                                      0
  Donations and forfeitures of cash and cash equivalents                                    0                                      0
  Transfers-in/out without reimbursement (+/-)                                              0                                      0
  Other budgetary financing sources (+/-)                                                   0                                      0
Other Financing Sources:
  Donations and forfeitures of property                                                     0                                      0
  Transfers-in/out without reimbursement (+/-)                                              0                                      0
  Imputed financing from costs absorbed by others                                           0                                      0
  Other (+/-)                                                                               0                                      0
Total Financing Sources                                    $                                0 $                            6,437,853
Net Cost of Operations (+/-)                                                                0                                      0
Net Change                                                 $                                0 $                            6,437,853
Ending Balances                                            $                                0 $                            7,443,696

                                                               The accompanying notes are an integral part of these financial statements.




                                                                      182 FY 2006 United States Army Annual Financial Statement
                                                               Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                            183
Department of Defense - US Army Corps of Engineers
                                                                      CONSOLIDATED STATEMENT OF NET POSITION
As of September 30, 2006 and 2005 ($ in Thousands)

                                                               Eliminations          2006 Consolidated                     2005 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                         $                  0 $               30,806,396          $                    32,276,299
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                      0                          0                                        0
  Corrections of errors (+/-)                                                 0                          0                                        0
Beginning balances, as adjusted                            $                  0 $               30,806,396          $                    32,276,299
Budgetary Financing Sources:                                                  0                          0                                        0
  Appropriations received                                                     0                          0                                        0
  Appropriations transferred-in/out (+/-)                                     0                          0                                        0
  Other adjustments (rescissions, etc.) (+/-)                                 0                          0                                        0
  Appropriations used                                                         0                  4,516,312                                4,009,707
  Nonexchange revenue                                                         0                  1,841,682                                1,632,662
  Donations and forfeitures of cash and cash equivalents                      0                          0                                        0
  Transfers-in/out without reimbursement (+/-)                                0                    292,405                                  326,390
  Other budgetary financing sources (+/-)                                     0                          0                                      274
Other Financing Sources:
  Donations and forfeitures of property                                       0                     19,888                                      1,490
  Transfers-in/out without reimbursement (+/-)                                0                        186                                    (3,048)
  Imputed financing from costs absorbed by others                             0                    261,624                                   241,581
  Other (+/-)                                                                 0                          0                                        748
Total Financing Sources                                    $                  0 $                6,932,097          $                      6,209,804
Net Cost of Operations (+/-)                                                  0                  6,091,428                                 7,679,706
Net Change                                                 $                  0 $                  840,669          $                    (1,469,902)
Ending Balances                                            $                  0 $               31,647,065          $                     30,806,397

UNEXPENDED APPROPRIATIONS
Beginning Balances                                         $                  0 $                 1,005,843         $                        396,362
Prior Period Adjustments:
  Changes in accounting principles (+/-)                                      0                           0                                        0
  Corrections of errors (+/-)                                                 0                           0                                        0
Beginning balances, as adjusted                            $                  0 $                 1,005,843         $                        396,362
Budgetary Financing Sources:
  Appropriations received                                                     0                 10,980,882                                 4,629,502
  Appropriations transferred-in/out (+/-)                                     0                     27,114                                    27,602
  Other adjustments (rescissions, etc) (+/-)                                  0                   (53,831)                                  (37,916)
  Appropriations used                                                         0                (4,516,312)                               (4,009,707)
  Nonexchange revenue                                                         0                          0                                         0
  Donations and forfeitures of cash and cash equivalents                      0                          0                                         0
  Transfers-in/out without reimbursement (+/-)                                0                          0                                         0
  Other budgetary financing sources (+/-)                                     0                          0                                         0
Other Financing Sources:
  Donations and forfeitures of property                                       0                           0                                        0
  Transfers-in/out without reimbursement (+/-)                                0                           0                                        0
  Imputed financing from costs absorbed by others                             0                           0                                        0
  Other (+/-)                                                                 0                           0                                        0
Total Financing Sources                                    $                  0 $                 6,437,853         $                        609,481
Net Cost of Operations (+/-)                                                  0                           0                                        0
Net Change                                                 $                  0 $                 6,437,853         $                        609,481
Ending Balances                                            $                  0 $                 7,443,696         $                      1,005,843

                                                                               The accompanying notes are an integral part of these financial statements.
Department of Defense - US Army Corps of Engineers
                                                                             COMBINED STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2006 and 2005 ($ in Thousands)
                                                                    Budgetary Financing Accounts                  Non Budgetary Financing Accounts
                                                                  2006 Combined       2005 Combined          2006 Combined                  2005 Combined
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1               $        5,003,186 $         1,693,278 $                           0 $                                0
Recoveries of prior year unpaid obligations                                    0                   0                             0                                  0
Budget authority
  Appropriation                                                       12,439,718           5,987,913                             0                                  0
  Borrowing authority                                                          0                   0                             0                                  0
  Contract authority                                                           0                   0                             0                                  0
  Spending authority from offsetting collections
    Earned
       Collected                                                       9,407,099           6,471,705                             0                                  0
       Change in receivables from Federal sources                      1,690,685              11,130                             0                                  0
    Change in unfilled customer orders
       Advance received                                                   22,685            (34,324)                             0                                  0
       Without advance from Federal sources                            (719,532)           3,306,341                             0                                  0
    Anticipated for rest of year, without advances                              0                  0                             0                                  0
    Previously unavailable                                                      0                  0                             0                                  0
    Expenditure transfers from trust funds                                      0                  0                             0                                  0
  Subtotal                                                            22,840,655          15,742,765                             0                                  0
Nonexpenditure transfers, net, anticipated and actual         $           (8,068) $          257,392 $                           0 $                                0
Temporarily not available pursuant to Public Law                        (10,000)            (10,000)                             0                                  0
Permanently not available                                               (54,490)            (38,390)                             0                                  0
Total Budgetary Resources                                     $       27,771,283 $        17,645,045 $                           0 $                                0

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                      $        6,902,331 $         5,739,464 $                           0 $                                0
  Reimbursable                                                        11,500,680           6,902,397                             0                                  0
  Subtotal                                                    $       18,403,011 $        12,641,861 $                           0 $                                0
Unobligated balance:
  Apportioned                                                          8,621,365           4,421,128                             0                                  0
  Exempt from apportionment                                              746,850             581,999                             0                                  0
  Subtotal                                                             9,368,215           5,003,127                             0                                  0
Unobligated balance not available                                             57                  57                             0                                  0
Total status of budgetary resources                           $       27,771,283 $        17,645,045 $                           0 $                                0
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                       3,945,373           3,171,189                             0                                  0
  Less: Uncollected customer payments from Federal sources,
  brought forward, October 1                                  $       (5,449,985) $      (2,132,513) $                           0 $                                0
  Total unpaid obligated balance                                      (1,504,612)          1,038,676                             0                                  0
Obligations incurred net (+/-)                                $        18,403,011 $       12,641,861 $                           0 $                                0
Less: Gross outlays                                                  (16,870,276)       (11,867,676)                             0                                  0
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                   0                     0                           0                                  0
  Actual transfers, uncollected customer payments from
  Federal sources (+/-)                                                        0                     0                           0                                  0
  Total Unpaid obligated balance transferred, net                              0                     0                           0                                  0
Less: Recoveries of prior year unpaid obligations, actual                      0                     0                           0                                  0
Change in uncollected customer payments from Federal
sources (+/-)                                                          (971,153)         (3,317,472)                             0                                  0
Obligated balance, net, end of period
  Unpaid obligations                                                   5,478,111           3,945,373                             0                                  0
  Less: Uncollected customer payments (+/-) from Federal
  sources (-)                                                         (6,421,138)        (5,449,985)                             0                                  0
  Total, unpaid obligated balance, net, end of period                   (943,027)        (1,504,612)                             0                                  0
Net Outlays
Net Outlays:
  Gross outlays                                                       16,870,276         11,867,676                              0                                  0
  Less: Offsetting collections                                        (9,429,787)        (6,437,381)                             0                                  0
  Less: Distributed Offsetting receipts                               (1,906,618)        (1,744,668)                             0                                  0
Net Outlays                                                   $         5,533,871 $        3,685,627 $                           0 $                                0

                                                                                           The accompanying notes are an integral part of these financial statements.


                                                                                             184 FY 2006 United States Army Annual Financial Statement
                                                                  Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                                  185
Department of Defense - US Army Corps of Engineers
                                                                                   CONSOLIDATED STATEMENT OF FINANCING
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                                                       2006 Consolidated              2005 Consolidated
Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations incurred                                                                             $            18,403,011 $                      12,641,861
  Less: Spending authority from offsetting collections and recoveries (-)                                     (10,400,937)                       (9,754,852)
  Obligations net of offsetting collections and recoveries                                         $             8,002,074 $                       2,887,009
  Less: Offsetting receipts (-)                                                                                (1,906,618)                       (1,744,668)
  Net obligations                                                                                  $             6,095,456 $                       1,142,341
Other Resources
  Donations and forfeitures of property                                                                              19,888                             1,490
  Transfers in/out without reimbursement (+/-)                                                                          186                           (3,048)
  Imputed financing from costs absorbed by others                                                                   261,624                          241,581
  Other (+/-)                                                                                                             0                               748
  Net other resources used to finance activities                                                   $                281,698 $                        240,771
Total resources used to finance activities                                                         $              6,377,154 $                      1,383,112

Resources Used to Finance Items not Part of the Net Cost of Operations
  Change in budgetary resources obligated for goods,
  services and benefits ordered but not yet provided
    Undelivered Orders (-)                                                                         $            (1,566,815) $                      (839,097)
    Unfilled Customer Orders                                                                                      (696,847)                        3,272,017
  Resources that fund expenses recognized in prior periods                                                         (23,032)                         (25,840)
  Budgetary offsetting collections and receipts that do not affect net cost of operations                         1,906,618                        1,744,668
  Resources that finance the acquisition of assets                                                                   (7,078)                        (13,136)
  Other resources or adjustments to net obligated resources
  that do not affect net cost of operations
    Less: Trust or Special Fund Receipts Related to exchange in the Entity's Budget (-)                            (10,000)                         (10,000)
    Other (+/-)                                                                                                    (20,075)                            1,560
Total resources used to finance items not part of the net cost of operations                       $              (417,229) $                      4,130,172
Total resources used to finance the net cost of operations                                         $              5,959,925 $                      5,513,284

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Period
  Increase in annual leave liability                                                               $                       0 $                              0
  Increase in environmental and disposal liability                                                                   123,698                                0
  Upward/Downward reestimates of credit subsidy expense (+/-)                                                              0                                0
  Increase in exchange revenue receivable from the the public (-)                                                   (16,838)                             (34)
  Other (+/-)                                                                                                        326,995                          540,581
  Total components of Net Cost of Operations that
  will require or generate resources in future periods                                             $                433,855 $                         540,547
Components not Requiring or Generating Resources:
  Depreciation and amortization                                                                                     525,076                        1,195,609
  Revaluation of assets or liabilities (+/-)                                                                      (269,050)                        1,046,654
  Other (+/-)
     Trust Fund Exchange Revenue                                                                                          0                                0
     Cost of Goods Sold                                                                                                 743                            2,764
     Operating Material & Supplies Used                                                                                   0                                0
     Other                                                                                                        (559,121)                        (619,152)
  Total components of Net Cost of Operations that will not require or generate resources                          (302,352)                        1,625,875
Total components of net cost of operations that
will not require or generate resources in the current period                                       $                131,503 $                      2,166,422
Net Cost of Operations                                                                             $              6,091,428 $                      7,679,706

                                                                                     The accompanying notes are an integral part of these financial statements.
186 FY 2006 United States Army Annual Financial Statement
                                                                 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                   187
Note 1.         Significant Accounting Policies
1.A.       Basis of Presentation
These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of the US Army Corps of Engineers
(USACE) Civil Works, as required by the “Chief Financial Ofﬁcers Act of 1990,” expanded by the “Government Management Reform
Act of 1994,” and other appropriate legislation. The ﬁnancial statements have been prepared from the books and records of USACE
in accordance with the “Department of Defense Financial Management Regulation (DoDFMR),” the Ofﬁce of Management and Budget
(OMB) Circular A-136, Financial Reporting Requirements, and to the extent possible Generally Accepted Accounting Principles (GAAP).
The accompanying ﬁnancial statements account for all Civil Works resources for which USACE is responsible. The USACE Civil Works
does not have classiﬁed assets, programs, or operations.

Based on the February 2006 Ofﬁce of the Secretary of Defense, Comptroller approval of USACE readiness for a ﬁscal year (FY) 2006 audit,
USACE believes all past material weaknesses have been corrected.

The USACE’s ﬁnancial statements are prepared from the consolidation of general ledger ﬁnancial data reported from the Corps of Engineers
Financial System (CEFMS) to the Corps of Engineers Enterprise Management Information System (CEEMIS).


1.B.       Mission of the Reporting Entity
The primary missions of USACE include maintaining navigation channels, reducing ﬂooding, assisting during natural disasters and other
emergencies, and making waterways passable. The ﬁnancial statements are presented on the accrual basis of accounting as required by the
Statement of Federal Financial Accounting Standards (SFFAS).


1.C.       Appropriations and Funds
The USACE Civil Works Program receives Federal funding through annual Energy and Water Development Appropriations Acts. Program
funding also comes from nonfederal project sponsors who share in project costs according to formulas established by project authorization
acts. A third source of funding comes through the Supports for Others Program, which is conducted under reimbursable agreements with
Federal agencies.

The USACE Civil Works Program receives its appropriations and funds as general, revolving funds, trust, special, and deposit funds. The
USACE uses these appropriations and funds to execute their missions and report on resource usage.

General funds are used for ﬁnancial transactions funded by congressional appropriations, including personnel, operations and maintenance,
research and development, procurement, and construction accounts.

Revolving funds receive their initial funding through an appropriation or a transfer of resources from existing appropriations or funds and use
those capital resources to ﬁnance the initial startup. The revolving fund provides goods and services on a reimbursable basis. Reimbursable
receipts fund ongoing operations and generally are available in their entirety for use without further congressional action.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out speciﬁc purposes or programs
in accordance with the terms of the donor, trust agreement, or statute.

Special fund accounts are used to record government receipts reserved for a speciﬁc purpose.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. The USACE is acting
as an agent or a custodian for funds awaiting distribution.

Certain special and trust funds may be designated as earmarked funds. Earmarked funds are ﬁnanced by speciﬁcally identiﬁed revenues,
required by statute to be used for designated activities, beneﬁts or purposes, and remain available over time. Earmarked funds also have a
requirement to account for and report on the receipt, use and retention of revenues and other ﬁnancing sources that distinguish them from
general revenues.

In 1997, USACE received borrowing authority from the Department of the Treasury for the three years 1997 through 1999 to ﬁnance
capital improvements to the Washington Aqueduct. Appropriation 96X3128 was established to record ﬁnancial transactions for these capital
improvements.

The asset accounts used to prepare the principal ﬁnancial statements are categorized as entity/nonentity. Entity accounts consist of resources
that the agency has the authority to use, or where management is legally obligated to use funds to meet entity obligations. Nonentity accounts
are assets that are held by an entity but are not available for use in the operations of the entity.
Entity Accounts:
General Funds
96X3112        Flood Control, Mississippi River and Tributaries
96X3121        Investigations
96 3121        Investigations (ﬁscal year)
96X3122        Construction, General
96X3123        Operation and Maintenance, General
96X3124        General Expenses
96X3125        Flood Control and Coastal Emergencies
96X3126        Regulatory Program
96X3128        Washington Aqueduct Capital Improvements
96 3129        Payment to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund (ﬁscal year)
96X3130        Formerly Utilized Sites Remedial Action Program
96 3132        Ofﬁce of Assistant Secretary of the Army, Civil Works (ﬁscal year)
96X6094        Advances from the District of Columbia

Revolving Funds
96X4902      Revolving Fund

Special Funds
96X5007         Special Recreation Use Fees
96X5066         Hydraulic Mining in California, Debris
96X5090         Payments to States, Flood Control Act of 1954
96X5125         Maintenance and Operation of Dams and Other Improvements of Navigable Waters
96X5493         Fund for Non-Federal Use of Disposal Facilities
96 5493         Fund for Non-Federal Use of Disposal Facilities (ﬁscal year)

Trust Funds
96X8217         South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
96X8333         Coastal Wetlands Restoration Trust Fund
96 20X8861      Inland Waterways Trust Fund
96X8862         Rivers and Harbors Contributed and Advance Funds
96 20X8863      Harbor Maintenance Trust Fund

Transfer Funds
96 12X1105 State and Private Forestry, Forest Service
96 14X1039 Construction, National Park Service
96 14X5035 Land Acquisition and State Assistance, National Park Service
96 14X5573 Permit Processing Fund, Bureau of Land Management
96 46X0200 Appalachian Regional Development Programs, Appalachian Regional Commission
96 69X8083 Federal - Aid Highways (Liquidation of Contract Authorization), Federal Highways Administration
96 89X4045 Bonneville Power Administration Fund, Power Marketing Administration,Department of Energy

Nonentity:
Deposit Funds
96X6500       Advances Without Orders from Non-Federal Sources
96X6501       Small Escrow Amounts

Clearing Accounts
96F3875       Budget Clearing Account (suspense)
96F3880       Unavailable Check Cancellations and Overpayments (suspense)
96F3885       Undistributed Intragovernmental Payments

Receipt Accounts
96 0891       Miscellaneous Fees for Regulatory and Judicial Services, Not Otherwise Classiﬁed
96 1060       Forfeitures of Unclaimed Money and Property
96 1099       Fines, Penalties, and Forfeitures, Not Otherwise Classiﬁed
96 1299       Gifts to the United States, Not Otherwise Classiﬁed
96 1435       General Fund Proprietary Interest, Not Otherwise Classiﬁed
96 3220       General Fund Proprietary Receipts, Not Otherwise Classiﬁed, All Other

                                                                                    188 FY 2006 United States Army Annual Financial Statement
                                                                Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  189
96 5005         Land and Water Conservation Fund
96 5007         Special Recreation Use Fees
96 5066         Hydraulic Mining in California
96 5090         Receipts from Leases of Lands Acquired for Flood Control, Navigation, and Allied Purposes
96 5125         Licenses under Federal Power Act, Improvements of Navigable Waters, Maintenance and Operation of Dams, etc., (50%)
96 5493         User Fees, Fund for Non-Federal Use of Disposal Facilities

Obsolete Accounts:
96 13X1450             96 89X0224        96X6145        96F3886      96 1499
96 14X2301             96 20X8145        96X6275        96 0199      96 2413
96 19 00 1082          96X3930           96X6302        96 0869      96 2814
96 47X4542             96X6050           96X6999        96 1030      96 3102
96 67X0204             96X6075           96X8868        96 1040      96 3124
96 72 00/01 1021       96X6134           96F3879        96 1210


1.D.      Basis of Accounting
The USACE’s ﬁnancial transactions are recorded on an accrual accounting basis as required by Generally Accepted Accounting Principles
(GAAP). Under the accrual method, revenues are recognized when earned and expenses are recognized when a liability is incurred without
regard to receipt or payment of cash. Budgetary accounting is accomplished through unique general ledger accounts to facilitate compliance
with legal and internal control requirements associated with the use of Federal funds in accordance with the Department of the Treasury
Financial Manual.

CEFMS is used at all divisions, districts, centers, laboratories, and ﬁeld ofﬁces. CEFMS is a fully integrated, automated, and comprehensive
ﬁnancial management system that simpliﬁes the management of all aspects of USACE’s business. The general ledger chart of accounts in
CEFMS is compliant with the US Government Standard General Ledger (USSGL).

In addition, USACE identiﬁes program costs based upon the major appropriation groups provided by Congress. Current processes and
systems capture and report accumulated costs for major programs based upon the performance measures as required by the Government and
Performance and Results Act. CEFMS includes a cost reporting

methodology that balances the need for cost information required by the SFFAS No. 4, “Managerial Cost Accounting Concepts and Standards
for the Federal Government,” with the need to keep the ﬁnancial statements from being overly voluminous.


1.E.      Revenues and Other Financing Sources
The USACE receives congressional appropriations as ﬁnancing sources for general funds on either an annual or multi-year basis. When
authorized by legislation, these appropriations are supplemented by revenues generated by sales of goods or services. The USACE recognizes
revenue as a result of costs incurred or services provided to other Federal agencies and the public. Full cost pricing is USACE’s standard
policy for services provided as required by OMB Circular A-25. The USACE recognizes revenue when earned.

The USACE does not include nonmonetary support provided by US allies for common defense and mutual security in amounts reported in the
Statement of Net Cost and the Statement of Financing. The US has cost sharing agreements with other countries. Examples include countries
where there is a mutual or reciprocal defense agreement, where US troops are stationed, or where the US ﬂeet is in a port.


1.F.      Recognition of Expenses
For ﬁnancial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. The USACE’s ﬁnancial
system collects and records ﬁnancial information on the full accrual accounting basis. Expenses, such as civilian earned leave, are ﬁnanced in
the period when earned. An exception is sick leave, which is expensed as taken. Accrual adjustments are made for environmental liabilities.
The USACE’s expenditures for capital and other long-term assets are recognized as operating expenses based on depreciation. In the case of
Operating Materials and Supplies (OM&S), operating expenses are recognized when consumed.

The USACE civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal Employees Retirement Systems
(FERS), while military personnel are covered by the Military Retirement System (MRS). Additionally, employees and personnel covered
by FERS and MRS also have varying coverage under Social Security. The USACE funds a portion of the civilian and military pensions.
Reporting civilian pension under CSRS and FERS retirement systems is the responsibility of the Ofﬁce of Personnel Management (OPM).
The USACE recognizes an imputed expense for the portion of civilian employee pensions and other retirement beneﬁts funded by OPM in
the Statement of Net Cost and recognize corresponding imputed revenue from the civilian employee pensions and other retirement beneﬁts
in the Statement of Changes in Net Position.
1.G.       Accounting for Intragovernmental Activities
Preparation of reliable ﬁnancial statements requires the elimination of transactions occurring among entities within the DoD or between two
or more federal agencies. The USACE is responsible for eliminating transactions between components and activities.

The Department of the Treasury, Financial Management Service (FMS), is responsible for eliminating transactions between DoD and other
federal agencies. The Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report of the
United States Government” and the Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide,” provide guidance for
reporting and reconciling intragovernmental balances. While USACE is unable to fully reconcile intragovernmental transactions with all
federal partners, USACE is able to reconcile balances pertaining to investments in federal securities, borrowings from the Department of the
Treasury and the Federal Financing Bank, Federal Employees’ Compensation Act transactions with the Department of Labor (DOL), and
beneﬁt program transactions with the OPM. The USACE implemented policies and procedures related to reconciling intragovernmental
assets, liabilities, revenues, and expenses for nonﬁduciary transactions. The USACE is unable to reconcile with entities whose ﬁnancial
systems are not designed to capture pertinent information to fully reconcile intragovernmental transactions. The USACE’s proportionate
share of public debt and related expenses of the federal government are not included. The federal government does not apportion debt and its
related costs to federal agencies. The USACE’s ﬁnancial statements, therefore, do not report any portion of the public debt or interest thereon,
nor do the statements report the source of public ﬁnancing whether from issuance of debt or tax revenues.

Financing for the construction of USACE facilities is obtained through appropriations. To the extent this ﬁnancing ultimately may have been
obtained through the issuance of public debt, interest costs have not been capitalized since the Department of the Treasury does not allocate
such interest costs to the beneﬁting agencies.


1.H.       Transactions with Foreign Governments and International Organizations
The USACE does have transactions with foreign governments and/or international organizations.


1.I.       Funds with the U.S. Treasury
The USACE’s monetary ﬁnancial resources are maintained in US Treasury accounts. The disbursing ofﬁces of the Defense Finance and
Accounting Service (DFAS), the Military Services, the USACE Finance Center (UFC) and the Department of State’s ﬁnancial service centers
process the majority of USACE’s cash collections, disbursements, and adjustments worldwide. Each disbursing station prepares monthly
reports that provide information to the Department of the Treasury on check issues, electronic fund transfers, interagency transfers, and
deposits.

In addition, DFAS sites and UFC submit reports to the Department of the Treasury, by appropriation, on interagency transfers, collections
received, and disbursements issued. The Department of the Treasury records this information to the applicable Funds Balance with Treasury
(FBWT) account. Differences between USACE’s recorded balance in the FBWT accounts and Department of the Treasury’s FBWT accounts
sometimes result and are subsequently reconciled.


1.J.       Foreign Currency
Cash is the total of cash resources under the control of the USACE, which includes coin, paper currency, negotiable instruments, and amounts
held for deposit in banks and other ﬁnancial institutions. Foreign currency consists of the total US dollar equivalent of both purchased and
nonpurchased foreign currencies held in foreign currency fund accounts.

The majority of cash and foreign currency is classiﬁed as nonentity and, therefore, is restricted. Amounts reported consist primarily of
cash and foreign currency held by Disbursing Ofﬁcers to carry out their paying, collecting, and foreign currency accommodation exchange
missions.

The USACE conducts operations overseas. Foreign currency ﬂuctuations require adjustment to the original obligation amount at the time of
payment. The USACE does not separately identify currency ﬂuctuations.




                                                                                        190 FY 2006 United States Army Annual Financial Statement
                                                                Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  191
1.K.      Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable from other federal entities or from
the public. Allowances for uncollectible accounts due from the public are based upon analysis of collection experience by fund type. The
USACE does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
agencies are to be resolved between the agencies (per Code of Federal Regulations 4 CFR 101).

The USACE bases the estimate of uncollectible accounts receivable from the public on the cumulative balance of delinquent public receivables
aged in accordance with current USACE policy. The calculation and ﬁnancial transaction update are performed automatically in CEFMS.


1.L.      Direct Loans and Loan Guarantees
The USACE does not operate a direct loan and/or loan guarantee program.


1.M.      Inventories and Related Property
The USACE’s inventories are reported at approximate historical cost based on a moving weighted average that is based on actual cost divided
by quantity. A perpetual record of inventory is maintained in CEFMS to allow for recomputation of the average unit cost as new receipts are
recorded. CEFMS maintains historical cost data necessary to comply with SFFAS No. 3, “Accounting for Inventory and Related Property.”
Additionally, CEFMS produces ﬁnancial transactions using the USSGL, as required by the Federal Financial Management Improvement Act
of 1996 (P.L. 104-208).

Related property includes operating materials and supplies (OM&S). The OM&S are valued at net realizable value. For the most part,
USACE is using the consumption method of accounting for OM&S, as deﬁned in the SFFAS No. 3, as material that has not been issued to
the end user. Once OM&S is issued, the material and/or supplies are expensed.

Work in process (WIP) balances include costs related to the production or servicing of items, including direct material, direct labor, applied
overhead and other direct costs. WIP also includes the value of ﬁnished products or completed services pending the submission of bills to the
customer. The WIP designation may also be used to accumulate the amount paid to a contractor under cost reimbursable contracts, including
amounts withheld from payment to ensure performance, and amounts paid to other government plants for accrued costs of end items of
material ordered but not delivered.


1.N.      Investments in U.S. Treasury Securities
The USACE reports investments in US Treasury securities at cost, net of amortized premiums or discounts. Premiums or discounts amortize
into interest income over the term of the investment using the effective interest rate method or another method obtaining similar results. The
USACE’s intent is to hold investments to maturity, unless they are needed to ﬁnance claims or otherwise sustain operations. Consequently, a
provision is not made for unrealized gains or losses on these securities.

Amounts reported reﬂect the value of investments in the South Dakota Terrestrial Wildlife Habitat Restoration, Inland Waterways, and Harbor
Maintenance trust fund accounts, which are managed by the Department of the Treasury.


1.O.      General Property, Plant and Equipment
The USACE Civil Works General Property, Plant, and Equipment (PP&E) is capitalized at historical acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years and the acquisition cost exceeds $25.0 thousand. One exception is all
buildings and structures related to hydropower projects are capitalized regardless of cost. During FY 2003, USACE increased its buildings
and structures capitalization threshold from $0 to $25.0 thousand for all Civil Works appropriations with the exception of revolving fund
and hydropower related assets. All Civil Works buildings and structures capitalized under $25.0 thousand (excluding revolving fund and
hydropower assets) were expensed in FY 2003 and removed from CEFMS. Beginning in FY 2004, all Civil Works buildings and structures
under $25.0 thousand are expensed except for hydropower assets.

When it is in the best interest of the government, USACE provides government property to contractors to complete contract work. The
USACE either owns or leases such property, or it is purchased directly by the contractor for the government based on contract terms. When
the value of contractor-procured General PP&E exceeds the DoD capitalization threshold, it must be reported on USACE’s Balance Sheet.

The DoD is developing new policies and a contractor reporting process that will provide appropriate General PP&E information for future
ﬁnancial statement reporting purposes. Accordingly, USACE reports only government property in the possession of contractors that is
maintained in USACE property systems. The DoD has issued property accountability and reporting requirements that require USACE
Components to maintain, in their property systems, information on all property furnished to contractors. This action and other DoD proposed
actions are structured to capture and report the information necessary for compliance with Federal accounting standards.
1.P.       Advances and Prepayments
The USACE records payments in advance of the receipt of goods and services as advances or prepayments and reports them as assets on the
Balance Sheet. The USACE recognizes advances and prepayments as expenses when it receives the related goods and services.


1.Q.       Leases
Lease payments for the rental of equipment and operating facilities are classiﬁed as either capital or operating leases. When a lease is
essentially equivalent to an installment purchase of property (a capital lease), USACE records the applicable asset and liability if the value
equals or exceeds the current capitalization threshold. The USACE records the amounts as the lesser of the present value of the rental and
other lease payments during the lease term (excluding portions representing executory costs paid to the lessor) or the asset’s fair market value.
The discount rate for the present value calculation is either the lessor’s implicit interest rate or the governmental’s incremental borrowing
rate at the inception of the lease. The USACE, as the lessee, receives the use and possession of leased property, for example real estate or
equipment, from a lessor in exchange for a payment of funds. An operating lease does not substantially transfer all the beneﬁts and risk of
ownership. Payments for operating leases are charged to expense over the lease term as it becomes payable.


1.R.       Other Assets
The USACE conducts business with commercial contractors under two primary types of contracts: ﬁxed price and cost reimbursable. To
alleviate the potential ﬁnancial burden on the contractor that long-term contracts can cause, USACE provides ﬁnancing payments. One type
of ﬁnancing payment that USACE makes for real property is based upon a percentage of completion. In accordance with the SFFAS No. 1,
“Accounting for Selected Assets and Liabilities,” such payments are treated as construction in process and are reported on the General PP&E
line on the Balance Sheet and in the related note.


1.S.       Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition of Contingent
Liabilities Arising from Litigation,” deﬁnes a contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future events occur or fail to occur. The USACE
recognizes contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount can be
reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least a reasonable
possibility of incurring a loss or additional loses. Examples of loss contingencies include the collectibility of receivables, pending or threatened
litigation, and possible claims and assessments. The USACE’s loss contingencies arise as a result of pending or threatened litigation or claims
and assessments occur due to events such as aircraft, ship and vehicle accidents, property or environmental damages, and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for USACE’s assets. This type of liability has two components: nonenvironmental
and environmental. Consistent with SFFAS No.6, “Accounting for Property, Plant, and Equipment,” recognition of an anticipated
environmental disposal liability begins when the asset is placed in service.


1.T.       Accrued Leave
The USACE reports as liabilities, civilian earned leave, except sick leave, that has been accrued and not used as of the Balance Sheet date.
Sick leave is expensed as taken. The liability reported at the end of the accounting period reﬂects current pay rates.


1.U.       Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations represent the amounts
of authority that are unobligated and have not been rescinded or withdrawn. Unexpended appropriations also represent amounts obligated for
which legal liabilities for payments have not been incurred.

Cumulative results of operations represent the net difference, since inception of an activity, between expenses, losses and ﬁnancing sources
(including appropriations, revenue, and gains). Beginning with FY 1998, the cumulative results of operations also include donations and
transfers in and out of assets without reimbursement.


1.V.       Treaties for Use of Foreign Bases
The USACE Civil Works does not have treaties for use of foreign bases.

                                                                                          192 FY 2006 United States Army Annual Financial Statement
                                                                 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                   193
1.W.       Comparative Data
Financial statement ﬂuctuations greater than two percent of total assets on the Balance Sheet or ten percent from the prior period presented
are explained within the notes to the ﬁnancial statements.


1.X.       Unexpended Obligations
The USACE obligates funds to provide goods and services for outstanding orders not yet delivered. The ﬁnancial statements do not reﬂect
this liability for payment for goods and services not yet delivered.


1.Y.       Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the transaction level
to a speciﬁc obligation, payable, or receivable in the activity ﬁeld records as opposed to those reported by the Department of the Treasury.
These amounts should agree with the undistributed amounts reported on the departmental accounting reports. In-transit payments are those
payments that have been made to other agencies or entities that have not been recorded in their accounting records. These payments are
applied to the entities’ outstanding accounts payable balance. In-transit collections are those collections from other agencies or entities that
have not been recorded in the accounting records. These collections are applied to the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal categories based on the
percentage of federal and nonfederal accounts payable and accounts receivable. Unsupported undistributed disbursements are recorded in
accounts payable. Unsupported undistributed collections are recorded in other liabilities. The USACE does not follow this procedure. All
undistributed disbursements and collections for USACE are unrecorded Intragovernmental Payment and Collection (IPAC) transactions.
These transactions are all federal. The USACE Civil Works does not have in-transit payments or collections.


Note 2.         Nonentity Assets
 As of September 30                                                          2006                                          2005
 (Amounts in thousands)

 1. Intragovernmental Assets
    A. Fund Balance with Treasury                            $                                 6,028       $                                 7,849
    B. Accounts Receivable                                                                         0                                             0
    C. Total Intragovernmental Assets                        $                                 6,028       $                                 7,849

 2. Nonfederal Assets
    A. Cash and Other Monetary Assets                        $                                1,310        $                                1,147
    B. Accounts Receivable                                                                1,751,549                                     1,722,336
    C. Other Assets                                                                               0                                             0
    D. Total Nonfederal Assets                               $                            1,752,859         $                           1,723,483


 3. Total Nonentity Assets                                   $                            1,758,887        $                            1,731,332

 4. Total Entity Assets                                      $                           41,526,701        $                           33,806,012


 5. Total Assets                                             $                           43,285,588        $                           35,537,344


Other Information
Asset accounts are categorized either as entity or nonentity. Entity accounts consist of resources that the agency has authority to use, or when
management is legally obligated to use funds to meet entity obligations. Nonentity Assets are assets that are held by an entity, but are not
available for use in the operations of the entity.

Intragovernmental nonentity fund balance with treasury consists of amounts collected into deposit and suspense accounts.

Cash and Other Monetary Assets is comprised of $4.4 thousand in change funds for recreation cashiers, $492.8 thousand in disbursing
ofﬁcer’s cash, and $812.8 thousand in foreign currency.
Nonentity nonfederal accounts receivable represents all current and noncurrent receivables due from nonfederal sources. This includes
$858.9 million in long-term receivables due from state and local municipalities for water storage contracts; $31.1 million in current receivables
due from state and local municipalities for water storage; $863.8 million in accrued interest receivable; $452.1 thousand in penalties, ﬁnes,
and administrative fees receivable; $1.2 million in long-term receivables for hydraulic mining; and $1.5 million for other miscellaneous
receivables. An additional $671.5 thousand represents the amount due from the leasing of land acquired for ﬂood control purposes. Nonentity
accounts receivables are recorded in unavailable receipt accounts and funds will be returned to the Department of the Treasury when collected.
The allowance for doubtful accounts totals $6.1 million for nonentity nonfederal accounts receivables.


Note 3.         Fund Balance with Treasury
 As of September 30                                                                   2006                                2005
 (Amounts in thousands)


 1. Fund Balances
    A. Appropriated Funds                                                 $                    6,423,985       $                   1,600,628
    B. Revolving Funds                                                                         1,090,769                             965,552
    C. Trust Funds                                                                                93,727                              86,885
    D. Special Funds                                                                               5,287                               1,920
    E. Other Fund Types                                                                          533,585                             491,065
     F. Total Fund Balances                                               $                    8,147,353       $                   3,146,050


 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                                          $                    8,181,330       $                   3,180,160
    B. Fund Balance per USACE                                                                  8,147,353                           3,146,050

 3. Reconciling Amount                                                    $                       33,977       $                      34,110


Fluctuations
Total Fund Balances increased by $5.0 billion (159%). The US Army Corps of Engineers (USACE) Civil Works Program receives federal
funding through the annual Energy and Water Development Appropriations Act. The USACE received additional funding of $2.0 billion during
2nd Quarter, FY 2006 and $3.0 billion during 3rd Quarter, FY 2006, for Flood Control and Coastal Emergencies due to the unprecedented
hurricane season in the Gulf of Mexico during 2005. Additional funds were for hurricane relief efforts to include debris clean-up and removal,
and purchases of ice, water and tarps for coverage of damaged roofs.

Reconciling Amount
The Reconciling Amount for Fund Balance per USACE does not include receipt accounts. The USACE closed receipt accounts according
to the Treasury Financial Management Transmittal Letter, but they were included on the Financial Management Service Receipt Account
Trial Balance at September 30, 2006. Fund Balance per the USACE includes cash reported by the Department of the Treasury for Inland
Waterways and Harbor Maintenance trust funds, for which USACE is identiﬁed as the lead agency for reporting. Fund Balance per USACE
does not include cancelled appropriations.

Other Information
Appropriated Funds includes net disbursements for undistributed Intragovernmental Payment and Collection (IPAC) transactions. These
were distributed to the appropriate funds during October 2006.

Other Fund Types (nonentity) consist of deposit accounts which are not available to ﬁnance USACE activities. Other Fund Types (entity)
consists of borrowing authority, contributed funds and the suspense account established to ﬁnance Washington Aqueduct operations.




                                                                                         194 FY 2006 United States Army Annual Financial Statement
                                                                Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                  195
Status of Fund Balance with Treasury
 As of September 30                                                        2006                                           2005
 (Amounts in thousands)

 1. Unobligated Balance
    A. Available                                         $                              8,970,843        $                             5,003,319
    B. Unavailable                                                                      3,557,277                                             58

 2. Obligated Balance not yet Disbursed                  $                              5,478,110        $                             6,622,332


 3. Nonbudgetary FBWT                                    $                                 54,953        $                                (3,734)


 4. NonFBWT Budgetary Accounts                           $                            (9,913,830)        $                           (8,475,925)

 5. Total                                                $                              8,147,353        $                             3,146,050


Fluctuations
Total Status of Fund Balance with Treasury increased $5.0 billion (159%).

Unobligated Balance Available increased from receipt of additional funding of $2.0 billion during 2nd Quarter, FY 2006 and $3.0 billion
during 3rd Quarter, FY 2006, for the Flood Control and Coastal Emergencies appropriation due to the unprecedented hurricane season in the
Gulf of Mexico during 2005. The additional funds were for hurricane relief efforts to include debris clean-up and removal, and purchases
of ice, water and tarps for coverage of damaged roofs. In addition, the Unobligated Balance Available decreased $1.3 billion beginning in
1st Quarter, FY 2006 and continuing through 4th Quarter, FY 2006. This was due to processing of obligations against reimbursable orders
from Federal Emergency Management Agency.

In FY 2005, Receipts Unavailable for Obligation Upon Collection and Receipts and Appropriations Temporarily Precluded from Obligation
were included in Obligated Balance not yet Disbursed. A footnote mapping correction was made in 2nd Quarter, FY 2006 to report these
accounts as Unobligated Balance Unavailable. This resulted in the increase of $3.6 billion from FY 2005 to FY 2006. This mapping occurred
in 2nd Quarter, FY 2006.

Deﬁnitions
The Status of Fund Balance with Treasury consists of unobligated and obligated balances. These balances reﬂect the budgetary authority
remaining for disbursements against current or future obligations. In addition, the Status of Fund Balance with Treasury includes various
accounts that affect either budgetary reporting or the Fund Balance with Treasury (FBWT), but not both.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover outstanding obligations.
Unobligated Balance is classiﬁed as available or unavailable and is associated with appropriations expiring at ﬁscal year end that remain
available only for obligation adjustments until the account is closed.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been received or services that have
not been performed.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts which do not have budgetary authority, such as unavailable receipt
accounts or clearing accounts.

NonFBWT Budgetary Accounts include budgetary accounts that do not affect FBWT such as contract authority, borrowing authority, and
investment accounts. This category reduces the Status of Fund Balance with Treasury.

Restricted Unobligated Unavailable Balances
Unobligated Balance is segregated to show Available and Unavailable amounts in the note schedule. Certain unobligated balances may be
restricted to future use and are not apportioned for current use. The USACE is the lead agency for reporting the ﬁnancial data for the Inland
Waterways, Harbor Maintenance, and South Dakota Terrestrial Wildlife Habitat Restoration trust funds. The Department of the Treasury,
Bureau of Public Debt (BPD) maintains the investments and the investment accounting records and invests the trust fund receipts. The BPD
transfers funds to the individual trust funds as funds are needed.
Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                                                       (Decrease)/
  As of September 30                                                2004             2005             2006            Increase from
                                                                                                                     FY 2005 - 2006
 (Amounts in thousands)

 Account
   F3845 – Personal Property Proceeds                           $            0 $               0 $             0 $                   0
   F3875 – Disbursing Officer Suspense                                     113               632             855                   223
   F3880 – Lost or Cancelled Treasury Checks                                 0                 0           (168)                 ( 168)
   F3882 – Uniformed Services Thrift Savings Plan Suspense                   0                 0               0                     0
   F3885 – Interfund/IPAC Suspense                                           0          (12,215)           (591)                11,624
   F3886 – Thrift Savings Plan Suspense                                      0                 0               0                     0

 Total                                                          $          113 $        (11,583) $           96 $               11,679


Fluctuations
The Total Disclosures Related to Suspense/Budget Clearing Accounts changed by $11.7 million (101%). The balance at yearend FY 2005 was
for unposted Intragovernmental Payment and Collection (IPAC) disbursements and resulted in a $12.2 million negative balance. Processing
of this total balance in FY 2006, coupled with current month unposted IPAC transactions totaling $591.3 thousand, results in an overall
$11.6 million change in the suspense account balance from yearend FY 2005 to yearend FY 2006. USACE implemented automation
1st Quarter, FY 2006 to identify the obligation number in the Corps of Engineers Financial Management System (CEFMS) related to IPAC
transactions. This automation replaced previous manual processes for posting IPAC transactions. The increase of $223.0 thousand in
Disbursing Ofﬁcer Suspense is due to collections during September 2006 pending corrections of a long term agreement at Omaha District
and collections primarily during August 2006 for leases at Nashville District. The decrease of $168.0 thousand in Lost or Cancelled Treasury
Checks is due to invalid chargeback received from the Department of the Treasury during May 2006. The USACE requested reversal of this
chargeback in June 2006.

Abnormalities
The Interfund/IPAC Suspense has an abnormal balance due to recording IPAC net disbursements of ($591.3) thousand.

Other Information
The Disbursing Ofﬁcer Suspense account represents the primary source of the overall positive balance. The Disbursing Ofﬁcer
Suspense account reported a positive balance of $855.9 thousand. The Interfund/IPAC Suspense account reported a negative balance of
($591.3) thousand. These two suspense accounts temporarily hold collections or disbursements until they can be assigned or identiﬁed to a
valid appropriation.

The Lost or Cancelled Treasury Checks account reported a negative balance of ($168.0) thousand. This amount represents the balance of
Treasury checks that (1) have either been lost by the payee and need to be reissued, (2) have never been cashed by the payee, or (3) have been
cancelled by the Department of the Treasury and need to be transferred to the original appropriation.

The USACE Civil Works does not have the following accounts: Personal Property Processed, Uniformed Services Thrift Savings Plan
Suspense, or Thrift Savings Plan Suspense.


Disclosures Related to Problem Disbursements and In-Transit Disbursements
The USACE Civil Works does not have Problem Disbursements and In-transit Disbursements.




                                                                                       196 FY 2006 United States Army Annual Financial Statement
                                                                 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                     197

Note 4.         Investments and Related Interest
                                                                                              2006
 As of September 30                                                                        Amortized
                                                                    Amortization                                                  Market Value
                                                      Cost                                (Premium) /       Investments, Net
                                                                      Method                                                       Disclosure
                                                                                            Discount
 (Amounts in thousands)


 1. Intragovernmental Securities
                                                                     Level Yield
    A. Nonmarketable, Market-Based               $    3,632,883      Calculation      $        (81,320) $         3,551,563 $          3,519,489
    B. Accrued Interest                                  19,893                                                      19,893               19,893
    C. Total Intragovernmental Securities        $    3,652,776                       $        (81,320)     $     3,571,456 $          3,539,382

 2. Other Investments
    A. Total Investments                         $              0                     $                 0   $               0 $                N/A


 3. Intragovernmental Securities
                                                                     Level Yield
    A. Nonmarketable, Market-Based               $    3,189,406      Calculation      $        (77,682)     $     3,111,724 $          3,105,672
    B. Accrued Interest                                  16,108                                                      16,108               16,108
    C. Total Intragovernmental Securities        $    3,205,514                       $        (77,682)     $     3,127,832 $          3,121,780

 4. Other Investments
    A. Total Investments                         $              0                     $                 0   $               0 $                N/A


Fluctuations
Total Intragovernmental Securities increase of $443.6 million (14%) in intragovernmental securities, investments, and interest is due to
several factors. Harbor Maintenance Trust Fund reported an increase in investments of $514.1 million. The increase was ﬁrst reported
1st Quarter, FY 2006 and continued through 4th Quarter, FY 2006 and is due to an increase in volume for taxes collected daily on imports and
foreign trade from increased trafﬁc in the harbors. South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund reported a $13.2 million
increase in investments in 4th Quarter, FY 2006. The increase is due to the Department of the Treasury investing the $10.0 million annual
appropriation, received from the general fund, in Market-Based Treasury Notes which mature in two, ﬁve, and ten years. All interest received
from the notes shall be invested in Market-Based Treasury Notes maturing September 15, 2008, yielding 3%. Inland Waterways Trust Fund
reported a decrease in investments of $83.7 million in 4th Quarter, FY 2006. The decrease is caused by expenditure authority transferred by
the Department of the Treasury to the Inland Waterways Trust Fund expenditure account. The funds are transferred from invested balances
to cover expenditures. As funds are withdrawn, investment accounts decrease.

Tax revenues are from imports, domestics, excise, foreign trade and passengers. The tax revenues are collected daily by the US Customs
Service and are deposited into the Department of the Treasury. These revenues are recorded on a cash basis and are strictly a point-of-service
collection. The tax revenues are invested by the Department of the Treasury and are reported on the Bureau of Public Debt (BPD) ﬁnancial
statements for Harbor Maintenance and Inland Waterways Trust Funds.

Other Information
The Federal Government does not set aside assets to pay future beneﬁts or other expenditures associated with Harbor Maintenance, Inland
Waterways, and South Dakota Terrestrial Wildlife Habitat Restoration trust funds. The cash receipts collected from the public for an earmarked
fund are deposited in the Department of the Treasury, which uses the cash for general government purposes. The Department of the Treasury
securities are issued to the US Army Corp of Engineers (USACE) as evidence of its receipts. The Department of the Treasury securities are
an asset to USACE and a liability to the Department of the Treasury. Because USACE and the Department of the Treasury are both parts of
the government, these assets and liabilities offset each other from the standpoint of the government as a whole. For this reason, they do not
represent an asset or a liability in the US Government-wide ﬁnancial statements. The Department of the Treasury securities provide USACE
with authority to draw upon the Department of the Treasury to make future beneﬁt payments or other expenditures. When USACE requires
redemption of these securities to make expenditures, the government ﬁnances those expenditures out of accumulated cash balances, by raising
taxes or other receipts, by borrowing from the public or repaying less debt, or by curtailing other expenditures. This is the same way that the
government ﬁnances all other expenditures.
Total investments include $195.0 million in one-day certiﬁcates and $3.4 billion in bonds and notes. The breakdown of total investments
among the trust funds is as follows: $3.2 billion in the Harbor Maintenance Trust Fund, $262.3 million in the Inland Waterways Trust Fund,
and $88.7 million in the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund.

The Department of the Treasury also provides the investment market value based on the bid price provided by the Federal Reserve Bank of
New York on September 30, 2006.


Note 5.          Accounts Receivable

                                                                                        2006                                       2005
  As of September 30                                                                Allowance For
                                                            Gross Amount                                   Accounts             Accounts
                                                                                     Estimated
                                                                Due                                     Receivable, Net      Receivable, Net
                                                                                    Uncollectibles
  (Amounts in thousands)


 1. Intragovernmental Receivables                           $    2,407,555      $                N/A    $      2,407,555     $       613,904
 2. Nonfederal Receivables (From the Public)                $    1,779,857      $            (6,084)    $      1,773,773     $     1,750,925

 3. Total Accounts Receivable                               $    4,187,412      $            (6,084)    $      4,181,328     $     2,364,829

Fluctuations
Intragovernmental Receivables increased $1.8 billion (292%). The increase is primarily attributed to an increase in reimbursable work with
the Department of Homeland Security. The new receivables are predominantly due from the Federal Emergency Management Agency
(FEMA), and are associated with disaster relief efforts for hurricanes Katrina, Rita, and Wilma at the US Army Corps of Engineers (USACE)
New Orleans, Vicksburg, and Galveston Districts. The increase in intragovernmental receivables for hurricane relief efforts was initially
reported in 1st Quarter, FY 2006 and continued through 4th Quarter, FY 2006.

Other Information
The method of calculating the allowance for estimated uncollectibles is based on the cumulative balance of delinquent public receivables aged
in accordance with current USACE policy. USACE uses the aging of accounts receivable method to calculate the allowance for estimated
uncollectibles. The calculation is performed automatically in the Corps of Engineers Financial Management System (CEFMS).

The Code of Federal Regulations (4CFR 101) prohibits the write-off of receivables from another federal agency. As such, no allowance for
estimated uncollectible amounts is recognized for these receivables.

The USACE was able to reconcile its accounts receivable balances with the accounts payable balances of other Department of Defense
trading partners that have systems which capture pertinent information. No material differences were identiﬁed. The USACE is unable to
reconcile with other intragovernmental trading partners whose ﬁnancial systems are not designed to capture pertinent information to fully
reconcile intragovernmental transactions.

The amount of public receivables on the Treasury Report on Receivables Due from the Public (TROR) differs from the balance of public
receivables reported on the balance sheet. The TROR does not include the allowance for estimated uncollectibles.




                                                                                        198 FY 2006 United States Army Annual Financial Statement
                                                                Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                      199

Aged Accounts Receivable
                                                                             2006                                         2005
  As of September 30
                                                            Intragovernmental           Nonfederal       Intragovernmental           Nonfederal
  (Amounts in thousands)

                           CATEGORY
  Nondelinquent
       Current                                             $           739,757      $        71,567      $          579,802      $        72,286
       Noncurrent                                                            0            1,621,941                       0            1,601,437
  Delinquent
       1 to 30 days                                        $           181,164      $         2,931      $            9,650      $         2,949
       31 to 60 days                                                   169,359                  282                       5                  149
       61 to 90 days                                                        11                  147                   7,723                  229
       91 to 180 days                                                  604,648                  334                   9,709                1,007
       181 days to 1 year                                              718,231               15,529                  29,023               15,682
       Greater than 1 year and less than or equal to
       2 years                                                            1,970              15,857                   5,849               19,322
       Greater than 2 years and less than or equal to
       6 years                                                            4,496              43,380                   2,672               31,907
       Greater than 6 years and less than or equal to 10
       years                                                                 11                7,889                      11              11,729
       Greater than 10 years                                                  0                    0                       0                   0
  Subtotal                                                  $        2,419,647      $     1,779,857      $          644,444      $     1,756,697
      Less Supported Undistributed
      Collections                                                            0                       0                    0                       0
      Less Eliminations                                                (12,092)                      0              (30,540)                      0
      Less Other                                                             0                       0                    0                       0
  Total                                                    $         2,407,555      $     1,779,857      $          613,904      $     1,756,697


Delinquent Intragovernmental Receivables
The total delinquent intragovernmental accounts receivable is $1.7 billion. Of the $1.7 billion delinquent, $1.6 billion is due from FEMA,
mostly resulting from the receivables associated with hurricanes Katrina, Rita, and Wilma at USACE New Orleans, Vicksburg, and Galveston
Districts. The USACE has reduced its delinquent FEMA receivables by $552.0 million since July 2006. This is due to new Intergovernmental
Payment and Collection (IPAC) arrangements coupled with concerted efforts among Headquarters USACE, the USACE Finance Center, and
FEMA personnel. The Coast Guard and the Environmental Protection Agency have delinquent receivables totaling $10.3 million, of which
$8.0 million is related to the Oil Pollution Act. The USACE continues to evaluate and improve the effectiveness of the intragovernmental
payment and collections process and implement improvements to these processes. The USACE is aggressively pursuing collection action for
delinquent intragovernmental accounts receivable.

Delinquent Nonfederal Receivables (From the Public)
The amount of delinquent nonfederal receivables is $86.3 million. Of the total delinquent receivables, $52.8 million is owed by the
Commonwealth of Puerto Rico on a 50 year contract for the Cerrillos Dam water storage at USACE Jacksonville District. Additionally,
$14.3 million is owed by the Oklahoma Water Resources Board for water storage space at USACE Tulsa District. The USACE is aggressively
pursuing collection action for delinquent nonfederal accounts receivable.

Nondelinquent Noncurrent Nonfederal Receivables (From the Public)
The $1.6 billion in nondelinquent noncurrent nonfederal receivables consists of amounts due from state and local municipalities for long-term
water storage contracts.
Note 6.          Other Assets

 As of September 30                                                             2006                                    2005
 (Amounts in thousands)


 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                  $                                 0    $                                   0
    B. Other Assets                                                                                0                                        0
    C. Total Intragovernmental Other Assets                      $                                 0    $                                   0

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                   $                                0     $                                   0
    B. Other Assets (With the Public)                                                       440,839                                         0
    C. Total Nonfederal Other Assets                             $                          440,839     $                                   0


 3. Total Other Assets                                           $                          440,839     $                                   0


Fluctuations
Other Assets (With the Public) increased $440.8 million (100%). The increase is attributable to reporting the costs associated with ﬁsh and
wildlife mitigation studies as intangible assets when related to hydropower projects. The studies are conducted in the Portland and Walla Walla
Districts. Based on comments from the Department of Defense, Ofﬁce of the Inspector General, the US Army Corps of Engineers (USACE)
should be consistent with the methodology used by the Bonneville Power Administration (BPA) to account for costs involving ﬁsh mitigation
studies, since the Federal Columbia River Power System combines the accounts of BPA and USACE. In accordance with Statement of
Financial Accounting Standard No. 71, “Accounting for the Effects of Certain Types of Regulation,” BPA is granted the authority to capitalize
and amortize all or part of the incurred cost that would otherwise be charged to expense. The USACE has implemented this policy and records
the costs in US Standard General Ledger 1990 – other assets. This accounting method became effective 2nd Quarter, FY 2006.

Other Information
Other Assets (With the Public) consists of amounts attributable to the cost of ﬁsh and wildlife mitigation studies related to the hydropower
projects. At the completion of each study, USACE will determine if a tangible asset will be constructed as a direct result of the study. If so,
USACE will hold the cost in construction-in-progress until the construction is complete. If not, USACE will place in service the cost of the
study as an intangible asset.


Note 7.          Cash and Other Monetary Assets

 As of September 30                                                             2006                                    2005
 (Amounts in thousands)


 1. Cash                                                        $                                497    $                                 556
 2. Foreign Currency                                                                             813                                      591

 3. Total Cash, Foreign Currency, & Other Monetary Assets       $                              1,310    $                               1,147


Fluctuations
Total Cash, Foreign Currency, & Other Monetary Assets increased $163.5 thousand (14%) and is attributed to a purchase of $200.0 thousand
US dollar equivalent of Korean won in September 2006. The currency was purchased to process payment due in October 2006 for a contract
established in won. The decrease in Disbursing Ofﬁcer’s Accountability (Cash) of $58.8 thousand is due to recouping travel advances
issued to USACE Memphis and Vicksburg district employees assigned to debris cleanup for Hurricane Katrina in the Gulf of Mexico, and
settlements of permanent change of station advances for USACE Savannah and Ft. Worth district employees during 4th Quarter, FY 2006.

Other Information
Cash consists of $492.8 thousand in Disbursing Ofﬁcer’s Accountability for travel advances issued, and $4.4 thousand in change funds for
recreation cashiers. Cash and foreign currency is nonentity, and is, therefore, restricted. There are no signiﬁcant effects from changes in the
foreign currency exchange rate.

                                                                                       200 FY 2006 United States Army Annual Financial Statement
                                                                  Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                     201
The USACE translates foreign currency to US dollars utilizing the Department of the Treasury Prevailing Rate of Exchange. This rate is the
most favorable rate that would legally be available to the US Government’s acquisition of foreign currency for its ofﬁcial disbursements and
accommodation of exchange transactions. The USACE maintains a balance of Japanese yen, Euro dollars, and Korean won for disbursements
made at Japan, Europe and Far-East districts.


Note 8.           Direct Loan and/or Loan Guarantee Programs
Not applicable.


Note 9.           Inventory and Related Property

As of September 30                                                         2006                                            2005
(Amounts in thousands)


1. Inventory, Net                                         $                                  24,259    $                                  117,237
2. Operating Materials & Supplies, Net                                                       97,081                                           147
3. Stockpile Materials, Net                                                                       0                                             0

4. Total                                                  $                                 121,340    $                                  117,384



Inventory, Net
                                                                                  2006                                    2005
  As of September 30                                       Inventory,         Revaluation                                                Valuation
                                                                                                 Inventory, Net      Inventory, Net
                                                          Gross Value         Allowance                                                   Method
  (Amounts in thousands)


  1. Inventory Categories
     A. Available and Purchased for Resale            $               0     $                0                  0    $      94,996          MAC
     B. Held for Repair                                               0                      0                  0                0          MAC
     C. Excess, Obsolete, and Unserviceable                           0                      0                  0                0          MAC
     D. Raw Materials                                                 0                      0                  0                0          MAC
     E. Work in Process                                          24,259                      0             24,259           22,241          MAC

     F. Total                                          $        24,259 $                     0             24,259    $     117,237
 Legend for Valuation Methods:
 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                   NRV = Net Realizable Value
 SP = Standard Price                                                                             O = Other
 AC = Actual Cost                                                                                MAC = Moving Average Cost


Fluctuations
Total inventory decreased $93.0 million (79%). During 4th Quarter, FY 2005, the US Army Corps of Engineers (USACE) reported Inventory
Available and Purchased for Resale. Based on Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for
Inventory and Related Property,” USACE determined that the inventory did not ﬁt the criteria for inventory held for sale because there was no
sale outside USACE activities. As a result, during 4th Quarter, FY 2006, USACE reported the inventory as Operating Materials and Supplies
(OM&S). Multiple USACE activities have inventory, but the majority is within the Mississippi Valley Region activities.

Restrictions of Inventory Use, Sale, or Disposition
There are no restrictions on the use of inventory.

Other Information
General composition of USACE Work in Process (WIP) inventory is tangible personal property that is in the process of production. WIP
includes associated labor, applied overhead and supplies used in the delivery of services. The inventory valuation method is based on a
moving weighted average based on actual cost divided by quantity. A perpetual record of inventory is maintained to allow for recomputation
of the average unit cost as new receipts are recorded. There is no change from the prior year’s accounting method. There are no changes to
the prior year’s criteria for WIP.

The inventory data reported on the ﬁnancial statements is derived from the Corps of Engineers Financial Management System (CEFMS).
CEFMS is a comprehensive system that is designed to capture and maintain historical cost data necessary to fully comply with the SFFAS
No. 3.


Operating Materials and Supplies, Net
                                                                              2006                                      2005
As of September 30                                       OM&S                Revaluation                                             Valuation
                                                                                                    OM&S, Net       OM&S, Net
                                                       Gross Value           Allowance                                                Method
(Amounts in thousands)

1. OM&S Categories
   A. Held for Use                                 $          97,096     $            (15)      $       97,081      $          147     NRV
   B. Held for Repair                                                0                      0                   0               0      NRV
   C. Excess, Obsolete, and Unserviceable                            0                      0                   0               0      NRV

   D. Total                                        $          97,096     $            (15)      $       97,081      $       147

Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses      NRV = Net Realizable Value
SP = Standard Price                                                                O = Other
AC = Actual Cost


Fluctuations
Total OM&S increased $97.0 million. During 4th Quarter, FY 2006, the USACE reported Inventory Available and Purchased for Resale.
Based on Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for Inventory and Related Property,” USACE
determined that the inventory did not ﬁt the criteria for inventory held for sale because there was no sale outside USACE activities. As
a result, during 4th Quarter, FY 2006, USACE reported the inventory as Operating Materials and Supplies (OM&S). Multiple USACE
activities have inventory, but the majority is within the Mississippi Valley Region activities.

Other Information
General composition of USACE OM&S is personal property to be consumed in normal operations. OM&S includes materials for constructing
river revetment bedding, spare and repair parts, miscellaneous ofﬁce supplies, and metered mail. The valuation method is based on net
realizable value. There is no change from the prior year’s accounting method. There are no restrictions on OM&S. The relevant cost
associated with maintaining the available operating materials and supplies, as well as the time required to replenish the operating materials
and supplies, are the criteria used in determining the assigned category. There are no changes to the prior year’s criteria.


Stockpile Materials, Net
The USACE does not have Stockpile Materials.




                                                                                           202 FY 2006 United States Army Annual Financial Statement
                                                                  Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                      203

Note 10. General PP&E, Net

                                                                                2006                                                      2005
 As of September 30                     Depreciation/                                           (Accumulated
                                                          Service         Acquisition                                Net Book          Prior FY Net
                                        Amortization                                            Depreciation/
                                                           Life             Value                                      Value           Book Value
                                          Method                                                Amortization)
 (Amounts in thousands)


 1. Major Asset Classes
    A. Land                                  N/A            N/A       $      8,914,787      $              N/A $       8,914,787 $        8,900,815
    B. Buildings, Structures, and
       Facilities                            S/L          20 Or 40          27,366,591            (13,039,517)       14,327,074          14,516,153
     C.   Leasehold Improvements             S/L         lease term             37,755                (24,355)       13,400       12,561
     D.   Software                           S/L          2-5 Or 10             82,702                (57,206)       25,496       36,863
     E.   General Equipment                  S/L           5 or 10           1,313,004               (654,981)      658,023      643,576
     F.   Military Equipment                 S/L           Various                   0                       0            0            0
     G.   Assets Under Capital Lease         S/L         lease term                  0                       0            0            0
     H.   Construction-in- Progress          N/A             N/A             2,849,493                     N/A    2,849,493    2,642,702
     I.   Other                                                                 33,690                      (1)      33,689       27,432
     J.   Total General PP&E                                          $     40,598,022      $     (13,776,060) $ 26,821,962 $ 26,780,102

 1
  Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight Line      N/A = Not Applicable




General PP&E – Signiﬁcant Amount of Assets
A cumulative total of $2.6 billion of intangible assets has been reclassiﬁed as land. These assets are comprised of relocation and administrative
costs associated with the acquisition of land in conjunction with hydropower projects. Costs were originally classiﬁed as intangible assets
in order to comply with Federal Energy Regulatory Commission (FERC) guidelines on cost recovery. However, the decision was made
during 4th Quarter, FY 1999, that these costs were improperly classiﬁed in accordance with the Statement of Federal Financial Accounting
Standards, No. 6, “Accounting for Property, Plant and Equipment (PP&E),” as they were part of the initial acquisition cost of the land and
should have been classiﬁed as such. We have also made a reversing entry for current year amortization in our statements to properly reﬂect the
effect of the transfer into land where accumulated depreciation is inappropriate. Supporting documentation for approximately $17.3 billion
of the $26.8 billion recorded in the PP&E line is being supported by alternate methods as agreed upon by the Inspector General, Department
of Defense (DoD) and the US Army Corps of Engineers (USACE) in a June 9, 2004, Memorandum of Agreement.

The service life for USACE’s multiple purpose project assets is derived from guidance provided by FERC based on industry standards. The
hydropower project related assets make up $7.6 billion of the book value of USACE’s PP&E.

The USACE currently operates and maintains 75 hydroelectric power plants, generating about 24% of America’s hydroelectric power. All
power generated by these 75 hydroelectric power plants is transmitted to Power Marketing Administration (PMA) for distribution to customers
across their respective regions. Each ﬁscal year, USACE prepares a “Statement of Expenses” broken down by plant, district, and region and
provides this information to the PMAs to assist in their Power Repayment Study. The PMAs then collect power receipts (revenues) from
customers and return the receipts to the Department of the Treasury.

The USACE’s policy requires all capital improvements to real property, occupied but not owned by USACE, with a useful life of two or more
years and cost of $25.0 thousand or more, to be capitalized as leasehold improvements.

In USACE’s FY 2006 construction-in-progress (CIP) account, $151.0 million of the $2.8 billion (5%) is attributable to a dormant
project formally known as the “Elk Creek Lake Project” located at USACE Portland District. The project, which was authorized by the
1962 Flood Control Act, was originally authorized to perform the purpose of ﬂood control. In 1971, construction began on the project but
after completing only 33% of its design height, the project was shut down due to a court-ordered injunction. Additional analysis under the
National Environmental Policy Act is required to remove the injunction. To date, the environmental concerns have not been resolved and the
project is sitting in a hold status until such time these issues are resolved. Therefore, USACE will continue to carry the construction costs of
the “Elk Creek Lake Project” in the CIP account until a ﬁnal decision is made concerning the outcome of the project.
Due to the severity of hurricanes Katrina, Rita, and Wilma, USACE conducted a 100% review of all real and personal property assets
within the affected areas. As a result of this review, USACE found that three real property assets with a net book value of $153.1 thousand
were destroyed and retired. Five personal property assets and 66 real property assets were damaged with an estimated repair cost of over
$16.4 million. All repairs are either currently on-going or scheduled during FY 2007. In addition, two real property assets with a net book
value of over $9.5 million are still under investigation to determine the extent of the damages and the estimated cost of repairs.

The USACE has no restrictions on the use or convertibility of General PP&E.

There were no changes to accounting standards that required adjustment.

Asset donations include $15.3 million in land tracts donated in prior years in the USACE Kansas City, Savannah, and Ft. Worth districts. The
USACE adjusted the value of the land tracts to the fair market value of the land at the time of the donation. These assets were previously
recorded at zero or nominal value.

Other consists of assets awaiting disposal.

Heritage Assets and Stewardship Land
The USACE administers the Lake Superior Marine Museum as part of the Operations and Maintenance Mission of the Detroit District. This
museum has gone inadvertently unreported in previous submittals on USACE’s heritage assets.

The USACE has one major collection managed by Headquarters, USACE Ofﬁce of History. The collection consists of historical memorabilia
and historic artifacts and records.

Other than multipurpose heritage assets, heritage assets are not material to the mission of USACE.

Heritage assets classiﬁed as land are special land plots containing archaeological sites that are listed on the National Register of Historic
Places, or which are eligible to be listed.

Heritage assets on display are assumed to be in adequate condition for display purposes, consistent with their origins, unless otherwise noted.
Reported heritage assets are free of material conditions that are counter to safeguarding, adequately protecting, and properly managing those
assets; they have not materially degraded while under the care of USACE. The existence of most of the uncategorized heritage assets is
informally known to be adequate for display purposes, however, the condition of many uncategorized assets is unknown.

Cemeteries and archeological sites are archeological properties listed on, or eligible for, the National Register of Historic Places. These
archeological assets cover almost the entire range of human occupation of the Continental United States, beginning with the Kennewick Man
Discovery Site in the state of Washington, dating to approximately 10,000 years before present, to archeological remains of early European-
American settlements such as Fort Independence in Georgia.

Buildings and structures include a range of historic resources from a covered bridge in Sacramento District to early farming structures in
Savannah District. It also includes some nontraditional structures such as a snag boat that operated on the Mississippi River.

The USACE currently does not have any land classiﬁed as stewardship land.


Assets Under Capital Lease
The USACE has no assets under capital lease.




                                                                                       204 FY 2006 United States Army Annual Financial Statement
                                                                 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                     205
Note 11. Liabilities Not Covered by Budgetary Resources

 As of September 30                                                                       2006                                 2005
 (Amounts in thousands)


 1. Intragovernmental Liabilities
    A. Accounts Payable                                                     $                             0       $                            0
    B. Debt                                                                                          13,592                               14,251
    C. Other                                                                                      1,961,767                            1,930,884
    D. Total Intragovernmental Liabilities                                   $                    1,975,359       $                    1,945,135

 2. Nonfederal Liabilities
    A. Accounts Payable                                                      $                              0     $                              0
    B. Military Retirement and
        Other Federal Employment Benefits                                                           250,272                                    0
    C. Environmental Liabilities                                                                    653,315                              529,617
    D. Other Liabilities                                                                             77,275                               26,055
    E. Total Nonfederal Liabilities                                          $                      980,862       $                      555,672

 3. Total Liabilities Not Covered by Budgetary Resources                     $                    2,956,221       $                    2,500,807


 4. Total Liabilities Covered by Budgetary Resources                        $                     1,238,605      $                     1,224,297

 5. Total Liabilities                                                       $                     4,194,826      $                     3,725,104


Fluctuations
Total Liabilities Not Covered by Budgetary Resources increased $455.4 million (18%) mainly due to reporting actuarial liability for the
Federal Employees Compensation Act (FECA). Actuarial liability for FECA increased $250.3 million. The initial recording of the liability
was in 4th Quarter, FY 2006. The Department of Labor (DOL) provides the liability amounts at the Department level (Department of the
Army, Department of the Navy). The DOL is unable to provide a FECA actuarial liability speciﬁc to the US Army Corps of Engineers
(USACE) Civil Works Program. USACE determined the actuarial liability by using a three year average of total USACE FECA bills as a
percentage of the total Department of the Army bills. That percentage was applied to the amount of total actuarial liability for the Department
of the Army to arrive at the USACE portion.

The remaining increase is primarily due to recording additional environmental liabilities of $88.4 million in 2nd Quarter,
FY 2006, $433.5 thousand in 3rd Quarter, FY 2006, and $34.9 million in 4th Quarter, FY 2006 for the Formerly Utilized Sites
Remedial Action Program (FUSRAP). Studies and ﬁnal Records of Decision documenting the cleanup requirements have been
completed at numerous sites. The amounts for environmental liabilities for the FUSRAP were initially determined and reported in
4th Quarter, FY 2005.

Other Information
Intragovernmental Liabilities – Other includes offsetting custodial liability to accounts receivable, Judgment Fund liabilities-Contract
Dispute Act (CDA), and workmen’s compensation liabilities under FECA. The custodial liability is for amounts that will be deposited in the
general fund of the Department of the Treasury when collected and are primarily related to water storage contracts. The USACE is seeking
supplemental funding for CDA liability. The FECA liability will not be funded until FY 2007.

Nonfederal Liabilities – Military Retirement Beneﬁts and Other Employment-Related Actuarial Liabilities include actuarial liability for
FECA.

Nonfederal Liabilities – Other Liabilities include contingent liability for probable losses related to lawsuits ﬁled by the state of Nebraska
and the county of Knox, Nebraska, contingent liability based on percentage of tort, litigation and contract dispute claims, and contracts with
continuation clauses.
Note 12. Accounts Payable

                                                                              2006                                                    2005

  As of September 30                                                    Interest, Penalties,
                                              Accounts Payable          and Administrative                Total                       Total
                                                                               Fees
  (Amounts in thousands)


  1. Intragovernmental Payables              $              93,841     $                    N/A    $              93,841    $                 87,230

  2. Nonfederal Payables (to the Public)                   442,199                            0               442,199                      535,882

  3. Total                                   $             536,040     $                      0    $          536,040       $              623,112


Fluctuations
Nonfederal Payables (to the Public) decreased $93.7 million (17%). The decrease is mainly attributed to liquidating accounts payable for
projects involving dredging and excavation of channels, repair to and maintenance of dams and levees, and operation of reservoirs in the
US Army Corps of Engineers (USACE) North Atlantic Division and USACE South Atlantic Division. The decrease occurred in 4th Quarter,
FY 2006.

Other Information
Intragovernmental Payables consist of amounts owed to other Federal Agencies for goods or services ordered and received, but not yet paid.
Interest, penalties, and administrative fees are not applicable to intragovernmental payables.

The USACE has no known delinquent accounts payable; therefore, no amount is reported for interest, penalties, and administrative fees.
However, USACE paid $1.2 million in interest from Civil Works appropriations on payments subject to the Prompt Payment Act during
FY 2006.

The USACE was able to reconcile its accounts payable balance with the accounts receivable balances of other Department of Defense trading
partners that have systems which capture pertinent information. No material reconciling differences were identiﬁed. The USACE is unable
to reconcile with other intragovernmental trading partners whose ﬁnancial systems are not designed to capture pertinent information to fully
reconcile Intragovernmental transactions.


Note 13. Debt

                                                                           2006                                                    2005
 As of September 30
                                                     Beginning
                                                                     Net Borrowing       Ending Balance            Net Borrowing       Ending Balance
                                                      Balance
 (Amounts in thousands)

 1. Agency Debt (Intragovernmental)
    A. Debt to the Treasury                      $       14,600   $           (676)     $           13,924     $            (767)      $        14,600
    B. Debt to the Federal Financing Bank                     0                  0                       0                     0                     0
    C. Total Agency Debt                         $       14,600   $           (676)     $           13,924     $            (767)      $        14,600

 2. Total Debt                                   $       14,600   $           (676)     $           13,924     $            (767)      $        14,600

Other Information
During ﬁscal years 1997, 1998, and 1999, the US Army Corp of Engineers (USACE) executed three promissory notes totaling $75.0 million
with the Department of the Treasury. Funds provided were used for capital improvements to the Washington Aqueduct. Arlington County, the
city of Falls Church, Virginia, and the District of Columbia provide funding to repay the debt. The District of Columbia repaid the remaining
portion of their debt in 2nd Quarter, FY 2004. Actual cumulative drawdown of the funds has been made from the Department of the Treasury
in the amount of $74.9 million. There were no drawdowns of funds from the Department of the Treasury for 4th Quarter, FY 2006. During
FY 2006, principal repayments total $659.1 thousand and accrued interest payable is $16.4 thousand.

    Treasury Drawdown              Cumulative Principal Repayments                   FY 2006 Interest Accrual                        Total Debt
       $74.9 million          -               $61.3 million                  +              $332 thousand              =            $13.9 million

                                                                                             206 FY 2006 United States Army Annual Financial Statement
                                                                  Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                    207

Note 14. Environmental Liabilities and Disposal Liabilities

                                                                                              2006                                         2005
As of September 30
                                                                  Current Liability       Noncurrent Liability         Total               Total
 (Amounts in thousands)

 1. Environmental Liabilities--Nonfederal
 A. Accrued Environmental Restoration Liabilities
   1. Active Installations—Installation Restoration
      Program (IRP) and Building Demolition and Debris
      Removal (BD/DR)                                         $                       0   $                  0    $              0    $             0
   2. Active Installations—Military Munitions Response
      Program (MMRP)                                                                  0                      0                  0                   0
   3. Formerly Used Defense Sites—IRP and BD/DR                                       0                      0                  0                   0
   4. Formerly Used Defense Sites--MMRP                                               0                      0                  0                   0

 B. Other Accrued Environmental Liabilities—Active
    Installations
  1. Environmental Corrective Action                                                  0                    0                   0                  0
  2. Environmental Closure Requirements                                               0                    0                   0                  0
  3. Environmental Response at Operational Ranges                                     0                    0                   0                  0
  4. Other                                                                            0              653,315             653,315            529,617

 C. Base Realignment and Closure (BRAC)
  1. Installation Restoration Program                                                 0                      0                  0                   0
  2. Military Munitions Response Program                                              0                      0                  0                   0
  3. Environmental Corrective Action / Closure
     Requirements                                                                     0                      0                  0                   0
  4. Other                                                                            0                      0                  0                   0

 D. Environmental Disposal for Weapons Systems
    Programs
  1. Nuclear Powered Aircraft Carriers                                                0                      0                  0                   0
  2. Nuclear Powered Submarines                                                       0                      0                  0                   0
  3. Other Nuclear Powered Ships                                                      0                      0                  0                   0
  4. Other National Defense Weapons Systems                                           0                      0                  0                   0
  5. Chemical Weapons Disposal Program                                                0                      0                  0                   0
  6. Other                                                                            0                      0                  0                   0

 2. Total Environmental Liabilities                           $                       0   $          653,315      $      653,315      $     529,617


 Others Category Disclosure Comparative Table
 (Amounts in thousands)                                                                                (Current FY)                  (Prior FY)
 Other Accrued Environmental Costs - Other
 The accrued environmental cost for the liability is reported for the Formerly Utilized Sites            $653,315                    $529,617
 Remedial Action Program, which was established to respond to radiological contamination
 from early US atomic energy and weapons program. See Other Disclosures.
 Total                                                                                                    653,315                     529,617

Fluctuations
Other Accrued Environmental Liabilities (Other) increased by $123.7 million (23%). The increase is due to recording the liability for
feasibility study cost estimates of $44.0 million and $32.0 million for new remediation costs in 4th Quarter, FY 2006 for Formerly Utilized
Sites Remedial Action Program (FUSRAP) project sites. The liability also increased by $36.0 million in 2nd Quarter, FY 2006 for updates
to remediation cost estimates for the FUSRAP project sites. All increases are for the project sites listed in Other Information. The remaining
increase of $11.7 million is for a one-time correction in 2nd Quarter, FY 2006 to the starting costs for the St. Louis Airport, St. Louis Airport
Vicinity Property, and the Latty Avenue Properties FUSRAP project sites.
Other Information
The US Army Corps of Engineers (USACE) is responsible for the FUSRAP, which was established to respond to radiological contamination
from early US Atomic Energy and Weapons Program. This program is funded through a Civil Works appropriation. The amount of the
liability is determined after studies have been completed and ﬁnal Records of Decision documenting the cleanup requirements are prepared.
The amount of the liability is recorded as Other Accrued Environmental Liabilities. The remaining categories of environmental liabilities do
not apply to the USACE Civil Works Program.

The USACE recognizes noncurrent environmental liabilities for the FUSRAP at the following project sites: St. Louis Downtown Site
Accessible Soils, St. Louis Airport Site, Latty Avenue Properties Site, St. Louis Airport Vicinity Properties Site, Maywood Site Soils,
Middlesex Sampling Plant Soils, Shpack Landﬁll Site, W. R. Grace Building 23 Site, Colonie Interim Storage Site Soils, Luckey Site Soils,
Linde Air Products Site Soils, Painesville Site, Ashland Site, St. Louis Downtown Site Inaccessible Soils, Iowa Army Ammunition Plant
FUSRAP Site, Colonie Interim Storage Site Groundwater, Maywood Site Groundwater, Middlesex Sampling Plant Site Groundwater,
Combustion Engineering Site, DuPont Chambers Works Site, W. R. Grace Radioactive Waste Disposal Area Site, Sylvania-Corning Plant
Site, Linde Air Products Site Groundwater, Luckey Site Groundwater, Seaway Industrial Park Site, Shallow Land Disposal Area Site, Former
Harshaw Chemical Company Site, Guterl Specialty Steel Site, and Niagara Falls Interim Storage Site.

The USACE recognizes contingent liabilities related to this program but the liability amounts are currently unknown. The project sites are:
St. Louis Downtown Site Inaccessible Soils, Iowa Army Ammunition Plant FUSRAP Site, Middlesex Sampling Plant Site Groundwater,
Combustion Engineering Site, DuPont Chambers Works Site, W. R. Grace Radioactive Waste Disposal Area Site, Seaway Industrial Park Site,
Niagara Falls Storage Site, Shallow Land Disposal Area Site, Former Harshaw Chemical Company Site, and Guterl Specialty Steel Site.

The USACE has completed the assessment of all real and personal property either partially or completely impaired by hurricanes Katrina, Rita
and Wilma, with all known impairments properly reﬂected in the ﬁnancial statements. In conjunction with the assessment of assets, USACE
has also completed its review of any potential liabilities, including environmental liabilities, which may have occurred due the hurricanes with
all known liabilities being properly recorded.

Environmental liabilities not related to FUSRAP are currently unknown for the following project sites: Sonoma Firing Range and Sonoma
Underground Storage Tanks Monitoring Wells in Sonoma, California; Black Rock Lock and Mount Morris Dam in New York; Bradford
Island Landﬁll and North Paciﬁc Division Materials Laboratory in Oregon; Saint Georges Bridge in Pennsylvania; and John H. Kerr Dam
and Reservoir in Virginia.


Environmental Disclosures

   As of September 30                                                                                                       2006        2005

   (Amounts in thousands)
     A.    Amount of operating and capital expenditures used to remediate legacy waste. Legacy wastes are the                      0         0
           remediation efforts covered by IRP, MMRP, and BD/DR regardless of funding source.
     B.    The unrecognized portion of the estimated total cleanup costs associated with general property, plant and               0         0
           equipment.
     C.    The estimated cleanup costs associated with general property, plant and equipment placed into service                   0         0
           during each fiscal year.
     D.    Changes in total cleanup costs due to changes in laws, regulations, and/or technology.                                  0         0
     E.    Portion of the changes in estimated costs due to changes in laws and technology that is related to prior                0         0
           periods.


Applicable laws and regulations for cleanup requirements
Energy and Water Development Appropriations Act, Public Law 106-60, § 611; Comprehensive Environmental Response, Compensation,
and Liability Act (CERCLA, 42 USC § 9601 et seq.), as amended; and National Oil and Hazardous Substances Pollution Contingency Plan
(NCP, 40 C.F.R. 300).

Method for assigning estimated total cleanup cost to current operating periods
The USACE uses site-speciﬁc engineering estimates for assigning estimated environmental costs. Both the cost to complete remedial
investigation/feasibility studies through a Record of Decision and the estimated cost of chosen remedies are reported. Engineering estimates,
using appropriate tools, such as the Micro-Computer Assisted Cost Estimating System (M-CACES), and using the extensive data collected
during the remedial investigation/feasibility study phase of the environmental project are used. The estimated costs of studies are reported
during the early part of the remedial investigation and the estimated cost of the chosen remedy is reported after release of the Proposed
Plan.

                                                                                        208 FY 2006 United States Army Annual Financial Statement
                                                                   Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                     209
Types of environmental liabilities and disposal liabilities identiﬁed
The USACE, through an annual Energy and Water Development Appropriation, is responsible for executing the FUSRAP at sites deemed
eligible by the Department of Energy. Under FUSRAP, USACE cleans up contamination in the US resulting from work performed as part
of the nation’s early atomic energy program. Consistent with the requirements of CERCLA, USACE coordinates with regulatory agencies,
other responsible parties, and current property owners.

Nature of estimates and the disclosure of information regarding possible changes due to inﬂation, deﬂation, technology, or applicable
laws and regulations
Engineering estimates for cleanup of individual sites are made using data obtained during the remedial investigation/feasibility study phase of
the CERCLA process. These estimates are updated upon contract award, and periodically, to account for inﬂation/deﬂation and ﬂuctuations
in labor rates, transportation rates, disposal charges, and to reﬂect changes in site conditions. The ﬁnalization of the Record of Decision for
each site sets the cleanup standard that establishes the criteria for determining when site remediation is complete.

Uncertainty regarding the accounting estimates used to calculate the reported environmental liabilities
The volume of contaminated material and the cost to dispose of such material, including transportation, are the elements of project estimates
with the greatest uncertainty and potential for signiﬁcant effect upon project costs.


Note 15. Other Liabilities

                                                                                              2006                                         2005
 As of September 30
                                                                      Current              Noncurrent
                                                                                                                     Total                 Total
                                                                      Liability             Liability
 (Amounts in thousands)


 1. Intragovernmental
     A.   Advances from Others                                 $            9,835      $              0       $           9,835      $        11,247
     B.   Deposit Funds and Suspense Account Liabilities                    1,648                     0                   1,648                  594
     C.   Disbursing Officer Cash                                             493                     0                     493                  552
     D.   Judgment Fund Liabilities                                       164,221                     0                 164,221              162,645
     E.   FECA Reimbursement to the Department of Labor                    20,522                27,224                  47,746               46,851
     F.   Other Liabilities                                                91,853             1,671,777               1,763,630            1,735,006

    G. Total Intragovernmental Other Liabilities               $          288,572      $      1,699,001       $       1,987,573      $     1,956,895
 2. Nonfederal
     A. Accrued Funded Payroll and Benefits                    $          380,917      $                0     $         380,917      $       376,600
     B. Advances from Others                                              132,360                       0               132,360              104,775
     C. Deferred Credits                                                        0                       0                     0                    0
     D. Deposit Funds and Suspense Accounts                                 6,978                       0                 6,978               (2,742)
     E. Temporary Early Retirement Authority                                    0                       0                     0                    0
     F. Nonenvironmental Disposal Liabilities
         (1) Military Equipment (Nonnuclear)                                      0                     0                       0                    0
         (2) Excess/Obsolete Structures                                           0                     0                       0                    0
         (3) Conventional Munitions Disposal                                      0                     0                       0                    0
     G. Accrued Unfunded Annual Leave                                             0                     0                       0                    0
     H. Capital Lease Liability                                                 0                       0                     0                    0
     I. Other Liabilities                                                 233,144                       0               233,144              122,247

     J. Total Nonfederal Other Liabilities                     $          753,399      $                0     $         753,399      $       600,880

 3. Total Other Liabilities                                    $        1,041,971      $      1,699,001      $        2,740,972      $     2,557,775


Fluctuations
Total Nonfederal Other Liabilities increased by $152.5 million (25%). There was an increase of $103.5 million in contract holdbacks
primarily in the Flood Control and Coastal Emergencies appropriation for recovery work related to hurricanes Katrina, Rita, and Wilma in the
US Army Corps of Engineers (USACE) New Orleans, Vicksburg, and Galveston districts. The increase occurred primarily in the 1st Quarter,
FY 2006, but has continued throughout FY 2006. Contingent liabilities also increased by $33.4 million. The USACE recognized a contingent
liability for $40 million for two probable losses in the Omaha District in the 4th Quarter, FY 2006, for cases above the materiality threshold
of $7.2 million. The USACE also recognized a contingent liability for $33 million for reasonably possible losses for pending contract claims,
civil litigation and tort cases below the threshold of $7.2 million in the 4th Quarter, 2006. The likelihood of an unfavorable or potential
liability was determined by using a three-year historical-loss average of 10% applied to the outstanding balance of $330 million for these
cases. No contingent liabilities for claims or litigation were recorded in prior ﬁscal years because no cases above the materiality threshold of
$7.2 million were considered probable losses or the amount of the loss could not be determined. The recognition of the contingent liability
for cases below the $7.2 million materiality threshold represents a change in accounting practice implemented in the 4th Quarter, FY 2006.
The USACE also reported an insurance reserve account for $39.6 million as a contingent liability at the 4th Quarter, FY 2005. The USACE
determined that the insurance reserve account should be reclassiﬁed from a liability to a gain in the 1st Quarter, FY 2006.

Composition of Other Liabilities
Intragovernmental Other Liabilities (current) includes the custodial liability to offset interest and accounts receivable which, when collected,
will be returned to the Department of the Treasury and the liability for employer contributions and payroll taxes payable. Intragovernmental
Other Liabilities (noncurrent) represent future revenue from long-term water storage contracts and hydraulic mining contracts. The USACE
records a custodial liability for receivables from water storage and hydraulic mining contracts. The receipts are deposited to the general fund
of the Department of the Treasury when collected.

Nonfederal Other Liabilities includes contract holdbacks on construction-in-progress payments and unfunded contingent liabilities for
probable and reasonably possible losses for contract claims, civil litigation and tort claims.

Other Information
The USACE is not delinquent on any payments to the Department of Labor for the Federal Employees Compensation Act (FECA).

The USACE has completed the assessment of all real and personal property either partially or completely impaired by hurricanes Katrina,
Rita, and Wilma, with all know impairments properly reﬂected in the ﬁnancial statements. In conjunction with the assessment of assets,
USACE has also completed its review of any potential liabilities, including environmental liabilities, which may have occurred due to the
hurricanes with all known liabilities being properly recorded.

Judgment Fund Liabilities. The USACE Civil Works Directorate has recognized 37 unfunded liabilities arising from Judgment Fund Contract
Disputes Act (CDA) settlements in accordance with the Interpretation of Federal Financial Accounting Standards No. 2, “Accounting for
Treasury Judgment Fund Transactions.” The USACE cannot fund the CDA claims since it is funded by projects and funding does not include
an allowance for this type of claim. The USACE sought supplemental appropriations for payment of CDA claims in FY 2000 and FY 2006
which were not approved. The FY 2007 budget does not provide funding for payment of the CDA claims. The USACE will include a request
for payment of the CDA claims in its FY 2008 budget.


Capital Lease Liability
The USACE has no capital lease liabilities.


Note 16. Commitments and Contingencies
Disclosures Related to Commitments and Contingencies:
The US Army Corps of Engineers (USACE) is a party in various administrative proceedings and legal actions, with claims including
environmental damage claims, equal opportunity matters, and contractual bid protests. The USACE has accrued contingent liabilities for
legal actions where the USACE’s Ofﬁce of the General Counsel (OGC) considers an adverse decision probable and the amount of loss is
measurable. In the event of an adverse judgment against the Government, some of the liabilities may be payable from the Judgment Fund.
The USACE records Judgment Fund liabilities in Note 15, “Other Liabilities” and Note 12 “Accounts Payable.”

Proprietary contingencies are commonly referred to as contingent liabilities. The USACE had 31 cases above the materiality threshold
of $7.2 million and OGC has determined that 4 cases were probable, 8 cases were unable to determine, and 19 were remote. Two of the
probable cases were recorded as liabilities for $40.0 million dollars and the amount was not determinable in the other two cases. The USACE
management treated the eight cases that OGC was not able to determine as reasonably possible. The total amount of these eight claims is
$224.5 million and the potential loss is not determinable.

The USACE also has a total of $330.0 million in pending contract claims, civil litigation and tort cases which were individually under the
threshold of $7.2 million. As such, the likelihood of an unfavorable outcome or potential liability is provided as an overall assessment of
all cases currently pending and not on an individual basis (as with the over-threshold cases). The likelihood of an unfavorable or potential
liability was determined by using a three-year historical average. The total dollar amount of the cases closed was divided by the total dollar
amount claimed in those closed cases for each of the last three years which were then used to calculate the three year average of 10%. This
average represents the percentage that has historically been paid on claims and is based entirely on historical data. The merits of each

                                                                                        210 FY 2006 United States Army Annual Financial Statement
                                                                 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                            211
individual case have not been taken into consideration. Based on the 10% average, a contingent liability of $33.0 million was recorded.

The amounts disclosed for litigations, claims, and assessments are fully supportable and agree with USACE’s legal representation letters and
management summary schedule.

The USACE does not have undelivered orders for open contracts citing cancelled appropriations which may remain unﬁlled or unreconciled
and for which the reporting entity may incur a contractual commitment for payment.

The USACE does not have contractual arrangements such as ﬁxed price contracts with escalation, price redetermination, or incentive clauses;
contracts authorizing variations in quantities; and contracts where allowable interest may become payable based on contractor claims under
the “Dispute” clause contained in contracts.

The USACE is responsible for the Formerly Utilized Sites Remedial Action Program (FUSRAP), which was established to respond to
radiological contamination from the early US Atomic Energy and Weapons Program. The FUSRAP program is funded through a Civil Works
appropriation. The USACE recognizes liabilities related to this program but the liability amounts are currently unknown. The project sites
are: St. Louis Downtown Site Inaccessible Soils, Iowa Army Ammunition Plant FUSRAP Site, Middlesex Sampling Plant Site Groundwater,
Combustion Engineering Site, DuPont Chambers Works Site, W. R. Grace Radioactive Waste Disposal Area Site, Seaway Industrial Park
Site, Niagara Falls Storage Site, Shallow Land Disposal Area Site, Former Harshaw Chemical Company Site, and Guterl Specialty Steel Site.
Environmental liabilities not related to FUSRAP are currently unknown for the following project sites: Sonoma Firing Range and Sonoma
Underground Storage Tanks Monitoring Wells in Sonoma, California; Black Rock Lock and Mount Morris Dam in New York; Bradford
Island Landﬁll and North Paciﬁc Division Materials Laboratory in Oregon; Saint Georges Bridge in Pennsylvania; and John H. Kerr Dam
and Reservoir in Virginia.

Since these cases fail to satisfy the criteria to record a contingent liability in accordance with the Statement of Federal Financial Accounting
Standard No. 5, “Accounting for Liabilities of the Federal Government,” no amount is included in the ﬁnancial statements.


Note 17. Military Retirement and Other Federal Employment Benefits

                                                                                            2006                                                  2005
 As of September 30                                                             Assumed             (Less: Assets                                Present
                                                            Present Value                                                   Unfunded
                                                                              Interest Rate          Available to                                Value of
                                                             of Benefits                                                     Liability
                                                                                   (%)              Pay Benefits)                                Benefits
 (Amounts in thousands)


 1. Pension and Health Actuarial Benefits
    A. Military Retirement Pensions                          $           0                      $               0       $                0   $              0
    B. Military Retirement Health Benefits                               0                                      0                        0                  0
    C. Military Medicare-Eligible Retiree Benefits                       0                                      0                        0                  0
    D. Total Pension and Health Actuarial Benefits          $            0                      $               0       $                0   $              0

 2. Other Actuarial Benefits
    A. FECA                                                 $     250,272         4.53%         $                   0   $     250,272        $              0
    B. Voluntary Separation Incentive Programs                          0                                           0               0                       0
    C. DoD Education Benefits Fund                                      0                                           0               0                       0
    D. Total Other Actuarial Benefits                       $     250,272                       $                   0   $     250,272        $              0

 3. Other Federal Employment Benefits                       $         303                       $            (303)      $                0   $              0

 4. Total Military Retirement and Other Federal
    Employment Benefits:                                    $     250,575                       $           ( 303)      $     250,272        $              0

Actuarial Cost Method Used: The Department of the Army (DA) actuarial liability for workers’ compensation beneﬁts is developed by the
Department of Labor (DOL) and provided to the DA at the end of each ﬁscal year. Actuarial Federal Employees’ Compensation Act (FECA)
liability includes the expected liability for death, disability, medical and miscellaneous costs for approved compensation cases. The actuarial
liability is determined using a method that utilized historical beneﬁt payment patterns to estimate the ultimate payments. The DOL is unable
to provide a FECA actuarial liability speciﬁc to the US Army Corps of Engineers (USACE) Civil Works Program. The USACE Civil Works
liability was included in the total DA amount provided by DOL. The USACE determined the actuarial liability by using a three year average
of total USACE FECA bills as a percentage of the total Department of Army bills. That percentage was applied to the amount of actuarial
liability of the total DA to arrive at USACE portion.
Assumptions: The projected annual beneﬁt payments are discounted to the present value using the Ofﬁce of Management and Budget
economic assumptions for 10-year US Treasury notes and bonds. To provide more speciﬁcally for the effects of inﬂation on the liability
for future workers’ compensation beneﬁts, wage inﬂation factors (cost of living allowance) and medical inﬂation factors are applied to the
calculation of projected future beneﬁts.

Market Value of Investments in Market-based and Marketable Securities: Does not apply to USACE.

Fluctuations
The increase of $250.5 million (100%) in Other Actuarial Beneﬁts – FECA is due to initial recording of the Federal Employees’ Compensation
Act (FECA) actuarial liability in 4th Quarter, FY 2006.

Other Disclosures
The constructed amount of $ 240.0 million for the FY 2005 actuarial liability was determined using the three-year average method. This
amount was not reported on the FY 2005 ﬁnancial statements. The change in actuarial liability since the previous calculation is an increase
of $10.3 million.

The actuarial liability is computed for the USACE Civil Works Program.

Other Federal Employment Beneﬁts consist of accrued civilian severance pay.


Note 18. General Disclosures Related to the Statement of Net Cost

 As of September 30                                                          2006                                      2005

 (Amounts in thousands)



 1. Intragovernmental Costs                                   $                         1,336,192       $                          1,378,785
 2. Public Costs                                                                        9,860,164                                  8,882,498
 3. Total Costs                                               $                        11,196,356       $                        10,261,283

 4. Intragovernmental Earned Revenue                          $                        (4,593,977)      $                        (2,152,799)
 5. Public Earned Revenue                                                                (510,951)                                 (428,778)
 6. Total Earned Revenue                                      $                        (5,104,928)      $                        (2,581,577)


 7. Net Cost of Operations                                    $                         6,091,428       $                          7,679,706


Fluctuations
Total Cost increased $935.1 million. The increase was due to additional costs for ﬂood control and coastal emergency efforts in support of the
unprecedented hurricane season in the US Army Corps of Engineers (USACE) New Orleans, Vicksburg and Galveston districts. The costs
include debris clean-up and removal, and purchases of ice, water and tarps for coverage of damaged roofs. The costs were initially recorded
in 1st Quarter, FY 2006 and continued through 4th Quarter, FY 2006.

Total Earned Revenue increased $2.5 billion (98%) mainly due to reimbursable work performed for the Federal Emergency Management
Agency (FEMA) on the hurricane relief efforts in USACE New Orleans, Vicksburg, and Galveston districts. The increase in revenue for
hurricane relief efforts in these districts was ﬁrst reported 1st Quarter, FY 2006 due to hurricanes Katrina, Rita, and Wilma and continued
through 4th Quarter, FY 2006.

Other Information
Intragovernmental costs and revenue are related to transactions made between two reporting entities within the federal government. Public
costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.




                                                                                       212 FY 2006 United States Army Annual Financial Statement
                                                                 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                     213
The USACE was able to reconcile its intragovernmental costs and revenue balances with other Department of Defense trading partners that
have systems which capture pertinent information. No material reconciling differences were identiﬁed. The USACE is unable to reconcile
with other intragovernmental trading partners whose ﬁnancial systems are not designed to capture pertinent information to fully reconcile
intragovernmental transactions.

The Consolidated Statement of Net Cost (SoNC) is unique because its principles are driven on understanding the net cost of programs
and/or organizations that the federal government supports through appropriations or other means. This statement provides gross and net cost
information that can be related to the amount of output or outcome for a given program and/or organization administered by a responsible
reporting entity.

The amounts presented in the SoNC are based on obligations, disbursements, and accruals. The USACE records transactions on an accrual
basis as required by generally accepted accounting principles.

There were no costs associated with acquiring, constructing, improving, reconstructing or renovating heritage assets or acquiring stewardship
land.

The USACE Civil Works does not have military equipment.


Note 19. Disclosures Related to the Statement of Changes in Net Position

 As of September 30                                                         2006                                           2005
                                                              Cumulative                                     Cumulative
                                                                                     Unexpended                                      Unexpended
                                                              Results of                                     Results of
                                                                                    Appropriations                                  Appropriations
                                                              Operations                                     Operations
 (Amounts in thousands)

1. Prior Period Adjustments Increases (Decreases)
   to Net Position Beginning Balance
     A. Changes in Accounting Standards                   $                0    $                    0   $                 0    $                    0
     B. Errors and Omissions in Prior Year
        Accounting Reports                                                 0                         0                     0                         0

     C. Total Prior Period Adjustments                    $                0    $                    0   $                 0    $                    0

 2. Imputed Financing
    A. Civilian CSRS/FERS Retirement                      $          92,355     $                    0   $          97,212      $                    0
    B. Civilian Health                                              139,010                          0             134,320                           0
    C. Civilian Life Insurance                                          402                          0                 397                           0
    D. Judgment Fund                                                 29,857                          0               9,652                           0
    E. IntraEntity                                                        0                          0                   0                           0

     F. Total Imputed Financing                           $         261,624     $                    0   $         241,581      $                    0


Other Information
Appropriations on the Statement of Budgetary Resources (SBR) do not agree with appropriations received on the Statement of Changes in Net
Position (SCNP) due to differences between proprietary and budgetary accounting concepts and reporting requirements. Appropriated trust,
contributed, and special fund receipts in the amount of $1.5 billion are included in appropriations on the SBR. These funds do not update the
proprietary appropriations received amount reported on the SCNP.

The eliminations column on the Statement of Net Position reﬂects zero balances. All intra-entity eliminations that would appear on this
statement are in the categories of transfers. The reciprocal accounts for transfers (transfers-in and out) all net on their respective transfers
lines, and thus the zero balances.
Note 20. Disclosures Related to the Statement of Budgetary Resources

  As of September 30                                                                                             2006               2005
  (Amounts in thousands)


  1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period           $     3,985,839     $    2,419,101

  2. Available Borrowing and Contract Authority at the End of the Period                                                  0                  0


Other Information
Apportionment Categories. The amount of direct and reimbursable obligations incurred against amounts apportioned under Category A in
the Statement of Budgetary Resources (SBR) includes: $6.9 billion for direct; $35.5 million for obligations exempt from apportionment;
$11.5 billion for reimbursable obligations; and $88.0 thousand for reimbursable obligations exempt from apportionment. The US Army
Corps of Engineers (USACE) has no apportionments under Category B. Undelivered orders presented in the SBR include undelivered orders-
unpaid for both direct and reimbursable funds.

Category A apportionments distribute budgetary resources by ﬁscal quarter. Category B apportionments distribute budgetary resources by
activity, project, object or a combination of these categories. Exempt budgetary resources are not subject to apportionment because they are
not appropriated funds. Funding sources for exempt category comes from sources outside the federal government.

Intraentity transactions have not been eliminated because the statements are presented as combined and combining.

Borrowing authority is for capital improvements to the Washington Aqueduct. Funding to repay the debt is provided by Arlington County,
Virginia, and the city of Falls Church, Virginia. Loan repayments are made on a quarterly basis, as required. A debt of $13.9 million
remains from the original $75.0 million debt. During FY 2006, principal payments totaled $659.1 thousand and interest payments totaled
$723.9 thousand.

No material adjustments were made to budgetary resources available at the beginning of the year.

Permanent Indeﬁnite Appropriations. The USACE receives budget authority from trust funds established by the Department of the Treasury
for Coastal Wetlands, Inland Waterways, Harbor Maintenance, and South Dakota Terrestrial Wildlife Habitat Restoration in order to maintain
USACE’s mission areas of water resources and environment. Special funds receive receipts from hydraulic mining in California; leases of
land acquired for ﬂood control, navigation, and allied purposes; and licenses under the Federal Power Act for improvements of navigable
water including maintenance and operation of dams.

There are no legal arrangements that affect the use of unobligated balances of budget authority.

Capital Infusion. The USACE received a supplemental appropriation of $2.9 billion during 2nd Quarter, FY 2006 for hurricane relief effort
in the Gulf of Mexico and to address the Pandemic Inﬂuenza Act, 2006. A supplemental appropriation of $3.7 billion was received during
3rd Quarter, FY 2006 for hurricane recovery and for global war on terror.

Change in Reporting Procedure. Per Ofﬁce of Management and Budget Circular A-136, the parent agency should report the budgetary
activity for allocation transfers. The child, USACE, shall report the activity relating to the allocation in all of its ﬁnancial statements, except
the SBR. Prior to 2nd Quarter, FY 2006, USACE reported an SBR in its ﬁnancial statements for transfer funds. Beginning 2nd Quarter,
FY 2006, adjustments are made to zero out the balances in the budgetary accounts imported from USACE’s trial balances, except for the
amount needed in allocation transfers to close out the beginning balance of total actual resources collected at FY 2006 yearend. Residual
activity appears on the SBR derived from beginning balances in undelivered orders, delivered orders-unpaid, and allocations to be transferred.
The Inland Waterways and Harbor Maintenance trust funds are not included in this change in reporting procedure because USACE is the lead
agency for reporting and includes the parent budgetary activity in its ﬁnancial statements, including the SBR.


Note 21. Disclosures Related to the Statement of Financing
Abnormal Balances
Revaluation of assets or liabilities has a negative balance because of an abnormal balance reported in the other losses account. This account
has an abnormal balance of $269.7 million. This is due to the reversal of $255.6 million in construction in progress costs that were written
off in FY 2004 for ﬁsh mitigation studies in the US Army Corps of Engineers’ (USACE) Portland and Walla Walla districts. A decision was


                                                                                          214 FY 2006 United States Army Annual Financial Statement
                                                                  Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                    215
made in FY 2006 to reverse the prior year loss and record the costs of the ﬁsh mitigation studies as an “other asset.” The USACE reversed
$49.4 million of the prior year loss in the 2nd Quarter, FY 2006. The remaining costs of $206.2 million were reversed in the 3rd Quarter,
FY 2006. The abnormal balance amount also includes $17.1 million to place an asset in service that was previously written off in FY 2004 in
the Louisville District. The asset was transferred to the leaseholder in error. The correcting entry was made in the 1st Quarter, FY 2006.

Other Information
Budgetary data is in agreement with proprietary expenses and capitalized assets.

The USACE made no adjustment to the Statement of Financing to bring it into balance with the Statement of Net Cost.

The following Statement of Financing lines are presented as combined instead of consolidated due to interagency budgetary transactions not
being eliminated:
     Obligations Incurred
     Less: Spending Authority from Offsetting Collections and Recoveries
     Obligations Net of Offsetting Collections and Recoveries
     Less: Offsetting Receipts
     Net Obligations
     Undelivered Orders
     Unﬁlled Customer Orders

Composition of Other Resources or Adjustments to Net Obligated Resources that do not Affect Net Cost of Operations: Other
This includes asset donations. Adjustments for $15.3 million for the value of land tracts donated in prior years were made in the USACE
Kansas City, Savannah, and Ft. Worth districts. The USACE adjusted the value of the land tracts to the fair market value of the land at the
time of the donation. These assets were previously recorded at zero or nominal value.

Composition of Components Requiring or Generating Resources in Future Period: Other
This includes changes in actuarial liability for the Federal Employees Compensation Act (FECA). The amount also includes future funded
expenses for contingent liabilities related to probable losses and reasonably possible losses for contract claims, civil litigation and tort claims
against USACE; for new Judgment Fund Contract Dispute Act (CDA) claims; and for the increase in the amount of FECA expense recognized
in FY 2006.

Composition of Components not Requiring or Generating Resources: Other
This includes cost capitalization offset expense and other expenses not requiring budgetary resources. The cost capitalization offset account
provides a mechanism to offset all direct costs in the expense accounts when those costs are subsequently capitalized into an in-process
account. Other expenses not requiring budgetary resources includes current year expenses in the allocation transfer appropriations. Per
Ofﬁce of Management and Budget Circular A-136, the parent agency should report the budgetary activity for allocation transfers. The child,
USACE, reports the activity related to the allocation in all of its ﬁnancial statements except the Statement of Budgetary Resources (SBR).
Therefore, current year expenses in the allocation transfer appropriations are reported as not requiring budgetary resources. Other expenses
not requiring budgetary resources also includes reversing entries made in prior ﬁscal years that relate primarily to the write off of costs
associated with non federal cost share projects. Current year costs associated with non-federal cost share projects in the Contributed Fund
and costs related to Revolving Fund inventory sales are also recorded as other expenses not requiring budgetary resources.

Allocation Transfers
The USACE recorded other expenses not requiring budgetary resources of $195.7 million to reconcile budgetary activity with current period
expenses for allocation transfers. The USACE received funds in FY 2006 from the following agencies for the listed transfer appropriations:

Department of Agriculture transferred funds to State and Private Forestry, Forest Service (96 12X1105) to assist in the treatment of disease in
trees due to insect infestation at Rays Town Lake, Pennsylvania and Colsbrook Dam, Colorado.

Department of Transportation transferred funds to Federal Aid Highways (96 69X8083) for public bridge inventory and inspection in support
of the Federal Lands Highway Program for FY 2005.

Department of Energy transferred funds to the Bonneville Power Administration (96 89X4045) for the maintenance of hydroelectric plants
that USACE operates.

Department of Interior transferred funds to the Bureau of Land Management (BLM) Permit Processing Improvement Fund (96 14X5573) to
expedite the review of jurisdictional and permit actions in the BLM pilot project ofﬁces located in Colorado, New Mexico, Utah, Wyoming,
and Montana.
Appalachian Regional Commission transferred funds to USACE (96 46X0200) for design and construction assistance for public water and
wastewater projects, water resource protection and development projects, and environmental restoration projects.

Liabilities Not Covered by Budgetary Resources
“Components Requiring or Generating Resources in Future Periods” reports unfunded expenses incurred in FY 2006 of $327.0 million. The
cumulative total of unfunded expenses from all ﬁscal years is reported as “Liabilities Not Covered by Budgetary Resources” in Note 11 totals
$2.9 billion. The difference of $2.5 billion is due to the following:

Debt of $13.6 million payable to Department of the Treasury for Borrowing Authority is unfunded. Arlington County, the city of Falls
Church, Virginia, and the District of Columbia provide funding to repay the debt.

The offsetting custodial liability to accounts receivable for $1.7 billion is unfunded. This amount will be deposited in the general fund of the
Department of the Treasury and is primarily related to water storage contracts.

Future funded expense of $46.8 million for Workmen’s Compensation liabilities under the Federal Employees Compensation Act (FECA)
was recorded in prior ﬁscal years.

Future funded expense of $162.6 million for CDA judgment fund claims was recognized in prior ﬁscal years.

The USACE recorded future funded expense for $529.6 million in FY 2005 for unfunded environmental liabilities.

There is a difference of $17.5 million between the current year unfunded liability for contracts with continuation clauses of $4.3 million and
the decrease in the amount of current year unfunded expense of $21.8 million for the change in contracts with continuation clauses.


Note 22. Disclosures Related to the Statement of Custodial Activity
Not applicable.




                                                                                        216 FY 2006 United States Army Annual Financial Statement
                                                               Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                 217

Note 23. Earmarked Funds
 BALANCE SHEET                                                                                  Other
 As of September 30                                            MRF           MERHCF           Earmarked        Eliminations           Total
 (Amounts in thousands)                                                                         Funds
 ASSETS

 Fund balance with Treasury                                $         0   $            0   $       603,213      $            0    $      603,213
 Investments                                                         0                0         3,571,456                   0         3,571,456

 Accounts and Interest Receivable                                    0                0           422,656                   0            422,656
 Other Assets                                                        0                0           841,708                   0            841,708
 Total Assets                                              $         0   $            0   $     5,439,033      $            0    $    5,439,033


 LIABILITIES and NET POSITION
 As of September 30

 Military Retirement Benefits and Other Employment
 Related Actuarial Liabilities                             $         0   $            0   $               0    $            0    $              0
 Other Liabilities                                                   0                0            58,368              (138)              58,230
 Unexpended Appropriations                                           0                0                   0                 0                   0

 Cumulative Results of Operations                                    0                0         5,380,665           207,476           5,588,141

 Total Liabilities and Net Position                        $         0   $            0   $     5,439,033      $    207,338      $    5,646,371


 STATEMENT OF NET COST
 As of September 30

 Program Costs                                             $         0   $            0   $     1,115,922      $    (28,974)     $    1,086,948
 Less Earned Revenue                                                 0                0             (270)               253               ( 17)
 Net Program Costs                                         $         0   $            0   $     1,115,652      $    (28,721)     $    1,086,931
 Less Earned Revenues Not Attributable to Programs                   0                0                   0                 0                   0

 Net Cost of Operations                                    $         0   $            0   $     1,115,652      $    (28,721)     $    1,086,931


 STATEMENT OF CHANGES IN NET POSITION
 As of September 30


 Net Position Beginning of the Period                      $         0   $            0   $     4,781,544      $           0     $    4,781,544
 Net Cost of Operations                                              0                0         1,115,652           (28,721)          1,086,931

 Other Nonexchange Revenue                                           0                0         1,850,044           178,755           2,028,799

 Other Financing Sources                                             0                0         (135,271)                 0            (135,271)
 Change in Net Position                                    $         0   $            0   $      599,121       $    207,476      $      806,597

 Net Position End of Period                                $         0   $            0   $     5,380,665      $    207,476      $    5,588,141


Other Disclosures
The Total Earmarked Funds column is shown as consolidated. All intra-Department of Defense (DoD) activity between earmarked funds and
non-earmarked funds has been eliminated from this column, which causes assets to not equal liabilities and net position.

There has been no change in legislation during or subsequent to the reporting period and before the issuance of the ﬁnancial statements that
signiﬁcantly changes the purpose of these funds or that redirects a material portion of the accumulated balances.
US Army Corps of Engineers (USACE) Earmarked Funds
Special Recreation Use Fees, Title 16 United States Code (USC) 4061-6a, granted USACE the authority to charge and collect fair and equitable
Special Recreation Use Fees at recreation facilities and campgrounds located at lakes or reservoirs under the jurisdiction of USACE. Types of
allowable fees include daily use fees, admission fees, recreational fees, annual pass fees, and other permit type fees. The revenue is received
from the public and is an inﬂow of resources to the government. It is intended to maintain and operate the recreation and camping facilities.
This fund is classiﬁed as a special fund and utilizes both receipt and expenditure accounts in accounting for and reporting the fund.

Hydraulic Mining in California, Debris, Title 33 United States Code (USC) 683, states that those operating hydraulic mines through which
debris ﬂows in part or in whole to a body restrained by a dam or other work erected by the California Debris Commission shall pay a tax as
determined by the Federal Energy Regulatory Commission (the Commission). The tax is paid annually on a date ﬁxed by the Commission.
Taxes imposed under this code are collected and then expended under the supervision of USACE and the direction of the Department of the
Army. The revenue is received from the public and is an inﬂow of resources to the government. The purpose of the fund is for repayment of
funds advanced by the federal government or other agency for construction, restraining works, settling reservoirs, and for maintenance. This
fund is classiﬁed as a special fund and utilizes both receipt and expenditure accounts in accounting for and reporting the fund.

Payments to States, Flood Control Act of 1954, Title 33 USC 701c-3, establishes that 75% of all funds received and deposited from the leasing
of lands acquired by the US for ﬂood control, navigation and allied purposes, including the development of hydroelectric power, shall be
returned to the state in which the property is located. The USACE collects lease receipts into a receipt account. The revenue is received from
the public and is an inﬂow of resources to the government. Funds are appropriated in the amount of 75% of the receipts in the following ﬁscal
year and disbursed to the states. This fund is classiﬁed as a special fund and utilizes both receipt and expenditure accounts in accounting for
and reporting the fund.

Maintenance and Operation of Dams and Other Improvements of Navigable Waters, Title 16 USC 803(f), 810, states that whenever a
reservoir or other improvement is constructed by the US, the Federal Power Commission, now known as the Federal Energy Regulatory
Commission, shall assess charges against any licensee directly beneﬁted, and any amount so assessed shall be paid into the Department of
the Treasury. The USC further states that all charges arising from other licenses, except those charges established by the Commission for
purpose of administrative reimbursement, shall be paid to the Department of the Treasury from which speciﬁc allocations will be made.
From the speciﬁc allocations, 50% of charges from all other licenses is reserved and appropriated as a special fund in the Department of the
Treasury. This special fund is to be expended under the direction of the Secretary of the Army for the maintenance and operation of dams and
other navigation structures that are owned by the US or for construction, maintenance, or operation of headwater or other improvements of
navigable waters of the US. This fund is classiﬁed as a special fund and utilizes both receipt and expenditure accounts in accounting for and
reporting the fund. The revenue is received from the public and is an inﬂow of resources to the government.

Fund for Nonfederal Use of Disposal Facilities (for dredged material) was established by Title 33 USC 2326. This title provides that the
Secretary of the Army (Secretary) may permit the use of any dredged material disposal facility under the jurisdiction of, or managed by, the
Secretary by a nonfederal interest if the Secretary determines that such use will not reduce the availability of the facility for project purposes.
The Secretary may impose fees to recover capital, operation and maintenance costs associated with such use. Any monies received through
collection of fees under this law shall be available to the Secretary, and shall be used by the Secretary, for the operation and maintenance of the
disposal facility from which the fees were collected. This fund is classiﬁed as a special fund and utilizes both receipt and expenditure accounts
in accounting for and reporting the fund. The revenue is received from the public and is an inﬂow of resources to the government.

South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund was established by Public Law 106-53, Sec. 603. Yearly transfers are made
from the general fund of the Department of the Treasury to the trust fund for investment purposes. Investment activity is managed by the
Department of the Treasury, Bureau of Public Debt (BPD). The BPD purchases and redeems nonmarketable market-based securities issued
by the Department of the Treasury, BPD. Investments include one-day certiﬁcates, bonds, and notes. When the fund reaches the aggregate
amount of $108.0 million, withdrawals may be made by USACE for payment to the state of South Dakota. The state shall use the payments
to fund the annually scheduled work for wildlife habitat restoration. This fund is classiﬁed as a trust fund and utilizes both receipt and
expenditure accounts in accounting for and reporting the fund.

Coastal Wetlands Restoration Trust Fund is authorized by Title 16 USC 3951-3956. This act grants parallel authority to USACE, along with
the Environmental Protection Agency and the Fish and Wildlife Service to work with the state of Louisiana to develop, review, evaluate,
and approve a plan that is proposed to achieve a goal of “no net loss of wetlands” in coastal Louisiana. The USACE is also responsible for
allocating funds among the named task force members. Federal contributions are established at 75% of project costs or 85% if the state has
an approved Coastal Wetlands Conservation Plan. This fund is classiﬁed as a trust fund expenditure account and receives funding transfers
from the Sport Fish Restoration and Boating Trust Fund.

Rivers and Harbors Contributed and Advance Funds, authorized by Title 33 USC 701h, 702f, and 703, establishes funding to construct,
improve, and maintain levees, water outlets, ﬂood control, debris removal, rectiﬁcation and enlargement of river channels, etc., in the course
of ﬂood control and river/harbor maintenance. Whenever any state or political subdivision thereof shall offer to advance funds for a ﬂood
control project duly adopted and authorized by law, the Secretary of the Army may in his discretion, receive such funds and expend the same

                                                                                          218 FY 2006 United States Army Annual Financial Statement
                                                               Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                 219
in the immediate prosecution of such work. Advances are from the public and are inﬂows of resources to the government. This fund is
classiﬁed as a trust fund and utilizes both receipt and expenditure accounts in accounting for and reporting the fund.

Inland Waterways Trust Fund is authorized by Title 26 USC 9506. The law made the Inland Waterways Trust Fund available for USACE
expenditures for navigation, construction, and rehabilitation projects on inland waterways. Collections for excise taxes from the public are
made into the trust fund. The collections are invested and investment activity is managed by the Department of the Treasury, BPD. The
BPD purchases and redeems nonmarketable market-based securities issued by the Department of the Treasury, BPD. Investments include
one-day certiﬁcates, bonds and notes. The fund is classiﬁed as a trust fund and utilizes receipt and expenditure accounts in accounting for
and reporting the fund.

Harbor Maintenance Trust Fund was authorized by Title 26 USC 9505. The USACE Civil Works mission is funded by the Energy and Water
Developments Appropriations Act (the Act). The Act of 1986 was implemented to cover a portion of USACE operations and maintenance
costs for deep draft navigation. As provided in the act, amounts in the Harbor Maintenance Trust Funds shall be available for making
expenditures to carry out the functions speciﬁed in the act and for the payment of all expenses of administration incurred by the Department
of the Treasury, USACE, and the Department of Commerce. Collections are made into the trust fund from taxes collected from imports,
domestics, passengers and foreign trade. The collections are invested and investment activity is managed by the Department of the Treasury,
BPD. The revenue is received from the public and is an inﬂow of resources to the government. The fund is classiﬁed as a trust fund and
utilizes receipt and expenditure accounts in accounting for and reporting the fund.


Note 24. Other Disclosures
During FY 2006, the US Army Corps of Engineers (USACE) received $68.8 million in direct appropriations from the Department of Energy,
Power Marketing Administration, for operation and maintenance activities at hydroelectric power plants operated by USACE at the Portland,
Seattle and Walla Walla districts.
220 FY 2006 United States Army Annual Financial Statement
                                                                     Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                         221

FY 2006 Required Supplementary Stewardship Information (RSSI)
                                            Federal Mission Property, Plant and Equipment
                                  Yearly Investment in Federal Mission Property, Plant and Equipment

                                                 For Fiscal Year Ended September 30, 2006
                                                                (In Millions of Dollars)
 (a)                                                 (b)                       (c)                 (d)                   (e)                   (f)
 Categories                                       FY2002                  FY2003                FY2004                FY2005               FY2006
 1. Bank Stabilization Projects                      nr                       nr                   $74                  $59                   $67
 TOTAL:                                                                                            $74                  $59                   $67

Narrative Statement:
Investments in Federal Mission Property, Plant and Equipment refer to those expenses incurred by USACE for the protection of the riverbanks
of the Mississippi River and other navigable waterways inside the continental United States. Stabilization and protection of the riverbanks are
important to the ﬂood control and navigation plans, serving to protect ﬂood control features and to insure the desired alignment of the river’s
navigation channel. Stabilizing the riverbanks and channels provide an efﬁcient navigation alignment, increase the ﬂood-carrying capacity of
the river, and or protection of the levees system to include the tributary basin improvements for major drainage. The process by which this is
accomplished is by; cutoffs (shortening the river and reducing ﬂood heights), revetment (controlling the river’s meandering), dikes (directing
the ﬂow), and improvement dredging (realigning the river/channel).

Notes:
1. For FY 2002 – 2003 USACE does not have historical data as FY04 was our ﬁrst reporting of Federal Mission Property, Plant and
    Equipment in the Required Supplementary Stewardship Information section of the ﬁnancial statements. (nr = Nonreporting)
2.     After major ﬂoods in 1882, 1912, 1913 and 1927 the Flood Control Act of 1928 was signed which committed the federal government
       to a deﬁnite program of ﬂood control. This legislation authorized the Mississippi River and Tributaries Project, the nation’s ﬁrst
       comprehensive ﬂood control and navigation act.
3.     Investments values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are used because
       current DOD systems are unable to capture and summarize costs in accordance with the Federal Accounting Standards requirements.

                                                                   Heritage Assets
                                                   For Fiscal Year Ended September 2006
 (a)                                                      (b)                   (c)                  (d)                  (e)                  (f)
                                                  Measurement            As of 10/01/05          Additons             Deletions          As of 9/30/06
                                                   Quantity
 Museums                                               Each                           1                  0                      0                    1
 Monuments & Memorials                                 Each                           1                  0                      0                    1
 Cemeteries                                            Sites                          0                  0                      0                    0
 Archeological Sites                                   Sites                    142                      0                      0              142
 Buildings & Structure                                 Each                     349                      1                      0              350
 Major Collections                                     Each                           1                  0                      1                    0

Narrative Statement
USACE administers the Lake Superior Marine Museum as part of the Operations and Maintenance Mission of the Detroit District. This
museum has gone inadvertently unreported in previous submittals on USACE Heritage Assets.

The USACE has one Major Collection of historical memorabilia, historic artifacts, and records that is managed by the USACE Ofﬁce of
History. A previously reported major collection was removed this year as a result of a recent Government Accountability Ofﬁce (GAO) audit.
The audit determined that the collection, administered by the USACE Ofﬁce of History, is a U.S. Army Major Collection housed by USACE
and is reported by Army’s Center for Military History as part of their property inventory.

Other than multipurpose heritage assets, heritage assets are not material to the mission of the USACE. Disclosures pertinent to multipurpose
heritage assets are contained in the ﬁnancial statements.
Heritage assets classiﬁed as Land are special land plots containing archaeological sites as listed on the National Register of Historic Places
or eligible to be listed.

Heritage assets on display are assumed to be in adequate condition for display purposes, consistent with their origins, unless otherwise noted.
Reported heritage assets are free of material conditions that are counter to safeguarding, adequately protecting, and properly managing those
assets; they have not materially degraded while under the care of USACE. The existence of most of the un-categorized heritage assets is
informally known to be adequate for display purposes, however, the condition of many un-categorized assets are unknown.

Cemeteries and Archeological Sites are archeological properties listed on or eligible for, the National Register of Historic Places. These
archeological assets cover almost the entire range of human occupation of the Continental United States beginning with the Kennewick
Man Discovery Site in Washington State, dating to approximately 10,000 years before present, to archeological remains of early European-
American settlements such as Fort Independence in Georgia.

Buildings and Structures include a range of historic resources from a covered bridge in Sacramento District to early farming structures in
Savannah District. It also includes some non-traditional structures such as a snag boat that operated on the Mississippi River. A new building
and associated historic district, Conchas Dam and Conchas Dam Historic District, New Mexico was added to USACE inventory. One new
historic building has been submitted to the National Register of Historic Places for listing this period.


                                                     Non-federal Physical Property
                                           Yearly Investment in State and Local Governments
                                                 For Fiscal Year Ended September 30, 2006
                                                           (In Millions of Dollars)
 (a)                                             (b)                 (c)                  (d)                 (e)                   (f)
 Categories                                   FY2002              FY2003               FY2004              FY2005               FY2006
 Transferred Assets:
 1. Federal Mission Related                         nr                  nr             $4,429               $1,324               $1,229
 Funded Assets:
 2. Federal Mission Related                         nr                  nr                      0                   0                     0
 Total                                                                                 $4,429               $1,324               $1,229

Narrative Statement:
Investments in Non-federal Property refers to those expenses incurred by USACE for the purchase, construction or major renovation of
physical property owned by State and Local Governments, including major additions and replacements; the purchase of major equipment; and
the purchase of improvement of other physical assets. The authority to enter into cost share agreements with nonfederal sponsors is governed
under numerous Water Resources Development Acts starting with the Act of 1992.

Notes:
1. For FY 2002 – 2003 USACE does not have historical data as FY04 was our ﬁrst reporting of Non-federal Physical Property in the
    Required Supplementary Stewardship Information. The variance in the FY04 and FY05 amounts is due to FY04 ﬁgure being a ﬁrst
    report cumulative number and the FY05 number is for FY05 cost share. (nr = Nonreporting)
2.     Under numerous authorities USACE provides design, build and construction services/management for the missions of commercial
       navigation, ﬂood/storm damage reduction, hydropower, regulatory, environmental, recreation and water supply.
3.     Investments values included in this report are based on Non-federal Physical Property outlays (expenditures). Outlays are used because
       current DOD systems are unable to capture and summarize costs in accordance with the Federal Accounting Standards requirements.




                                                                                       222 FY 2006 United States Army Annual Financial Statement
                                                              Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                223
                                               General Property, Plant and Equipment
                                             Real Property Deferred Maintenance Amounts
                                                       As of September 30, 2006
                                  (a)                                                                   (b)
                                  Property Type/Major Class
                                  1. Real Property
                                     A. Buildings                                                         0
                                     B. Structures                                            $1,846,659
                                  2. Total                                                    $1,846,659

Narrative Statement:
Deferred maintenance at Civil Works water resources projects operated and maintained by the U.S. Army Corps of Engineers was determined
through the budget development process whereby operations managers identify the operation and maintenance (O&M) needs at each project
in the Civil Works inventory. O&M needs are based on inspections of project features, engineering analyses and historical experience.
Department of Defense - US Army Corps of Engineers
                                                                          STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2006 and 2005 ($ in Thousands)
                                                                                            Civil Works      2006 Combined          2005 Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                                         $      5,003,186 $            5,003,186 $          1,693,278
Recoveries of prior year unpaid obligations                                                            0                      0                    0
Budget authority
  Appropriation                                                                               12,439,718             12,439,718            5,987,913
  Borrowing authority                                                                                  0                      0                    0
  Contract authority                                                                                   0                      0                    0
  Spending authority from offsetting collections
    Earned
       Collected                                                                               9,407,099              9,407,099            6,471,705
       Change in receivables from Federal sources                                              1,690,685              1,690,685               11,130
    Change in unfilled customer orders
       Advance received                                                                            22,685                 22,685            (34,324)
       Without advance from Federal sources                                                    (719,532)              (719,532)            3,306,341
    Anticipated for rest of year, without advances                                                      0                      0                   0
    Previously unavailable                                                                              0                      0                   0
    Expenditure transfers from trust funds                                                              0                      0                   0
  Subtotal                                                                              $     22,840,655 $           22,840,655 $         15,742,765
Nonexpenditure transfers, net, anticipated and actual                                             (8,068)                (8,068)             257,392
Temporarily not available pursuant to Public Law                                                (10,000)               (10,000)             (10,000)
Permanently not available                                                                       (54,490)               (54,490)             (38,390)
Total Budgetary Resources                                                               $     27,771,283 $           27,771,283 $         17,645,045

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                                                $      6,902,331 $            6,902,331 $          5,739,464
  Reimbursable                                                                                11,500,680             11,500,680            6,902,397
  Subtotal                                                                                    18,403,011             18,403,011           12,641,861
Unobligated balance:
  Apportioned                                                                                  8,621,365              8,621,365            4,421,128
  Exempt from apportionment                                                                      746,850                746,850              581,999
  Subtotal                                                                                     9,368,215              9,368,215            5,003,127
Unobligated balance not available                                                                     57                     57                   57
Total status of budgetary resources                                                     $     27,771,283 $           27,771,283 $         17,645,045
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                                               3,945,373              3,945,373            3,171,189
  Less: Uncollected customer payments from Fedral sources, brought forward, October 1   $    (5,449,985) $          (5,449,985) $        (2,132,513)
  Total unpaid obligated balance                                                             (1,504,612)            (1,504,612)            1,038,676
Obligations incurred net (+/-)                                                          $     18,403,011 $           18,403,011 $         12,641,861
Less: Gross outlays                                                                         (16,870,276)           (16,870,276)         (11,867,676)
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                                           0                      0                     0
  Actual transfers, uncollected customer payments from Federal sources (+/-)                           0                      0                     0
  Total Unpaid obligated balance transferred, net                                                      0                      0                     0
Less: Recoveries of prior year unpaid obligations, actual                                              0                      0                     0
Change in uncollected customer payments from Federal sources                                   (971,152)              (971,153)           (3,317,471)
Obligated balance, net, end of period
  Unpaid obligations                                                                           5,478,110              5,478,111             3,945,373
  Less: Uncollected customer payments (+/-) from Federal sources (-)                         (6,421,138)            (6,421,138)           (5,449,985)
  Total, unpaid obligated balance, net, end of period                                          (943,028)              (943,027)           (1,504,612)
Net Outlays
Net Outlays:
  Gross outlays                                                                               16,870,275             16,870,276            11,867,676
  Less: Offsetting collections                                                               (9,429,788)            (9,429,787)           (6,437,381)
  Less: Distributed Offsetting receipts                                                      (1,906,618)            (1,906,618)           (1,744,668)
Net Outlays                                                                             $      5,533,871 $            5,533,871 $           3,685,627




                                                                                              224 FY 2006 United States Army Annual Financial Statement
                                                                      Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                        225
Department of Defense - US Army Corps of Engineers
                                                                          STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2006 and 2005 ($ in Thousands)
                                                                                             Civil Works         2006 Combined         2005 Combined
NONBUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                                          $                 0 $                   0 $                    0
Recoveries of prior year unpaid obligations                                                                0                     0                      0
Budget authority
  Appropriation                                                                                            0                     0                      0
  Borrowing authority                                                                                      0                     0                      0
  Contract authority                                                                                       0                     0                      0
  Spending authority from offsetting collections
    Earned
       Collected                                                                                           0                     0                      0
       Change in receivables from Federal sources                                                          0                     0                      0
    Change in unfilled customer orders
       Advance received                                                                                    0                     0                      0
       Without advance from Federal sources                                                                0                     0                      0
    Anticipated for rest of year, without advances                                                         0                     0                      0
    Previously unavailable                                                                                 0                     0                      0
    Expenditure transfers from trust funds                                                                 0                     0                      0
  Subtotal                                                                                                 0                     0                      0
Nonexpenditure transfers, net, anticipated and actual                                                      0                     0                      0
Temporarily not available pursuant to Public Law                                                           0                     0                      0
Permanently not available                                                                                  0                     0                      0
Total Budgetary Resources                                                                $                 0 $                   0 $                    0

Status of Budgetary Resources:
Obligations incurred:
  Direct                                                                                 $                 0 $                   0 $                    0
  Reimbursable                                                                                             0                     0                      0
  Subtotal                                                                                                 0                     0                      0
Unobligated balance:
  Apportioned                                                                                              0                     0                      0
  Exempt from apportionment                                                                                0                     0                      0
  Subtotal                                                                                                 0                     0                      0
Unobligated balance not available                                                                          0                     0                      0
Total Status of Budgetary Resources                                                      $                 0 $                   0 $                    0
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                                                           0                     0                      0

  Less: Uncollected customer payments from federal sources, brought forward, October 1   $                 0 $                   0 $                    0
  Total unpaid obligated balance                                                                           0                     0                      0
Obligations incurred net (+/-)                                                           $                 0 $                   0 $                    0
Less: Gross outlays                                                                                        0                     0                      0
Obligated balance transferred, net
  Actual transfers, unpaid obligations (+/-)                                                               0                     0                      0
  Actual transfers, uncollected customer payments from Federal sources (+/-)                               0                     0                      0
  Total Unpaid obligated balance transferred, net                                                          0                     0                      0
Less: Recoveries of prior year unpaid obligations, actual                                                  0                     0                      0
Change in uncollected customer payments from Federal sources (+/-)                                         0                     0                      0
Obligated balance, net, end of period
  Unpaid obligations                                                                                       0                     0                      0
  Less: Uncollected customer payments (+/-) from Federal sources (-)                                       0                     0                      0
  Total, unpaid obligated balance, net, end of period                                                      0                     0                      0
Net Outlays
Net Outlays:
  Gross outlays                                                                                            0                     0                      0
  Less: Offsetting collections                                                                             0                     0                      0
  Less: Distributed Offsetting receipts                                                                    0                     0                      0
Net Outlays                                                                              $                 0 $                   0 $                    0
                                                                               Required Supplemental Information - Part A

AT96 - US Army Corps of Engineers
($ Amounts in Thousands)


Schedule, Part A                                     Treasury      Fund Balance     Accounts       Loans
                                                                                                               Investments       Other
DoD Intra-governmental Asset Balances                  Index       with Treasury   Receivable    Receivable
Unidentifiable Federal Agency Entity (Other than DoD
entities)                                                 0                             $1,033
The Judiciary                                            10                                $11
Department of Agriculture                                12                               $169
Department of Commerce                                   13                               $140
Department of the Interior                               14                           $394,149
Department of Justice                                    15                               $115
Department of Labor                                      16                                $46
Navy General Fund                                        17                               $770
United States Postal Service                             18                                $34
Department of State                                      19                             $1,019
Department of the Treasury                               20          $8,147,352            $12                   $3,571,456
Army General Fund                                        21                             $5,675
Social Security Administration                           28                                 $1
Nuclear Regulatory Commission                            31                                 $6
John F. Kennedy Center                                   33                                $37
Department of Veterans Affairs                           36                               $627
General Service Administration                           47                                 $1
National Science Foundation                              49                                 $7
Air Force General Fund                                   57                               $941
Railroad Retirement Board                                60                                 $0
Tennessee Valley Authority                               64                               $217
Environmental Protection Agency                          68                            $14,731
Department of Transportation                             69                               $997
Homeland Security                                        70                         $1,885,497
Agency for International Development                     72                               $145
American Battle Monuments                                74                                 $6
Department of Health and Human Services                  75                                 $0
National Aeronautics and Space Administration            80                                $17
Department of Housing and Urban Development              86                                 $5
Department of Energy                                     89                            $73,842
Independent Agencies                                     95                                 $5
Other Defense Organizations General Funds                97                               $450
Army Working Capital Fund                            97-4930.001                            $0
The General Fund of the Treasury                         99                            $26,614
Architect of the Capitol                                                                  $239
Totals might not match reports                         Totals:       $8,147,352     $2,407,558                   $3,571,456




                                                                                     226 FY 2006 United States Army Annual Financial Statement
                                                         Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                           227

                                                                   Required Supplemental Information - Part B

AT96 - US Army Corps of Engineers
($ Amounts in Thousands)


                                                                                             Debts/Borrowings
Schedule, Part B                                                Treasury       Accounts
                                                                                               From Other                    Other
DoD Intra-governmental entity liabilities                         Index        Payable
                                                                                                 Agencies
Unidentifiable Federal Agency Entity (Other than DoD entities)      0                                                                 $43
Department of Agriculture                                          12                $396                                              $6
Department of Commerce                                             13              $4,929                                          $1,659
Department of the Interior                                         14              $9,978                                          $2,362
Department of Justice                                              15                 $48                                              $2
Department of Labor                                                16                                                             $47,746
Navy General Fund                                                  17               $518
United States Postal Service                                       18                 $0
Department of State                                                19               $746                                             $379
Department of the Treasury                                         20             $1,563                 $13,924                 $164,221
Army General Fund                                                  21             $9,879                                               $0
Office of Personnel Management                                     24                 $4                                          $13,830
Library of Congress                                                 3                $12
Government Printing Office                                          4               $182
General Service Administration                                     47            $15,545                                              $163
Air Force General Fund                                             57                $32
Tennessee Valley Authority                                         64             $1,580
Environmental Protection Agency                                    68               $247                                               $34
Department of Transportation                                       69                $90
Homeland Security                                                  70             $9,263                                                $19
Small Business Administration                                      73                                                                    $1
Department of Health and Human Services                            75               $352                                             $3,454
Department of Energy                                               89             $2,302                                             $1,712
Other Defense Organizations General Funds                          97               $255
Other Defense Organizations Working Capital Funds                97-4930          $8,930
Army Working Capital Fund                                      97-4930.001           $40
Navy Working Capital Fund                                      97-4930.002          $338
The General Fund of the Treasury                                   99            $26,614                                      $1,751,940
Totals might not match reports                                    Totals:        $93,843                 $13,924              $1,987,571
                                                                 Required Supplemental Information - Part C

AT96 - US Army Corps of Engineers
($ Amounts in Thousands)

Schedule, Part C
                                                                              Treasury Index          Earned Revenue
DoD Intra-governmental revenue and related costs
Unidentifiable Federal Agency Entity (Other than DoD entities)                       0                               $1,813
The Judiciary                                                                       10                                  $22
Department of Agriculture                                                           12                              $12,035
Department of Commerce                                                              13                               $8,987
Department of the Interior                                                          14                              $18,363
Department of Justice                                                               15                              $11,294
Department of Labor                                                                 16                                  $39
Navy General Fund                                                                   17                               $4,953
United States Postal Service                                                        18                                 $164
Department of State                                                                 19                               $6,788
Department of the Treasury                                                          20                               $1,020
Army General Fund                                                                   21                             $868,523
Office of Personnel Management                                                      24                               $1,261
Social Security Administration                                                      28                                   $2
Nuclear Regulatory Commission                                                       31                                 $451
John F. Kennedy Center                                                              33                               $1,622
Department of Veterans Affairs                                                      36                               $4,434
General Service Administration                                                      47                               $1,038
National Science Foundation                                                         49                               $1,070
General Accounting Office                                                            5                                 $654
Air Force General Fund                                                              57                              $45,409
Railroad Retirement Board                                                           60                                   $1
Tennessee Valley Authority                                                          64                                 $145
Environmental Protection Agency                                                     68                              $71,944
Department of Transportation                                                        69                               $9,933
Homeland Security                                                                   70                           $3,416,315
Agency for International Development                                                72                              $11,506
Department of Health and Human Services                                             75                               $5,028
National Aeronautics and Space Administration                                       80                               $8,780
Department of Housing and Urban Development                                         86                               $1,187
Department of Energy                                                                89                              $33,202
Department of Education                                                             91                                   $9
Independent Agencies                                                                95                               $1,374
Other Defense Organizations General Funds                                           97                              $39,038
Other Defense Organizations Working Capital Funds                                97-4930                               $339
Army Working Capital Fund                                                      97-4930.001                               $0
Navy Working Capital Fund                                                      97-4930.002                             $947
Air Force Working Capital Fund                                                 97-4930.003                             $127
Architect of the Capitol                                                                                             $3,715
Totals might not match reports                                                     Totals:                       $4,593,532




                                                                          228 FY 2006 United States Army Annual Financial Statement
                                               Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                 229

                                                         Required Supplemental Information - Part E

AT96 - US Army Corps of Engineers
($ Amounts in Thousands)


Schedule, Part E
                                              Treasury Index             Transfers In                 Transfers Out
DoD Intra-governmental non-exchange revenue
Department of Agriculture                          12                                $24                                     $34
Department of the Interior                         14                            $63,775
Army General Fund                                  21                                                                        $35
Air Force General Fund                             57                                  $0
Department of Transportation                       69                                $904
Department of Health and Human Services            75                                                                        $29
Department of Energy                               89                          $249,200
The General Fund of the Treasury                   99                          ($11,213)                               $10,000
Totals might not match reports                   Totals:                       $302,690                                $10,098
230 FY 2006 United States Army Annual Financial Statement
                                                                                                Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                                                                                  231


                                                                                 INSPECTOR GENERAL
                                                                              DEPARTMENT OF DEFENSE
                                                                                 400 ARMY NAVY DRIVE
                                                                            ARLINGTON, VIRGINIA 22202-4704




                                                                                                                                                                                     November 8, 2006

MEMORANDUM FOR THE CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

SUBJECT:               Independent Auditor’s Report on the FY 2006 U.S. Army Corps of Engineers, Civil Works, Financial
                       Statements (Report No. D 2007 016)

The Chief Financial Ofﬁcers Act of 1990, as amended, requires the Department of Defense Inspector General to audit the
accompanying U.S. Army Corps of Engineers, Civil Works, (USACE) Consolidated Balance Sheet as of September 30,
2006 and 2005, the related Consolidated Statement of Net Cost, the Consolidated Statement of Changes in Net Position, the
Combined Statement of Budgetary Resources, and the Combined Statement of Financing for the ﬁscal years then ended. The
ﬁnancial statements are the responsibility of USACE management. USACE is also responsible for implementing effective
internal control and for complying with laws and regulations. We are unable to give an opinion on the USACE FY 2006
ﬁnancial statements because of limitations on the scope of our work. Thus, the ﬁnancial statements may be unreliable. In
addition to our disclaimer of opinion on the ﬁnancial statements, we are including the required Report on Internal Control and
Compliance with Laws and Regulations. The Report on Internal Control and Compliance with Laws and Regulations is an
integral part of our disclaimer of opinion on the ﬁnancial statements and should be considered in assessing the results of the
audit.


Disclaimer of Opinion on the Financial Statements
USACE asserted to us that the USACE FY 2006 Financial Statements are fairly presented in accordance with generally
accepted accounting principles. Because USACE management asserted that the ﬁnancial statements are free of material
error and that all corrective actions from previously identiﬁed material deﬁciencies were completed, we performed auditing
procedures to determine whether material amounts on the ﬁnancial statements were fairly presented. However, time
constraints precluded us from performing sufﬁcient audit work to complete the audit. Therefore, we are unable to determine
whether material amounts on the ﬁnancial statements were fairly presented. Prior audits have identiﬁed material weaknesses
listed in the Summary of Internal Control. These material weaknesses also affect the reliability of certain information
contained in the annual ﬁnancial statements—much of which is taken from the same data sources as the basic ﬁnancial
statements.1 Therefore, we are unable to express, and we do not express, an opinion on the basic ﬁnancial statements.
Additionally, the purpose of the audit was not to express an opinion on the information accompanying the basic ﬁnancial
statements. Accordingly, we express no opinion on the accompanying information.


Summary of Internal Control
In planning our audit, we considered USACE internal control over ﬁnancial reporting and compliance. We did this to
determine our procedures for auditing the ﬁnancial statements and to comply with Ofﬁce of Management and Budget
guidance, but our purpose was not to express an opinion on internal control. Accordingly, we do not express an opinion on




1
  The annual financial statements include the basic financial statements, management discussion and analysis, consolidating and combining financial statements, Required Supplementary Stewardship Information,
Required Supplementary Information, and Other Accompanying Information.
internal control over ﬁnancial reporting and compliance. Time constraints precluded us from performing sufﬁcient audit work
to assess internal control over ﬁnancial reporting and compliance or to follow up on previously identiﬁed reportable conditions
listed below, all of which were deemed to be material.

     –    Fund Balance With Treasury and Unexpended Appropriations

     –    Accounts Receivable

     –    General Property, Plant, and Equipment

     –    Accounts Payable

     –    Financial Statement Compilation

     –    Financial Management Systems

However, USACE management has asserted that all corrective actions from previously identiﬁed material deﬁciencies were
completed.

Material weaknesses are reportable conditions in which internal controls do not reduce (to a relatively low level) the risk
of misstatements that are material to the ﬁnancial statements and that might not be timely detected by employees while
performing their normal assigned functions.

Reportable conditions are matters coming to the auditor’s attention that, in his or her judgment, should be communicated
to management because they represent signiﬁcant deﬁciencies in the design or operation of internal control, which could
adversely affect the organization’s ability to initiate, record, process, and report ﬁnancial data consistent with the assertions of
management in ﬁnancial statements. Our internal control work (conducted during prior audits) would not necessarily disclose
all reportable conditions. The Attachment offers details on the reportable conditions listed above.


Summary of Compliance with Laws and Regulations
Our work to determine compliance with selected provisions of applicable laws and regulations related to ﬁnancial reporting
was limited because time constraints precluded us from performing sufﬁcient audit work to complete the review. Prior audits
identiﬁed instances of noncompliance; however, USACE management has asserted that all corrective actions from previously
identiﬁed material deﬁciencies were completed. See the Attachment for details on compliance with laws and regulations.
USACE asserted to us that its ﬁnancial management system comply substantially with Federal ﬁnancial management systems
requirements, applicable Federal accounting standards, and the U.S. Standard General Ledger at the transaction level, as
required by the Federal Financial Management Improvement Act of 1996.

The Department of Defense Inspector General and the Government Accountability Ofﬁce previously disclosed instances of
noncompliance with the following.

     –    Federal Managers’ Financial Integrity Act of 1982

     –    Ofﬁce of Management and Budget Circulars:

          -A-123, “Management Accountability and Control”

          -A-127, “Federal Management Systems”

          -A-130, “Management of Federal Information Resources”




                                                                                 232 FY 2006 United States Army Annual Financial Statement
                                                                                             Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                                                                                        233
Management Responsibility
Management is responsible for:

       –       preparing the ﬁnancial statements in conformity with generally accepted accounting principles;

       –       establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control
               objectives of the Federal Managers’ Financial Integrity Act are met; and

       –       complying with applicable laws and regulations.




                                                                 We provided a draft of this report to the Army.




Attachment:
As stated




2
  The information was reported in GAO Report No. GAO-02-589, “Corps of Engineers Making Improvements, But Weaknesses Continue,” June 2002; GAO Report No. GAO-01-89, “Significant Weaknesses in Corps of
Engineers’ Computer Controls,” October 2000; and DoD IG Report No. D-2004-115, “Information System Security: The Followup on the Government Accountability Office and U.S. Army Audit Agency Recommendations
for the U.S. Army Corps of Engineers (FOUO),” September 21, 2004.
234 FY 2006 United States Army Annual Financial Statement
                                                         Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                           235

Report on Internal Control and Compliance with Laws and Regulations
Internal Control
Management is responsible for implementing and maintaining effective internal control and for providing reasonable
assurance that accounting data are accumulated, recorded, and reported properly; the requirements of applicable laws and
regulations are met; and assets are safeguarded against misappropriation and abuse. USACE management has asserted
that all corrective actions from previously identiﬁed material deﬁciencies were completed. Time constraints precluded us
from performing sufﬁcient audit work to assess internal control over ﬁnancial reporting and compliance or to follow up
on previously identiﬁed reportable conditions. Therefore, we do not express an opinion on internal control over ﬁnancial
reporting. However, we have previously identiﬁed the following material weaknesses and reportable conditions that could
adversely affect a favorable opinion on internal control.

Fund Balance With Treasury and Unexpended Appropriations. USACE did not comply with generally accepted
accounting principles in that it recorded improper funding transactions in the Corps of Engineers Financial Management
System for the Fund Balance With Treasury and Unexpended Appropriations accounts. Furthermore, USACE did not
establish Fund Balance With Treasury accounts in the Corps of Engineers Financial Management System for expenditure and
receipt accounts as required by the United States Code and assigned by Department of Treasury and also omitted transactions
applicable to the accounts. Finally, USACE commingled appropriation warrants and nonexpenditure transfers in the Corps of
Engineers Financial Management System subsidiary accounts for Fund Balance With Treasury. As a result, USACE did not
maintain reliable funding information in the Corps of Engineers Financial Management System for the Fund Balance With
Treasury and Unexpended Appropriations accounts.

USACE erroneously reported unprocessed interagency transfer collections (that is, USACE reported collections that had not
yet occurred) to the Department of Treasury and the Ofﬁce of Management and Budget. In addition, the USACE revolving
fund created unreconciled collection and disbursement differences. As a result, USACE did not report reliable Fund Balance
With Treasury amounts to the Department of Treasury and the Ofﬁce of Management and Budget.

Accounts Receivable. USACE Districts did not provide adequate source data and needs to improve the reconciliation of the
general ledger to the subsidiary records for speciﬁc samples reviewed.

General Property, Plant, and Equipment

         Buildings, Structures, and Facilities. Deﬁciencies were noted involving useful lives, support for asset values,
         placed-in-service dates, asset classiﬁcation (including bank stabilization), physical existence, and capital lease
         recording.

         We identiﬁed a systemic weakness involving adjustments to useful lives in the Corps of Engineers Financial
         Management System. Speciﬁcally, the Corps of Engineers Financial Management System did not always distribute
         depreciation accurately across the life of buildings and structures, which affected the book value, accumulated
         depreciation, and the balance of the Buildings, Structures, and Facilities line item.

         Construction-in-Progress. Deﬁciencies were noted involving the timely transfer of completed assets, the
         capitalization of expense-type events, non-Federal cost share projects, prior Construction-in-Progress errors,
         negative Construction-in-Progress, and other variances.

         Equipment. Deﬁciencies were noted involving the lack of adequate documentation to support equipment values.

         Land. Deﬁciencies were noted involving land costs originating in the Corps of Engineers Management Information
         System and land costs originating in the Corps of Engineers Financial Management System and with classiﬁcation
         of reservoir costs.

Accounts Payable. USACE improperly recorded payables, did not properly review aged payables, did not record payables in
the proper accounting period, and were unable to provide supporting documentation in a timely manner.
Financial Statement Compilation. The review of the FY 2004 year-end ﬁnancial statement compilation process disclosed
signiﬁcant deﬁciencies in unsupported journal vouchers and undocumented differences in trial balance data. In addition,
deﬁciencies existed with the Corps of Engineers Financial Management System general ledger correlations.

Financial Management Systems. In FY 2005, USACE acknowledged that its ﬁnancial management systems do not fully
comply with Federal ﬁnancial management system requirements, applicable Federal accounting standards, and the U.S.
Standard General Ledger at the transaction level. However, until we verify the USACE FY 2006 assertion that its ﬁnancial
management systems comply substantially with Federal ﬁnancial management system requirements, applicable Federal
accounting standards, and the U.S. Standard General Ledger at the transaction level, the possibility exists that USACE general
and application computer control vulnerabilities make it difﬁcult for USACE to ensure the reliability, conﬁdentiality, and
availability of ﬁnancial and other sensitive data.


Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to ﬁnancial reporting. Our work
to determine compliance with selected provisions of the applicable laws and regulations was limited because time
constraints precluded us from performing sufﬁcient audit work to complete the review. Prior audits identiﬁed instances of
noncompliance; however, USACE management has asserted that all corrective actions from previously identiﬁed material
deﬁciencies were completed. Therefore, we did not determine whether USACE was in compliance with selected provisions
of all applicable laws and regulations related to ﬁnancial reporting. Thus, we do not express an opinion on compliance with
applicable laws and regulations.

USACE asserted to us that its ﬁnancial management systems comply substantially with Federal ﬁnancial management
system requirements, applicable Federal accounting standards, and the U.S. Standard General Ledger at the transaction
level, as required by the Federal Financial Management Improvement Act of 1996. Time constraints precluded us from
performing sufﬁcient audit work to determine whether USACE complied with all applicable laws and regulations related
to ﬁnancial reporting. However, the Department of Defense Inspector General and the Government Accountability Ofﬁce
audits previously established that USACE did not fully comply with the following ﬁnancial management system reporting
requirements.

    –    The Federal Managers’ Financial Integrity Act of 1982 requires agencies to evaluate the systems and to annually
         report whether those systems are in compliance with applicable requirements. When systems are not compliant, the
         statement must include a report of material weaknesses in accounting and administrative internal control with plans
         and a schedule for correcting the material weaknesses.

    –    Ofﬁce of Management and Budget Circular A-123, revised June 21, 1995, requires agencies and individual Federal
         managers to take systematic and proactive measures to assess the adequacy of management controls in Federal
         programs and operations, identify needed improvements, take corresponding corrective actions, and report annually
         on management controls.

    –    Ofﬁce of Management and Budget Circular A-127, revised July 23, 1993, requires agencies to develop, operate,
         evaluate, and report on ﬁnancial management systems. It also requires that ﬁnancial management systems provide
         complete, reliable, consistent, timely, and useful information.

    –    Ofﬁce of Management and Budget Circular A-130, Appendix III:

         -    establishes a minimum set of controls to be included in Federal automated information security programs,
         -    assigns Federal agencies responsibilities for the security of automated information, and
         -    links agency information security programs and agency management control systems established in accordance
              with Ofﬁce of Management and Budget Circular A-123.



                                                                              236 FY 2006 United States Army Annual Financial Statement
                                                         Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information

                                                                                                                                           237
According to prior Government Accountability Ofﬁce audit reports, USACE did not fully comply with the Federal Managers’
Financial Integrity Act of 1982 and the Ofﬁce of Management and Budget Circulars A-123 and A-130 requirements to protect
the integrity of its ﬁnancial management systems, identify needed improvements, and take corresponding corrective actions.
During FY 2004, the Department of Defense Inspector General reviewed previously identiﬁed Government Accountability
Ofﬁce deﬁciencies related to general and application controls. The Department of Defense Inspector General audit report
concluded that USACE had not fully implemented all of the Government Accountability Ofﬁce recommendations. During
FY 2006, USACE asserted that it substantially completed the prior Government Accountability Ofﬁce recommendations.
However, time constraints precluded us from performing sufﬁcient audit work to determine whether USACE complied with
all applicable laws and regulations related to ﬁnancial reporting.


Audit Disclosures
We did not perform audit work related to the following selected provisions of laws and regulations.

    –    Antideﬁciency Act

    –    Federal Credit Reform Act of 1990

    –    Pay and Allowance System for Civilian Employees

    –    Prompt Payment Act

    –    Provisions Governing Claims of the U.S. Government (including provisions of the Debt Collection Improvement
         Act of 1996)

This report does not include recommendations to correct the material internal control weaknesses and noncompliance with
laws and regulations because previous audit reports contained recommendations for corrective actions.
238 FY 2006 United States Army Annual Financial Statement
              United States Army Annual Financial Statement




                                The Cost of Freedom: A Challenge, Not a Choice.




     We are interested in your feedback regarding the content of this report.
 Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:

                           Department of the Army
                   Ofﬁce of the Deputy Assistant Secretary of the Army
                       (Financial Management and Comptroller)
                      Ofﬁce of the Financial Reporting Directorate
                           Room 3A312, 109 Army Pentagon
                              Washington, DC 20310-0109

     Additional copies of this report can be obtained by sending a written request to
                       the e-mail or mailing address listed above.

You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp



*Unless otherwise noted, all photos on the cover and inside pages are courtesy of the U.S. Army
                      The Soldier’s Creed
                          I am an American Soldier.
                                      Warrior
                                       Team
                                   Army Values
                   I will always place the mission first.
                          I will never accept defeat.
                                I will never quit.
                    I will never leave a fallen comrade.
                                    Disciplined
                                       Tough
                                      Trained
                                      Expert
                                   Professional
                                       Ready
                        I am a guardian of freedom.
                              I live by this creed.




United States Army • 1500 Army Pentagon • Washington, DC, 20310-1500 • www.army.mil
